<html>
<title> - IRAQ, AFGHANISTAN, AND THE GLOBAL WAR ON TERRORISM</title>
<body><pre>[Senate Hearing 109-885]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 109-885
 
           IRAQ, AFGHANISTAN, AND THE GLOBAL WAR ON TERRORISM 

=======================================================================

                                HEARINGS

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                      AUGUST 3; NOVEMBER 15, 2006

                               __________

         Printed for the use of the Committee on Armed Services

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

35-223 PDF                      WASHINGTON : 2007 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 



  


























                      COMMITTEE ON ARMED SERVICES

                    JOHN WARNER, Virginia, Chairman

JOHN McCAIN, Arizona                 CARL LEVIN, Michigan
JAMES M. INHOFE, Oklahoma            EDWARD M. KENNEDY, Massachusetts
PAT ROBERTS, Kansas                  ROBERT C. BYRD, West Virginia
JEFF SESSIONS, Alabama               JOSEPH I. LIEBERMAN, Connecticut
SUSAN M. COLLINS, Maine              JACK REED, Rhode Island
JOHN ENSIGN, Nevada                  DANIEL K. AKAKA, Hawaii
JAMES M. TALENT, Missouri            BILL NELSON, Florida
SAXBY CHAMBLISS, Georgia             E. BENJAMIN NELSON, Nebraska
LINDSEY O. GRAHAM, South Carolina    MARK DAYTON, Minnesota
ELIZABETH DOLE, North Carolina       EVAN BAYH, Indiana
JOHN CORNYN, Texas                   HILLARY RODHAM CLINTON, New York
JOHN THUNE, South Dakota

                    Charles S. Abell, Staff Director

             Richard D. DeBobes, Democratic Staff Director

                                  (ii)

  























                            C O N T E N T S

                               __________

                    CHRONOLOGICAL LIST OF WITNESSES

           Iraq, Afghanistan, and the Global War on Terrorism

                             august 3, 2006

                                                                   Page

Rumsfeld, Hon. Donald, United States Secretary of Defense; 
  Accompanied by Gen. Peter Pace, USMC, Chairman, Joint Chiefs of 
  Staff; and GEN John Abizaid, USA, Commander, U.S. Central 
  Command........................................................     6

    To Receive Testimony on the Current Situation and U.S. Military 
                   Operations in Iraq and Afghanistan

                           november 15, 2006

Abizaid, GEN John P., USA, Commander, U.S. Central Command.......    98
Satterfield, Hon. David M., Senior Advisor to the Secretary of 
  State and Coordinator for Iraq, Department of State............   102

  To Continue to Receive Testimony on the Current Situation and U.S. 
              Military Operations in Iraq and Afghanistan

                           november 15, 2006

Hayden, Gen. Michael V., USAF, Director, Central Intelligence 
  Agency.........................................................   161
Maples, LTG Michael D., USA, Director, Defense Intelligence 
  Agency.........................................................   169

                                 (iii)


           IRAQ, AFGHANISTAN, AND THE GLOBAL WAR ON TERRORISM

                              ----------                              


                        THURSDAY, AUGUST 3, 2006

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:31 a.m. in room 
SH-216, Hart Senate Office Building, Senator John Warner 
(chairman) presiding.
    Committee members present: Senators Warner, McCain, Inhofe, 
Sessions, Collins, Talent, Chambliss, Graham, Cornyn, Thune, 
Levin, Kennedy, Byrd, Reed, Bill Nelson, E. Benjamin Nelson, 
Dayton, Bayh, and Clinton.
    Committee staff members present: Charles S. Abell, staff 
director; and Leah C. Brewer, nominations and hearings clerk.
    Majority staff members present: William M. Caniano, 
professional staff member; Gregory T. Kiley, professional staff 
member; Sandra E. Luff, professional staff member; Derek J. 
Maurer, professional staff member; David M. Morriss, counsel; 
Lynn F. Rusten, professional staff member; and Kristine L. 
Svinicki, professional staff member.
    Minority staff members present: Richard D. DeBobes, 
Democratic staff director; Daniel J. Cox, Jr., professional 
staff member; Creighton Greene, professional staff member; 
Michael J. Kuiken, professional staff member; Michael J. 
McCord, professional staff member; William G.P. Monahan, 
minority counsel; and Michael J. Noblet, staff assistant.
    Staff assistants present: Jessica L. Kingston, Benjamin L. 
Rubin, and Pendred K. Wilson.
    Committee members' assistants present: Christopher J. Paul 
and Richard H. Fontaine, Jr., assistants to Senator McCain; 
John A. Bonsell and Jeremy Shull, assistants to Senator Inhofe; 
Arch Galloway II, assistant to Senator Sessions; Mackenzie M. 
Eaglen, assistant to Senator Collins; Matthew R. Rimkunas, 
assistant to Senator Graham; Greg Riels, assistant to Senator 
Dole; Russell J. Thomasson, assistant to Senator Cornyn; Stuart 
C. Mallory, assistant to Senator Thune; Sharon L. Waxman, 
assistant to Senator Kennedy; Christine Evans and Erik Raven, 
assistants to Senator Byrd; Frederick M. Downey, assistant to 
Senator Lieberman; William K. Sutey, assistant to Senator Bill 
Nelson; Eric Pierce, assistant to Senator Ben Nelson; Luke 
Ballman, assistant to Senator Dayton; Robert J. Ehrich, 
assistant to Senator Bayh; and Andrew Shapiro, assistant to 
Senator Clinton.

       OPENING STATEMENT OF SENATOR JOHN WARNER, CHAIRMAN

    Chairman Warner. Good morning, everyone. The committee 
meets this morning to receive testimony from the distinguished 
Secretary of Defense, Donald Rumsfeld; General Peter Pace, 
Chairman of the Joint Chiefs of Staff; and General John 
Abizaid, Commander of the United States Central Command 
(CENTCOM), on progress in Iraq, Afghanistan, and the war on 
terrorism, and such other aspects as relative to your area of 
operations. The committee will also look in their insights on 
the ongoing crisis involving Israel, Hezbollah, Lebanon, and to 
some extent, Palestine.
    Secretary Rumsfeld, the committee appreciates the changes 
you have made in your schedule that you have outlined to me 
very carefully and we welcome you this morning.
    Last week, in an historic visit the prime minister of Iraq 
met with President Bush, addressed a joint session of Congress, 
and spoke with military personnel at Fort Belvoir, Virginia. I 
was privileged to be present at all of those events and I think 
it was an extremely important chapter in the ongoing 
developments in Iraq that he took that time to come over here. 
He demonstrated the resolve of the Iraqi people to build a free 
and stable country.
    During the meeting with military personnel and their 
families--and I witnessed this in a very passionate and sincere 
way, he conveyed to those military people present at Fort 
Belvoir and for broadcast to military people all over the 
United States and the world the gratefulness in the hearts of 
the Iraqi people for their sacrifices of life and limb and that 
of their families in order to enable the people of Iraq to gain 
a measure of democracy, elect their government, and share in 
the freedom that we all have in this country.
    In meetings with Prime Minister Maliki, President Bush 
reaffirmed America's commitment to support Iraq's 
constitutional democracy and to help Prime Minister Maliki's 
government succeed.
    On July 25, President Bush said: ``The Iraqi people want to 
succeed. They want to end this violence.'' The President also 
said that ``America will not abandon the Iraqi people.''
    I am, however, gravely concerned by the recent spike in 
violence and sectarian attacks, and the instability in Baghdad 
and recent decisions to extend the deployment of 3,500 American 
troops in Iraq and to relocate additional American forces to 
reinforce Baghdad. Those were important decisions made by you, 
Mr. Secretary, General Abizaid, and you, Chairman Pace. I hope 
that you will share with us this morning the reasons for doing 
so. I do not question the seriousness of this situation, the 
need to do it, but we should have a very clear explanation, 
because we had, I regret to say, expectations, largely 
generated by certain reports of General Casey, about the hope 
to draw down our forces in the near future. That is a question 
I hope that we address this morning, because I do not like to 
see the hopes of the men and women of the Armed Forces raised 
and then have to be changed and the impact on their families 
and indeed the confusion that results here at home when those 
decisions have to be made.
    But we recognize the President has said, as the Secretary 
has said, that ground conditions vary and they must be the 
determining factor.
    Additionally, I have expressed concerns about the potential 
impact of events in Lebanon and Israel and their cascading 
effect on the wider Middle East region, and specifically on the 
United States and coalition forces serving in Iraq and 
Afghanistan. My concern is--and I have expressed this 
publicly--that Israel was wrongfully attacked by Hezbollah. No 
one disputes that whatsoever. They have an unequivocal right to 
defend themselves. No one disputes that. But as our Nation 
engages in this situation, and historically we have been an 
honest broker in that region, as our Nation engages in that 
conflict to try and resolve it, we must do so in a way to be 
mindful of the implications on our commitments in the Iraq 
theater.
    The messages we send by virtue of our support to try and 
bring about a cessation of this conflict are transmitted 
throughout the Muslim world straight up into Iraq. It is my 
fervent hope that our men and women serving in uniform and 
others in Iraq will not be put at greater personal risk as a 
consequence of the rhetoric that flows, the decisions that are 
made, in trying to resolve that conflict. I will have further 
to say about that in the question period.
    In the nearly 5 years since U.S. forces initiated 
operations to liberate Afghanistan from the brutal rule of the 
Taliban and to eliminate al Qaeda training bases and 
sanctuaries, there has been remarkable progress in Afghanistan 
on the political, economic, and security fronts. The Afghan 
people have spoken in favor of freedom and democracy and I am 
pleased that the North Atlantic Treaty Organization (NATO) is 
taking an increasing and very important role in Afghanistan, 
and you are to be commended, Mr. Secretary, for initiating that 
move together with General Jones, who has been a strong 
advocate of trying to achieve that goal.
    However, recent reports from Afghanistan show that the 
violence is on the rise. We will learn from you, I hope, your 
concern as to that area of responsibility (AOR), General, and 
what the future holds in the face of a resurgence of the 
Taliban forces.
    While some in the West take freedom and liberty for 
granted, Americans everywhere should remain so proud of the 
contributions of our service men and women deployed in harm's 
way. They are bringing the best hope for freedom and democracy 
to Iraq and Afghanistan after decades of cruel oppression and 
their sacrifices have enabled us here at home to fully enjoy 
the freedoms that we have.
    As the current conflict in Lebanon and Israel proceeds, 
there is obvious concern that the crisis could spark a wider 
war. The firebrand Iraqi cleric Muqtada al-Sadr said, ``We, the 
unified Iraqi people, will stand with the Lebanese people to 
end the ominous trio of the United States, Israel, and Britain, 
which is terrorizing Iraq, Lebanon, Afghanistan, and other 
occupied nations.'' He also said that he was ready to go to 
Lebanon to defend it.
    Now, we all recognize that he is just a hothead and a 
firebrand, but he is a troublemaker and I hope, General 
Abizaid, you can give us some assessment of the courage and the 
will of the Iraqi people, under the leadership of the prime 
minister, to begin a step that must be achieved, and that is 
the disbanding of these private militias, notably Sadr's.
    Back to Osama bin Laden. His deputy issued a worldwide call 
for Muslims to rise up against Israel and join the fighting in 
Lebanon and Gaza, raising again the specter of an Islamic 
caliphate that I clearly remember General Abizaid discussed in 
testimony before the committee last year. We hope you will 
bring us up-to-date on the Osama bin Laden situation and the 
ongoing activities of our forces together with others trying to 
bring about this man being brought to justice or otherwise 
taken care of.
    In light of all these developments, the mission in Iraq and 
Afghanistan is even more critical and your time with us today 
is critical.
    General Pace and General Abizaid, I want to express our 
gratitude to both of you and the countless men and women that 
you represent, for your continued service and historic efforts 
of our Nation's military to bring freedom and liberty to Iraq, 
Afghanistan, and to preserve it here at home.
    Secretary Rumsfeld, once again the committee welcomes you. 
Now, just before the committee meeting started General Abizaid 
offered to meet with Senator Levin and myself, for information 
of the members of the committee, and he outlined the progress 
being made with the various reports examining the activities of 
the chain of command relative to certain incidents in Iraq. It 
is our understanding, General Abizaid, that those reports will 
soon be given to you. There is a convergence of the criminal 
investigation together with the chain of command investigation 
under General Chiarelli. It is now in the overall commander of 
the Marine Forces, General Zilmer, and then it comes to you, 
and it is your hope and expectation that, working with the 
Secretary, those reports can be made available to this 
committee early on in September.
    Senator Levin.

                STATEMENT OF SENATOR CARL LEVIN

    Senator Levin. Thank you, Mr. Chairman, for calling this 
very important hearing, and thank you to all of our witnesses 
for being here this morning.
    The American service men and women in Iraq, Afghanistan, 
and other trouble spots around the world are performing their 
duties magnificently. We salute them and their families. We 
thank them for their unselfish service and devotion to our 
Nation.
    Despite their heroic efforts, the security situation in 
Iraq continues to worsen. Sectarian violence is not only on the 
rise, it has eclipsed the Sunni insurgency and the terrorism of 
al Qaeda in Iraq in terms of the toll it has taken and the 
threats to Iraq's chances of stability.
    Our military leadership has identified Baghdad as the key, 
what they call the center of gravity, to success or failure in 
Iraq. The highly vaunted recent plan to stabilize Baghdad has 
not worked, and we are going back to the drawing board and 
sending more U.S. troops to the Iraqi capital. We are having 
difficulty finding sufficient troops for that purpose. The fact 
that the Army's Stryker brigade that is being sent to Baghdad 
is being extended past its 12-month rotation date by another 3 
to 4 months speaks volumes about how our military is 
overextended and unable to find other units ready for immediate 
reinforcement in Iraq.
    While there appears to be an immediate necessity for 
additional troops in Baghdad, more troops will not be the 
ultimate answer. Our military leadership has repeatedly said 
there is no military solution, that there must be a political 
solution in Iraq.
    Iraqis reaching the political compromises now is more 
important and more critical to defusing the violence and 
conflict in Iraq. That is why we need to clearly tell the Iraqi 
political leaders that our commitment to Iraq is not open-
ended, that we will begin the phased redeployment of our troops 
by the end of the year and that they must make the political 
compromises necessary to avoid all-out civil war and defeat the 
insurgency.
    When General Casey was asked at a press conference recently 
whether he still believed that there would be fairly 
substantial troop reductions over the course of this year, he 
said, ``I think so.'' Marine Corps General Conway testified 
before us last week at his confirmation hearing to be the next 
Commandant that, ``I personally believe that you will have 
Iraqis who have started to look at us as occupiers and are 
resisting us in some instances, whereas they would not resist 
an Iraqi force doing precisely the same thing.'' He also 
testified that it is critical that the Iraqis understand that 
our presence is not open-ended and unlimited.
    The President has assured the Nation that as Iraqi forces 
stand up we will stand down. General Dempsey, our senior 
general responsible for the training and equipping of Iraqi 
security forces, has said publicly that, ``The Iraqi army will 
be built by the end of this calendar year'' and that their army 
would be, ``fully capable of recruiting, vetting, inducting, 
training, forming into units, putting them in barracks, and 
sending them out the gate to perform their missions.'' Congress 
has been told that over 70 percent of Iraqi combat battalions 
are capable of independent counterinsurgency operations or 
capable of taking the lead in those operations. The Iraqi 
security forces are standing up. We need to begin to stand down 
with a phased redeployment starting by the end of this year.
    It is time for the Iraqis to take greater responsibility 
for the security of their own country. It is time to do what 
the President repeatedly said he would do. Now that the Iraqis 
have done a significant amount of standing up their troops, 
surely by the end of this year we should begin to stand down 
some of our troops.
    Now, not only do the operations in the CENTCOM region have 
broad implications on the future of that region, they are also 
having a serious impact on our own military. Our ground 
forces--the Army and the Marine Corps--are under enormous 
strain due to several years of large-scale deployments to Iraq 
and Afghanistan. This is because a large amount of equipment 
has been left in Iraq and because the remaining equipment has 
been subjected to large amounts of wear and tear, there is a 
lack of readiness for Army and Marine Corps units which have 
redeployed to their home bases.
    It is argued that our units are more capable now because of 
organizational changes and the infusion of technology and 
better equipment. But that is only true if the units actually 
have the equipment on hand, and only if what they have on hand 
is in a high state of maintenance so that they can train for 
their potential contingencies. Hypothetically, if 50 combat 
units could now do what 100 units could do in the past, that 
would be true only if those units are ready to do so. Over two-
thirds of the Army's combat brigades are not in Iraq and 
Afghanistan, and the Army's own statistics show that the vast 
majority of those are not in command, or in command and 
control--in other words, by the Army's own measurements are not 
ready to respond to those contingencies which they must be 
prepared to do by Department of Defense (DOD) war plans.
    Mr. Chairman, again I thank you for calling this hearing 
and I thank our witnesses, all of them, for making the 
arrangements which they had to make in order to be with us this 
morning.
    Chairman Warner. Thank you, Senator Levin.
    Secretary Rumsfeld.

 STATEMENT OF HON. DONALD RUMSFELD, UNITED STATES SECRETARY OF 
DEFENSE; ACCOMPANIED BY GEN. PETER PACE, USMC, CHAIRMAN, JOINT 
  CHIEFS OF STAFF; AND GEN JOHN ABIZAID, USA, COMMANDER, U.S. 
                        CENTRAL COMMAND

    Secretary Rumsfeld. Thank you. Thank you very much, Mr. 
Chairman, members of the committee. Thank you for the 
invitation to testify. Senator Clinton, thank you for seconding 
the motion. I know we all agree that the American people 
deserve a healthy, preferably constructive, exchange on matters 
that so directly affect the lives, their lives, their families' 
lives, and their country's security.
    I am joined by General Peter Pace, the Chairman of the 
Joint Chiefs of Staff; and General John Abizaid, the Combatant 
Commander of the U.S. Central Command. We will be providing an 
update on the global struggle against violent extremists and 
certainly we will welcome questions.
    In the past few weeks, in terrorist attacks in Afghanistan, 
in Iraq, and now by Hezbollah, we have seen the face of the 
early part of the 21st century. In this period of asymmetric 
warfare, irregular warfare, one side puts their men and women 
at risk in uniform and obeys the laws of war, while the other 
side uses them against us. One side does all it can to avoid 
civilian casualties while the other side uses civilians as 
shields and then skillfully orchestrates a public outcry when 
the other side accidentally kills civilians in their midst. One 
side is held to exacting standards of near-perfection; the 
other side is held to no standards and no accountability at 
all.
    This enemy has called Iraq the central front on the war on 
terrorism, while some on our side seem to argue that the 
outcome in Iraq is not part of that global war on terror. 
Sixteen years ago this week, Saddam Hussein's forces invaded 
Kuwait, killing civilians, unleashing environmental 
devastation, provoking a crisis that led to Iraqi attacks on 
Israel and threats to Saudi Arabia and others in the region. 
Last week, by contrast, as you mentioned, Mr. Chairman, the new 
Iraqi prime minister, who was elected by the Iraqi people under 
a constitution the Iraqi people wrote and ratified, came to the 
United States to thank the American people for their assistance 
in building a new future for the people of Iraq. He had spent 
25 years in opposition to the Saddam Hussein regime, and before 
a joint session of Congress he noted that if terror were 
permitted to triumph in Iraq then the war on terror will never 
be won elsewhere.
    The enemy understands this as well. They are waging a 
psychological war of attrition, planning attacks to gain the 
maximum media coverage and the maximum public outcry. They want 
us to believe that perseverance by us is futile rather than 
necessary. They want us to focus on our casualties and losses, 
not on the people causing the casualties and losses. They want 
us to think about what will happen if our forces stay in Iraq, 
as opposed to the consequences if our forces were to leave 
prematurely.
    They want us to be divided because they know that when we 
are united they lose. They want us pointing fingers at each 
other rather than pointing fingers at them.
    I know there are calls in some quarters for withdrawal or 
arbitrary timelines for withdrawals. The enemies hear those 
words as well. We need to be realistic about the consequences. 
If we left Iraq prematurely, as the terrorists demand, the 
enemy would tell us to leave Afghanistan and then withdraw from 
the Middle East, and if we left the Middle East they would 
order us and all those who do not share their militant ideology 
to leave what they call the occupied Muslim lands from Spain to 
the Philippines. Then we would face not only the evil ideology 
of these violent extremists, but an enemy that will have grown 
accustomed to succeeding in telling free people everywhere what 
to do.
    We can persevere in Iraq or we can withdraw prematurely 
until they force us to make a stand nearer home. But make no 
mistake, they are not going to give up whether we acquiesce in 
their immediate demands or not.
    Decisions about conditions for a drawdown of our forces in 
Iraq are best based on the recommendations of the commanders in 
the field and the recommendations of the gentlemen sitting 
beside me. We should strive to think through how our words can 
be interpreted by our troops, by the people of Afghanistan and 
Iraq, by our 42 allies in our coalition in Afghanistan, and our 
34 allies in our coalition in Iraq. We should consider how our 
words can be used by our deadly enemy.
    The war on terror is going to be a long struggle. It is not 
something we asked for, but neither is it something we can 
avoid. But I remain confident in our mission, in our 
commanders, in our troops, and in our cause. I remain confident 
in the good common sense of the American people. Americans did 
not cross oceans and settle the wilderness and build history's 
greatest democracy only to run away from a bunch of murderers 
and extremists who try to kill everyone that they cannot 
convert and to tear down what they could never build.
    Over the past few years, I have had the honor of meeting 
countless young men and women in uniform, all volunteers, who 
have answered our country's call. I remember a serviceman 
outside of Afghanistan who looked me in the eye and said, ``I 
cannot believe that we are being allowed to do something so 
important.''
    Our troops represent the finest and the most professional 
troops in history. I think of these remarkable people every 
day. I know that everything we do in the DOD and what you do on 
this committee affects them and their wonderfully supportive 
families.
    Thank you.
    Chairman Warner. Thank you, Mr. Secretary.
    General Pace.
    General Pace. Mr. Chairman, Senator Levin, members of the 
committee: it truly is an honor to be before you today 
representing the incredible young men and women in your Armed 
Forces. Since September 11, 2001, over 1 million young men and 
women in uniform have served this country in the CENTCOM area 
of operations and they have done so with incredible bravery and 
sacrifice and performance that has made us all proud. Their 
families have served this Nation as well as anyone who has worn 
the uniform, especially those families today in the 172nd 
Stryker brigade whose loved ones are not coming home when they 
thought they would be coming home and who once again are 
sacrificing so that we might provide the strength needed on the 
battlefield.
    It is now almost 5 years since September 11, 2001, and the 
number of young men and women in our Armed Forces who have 
sacrificed their lives that we might live in freedom is 
approaching the number of Americans who were murdered on 
September 11, 2001, in New York, in Washington, DC, and in 
Pennsylvania.
    We have come a long way in Afghanistan. We have come a long 
way in Iraq and elsewhere in the war on terrorism. We have a 
long way to go. We are a Nation at war. Fortunately, most of 
our fellow citizens are not affected by this war every day. 
Some 2.4 million Americans--Active, National Guard, and 
Reserve--have the privilege of defending over 300 million of 
our fellow citizens and countless millions in Iraq, 
Afghanistan, and elsewhere.
    Our enemy knows they cannot defeat us in battle. They do 
believe, however, that they can wear down our will as a Nation. 
They are wrong. How do I know they are wrong? First, this 
committee and this Congress continue to provide the resources 
we need to defend this Nation, and I thank you for that.
    Second, our service men and women are proud of what they 
are doing and they are reenlisting in record numbers to 
continue to have the privilege to do what we do for this 
Nation.
    Third, as the Secretary mentioned in his comments, the 
American people have in the past, are now, and will in the 
future respond to attacks on our way of life. For 230 years we 
have met the challenges. This will not be easy, this will not 
be quick, and this will not be without sacrifice. But we will 
persist and we will prevail.
    I look forward to answering your questions today and 
working together with you in the future to defend this Nation. 
Thank you, Mr. Chairman.
    Chairman Warner. Thank you, General.
    General Abizaid.
    General Abizaid. Thank you, Chairman Warner, Senator Levin, 
members of the committee. Thanks for the opportunity to testify 
today.
    A couple of days ago I returned from the Middle East. I 
have rarely seen it so unsettled or so volatile. There is an 
obvious struggle in the region between moderates and extremists 
that touches every aspect of life. Such extremism, whether 
state-sponsored by Iran or ideologically motivated by al Qaeda 
and its associated movements, remains a serious danger to 
global peace and stability.
    My duties took me to Iraq, Afghanistan, Central Asia, and 
elsewhere in the Arabian Gulf, where our troops continue to 
perform with great professional calm and determination under 
dangerous and difficult circumstances. Of course, over the past 
several weeks the media has been filled with images of war in 
Lebanon, Israel, and Palestine. Indeed, U.S. forces under 
CENTCOM helped evacuate nearly 15,000 Americans from Lebanon's 
war zone.
    While the media's eye often directs public attention to 
Iraq and Afghanistan, it is important to remember that U.S. and 
coalition forces serve throughout Central Asia, the Middle 
East, and the Horn of Africa, increasing regional states' 
capacity to battle extremism and keeping open the vital air and 
sea links of the region.
    In the broader struggle against extremism, we face complex 
and potentially intersecting problems. Our strategic 
imperatives are formidable. With the continuing help of our 
friends, we must focus on three strategic objectives: We must 
synchronize the appropriate diplomatic, economic, and military 
means to defeat al Qaeda and its associated movements; we must 
deter Iranian designs for regional hegemony, to include its 
sponsorship of terrorist organizations and its development of 
nuclear weapons; finally, we must find a comprehensive solution 
to the corrosive Arab-Israeli conflict.
    I fully recognize that each of these tasks is filled with 
danger and enormous difficulties. I also realize that trying to 
solve any of these problems will take a considerable amount of 
time and effort. But failure to apply coordinated regional and 
international pressure against these three problems will 
further encourage extremism and could eventually lead to a 
broader, even more dangerous conflict.
    The arming of independent militias and the subsequent 
undermining of state institutions by these militias is the 
curse of the region. In many ways, interconnectedness brought 
on by 21st century globalization has been turned to the 
advantage by non-state actors. Globalization brings with it 
great benefits, but it also accelerates the dissolution of 
sovereignty in weak or corroded states. If this century is to 
be dominated by non-state actors with no responsibility to the 
international community, we are in for even greater dangers.
    It should not be lost on us, for example, that Hezbollah 
fields greater and longer-range weapons than most regional 
armed forces. If left unchecked, it is possible to imagine 
chemical, biological, or even nuclear weapons being transferred 
to militias or terrorist organizations by a state actor.
    In the highly unsettled Middle East, the problem of 
extremist-sponsored terror and intimidation is complicated. But 
we must be willing to talk about al Qaeda's ideological designs 
and face the implications of revolutionary Iran's ambitions, so 
often and so clearly stated by its president.
    There is no doubt that these are dangerous times for the 
world, but there should also be no doubt that, with concerted 
international action and the application of our own substantial 
power, these dangers can be overcome.
    Iraq sits at the center of the broader regional problem. Al 
Qaeda and Shiite extremists form terrorist groups and death 
squads to challenge the new government and undermine confidence 
in a better future. Iran talks about stabilizing Iraq, but, 
just as in Lebanon, it arms, trains, and equips local extremist 
Shiite militias to do Iran's bidding. As the primary security 
problem in Iraq has shifted from a Sunni insurgency to 
sectarian violence, al Qaeda terrorists, insurgents, and Shiite 
militants compete to plunge the country into civil war.
    Prime Minister Maliki and his new government know what must 
be done and in 3 short months in office are responsibly 
tackling the complex and difficult problems of security and 
governance. Iraqi security forces in conjunction with coalition 
forces must bring Baghdad, the center of sectarian violence, 
under control. Illegal militias must be disbanded. National 
reconciliation must proceed. Death squad leaders must be 
brought to justice.
    It is a decisive time in Baghdad and it requires decisive 
Iraqi action with our clear support. Despite the many 
challenges, progress does continue to be made in Iraq and I am 
confident that there are still many more people in Iraq trying 
to hold that country together than there are trying to tear it 
apart. Our ongoing support of their efforts is essential for 
their success, especially as they assume more and more 
responsibility for their own security.
    I know the committee wants to focus these hearings on Iraq, 
but I close with the reminder that Iraq is only one part of a 
broader regional struggle underway, one which requires the wise 
application of all our resources. Our own troops along with 
NATO International Security Assistance Force (ISAF) continue to 
operate in Afghanistan. Pakistani and Saudi forces are fighting 
extremists daily. Insurgencies, secular violence, and terror 
sponsored by Sunni and Shiite religious extremist groups are 
pervasive throughout the region. Fortunately, as in our own 
society, the vast majority of the people in the region do not 
want extremists to win. Our challenge is to help these moderate 
forces help themselves in the struggle.
    Afghanistan, Iraq, and the entire region remain dangerous 
and often deadly. Our continued involvement in shaping regional 
security forces and providing the framework for regional action 
against extremist groups is essential for our own safety and 
prosperity at home.
    Finally, we must be ever mindful of the sacrifice of our 
young men and women in uniform. Out of the over 1.5 million 
service personnel who have rotated through the CENTCOM region 
since September 11, 2001, over 3,000 have given their lives. We 
owe them and their families an enormous debt of gratitude. 
Today nearly 200,000 of our troops serve in harm's way. These 
are incredibly dedicated and resourceful professionals. Thank 
you for your continued support to these great Americans, who 
willingly fight for all of us.
    Thank you.
    Chairman Warner. Thank you very much, General, for a very 
incisive and important statement that you have just made.
    We are going to depart from our normal rotation here. 
Senator Levin and I both serve on the Senate Select Committee 
on Intelligence. They are now having a meeting and the Senator 
from Michigan has to go to that meeting. Therefore I will offer 
you the first opportunity to initiate questioning.
    Senator Levin. Mr. Chairman, thank you for your invariable 
courtesies.
    General Abizaid, when General Casey was asked at a press 
conference recently whether he still believed what he said last 
year, when he predicted that there would be troop reductions 
over the course of this year, he said that he still believes 
there will be such reductions this year. Do you personally 
share that view?
    General Abizaid. Senator, since the time that General Casey 
made that statement it is clear that the operational and the 
tactical situation in Baghdad is such that it requires 
additional security forces, both U.S. and Iraqi. I think the 
most important thing ahead of us throughout the remainder of 
this year is ensuring that the Baghdad security situation be 
brought under control. It is possible to imagine some 
reductions in forces, but I think the most important thing to 
imagine is Baghdad coming under the control of the Iraqi 
government.
    Senator Levin. When you say it is possible to imagine some 
reduction in forces, you mean this year?
    General Abizaid. It is possible, depending upon how things 
go in Baghdad and how Prime Minister Maliki and his government 
grab hold of the security situation.
    Senator Levin. Is it important that the Iraqis understand 
that our commitment is not open-ended?
    General Abizaid. Sir, I think they fully understand it is 
not open-ended.
    Senator Levin. Some of their statements have not reflected 
that full understanding. But in any event, would you agree that 
it is important that they do understand our commitment is not 
open-ended?
    General Abizaid. I believe they do understand it is not 
open-ended. They know our commitment and they know the 
necessity for over time to increase their capacity against the 
extremists.
    Senator Levin. Thank you.
    Mr. Secretary, the President has assured the Nation 
frequently that as Iraqi security forces stand up we will stand 
down. They have stood up. The majority of their combat 
battalions are capable now of independent counterinsurgency or 
capable of taking the lead in those operations. Should we not, 
at least by the end of this year, begin to do what the 
President said we would do? Since the security forces of Iraq 
have stood up in such significant measure, should we not begin 
to stand down as the President said we would?
    Secretary Rumsfeld. Senator, you are correct, the Iraqi 
security forces are now up to something like 275,000. They are 
headed towards 325,000 by the end of the year, unless the prime 
minister makes an adjustment in those numbers, which as a new 
government he has every right to do in a sovereign nation.
    I guess the issue of drawdown depends on what you think 
your base is. We were up at 160,000. Today--we have gotten as 
low as I think 127,000. Today we are at 135,000 or 133,000, and 
certainly everyone from the Iraqis, the troops, and the 
President would hope that those troops could be drawn down as 
conditions permit. The question, the only difference between 
the way you phrase it and the President phrases it as he ends 
by pointing out that he intends to succeed here and he believes 
that the determinant should be the conditions on the ground, as 
opposed to some timetable.
    I do think the point you raise, the core of what you are 
asking, is important. That is the tension that exists between 
having too many troops and having it feed an insurgency. I 
believe, as indicated by General Conway, and having too few so 
that you do not have a sufficient number to allow the security 
situation to permit the political and the economic activities 
to go forward. That is a fair tension that exists there, and it 
is an art, not a science. There is no guidebook that says how 
to do that.
    So clearly we would all hope that there could be drawdowns 
on those forces as the conditions permit.
    Senator Levin. Thank you.
    The press reported that Iraqi President Talabani said 
yesterday that the Iraqi government is confident that Iraqi 
troops will take over security duties for the entire country by 
the end of this year. Then he also reportedly said that the 
recent increase in violence by insurgents is ``the last arrows 
in their quivers.''
    Now, that phrase is reminiscent of Vice President Cheney's 
claim a year ago that the insurgency was in its ``last 
throes.'' General Abizaid, does our intelligence on the 
insurgency provide any basis for the assertion that the recent 
surge in violence represents the last arrows in the insurgents' 
quivers?
    General Abizaid. Senator Levin, I think it is clear that 
the insurgency has a lot of resiliency. It is probably going to 
last for some time, even after U.S. forces depart and hand over 
security control completely to the Iraqis. The question for 
President Talabani, as I have discussed with him before, 
whether or not over time the Iraqis can control it, and I 
believe they will be able to.
    Senator Levin. You do not agree, then, that it is in its 
last throes or that they are shooting the last arrows?
    General Abizaid. I am making no comment about what he said 
about last arrows or last throes.
    Senator Levin. Why?
    General Abizaid. I do not see any reason to dispute what 
the President says. I know that I think it is a long-term 
problem for Iraq that they will be able to work through over 
time.
    Senator Levin. According to USA Today, the British 
Ambassador to Iraq, Mr. Patey, made the following assessment. 
Mr. Patey has warned that Iraq is descending towards civil war, 
and he said it is likely to split along ethnic lines. He is 
reported as predicting that Iraq's security situation could 
remain volatile for the next 10 years.
    Do you agree, General, with the Ambassador from Britain to 
Iraq that Iraq is sliding toward civil war?
    General Abizaid. I believe that the sectarian violence is 
probably as bad as I have seen it, in Baghdad in particular, 
and that if not stopped it is possible that Iraq could move 
towards civil war.
    Senator Levin. Thank you.
    Mr. Chairman, thank you. My time is up. Thank you again for 
allowing me to go ahead here.
    Chairman Warner. I want to go back to, Secretary Rumsfeld, 
the observations I made in the opening statement. On July 17 at 
about 8 o'clock, I went to the floor of the Senate. The Senate 
was about to consider a resolution, an important resolution 
reaffirming our support for Israel. But I said the following. I 
said I was concerned that we should take into account America's 
broader interests in the region as we approach this resolution.
    I said specifically: ``America's operations in Iraq and 
Afghanistan have taken the lives of more than 2,500 American 
servicemen, over 20,000 still severely wounded, and over $436 
billion of our taxpayers' money over these 3 years.'' That is 
an enormous investment of this country, and the credibility of 
our country in many respects rests on the conclusion of that 
conflict in such a way that the Iraqi government can exercise 
sovereignty and bring about a measure of freedom and democracy. 
We are committed to that and I stand strongly with our 
President to achieve that goal.
    America's participation with other nations in achieving a 
diplomatic solution to the Iranian nuclear crisis, I can think 
of no problem of greater significance than our resolve to not 
let Iran possess nuclear weapons.
    The stability of the Lebanese government, that must 
survive, that government, such that they can once again take an 
even stronger grip on that nation and govern it.
    There is a lot at stake with our relationships with other 
nations. In a region in which our distinguished witness General 
Abizaid, who spent much of your lifetime in that region, just 
said, rarely have I seen it so volatile. It is subject to the 
corrosive relationships coming out of the Arab-Israeli 
conflict.
    My concern is that as we go into this situation, and we 
have an obligation to try and work as an honest broker, I hope, 
in resolving the conflict between Israel and Hezbollah, as we 
pursue that and as our actions are interpreted by the Muslim 
world--and I read some of the statements of the clerics 
recently, in the last few days--I do not want to see our forces 
put at greater personal risk, subject to greater intensity 
brought against them by the adversaries in Iraq.
    So my question to you, Mr. Secretary, as we take up our 
role, hopefully as an honest broker in this, are we mindful of 
the broader picture and the enormity of our investment in Iraq 
as we try to do what we can to bring about a cessation of the 
fighting in the conflict between Israel and Hezbollah?
    Secretary Rumsfeld. Mr. Chairman, in the meetings that I 
have been in with the President and the Secretary of State and 
those that are intimately involved in the situation in Lebanon 
and Israel with respect to the Hezbollah, there is a 
sensitivity to the desire to not have our country or our 
interests or our forces put at greater risk as a result of what 
is taking place between Israel and Hezbollah.
    I think I would suggest that it be phrased slightly 
differently because there are risks, as you point out, but it 
is a matter of relative risks. There are also risks, if one 
thinks about it, that Iran is the principal sponsor of 
Hezbollah. Iran is seeking nuclear weapons, as you posed. Iran 
is the supplier of weapons to Hezbollah. The rockets that are 
heading into Israel by Hezbollah tend to be in a number of 
cases Iranian rockets. Clearly, to the extent that Iran were to 
achieve weapons of mass destruction (WMD), and with a history 
of a willingness to work intimately with a terrorist 
organization like Hezbollah, there is that risk as well.
    So there are a variety of risks that we face in that region 
and it is a difficult and delicate situation. As I indicated in 
my opening remarks, I do believe what we are seeing is really 
the face of the 21st century. The wars we are engaged in and we 
see are not wars between militaries only; they are wars, they 
are clashes between systems, political, economic, and military. 
They are being fought with asymmetric and irregular warfare, 
which is very much to the advantage of the attackers.
    Chairman Warner. Mr. Secretary, that situation in Iraq is 
fragile. We need only look at the Baghdad situation. Baghdad 
could literally tilt this thing if we fail to bring about a 
measure of security for those people, tilt it in a way that we 
could slide toward a civil war that General Abizaid recalled.
    General Pace, I go back to the resolution of October 16, 
2002, which I participated in, and my good friend to the left, 
in drawing up that resolution for the Senate. It authorized the 
President of the United States to use the Armed Forces of the 
United States to: one, defend the national security of our 
country against the continuing threat posed by Iraq; two, 
enforce all relevant United Nations (U.N.) Security Council 
resolutions regarding Iraq.
    Many of those missions set out and envisioned by Congress 
when it gave this authority, namely the toppling of the Saddam 
Hussein regime, have been achieved. But in the words of General 
Abizaid, we are on the brink of a civil war. I do not have the 
exact words before me, but I was struck by General Chiarelli's 
statement the other day that in his 35 years of military 
training he had really never spent a day preparing for what 
faces him as our commander of forces in Iraq, sectarian 
violence, civil war.
    What is the mission of the United States today under this 
resolution if that situation erupts into a civil war? What are 
the missions of our forces?
    General Pace. Sir, I believe that we do have the 
possibility of that devolving to a civil war, but it does not 
have to be a fact. I believe that U.S. Armed Forces today can 
continue to do what we are doing, which is to help provide 
enough security inside of Iraq for the Iraqi government to 
provide governance and economic opportunity for their citizens.
    The weight of that opportunity rests with the Iraqi people. 
We can provide support. We can help provide security. But they 
must now decide about their sectarian violence. Shiite and 
Sunni are going to have to love their children more than they 
hate each other. If they do that and seize the opportunity that 
the international community has provided to them, then this 
will be what we want it to be, which is a success for ourselves 
and the Iraqi people. But the weight of that shift must be on 
the Iraqi people and the Iraqi government.
    Chairman Warner. I think we have to examine very carefully 
what Congress authorized the President to do in the context of 
a situation if we are faced with an all-out civil war, and 
whether we have to come back to Congress to get further 
indication of support.
    General Abizaid, I have had the privilege of knowing you 
for a long time and I really think you speak with remarkable 
candor and draw on an extraordinary career of professionalism. 
You spent 1 year of your career in Lebanon. Lebanon is a part 
of your AOR as CENTCOM. Do you agree with the premise that in 
this current conflict between Israel and Hezbollah, recognizing 
that Hezbollah attacked Israel, recognizing that Israel has a 
perfect right to defend itself, but in so executing their 
military campaign it is essential in my judgment the Lebanese 
government not be toppled as a consequence of the 
infrastructure that is being destroyed in the course of this 
war, and can they achieve in this military operation such 
degradation of Hezbollah, its command and control, its 
inventory of weapons, as to result in a situation whereby a 
multinational force can eventually come in, subject to some 
form of a ceasefire, and begin to shore up, stabilize that 
government, and allow it to take firm control over the entirety 
of all aspects of sovereignty of the nation of Lebanon?
    General Abizaid. Mr. Chairman, U.N. Resolution 1559 clearly 
calls for the disarmament of Hezbollah and the extension of 
Lebanese sovereignty all the way from its northern border to 
its southern border. Had that resolution been implemented or 
started to move towards implementation, the current problem 
would be much less severe than it has become.
    The Iranians who have armed Hezbollah with cruise missiles, 
antiship missiles, missiles that can reach as far as Haifa and 
beyond, have given Hezbollah a state-like existence and 
capacity that is unlike any other militia anywhere in the 
region. It is absolutely essential that the Lebanese government 
regain its sovereignty over its own territory. It will in my 
opinion need an international force to help it do that. There 
are ways that, in conjunction with the international community, 
Hezbollah can be disarmed over time and the Shiite people that 
participate in the political life of Hezbollah can be readily 
accommodated within the Lebanese body politic.
    The question as to whether or not the Israelis can degrade 
Hezbollah over time, degradation can take place. I think it is 
also very clear to say that over time the consensus of holding 
Lebanon together under external pressure starts to break down. 
It is very important that Lebanon stay together as a sovereign 
country. It is key to stability in the Middle East and it is 
essential that that take place, and the international community 
needs to move in that direction.
    Chairman Warner. Thank you very much, General.
    Senator Kennedy.
    Senator Kennedy. Thank you very much.
    General, just to first of all thank you, General Abizaid, 
General Pace, thank you very much for your service. Welcome, 
Secretary Rumsfeld. I think you can understand why it is so 
important for your presence here, given these range of issues 
that are front and center for the American people.
    Let me ask you, General Abizaid, if we have difficulty with 
130,000 troops in Iraq trying to disarm the insurgency, how in 
the world do we think we are going to be able to get an 
international force that is going to disarm Hezbollah?
    General Abizaid. Senator, I think with the weight of the 
international community and the right rules of engagement and 
the right participation of the various parties concerned, that 
over time Hezbollah can be disarmed.
    Senator Kennedy. Just to come back to a point that the 
chairman had mentioned about the costs in Iraq, the $400 
billion total, 2,579 have been killed, 19,000 wounded, 54 
casualties from my own State of Massachusetts, 70 percent of 
these from improvised explosive devices (IEDs). We have been in 
Iraq for 40 months and 13 days. The Korean War, 37 months. 
World War I, 19 months. The Persian Gulf War, 3 months. World 
War II, 42 months--VE Day, 42 months for VE Day, 45 months for 
VJ Day. The Civil War was 48 months.
    We have been in there now for 40 months and 13 days, with 
the finest military that has ever been developed, in basically 
rather a third-rate military situation. How much more do we 
really expect our military can do? How much more can we demand 
of them when they are out there doing such a proud and noble 
job of serving our country? How much more can we demand? Why 
not is this demand for political accommodation, why is that not 
front and center, so that we can start to bring our Americans 
home with honor?
    General Abizaid. Senator, I think there is a demand for a 
combination of military, political, and diplomatic activity 
that moves towards a solution that brings Iraq toward 
stability. I think over time it becomes less military and more 
diplomatic and more political. I believe that this current 
government, that is a 4-year government, has that opportunity.
    Senator Kennedy. Mr. Secretary, just to continue, the exact 
words that General Chiarelli said just last week, ``Quite 
frankly, in 33 years in the United States Army I have never 
trained to stop a sectarian fight. This is something new.''
    Now, we hear General Abizaid talk about the increase in 
sectarian violence. How are our troops trained to deal with 
sectarianism? We know that they were not trained as well as 
they should have been when they first went into Iraq. They were 
not trained at Abu Ghraib. How are they trained now with this 
new sectarianism? How are they trained not to take sides?
    Is this new addition of troops in Baghdad the beginning? 
Are we going to have to have more troops to deal with this? 
What are our troops told in Baghdad now to quell the violence 
in this sectarianism? How are they going to not get drawn into 
one side or the other with the escalation of the sectarian 
violence? What is in their background, what is in their 
training, what has been in their leadership, that would give 
them the ability to not be involved in this, to quell the 
violence and to eventually help President Maliki disarm and 
dismantle the militias?
    Secretary Rumsfeld. Senator, I think your point is a valid 
one, that ultimately the sectarian violence is going to be 
dealt with by Iraqis and it is going to be dealt with by Iraqi 
security forces as a part of the solution, but it is going to 
be dealt with through a reconciliation process, a political 
process that Prime Minister Maliki and others in the country 
are trying to design in a way that it will pull together 
elements within the country and thereby reduce sectarian 
violence.
    I would rather have either of the generals comment on the 
training, except to say that the situation in Iraq, with 18 
provinces, is really quite different in different provinces. We 
have forces in most provinces and the training is different for 
the different circumstances that they face.
    One of the things that the DOD has done is have extensive 
lessons learned from what is taking place in Iraq and different 
parts of the country brought back to the Joint Forces Command, 
the National Training Center, and the troops are then being 
trained up carefully to assure that they have the best kind of 
training they can have for the circumstances that we believe at 
the time they are going to find in the areas they are going to 
be assigned to.
    Senator Kennedy. My time is just about up. General Abizaid, 
could you expand on this, are they getting in with the growth 
of the sectarian violence? How do our troops get in there, not 
get embroiled in the sectarian violence, whether your 
estimate--is this the beginning or is this the end of the 
increased numbers of troops that we are going to need over 
there?
    How is their background and training actually going to 
quell that sectarian violence that you have identified as 
escalating at the present time?
    Thank you, Mr. Chairman.
    General Abizaid. Senator Kennedy, the first line against 
sectarian violence is the Iraqi armed forces. The Iraqi armed 
forces know where the problem is coming from. They know how to 
deal with the problem. They can recognize it easier than our 
troops can.
    But I would also tell you that our forces do have the 
capability to precisely target the secular death squad 
structure that is responsible for this activity, and more and 
more over time we have become proficient at being able to 
attack the secular structure of al Qaeda and we intend to use 
that capability and intelligence activity that we have used 
before to target the militia death squads that we are seeing 
operate now in Baghdad with a certain degree of freedom.
    Senator Kennedy. Thank you.
    Chairman Warner. Thank you.
    For the record, this is General Chiarelli's full statement. 
It is July 27, 2006. He said, ``For the military, the plan is 
unchartered ground. Quite frankly, in 33 years in the United 
States Army I never trained to stop a sectarian fight,'' he 
said. ``This is something new.'' That is the quote to which I 
referred to and Senator Kennedy referred to.
    Senator McCain.
    Senator McCain. Thank you very much, Mr. Chairman.
    I thank the witnesses and I want to repeat at the outset my 
firm belief that we can and must win in Iraq and that the 
consequences of failure would be catastrophic.
    General Pace, you said there is a possibility of the 
situation in Iraq evolving into civil war, is that correct?
    General Pace. I did say that, yes, sir.
    Senator McCain. Did you anticipate this situation a year 
ago?
    General Pace. No, sir.
    Senator McCain. Did you, General Abizaid?
    General Abizaid. I believe that a year ago it was clear to 
see that sectarian tensions were increasing. That they would be 
this high, no.
    Senator McCain. General Abizaid, we are moving 7,500 troops 
into Baghdad, is that correct?
    General Abizaid. The number is closer to 3,500.
    Senator McCain. 3,500?
    General Abizaid. Plus military police that were going there 
for other duties, that are being used in the outer cordon 
areas, military policemen in particular.
    Senator McCain. Where are these troops coming from?
    General Abizaid. The troops, the Stryker brigade is coming 
down from Mosul.
    Senator McCain. From Mosul. Is the situation under control 
in Ramadi?
    General Abizaid. The situation in Ramadi is better than it 
was 2 months ago.
    Senator McCain. Is the situation under control in Ramadi?
    General Abizaid. I think the situation in Ramadi is 
workable.
    Senator McCain. The troops from Ramadi came from Fallujah, 
is that not correct?
    General Abizaid. I cannot say, Senator.
    Senator McCain. That is my information. What I worry about 
is we are playing a game of whack-a-mole here. We move troops. 
It flares up, we move troops there. We all know that Fallujah 
was allowed to become a base of operations and insurgency, so 
we had to go into Fallujah and fight one of the great battles 
in Marine Corps-Army history. Then when I was back there not 
too long ago, they said, we have big problems in Ramadi. 
Everybody knows we have big problems in Ramadi. I said: Where 
are you going to get the troops? We are going to have to move 
them from Fallujah. Now we are going to have to move troops 
into Baghdad from someplace else.
    It is very disturbing. If it is all up to the Iraqi 
military, General Abizaid, then I wonder why we have to move 
troops into Baghdad to intervene in what is clearly sectarian 
violence.
    General Abizaid. Senator, Iraqi troops are also being moved 
into Baghdad. The number of Iraqi troops in the Baghdad area 
are greater than our troops. We are in support with them in the 
main operational areas, and I believe that under the current 
circumstances that the Iraqi forces need to benefit from our 
command and control capabilities and the systems of a unit such 
as the Stryker brigade that has been moved to the south.
    Senator McCain. I would anticipate putting American troops 
into this very volatile situation means that American 
casualties will probably go up.
    General Abizaid. I think it is possible that in the period 
ahead of us in Baghdad that we will take increased casualties, 
it is possible.
    Senator McCain. The situation in southern Iraq. I was 
briefed by British military and others that there is a grave 
concern about Iranian penetration throughout southern Iraq. Is 
that a serious issue?
    General Abizaid. The Iranian Revolutionary Guard Kudz 
force, intelligence agencies, arm, train, and equip what I 
would call rogue Shiite groups. Yes, it is a concern.
    Senator McCain. Is Basra in control of the militias?
    General Abizaid. I think that the militias have greater 
influence in Basra than they need to have, and that is why 
Prime Minister Maliki has appointed a military officer to go 
down there to get the security situation back under control.
    Senator McCain. Do you have confidence in the Iraqi 
Minister of Interior?
    General Abizaid. I do not know the Iraqi Minister of 
Interior the way I know the Defense Minister. I have no reason 
not to have confidence in him.
    Senator McCain. All the reports we have is that day after 
day, people are running around in police uniforms and army 
uniforms and they are actually militias and they are killing 
people. Story after story, they say when you see the people 
come in uniform it is an emergency, that people are going to be 
killed.
    Which brings us obviously to the state of the training, not 
of the Iraqi military, but of Iraqi police and law enforcement. 
Can you comment on that situation?
    General Abizaid. During the period after the national 
election when no governance formed, the interior ministry in 
particular did not develop its forces in the way that we had 
anticipated that they would or should. Military forces, on the 
other hand, continued to develop well. They have continued to 
perform well. But there is no doubt that police units, 
especially local police units, were infiltrated in Basra in 
particular, but elsewhere as well, by local militias and they 
put their allegiance to the militias ahead of their allegiance 
to the state.
    It is vital that we turn this around.
    Senator McCain. The cleric al-Sadr continues to be a major 
obstacle to progress in Iraq. I believe there is still an 
outstanding warrant for his arrest. Are we going to address 
that issue?
    General Abizaid. The issue will be addressed by the Iraqi 
government.
    Senator McCain. Not by us?
    General Abizaid. It will be addressed by the Iraqi 
government.
    Senator McCain. All of my colleagues are here, so I want to 
not take time. I just want to conclude. Secretary Rumsfeld, we 
passed an amendment on the National Defense Authorization Act, 
which I am confident will be accepted in conference, and that 
requires that operations in Iraq and Afghanistan, funding for 
it be included in the regular budgetary process.
    We are hearing story after story about mismanagement of 
funds, corruption, et cetera. We must have sufficient 
congressional oversight. I hope you are making plans to include 
the expenses involved in operations in Iraq and Afghanistan in 
the normal budgetary process and not as an ``emergency 
supplemental.'' I think you should be able at this time, after 
this many years involved in this conflict, be able to predict 
what those costs might be.
    I want to say again, we will have a showdown unless, both 
within this body and with the executive branch, we start going 
through the normal budgetary process to fund this conflict, 
which I think all of us agree we will be involved in for a long 
period of time.
    I thank you, Mr. Chairman.
    Chairman Warner. I would like to have you respond, Mr. 
Secretary.
    Secretary Rumsfeld. We are aware of the amendment and 
needless to say we will comply with the law. From our 
standpoint, we can do it either way. It has been a matter that 
has been worked out generally over the years between the White 
House, the Office of Management and Budget (OMB), and the 
leadership in Congress.
    The reality is that what we would have to do, as you 
suggested, would be to provide the best estimates that we can 
and projections and then make adjustments for them as time 
actually passed, and we would be happy to do that.
    Senator McCain. Thank you, Mr. Chairman.
    General Pace. Mr. Chairman.
    Chairman Warner. Yes, Chairman.
    General Pace. Can I make one clarification, so that the 
parents watching this do not believe that somehow their sons 
and daughters are not properly trained to handle the kind of 
violence that the sectarian violence is creating? What General 
Chiarelli said is exactly true, that we do not train to 
separate sectarian violence, and that is very much a 
responsibility of the politicians and, as we have talked about 
already, the Iraqi people need to do that.
    With regard to Lieutenant Pace, who is on patrol in Baghdad 
with his platoon, and the kind of violence that he is going to 
come across, regardless of if it is Sunni, Shiite, or whoever, 
if it is an armed group our soldiers and marines certainly are 
well-trained to handle that. So there is a difference between 
the kind of violence they have to handle and what would prevent 
that violence, and preventing that violence is very much the 
role of the political leaders in Iraq to solve, sir.
    Chairman Warner. That is the purpose of this hearing, to 
allow you and other witnesses to clarify these bullet 
statements that come before us and the American public. Thank 
you, Chairman Pace.
    Senator Reed.
    Senator Reed. Thank you very much, Mr. Chairman.
    General Abizaid, in your opinion is the Mahdi Army a 
terrorist organization with implicit at least support from the 
Iranian government?
    General Abizaid. In my opinion there are groups within the 
Mahdi Army that are under the pay of the Iranian government 
that are terrorist organizations. I am not sure I can say that 
is necessarily true about the entire organization.
    Senator Reed. As Senator McCain pointed out, there is an 
outstanding warrant for Muqtada al Sadr, who is the leader of 
the Mahdi Army. But his followers are prominent members of the 
Iraqi government; is that correct?
    General Abizaid. That is correct.
    Senator Reed. So when you say the Iraqi government will 
dispose of Sadr and the Mahdi Army, he in fact is part of that 
government.
    General Abizaid. I believe that the prime minister and his 
government will take the steps necessary to get the sectarian 
violence under control and do what has to be done against the 
death squads.
    Senator Reed. Do you have any sort of sense of the timing 
of this, particularly with respect to the Mahdi Army and to 
Sadr?
    General Abizaid. Again, I would not characterize the target 
as being either Sadr or the Mahdi Army. I would say there are 
elements within the Jesh-al-Mahdi that will be targeted because 
they are participating in death squad activities.
    Senator Reed. With the encouragement, the permission, the 
tolerance of Sadr?
    General Abizaid. I could not say whether there is a 
permission or tolerance or anything of Sadr. I can say that the 
prime minister knows and has been very forceful about saying 
that militias must be brought under control. He has a wide 
range of points that go all the way from direct military 
confrontation to agreement with various militias.
    Senator Reed. But we will not be involved in that process? 
It will be exclusively up to the prime minister and his 
security forces?
    General Abizaid. I would not say it would be exclusively 
the work of Iraqis. It is very clear that our forces in 
conjunction with the Iraqis will help target known death squad 
organizations.
    Senator Reed. Mr. Secretary, the Chief of Staff of the Army 
testified before the House Armed Services Committee on June 27 
that $4.9 billion in funding that the Army requested for reset, 
which is the repair and replacement of equipment, was denied 
before the request was submitted to Congress. Did you deny this 
request or did the OMB deny the request?
    Secretary Rumsfeld. Senator, the normal process is that the 
Department is given a budget by the OMB, and we take that 
budget and work within the Department to try to fashion a 
budget that is balanced and makes sense. Then in the event 
there is from time to time a need to go back to the OMB or the 
President and request additional funds, we have done that.
    I do not know precisely what $4.9 billion, I think you 
said.
    Senator Reed. Mr. Secretary, did you go back to the 
President and ask for more funds because of the critical needs 
of the Army and the Marine Corps for reset?
    Secretary Rumsfeld. We have certainly gone to the President 
and the OMB and explained the need for reset and negotiated it 
extensively with the OMB. Regrettably, there have been cuts 
made by Congress every year in the defense budget. There have 
been not only reductions in our budget, there have been things 
that have been added in that we did not request that required 
us to take money from other things. Third, there have been 
things required of us that we were prevented from making 
savings.
    The net effect of it, if you look just today in the 
authorization and appropriation bills between the House and the 
Senate, it runs somewhere between $10, $15, or $20 billion, 
depending on how you calculate it.
    Senator Reed. So the White House did turn down your request 
for additional money for reset, yes or no?
    Secretary Rumsfeld. That would not be correct.
    Senator Reed. So you did not ask?
    Secretary Rumsfeld. I cannot say that, because we went 
through an extensive discussion and negotiation and we ended up 
with the budget we ended up with, which was then reduced by 
Congress.
    Senator Reed. Last Tuesday evening the Senate passed an 
appropriation for $13 billion of additional funding for reset. 
Is that money appropriate or is it in some way a waste of 
resources?
    Secretary Rumsfeld. It is clearly needed.
    Senator Reed. Why did you not ask the White House before 
they sent the request to Congress for that clearly needed 
money?
    Secretary Rumsfeld. We did talk to the White House about it 
and that is where the number came from, was from the DOD.
    Senator Reed. Mr. Secretary, what you are saying, I think, 
is either you asked for the money and they said no or you 
accepted a limit despite the needs that you recognized for 
reset. It is one or the other?
    Secretary Rumsfeld. You have lost me. At first you were 
talking about----
    Senator Reed. I think you have lost everyone with this 
dialogue.
    Secretary Rumsfeld. First you were talking about $4.9 
billion, I thought. Now you are talking about the $13 billion, 
$13.1 billion I think, and we have requested that of OMB and 
they have requested it of Congress and Congress has put it in 
the bill, as I understand it has.
    Senator Reed. When did you request the $13 billion, Mr. 
Secretary?
    Secretary Rumsfeld. Within the last period of months, 
weeks.
    Senator Reed. Weeks?
    Secretary Rumsfeld. Yes, weeks.
    Senator Reed. Days. Why did you not request the $13 billion 
when the budget was being prepared to be sent to Congress?
    Secretary Rumsfeld. When the budget was being prepared to 
be sent to Congress, it would have been January of last year 
for the budget that still has not been passed by Congress this 
year. For the supplemental it would have been late last year, 
not the beginning of last year but late last year, when those 
budgets are prepared.
    We gain knowledge every month that goes by, and it is very 
clear the Army has a reset problem. It is also clear that the 
$13 billion is needed.
    Senator Reed. Mr. Secretary, it is very clear that two-
thirds of the Army operating force, Active-Duty and Reserve, is 
now reporting as unready. There is not a single nondeployed 
Army brigade combat team in the United States that is ready to 
deploy. The bottom line is that we have no ready strategic 
Reserve, and this is a stunning indictment of your leadership.
    Secretary Rumsfeld. I think it is an inaccurate statement.
    Senator Reed. How so? Have you seen the readiness reports, 
Mr. Secretary?
    Secretary Rumsfeld. I have.
    Senator Reed. It is inaccurate to say that the readiness 
reports of the Army do not indicate severe equipment shortages, 
leaving many brigades of the United States as nondeployable?
    Secretary Rumsfeld. If you will allow me a few minutes to 
respond, it is complicated, but I would be happy to do so. I 
stand with what I say. I think the characterization that you 
made is not accurate. It is complicated. If one sees a chart 
that shows a deterioration like this over a 5-, 6-, 7-, 10-year 
period, one has to assume that the readiness of the military, 
in this case the Army, has deteriorated. Now, the fact of the 
matter is if you begin with a standard, a requirement, that is 
X and then you show the beginning of the chart, and then at the 
end you have changed your requirement because you have decided 
you need different things, you have learned from the 
experiences of the last period of years and you have increased 
your requirements to 5X, and then you compare yourself against 
5X, so if you have improved 300 percent--you were at 100 
percent to begin, at 1X, and now you need 5X, you have decided 
your requirement is different, and you have improved 300 
percent to get there, you are still short of that requirement.
    That is what shows the deterioration. The fact of the 
matter is the equipment that the military has today is vastly 
better today than it was 5 years ago. The readiness of our 
capabilities are--if you measure them against full spectrum, 
you can say they are not ready to do everything that anyone 
conceivably might need to do.
    On the other hand, if you ask the readiness of the forces 
with respect to what they are being asked to do, ask General 
Abizaid, are the forces over there capable of doing what they 
are doing, equipped and trained to do what they are doing, he 
will tell you yes. If you ask General Schoomaker, are the Armed 
Forces of the United States considerably better today, more 
capable, better equipped than they were 5 years ago, he will 
say yes.
    If you ask General Pace the question, is the United States 
today capable of doing, fulfilling the requirements that the 
country has put on them, the answer is yes.
    Senator Reed. Let me take that opportunity. General Pace, 
have you seen the last readiness----
    Chairman Warner. Senator, wait a minute.
    Senator Reed. Excuse me.
    Chairman Warner. You are way over your time. Just a minute. 
We need to allow the witness to fully respond to your question. 
I think your question has been stated. We will have another 
round and you can pursue this at that time. But I have to 
accommodate other members. You are quite a bit over your time.
    Has the witness had the opportunity to fully reply to the 
question before him?
    Secretary Rumsfeld. I have. I think it would be useful just 
for the context if the Senator's last question could be 
responded to.
    Senator Reed. Mr. Chairman, would you allow me to ask my 
questions, rather than have the Secretary ask my questions for 
me?
    Chairman Warner. Well, now, Senator----
    Senator Reed. If I have given up my time, then my time is 
gone.
    Chairman Warner. Just a minute. We allowed you to ask your 
question very fully. It was stated. It is in the record, I 
think with clarity, and the Secretary was responding. We will 
have a second round, at which time you can further pursue this 
important subject. I recognize the importance of the subject.
    Now, the Secretary has asked for General Pace to give his 
perspective in response to the Senator's question.
    General Pace. Mr. Chairman, thank you.
    Readiness is reflected in personnel, in training, and in 
equipment. Any time a unit comes back from any deployment, when 
I was battalion commander, the unit has people change out and 
therefore the personnel numbers go down. The training as a 
result of the unit coming back starts out anew into the new 
cycle. Equipment is taken from what has been used and put into 
depot maintenance. That is in normal peacetime.
    In wartime, we are using equipment at much greater rates. 
So where you have a notional unit that has 100 trucks and they 
deploy and they come back, and the trucks normally would be 
driven 1,000 miles in a year and they are driven 10,000 miles 
in combat, you have a larger number of those vehicles that end 
up being put into the depot maintenance, which for the unit 
that is home then reduces their readiness based on availability 
of equipment.
    The units that are forward have had not only the equipment 
that they went over with, but have been augmented thanks to 
Congress providing the funding. For example, our up-armored 
Humvees. The requirement globally when we started in September 
2001 was about 2,000. That number now is up at 12,000. We have 
bought up to 12,000 and we have used them in combat, and now a 
number of those 12,000 are currently in depot maintenance 
waiting.
    So we are way over the 2,000 we started with. But now, 
because of maintenance, usage, and combat losses, we are below 
the 12,000 that folks are asking for today. So it is very 
difficult when you turn the kaleidoscope to see all the pieces 
and it does not allow itself to have a straight, easy answer.
    Fundamentally, the United States Army is much more capable 
today. Fundamentally, the Army that is fighting our war for us 
today deployed is in tremendous shape, personnel, training, and 
equipment-wise. But it is absolutely a fact that, for various 
budgetary reasons, some of which are a result of actions taken 
by Congress, that we do not have enough funding currently to 
provide for the repair of all of the equipment that currently 
sits at our depots waiting to be repaired. I believe that is 
where the dialogue is about how much money is needed. That 
$13.1 billion as I understand it, if approved by Congress, will 
in fact allow the Marine Corps and the Army to take the 
equipment that is currently stacked up at their depots, hire 
the workforce, and begin the process.
    But what has happened, when we have not had budgets and we 
have had continuing resolutions, some of the workforce has had 
to be let go. We cannot have the depots not know whether or not 
they are going to be able to have the funding long-term to hire 
people. We cannot go out and hire Mechanic Pace for 6 months 
and then let him go and expect to hire him back again.
    I would ask as we look at this, that we look at some kind 
of no-year funding that is focused on the backlog of equipment 
repair, that will allow the depots to consciously go out and 
hire people who can stay in the workforce long enough to get 
this work done.
    Thank you.
    Chairman Warner. The Senator from Rhode Island raises a 
very important question and we will further explore it in the 
course of this hearing. Mr. Secretary, I am going to seek to 
get documentation that I looked at where you did engage with 
OMB about the need for these funds. So I think that 
documentation will be put in this record.
    I am advised by the cloakroom that we have two back-to-back 
votes. It is my intention to go over quickly and vote in the 
first vote and, Senator McCain, I would ask that you chair 
because I am going to be absent for that vote. We will keep the 
hearing going, colleagues, as members come and go on these 
votes.
    Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman. I do want to thank 
you for giving General Pace the opportunity to respond to that 
question. I think that was an excellent response.
    Let me just make a couple of observations if I might. I 
find it really interesting. I think most of the members of this 
committee have been to Iraq varying numbers of times. There are 
some of them who have not been at all. When you get the 
reaction, the response and the opinions that are formulated by 
those who have not been there, it is totally different than 
those who have really been there and understand first-hand what 
is going on.
    There is no better example of that than an article that was 
in the paper in USA Today just this morning, that said that 
only--without quoting a source, at least I did not see a 
source--of the 18 provinces, only one was able to be secured 
just with the Iraqis. On the other hand, Dr. Rubaire, who is a 
person I have known for quite some time, at the National 
Security Agency (NSA), said that right now 4 out of 18 are 
under the protection and security of Iraqi security forces, and 
there are 9 more that will be in a very short period of time, 
which is 13 out of 18.
    When you hear people who have not been there and depend on 
press reports, there is no way that they can get the resolve 
that our troops have. There is no way--I will share with you, 
General Pace, since this is up in the Marines' area, in 
Fallujah, an experience up there with this Dr. Madhi, that you 
have met many times I am sure. General Madhi was actually the 
brigade commander for Saddam Hussein. He hated Americans until 
he started embedded training with the marines, and he learned 
to love them so much that he said that when they rotated them 
out that they cried. He then renamed the Iraqi security forces 
at Fallujah the ``Fallujah Marines.''
    Things like that that are going on, you can only get by 
being there and experiencing it. Now, I came back from my 11th 
trip to the CENTCOM AOR and I timed that trip so that it was 
right after Zarqawi saw his demise and after the new cabinet 
appointments were put into place. You hear a lot about Maliki 
and so forth and perhaps even Minister Jaseem, but when you sit 
down and spend quality time with them you get a different 
impression than you do by looking at the media here. Certainly 
Dr. Rubaie is the same way.
    Minister Jaseem at that time, General Pace, said, or maybe 
General Abizaid could respond to this, he said at that time 
that, of the 36 brigades, 17--we are talking about the Iraqi 
brigades now--17 were at level 2, or in other words were 
capable of autonomous operations, and of the 112 battalions 62 
were at level 2. Now, this was 2 months ago.
    Do you agree with his assessment at that time of those who 
are trained and equipped, Iraqi security forces, and has that 
changed in the last 2 months?
    General Abizaid. Senator Inhofe, I think the best way to 
characterize where the Iraqis are doing well has to do with 
their units that are in the lead, in the lead in the security 
structure in whatever area that has been assigned to them. In 
October 2004--of 2005, 1 division, 4 brigades, and 23 
battalions of the Iraqi armed forces were in the lead in their 
sectors. Today it is 4 divisions, 21 brigades, and 77 
battalions.
    That is a pretty impressive gain. I think it is really 
important for people to understand that, while there are a lot 
of very important warning signals that cannot be lost to us 
about where sectarian violence is heading in Baghdad, the most 
important point that we have to keep in mind is that the army 
is holding together and that the government is committed to 
bringing the sectarian violence under control.
    So the question is, am I optimistic whether or not Iraqi 
forces with our support, with the backing of the Iraqi 
government, can prevent the slide to civil war? My answer is 
yes, I am optimistic that that slide can be prevented.
    Senator Inhofe. That is consistent with what we get from 
the other side. I like these hearings here where we get it from 
you, but also to go over there and see what they have to say 
about it.
    I have to say this, that I was incredibly impressed. We all 
are familiar with Maliki, but Minister Jaseem and this Dr. 
Rubaie, someone I had known some time before, they are very 
optimistic about their level of professionalism. When you talk 
to the troops, getting back up to Fallujah--I was up there 
during the elections, knowing that they were actually risking 
their lives. They were just rejoicing at that time. Asking them 
the question, do you see the time in the future where you are 
going to be able to take over your own security, they just very 
enthusiastically say it is.
    General Abizaid. Senator Inhofe, if I may, I just want to 
say, the Iraqi soldiers are fighting, they are taking 
casualties. They are fighting for their nation. They are trying 
to get the sectarian violence and the insurgency under control. 
They deserve an enormous amount of our respect and support.
    So I think sometimes we seem to think that we are the only 
forces there. We are not. There are 220,000 plus Iraqis that 
are out there fighting and doing a pretty good job. Yes, there 
are some problems within their organizations, but they are 
maturing and they are doing better, and they will continue to 
do better.
    Senator Inhofe. They are committed. I happened to be in 
Saddam's home town when the training area was bombed by the 
terrorists. About 40 of them, 41 I think it was, were either 
killed or very seriously injured. Those families, those 40 
families, resupplied a member of their family to replace the 
one that was killed. This is the type of thing, the stories 
that you do not hear.
    I know my time has expired, but for the record, Senator 
McCain, I would like to ask them to give us some information. 
According to Chiarelli and several others, including the 
Iraqis, probably one of the most serious problems, even though 
it does not have a lot of sex appeal to it, is the logistics, 
both civilian and military, and the problem of the 
organizational structure to distribute simple equipment and 
supplies is not there. I would like to get your opinions as to 
what we are trying to do to correct the problem of logistical 
problems.
    Thank you, Mr. Chairman.
    [The information referred to follows:]

    Over the past year, Multi-National Security Transition Command-Iraq 
(MNSTC-I), in conjunction with Iraqi counterparts, developed two 
detailed and concise action plans to improve logistics and Iraqi self-
sustainment. The first action plan for the Ministry of Defense was 
finalized and approved 4 October 2006. The second action for the 
Ministry of Interior was approved 6 November 2006. These plans outline 
synchronized and deliberate processes for the generation of Iraqi 
logistics capabilities and sequential procedures for transferring those 
capabilities to Iraqi oversight, funding, management, and control.
    MNSTC-I is approaching the development of Iraqi logistics 
sustainment along three parallel avenues. First, MNSTC-I is assisting 
the Iraqi ministries in the development of their own capabilities to 
sustain themselves and transferring to them those responsibilities as 
we mentor them through difficulties. This course of action is best 
exemplified by the Iraqi ministries' assumption of life support and 
feeding responsibilities. Second, MNSTC-I is coaching the ministries 
through the more complex tasks that they are capable of self-performing 
using Foreign Military Sales (FMS) case funded contracts. These 
contracts allow the Iraqis to oversee, train, and control commodity and 
functional areas while we provide a safety net of experienced, 
established, and honest workforces to maintain sustainment while 
increasing their capabilities. This course is best experienced by the 
Iraqi assumption of ammunition and maintenance responsibilities. Third, 
MNSTC-I is teaching higher order complex and skilled logistics 
functions such as forecasting, budgeting, and contracting. This is best 
exemplified by our lead in the joint partnership of developing the 
military depot and police maintenance capabilities for complex repair 
and the Iraqi support command contracting and commodity management 
skills required to sustain a national logistics system.
    Recognizing the importance of logistics, the MNSTC-I commander has 
identified 2007 as the year of logistics and leaders. MNSTC-I is 
working diligently to train logisticians for every level of the Iraqi 
Military and Civil Security Forces. The military training mission is 
training individuals at every level of the logistics system from the 
service company to the depot level. The Civil Security Forces are 
utilizing the training opportunities offered by the police ``re-
bluing'' initiative and local civilian logistics capabilities to expand 
the effectiveness of their sustainment processes.
    Both the military and police force training teams, located at every 
level of the Iraqi chain of command from the ministry to the small unit 
level, have been focused or assisting the Iraqis in self-sustainment 
and process improvement. The MNSTC-I commander has tasked every leader 
in MNSTC-I to transition from leading logistics from the front, to 
leading side-by-side with our Iraqi partners, and ultimately to 
assisting from behind as the Iraqis assume greater responsibility in 
the planning, execution, and improvement of their logistics system. 
Using self-performance, increased Iraqi participation, and FMS 
reinforcement for complex task development, MNSTC-I has an aggressive 
and achievable plan to transition logistics to Iraqi oversight and 
management by the end of 2007.

    Senator McCain [presiding]. Senator Ben Nelson.
    Senator Ben Nelson. Thank you, Mr. Chairman.
    Again, thank you, gentlemen, for being here. Today I think 
your testimony in response to questions has been very helpful.
    In connection with the number of Iraqi troops who are 
combat capable, out of the 250,000-plus security forces that 
are there, is there any estimate of the number who would be 
combat capable?
    General Abizaid. Senator, for the record, the number of 
trained Iraqi police, border security, and Iraqi military 
forces, the number is closer to 275,000. The combat capability 
within the army, I think again the best measure are those units 
that are in the lead, which are 4 brigades--4 divisions, 21 
brigades, and 77 battalions.
    But there is a very detailed list of what unit is at what 
level, that we can certainly provide to you.
    Senator Ben Nelson. That would be very helpful.
    [The information referred to follows:]

    [Deleted.]

    General Abizaid. They are much improved and they continue 
to improve every month.
    Senator Ben Nelson. Which is part of the emphasis on 
standing their military up so that we can stand ours down. The 
faster and the more capable they are, hopefully then there 
should be some sort of connection with the reduction of our 
Armed Forces as a result of that.
    In terms of the police, let us say the municipal police, do 
we know what percentage or what number of the total number you 
would look at as being, not combat or capably trained, but 
honest and as part of the overall government, as opposed to a 
militia?
    General Abizaid. It is a difficult question to answer. 
There are some places where the local police are exceptionally 
efficient and very honest, very capable. There are other areas 
where we know that they have been infiltrated by various 
militias, such as in Basra, where the government and the 
British forces that are down there are doing their best to 
stand down those units, retrain them, and bring them on line in 
a credible and capable manner.
    As far as the national police forces are concerned, in 
Baghdad it is clear that there are a number of battalions--
again, without my notes in front of me I would take it for the 
record, but there are battalions that need to be stood down and 
retrained, and Generals Casey and Dempsey are working to do 
that now.
    [The information referred to follows:]

    [Deleted.]

    Senator Ben Nelson. Do we know whether approximately 50 
percent or 30 percent?
    General Abizaid. I would say it is probably 30 percent.
    Senator Ben Nelson. 30 percent.
    General Abizaid. That is national police, which is separate 
and distinct from----
    Senator Ben Nelson. Municipal and-or the military.
    I think the debate about whether we have a date for 
withdrawal or there is an open-ended commitment--hopefully the 
debate will continue. But I wonder about an approach that is 
different than setting a date for withdrawal and to close any 
question about whether it is an open-ended commitment, would be 
better approached on setting conditions for staying with the 
prime minister, with the Iraqi government. In other words, 
there is a lot of slippage on how we have standing up to stand 
down in terms of their military versus our military because 
things change on the ground.
    But do we have some idea of what our conditions for staying 
are? Is there a tipping point in terms of their ability or 
inability to get to a certain level so that they can deal with 
sectarian violence on their own or the Sunni insurgency, to 
govern themselves, but also to secure themselves?
    I guess I would feel more comfortable if we could establish 
some sort of metrics to know what it takes in terms of 
percentage, numbers, and what it will take in terms of time so 
that we can say that they are capable of not only governing 
themselves with the elected government, but also in terms of 
securing themselves so they can govern themselves.
    I do not know who would like to take that question, but I 
throw it out to all three of you.
    General Abizaid. Senator, the government has been in 
existence now for 3 months. They have a lot of work to do to 
cement their capability to govern. It is a very difficult thing 
to bring in a new government under these conditions of 
sectarian violence and insurgency. I think it is very important 
for people to understand, while there may be a military metric 
to units in the Iraqi army that are equipped and trained and 
them taking over certain battle space, there is also a very 
important political aspect to this reduction of sectarian 
violence, which is the various communities getting together and 
agreeing upon ways to reduce the sectarian violence themselves.
    It is important that there be a national reconciliation 
effort and it is important that there be agreed-upon measures 
to move forward with various militias that are operating 
outside of government control. I think a combination of those 
things will lead to less violence over time, establish the role 
of the national government in Iraq, and allow us to bring our 
level of forces down as appropriate.
    Secretary Rumsfeld. Senator Nelson, I would just add that 
the U.S. Ambassador and General Casey have established a 
committee or a commission with the new Iraqi government and the 
national security officials in that government to address the 
very issues that you are raising as to what are the things that 
need to be done, because, as General Abizaid correctly points 
out, they reach well beyond military capabilities.
    Senator Ben Nelson. Thank you, Mr. Chairman.
    Thank you for your answers.
    Senator McCain. Senator Thune.
    Senator Thune. Thank you, Mr. Chairman.
    General, General, Mr. Secretary, thank you for being here 
and for your responses to the questions. I would like to ask 
General Abizaid a question. I talked to a soldier last week who 
has had two deployments to Iraq and raised the question about 
whether or not the objectives and the goals that we have in 
Iraq are aligned with the goals that the Iraqi people have, and 
that they are not. One of the reasons--it seems to me at least 
if we are going to get control of the sectarian situation there 
the Iraqi people have to buy into what is happening in Iraq.
    His suggestion was that they have not. I know that when we 
have traveled to Iraq--and I was there a couple of months back 
with Senator McCain's delegation--we hear from, obviously, the 
commanders and we talk with some of our troops. In most cases 
we do not have a lot of interaction with the Iraqi people. But 
I am just wondering if you could comment about the overall--the 
interaction that we have with the Iraqi people, our troops on 
the ground over there, the temperature in terms of their 
willingness to be a part of a national unity government, a 
democratic Iraq, and that sort of thing, relative to what we 
are trying to accomplish there.
    This was one soldier who says he visits with these folks 
all the time and thinks that their interests and their 
objectives and goals are not aligned with what ours are over 
there.
    General Abizaid. There are certainly people in Iraq that do 
not want Iraq to come together as an independent state. There 
are terrorist groups that have views that they want Iraq to 
descend into a state of anarchy and chaos so they can establish 
safe havens for terrorism in the region.
    But I think that as I go around and I talk to Iraqi 
military officers, Iraqi government officials, and people 
throughout the country--and I think General Casey certainly 
would echo this--the majority of the people want Iraq to come 
together as a free and independent nation that is capable of 
being a meaningful member of the community of nations in that 
part of the world, that is not dominated by either Iranians or 
dominated by Sunni extremist groups. I believe that they know 
they have to fight in order to achieve that.
    Secretary Rumsfeld. I think it ought not to be surprising, 
Senator, that an American soldier would visit with Iraqis and 
see that they do have a different perspective. They live in a 
different part of the world, they have a different history, and 
it is fully understandable.
    On the other hand, 12 million of them went out and voted, 
and they went out and fashioned a constitution and then 
ratified it. It is there for the world to see. They have been 
voting in increasing numbers. So while you are right and 
General Abizaid is certainly right that there are Baathists who 
want to take back the country, there are Shiite who would like 
to dominate it to the detriment of the Sunnis, the fact of the 
matter is that 12 million Iraqis went out and voted for that 
constitution, and that is not nothing. It is something 
important.
    Senator Thune. I appreciate General Abizaid's comment, 
which I have heard you make previously as well, that the forces 
that want to hold the country together and see it succeed 
outnumber and are greater than those that want to see it fail. 
But I just wanted to get your assessment of the on-the-ground, 
average Iraqi on the street type of view of what is happening 
there, because it seems to me at least that that is a key 
component in starting to turn over information on some of the 
bad guys who are committing the violence there and really 
making this thing work.
    One other question has to do again with the borders and how 
are we doing with respect to Iran and Syria? Foreign arms serve 
as the lifeblood of the insurgent groups. Does the Iraqi 
government see that as a threat to their sovereignty and are 
they stepping up and doing some of the work to protect the 
borders and make sure that a lot of the arms that are coming in 
are cut off?
    What is your assessment of that? I have asked a lot of 
questions of your colleagues who have been in front of this 
committee about IEDs, for example, and where are they getting 
the materials to make these IEDs. It seems at least a lot of 
that is coming from some of these other countries. I know it is 
impossible, with the length of the borders and everything else, 
to completely shut it off, but are there efforts being made to 
regulate and control the materials that are coming in that are 
being used to inflict casualties on our troops?
    General Abizaid. Yes, Senator, there is a lot of effort 
building a border force. The border force is effective in some 
areas, less effective in others. The Iraqi armed forces also 
back up the border forces. The Syrian border remains the 
primary conduit for foreign fighters. I think those numbers 
remain less than 100 or so that are transitting back and forth.
    The vast majority of the munitions that are used inside 
Iraq come from inside Iraq. There are certainly smuggling 
routes that Iranian Revolutionary Guard Kudz Force people are 
using to bring in IEDs into the south and into some of the 
northern portions of Iraq, that have been used, and it is clear 
that that has taken place.
    Senator Thune. Were those weapons caches that were 
discovered this last week, has it been determined whether those 
were leftovers from the previous regime or are those that have 
come in, that have flooded in from other countries?
    General Abizaid. Sir, I would have to see the specific 
report. There are weapons caches found every day.
    Senator Thune. All right.
    General Pace. Sir, to help with that number, we have had 
420,000 tons of ammunition captured and destroyed in some over 
14,000 locations in theater. So it is a huge cache location, 
and we find them every day.
    Senator Thune. Thank you. I thank you for your outstanding 
service to our country.
    Mr. Chairman, I yield back.
    Senator McCain. Senator Clinton.
    Senator Clinton. Thank you very much, Senator McCain.
    Mr. Secretary, we are glad you are here. In your opening 
statement you referenced the common sense of Americans. I think 
it is fair to say that that collective common sense 
overwhelmingly does not either understand or approve of the way 
you and the administration are handling Iraq and Afghanistan.
    Under your leadership there have been numerous errors in 
judgment that have led us to where we are in Iraq and 
Afghanistan. We have a full-fledged insurgency and full-blown 
sectarian conflict in Iraq. Now, whether you label it a civil 
war or not, it certainly has created a situation of extreme 
violence and the continuing loss of life among our troops and 
of the Iraqis.
    You did not go into Iraq with enough troops to establish 
law and order. You disbanded the entire Iraqi army. Now we are 
trying to recreate it. You did not do enough planning for what 
is called phase 4 and rejected all the planning that had been 
done previously to maintain stability after the regime was 
overthrown. You underestimated the nature and strength of the 
insurgency, the sectarian violence, and the spread of Iranian 
influence.
    Last year Congress passed the United States Policy in Iraq 
Act, which I strongly supported. This law declares 2006 to be a 
year of significant transition to full Iraqi sovereignty, with 
Iraqi security forces taking the lead for the security of a 
free and sovereign Iraq, thereby creating the conditions for 
the phased redeployment of U.S. forces from Iraq.
    However, we appear to be moving in the opposite direction, 
with the number of U.S. troops in Iraq scheduled to increase, 
not decrease. That is the only way I think you can fairly 
consider the decision with respect to 172nd Stryker brigade.
    So, Mr. Chairman, as we return to our States for the August 
recess, our constituents have a lot of questions and concerns 
about the current state of affairs in both Iraq and 
Afghanistan. I do not need to remind any of us that we continue 
to lose our young men and women, 120 from New York alone.
    Besides the U.S. losses, violence does seem to be 
increasing. From January to June of this year, there were 
14,338 Iraqi civilian casualties, at least as far as anyone can 
count. In May and June alone, more than 5,000 deaths and 5,700 
injuries. In a July 22 article in The New York Times, General 
Abizaid was quoted as saying: ``2 months after the new Iraqi 
government took office, the security gains that we had hoped 
for had not been achieved.''
    Then there was the big ballyhooed announcement of forward 
together and the commitment by the new Iraqi government to 
secure Baghdad. Two months into that, it is clear it is not 
working and we are now putting in more American troops and, 
following the lead of Senator McCain's line of questioning, we 
are moving them from other places that are hardly stable and 
secure.
    In Afghanistan, your administration's credibility is also 
suspect. In September 2002 you said the Taliban are gone. In 
September 2004, President Bush said the Taliban no longer is in 
existence. However, this February Defense Intelligence Agency 
(DIA) Director Lieutenant General Maples said that in 2005 
attacks by the Taliban and other anti-coalition forces were up 
20 percent from 2004 levels and these insurgents were a greater 
threat to the Afghan government's efforts to expand its 
authority than at any time since 2001. Further, General 
Eikenberry made a comparable comment with respect to the 
dangers that are now going on in Afghanistan and the failure to 
be able to secure it.
    Obviously, I could go on and on. A recent book, aptly 
titled ``Fiasco,'' describes in some detail the decisionmaking 
apparatus that has led us to this situation.
    So, Mr Secretary, when our constituents ask for evidence 
that your policy in Iraq and Afghanistan will be successful, 
you do not leave us with much to talk about. Yes, we hear a lot 
of happy talk and rosy scenarios, but because of the 
administration's strategic blunders and frankly, the record of 
incompetence in executing, you are presiding over a failed 
policy.
    Given your track record, Secretary Rumsfeld, why should we 
believe your assurances now?
    Secretary Rumsfeld. My goodness. First, I tried to make 
notes and to follow the prepared statement you have presented. 
First of all, it is true there is sectarian conflict in Iraq 
and there is a loss of life, and it is an unfortunate and 
tragic thing that is taking place. It is true that there are 
people who are attempting to prevent that government from being 
successful, and they are the people who are blowing up 
buildings and killing innocent men, women, and children, and 
taking off the heads of people on television, and the idea of 
their prevailing is unacceptable.
    Second, you said the number of troops were wrong. I guess 
history will make a judgment on that. The number of troops that 
went in and the number of troops that were there every month 
since and the number of troops that are there today reflected 
the best judgment of the military commanders on the ground, 
their superiors, General Pace, General Abizaid, the civilian 
leadership of the DOD, and the President of the United States.
    I think it is not correct to assume that they were wrong 
numbers. I do not think the evidence suggests that, and it will 
be interesting to see what history decides. The balance between 
having too many and contributing to an insurgency by the 
feeding of occupation and the risk of having too few and having 
the security situation not be sufficient for the political 
progress to go forward is a complicated set of decisions, and I 
do not know that there is any guidebook that tells you how to 
do it. There is no rule book, there is no history for this. The 
judgments that have been made have been made by exceedingly 
well-trained people, the gentlemen sitting next to me, the 
people on the ground in Iraq. They were studied and examined 
and analyzed by the civilian leadership and by the President 
and they were confirmed.
    So I think your assertion is at least debatable.
    The idea that the army was disbanded I think is one that is 
kind of flying around. My impression is that to a great extent 
that army disbanded itself. Our forces came in so fast. It was 
made up of a lot of Shiite conscripts who did not want to be in 
it and thousands, or at least many hundreds of Sunni generals, 
who were not about to hang around after Saddam Hussein and his 
sons and administration were replaced. The work to build a new 
army has included an awful lot of the people from the prior 
army and it has benefited from that.
    Third, the assertion that the government rejected all the 
planning that had been done before is just simply false. That 
is not the case. The planning that had been done before was 
taken into account by the people who were executing the post-
major combat operations activities.
    The comments about Baghdad I will possibly let General 
Abizaid comment on. The goal is not to have U.S. forces do the 
heavy lifting in Baghdad. There are many more Iraqi forces in 
Baghdad. The role of the U.S. forces is to help them, to 
provide logistics, to assist them as needed, and to create a 
presence that will allow the Iraqi security forces to succeed, 
and then as our forces step back allow the Iraqi security 
forces to be sufficient to maintain order in the city.
    I cannot predict if it will work this time. It may or it 
may not. It happens to represent the best judgment of General 
Casey, General Chiarelli, and the military leadership, and 
General Abizaid and General Pace and I have reviewed it and we 
think that it is a sensible approach, as General Abizaid 
testified earlier.
    As for Afghanistan, I do not know who said what about the 
Taliban are gone, but in fact, the Taliban that were running 
Afghanistan and ruling Afghanistan were replaced, and they were 
replaced by an election that took place in that country. In 
terms of a government or a governing entity, they were gone and 
that is a fact.
    Are there still Taliban around? You bet. Are they occupying 
safe havens in Afghanistan and other places--correction, in 
Pakistan and other places? Certainly they are. Is the violence 
up? Yes. Does the violence tend to be up during the summer and 
spring, summer and fall months? Yes, it does, and it tends to 
decline during the winter period.
    Does that represent failed policy? I do not know. I would 
say not. I think you have an awful lot of very talented people 
engaged in this and the decisions that are being made are being 
made with great care, after a great deal of consideration. Are 
there setbacks? Yes. Are there things that people cannot 
anticipate? Yes. Does the enemy have a brain and continue to 
make adjustments on the ground, requiring our forces to 
continue to make adjustments? You bet. Is that going to 
continue to be the case? I think so.
    Is this problem going to get solved in the near-term about 
this long struggle against violent extremism? No, I do not 
believe it is. I think it is going to take some time. I know 
the question was some wars lasted 3 years, some wars lasted 4 
years, some wars lasted 5 years. The Cold War lasted 40-plus 
years. This struggle against violent extremists who are 
determined to prevent free people from exercising their rights 
as free people is going to go on a long time and it is going to 
be a tough one.
    That does not mean that we have to spend the rest of our 
lives as the United States Armed Forces in Iraq. The Iraqis are 
going to have to take that over. We cannot want freedom more 
for the Iraqi people than they want for themselves. Senator 
Thune mentioned earlier about that issue.
    I would point out the number of tips that have been coming 
from Iraqi people have been going up steadily. They are at a 
very high level and it does suggest to me that the Iraqi people 
do want to have a free country, as I mentioned because of their 
voting patterns.
    So I would disagree strongly with your statement.
    Senator Clinton. Mr. Secretary, I know you would and I know 
you feel strongly about it, but there is a track record here. 
This is not 2002, 2003, 2004, 2005, when you appeared before 
this committee and made many comments and presented many 
assurances that have, frankly, proven to be unfulfilled.
    Secretary Rumsfeld. Senator, I do not think that is true. I 
have never painted a rosy picture. I have been very measured in 
my words, and you would have a dickens of a time trying to find 
instances where I have been excessively optimistic. I 
understand this is tough stuff.
    Senator Clinton. Mr. Chairman, I would like unanimous 
consent to submit for the record a number of the Secretary's 
former comments. Also, may we keep the record open for 
additional questions?
    [The information referred to follows:]
      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    Chairman Warner [presiding]. The record will remain open 
until the close of business today for all members to contribute 
additional questions.
    Senator Clinton. Thank you, Mr. Chairman.
    General Pace. Senator, may I go on the record, sir?
    Chairman Warner. Yes, of course.
    General Pace. Thank you, sir. I think it is very important 
that I as Chairman, having been Vice Chairman since October 1, 
2001, having been part of the dialogue, having worked closely 
with General Franks, General Casey, General Abizaid, all the 
Joint Chiefs: The numbers of forces that have been requested up 
the chain of command have been thoroughly discussed, the pros 
and cons or the balance, what was needed, how we might provide 
it, the equipment, the tactics of the major operations, all of 
those things have come up through the Joint Chiefs. We have 
given our best military advice.
    The collaborative nature between our leaders here in 
Washington and those in the field is as thorough and complete 
as I can imagine. I have personally been part of each of those 
decisions and I want to go on record as saying that I along 
with the Joint Chiefs have been, continue to be, part of the 
decision process, and everything to my knowledge that we have 
ever asked for with regards to equipment or personnel has been 
provided to us.
    Chairman Warner. Thank you very much, General.
    Again, I have listened to this very important colloquy, but 
I do believe, Mr. Secretary, having followed this, as is my 
responsibility, these many years, I think both Secretary 
Rumsfeld, your predecessor General Myers, and you, General 
Pace, have always made statements which were in balance and 
definitely indicating the seriousness of the conflict and the 
fact that it is going to be a long and a drawn-out one. Our 
record has many entries in it to the effect that the President 
and the Secretary of Defense have relied upon the advice of the 
senior military commanders in structuring those force levels.
    We will be happy to include in the record some material of 
our own on that point. I think, given the number of questions 
coming about the record, we will hold the record open until 
close of business on Friday.
    Senator Dayton.
    Senator Dayton. Thank you, Mr. Chairman.
    I want to thank sincerely each of you for your service to 
our country. I know that all of you live with enormous demands 
of your positions and the conditions around the world. With 
respect, we and more importantly the American people deserve to 
be told, I think more candidly perhaps than we have so far, why 
the Iraqis remain incapable of succeeding in Iraq and, since 
our success is predicated on their success, what we and they 
are going to do about it.
    Secretary Rumsfeld, you said in your remarks that you 
remain confident in the good common sense of the American 
people, and I agree with you that confidence is well-placed. 
The American people can tell the difference between succeeding 
and failing. They perceive, I think correctly, that the Iraqis 
are failing in Iraq and that our courageous troops continue to 
bear the brunt of the Iraqi failures, and that the realities 
there overall are getting worse, not better.
    I believe that all of you are mistaken to cast the failures 
in Iraq as a test of our citizens' will and resolve. I think it 
is unfair to the American people to do so.
    I respectfully disagree with your assertion, General Pace, 
that most Americans are not affected by this war every day. 
Most of them lived through September 11, 2001, as you did and 
we did. They remain profoundly affected by it. They accepted 
the President's assertion that the United States invasion of 
Iraq was essential to protect our national security, that 
Saddam Hussein possessed WMD, as the President and the Vice 
President said, that immediately and urgently threatened the 
United States.
    The American people continued to support the war even after 
no WMD were found, even when their sons and daughters and 
husbands and wives, as you said, General, over a million of 
them, have been sent halfway around the world, risking their 
lives, giving their lives, to carry out the orders of their 
commander in chief.
    It is not their will, the will of the American people, that 
is being tested. It is their tolerance for failure. Over 2,600 
Minnesota National Guard's men and women are now serving in 
Iraq. They are away from their families for 18 months. Some of 
them will never return alive. They come from 80 of Minnesota's 
87 counties. They are the best and the brightest in their 
communities. So it is not just their families, but it is entire 
communities that are affected by their absences.
    So those families and their fellow citizens deserve to know 
when the Iraqis are going to be able to take over 
responsibility civically, militarily, and security so that they 
can come home when the victory that they achieved when they 
toppled the Saddam Hussein regime is secured.
    I have attended, as all of my colleagues have, I am sure, 
far too many funerals and wakes in Minnesota, where hundreds 
and even thousands of grateful and grieving citizens attend. 
Every one of those funerals is a leading news story in all of 
the statewide media.
    So the people of Minnesota and I believe this country are 
asking us, both you and us, their leaders, to tell them what is 
really going on there, not with political spins from either 
side of the aisle, but the truth, the basic facts: What is the 
situation in Iraq? Why is it seemingly getting worse, not 
better, as evidenced, as others have said, by the need to bring 
more U.S. troops into the capital city of Baghdad? What is our 
strategy? What is our strategy for reversing that slide? What 
is the solution to getting the inability of the Iraqis--I 
remember being with General Petraeus in Iraq in December 2004. 
He talked candidly there about how it was the most difficult 
situation he had ever faced in his career trying to train these 
forces to stand up, not to the American Army, but to their 
fellow citizens, to these insurgents, some terrorists, but we 
are told again and again, at least in most of the briefings, 
95-plus percent of the violence is generated by indigenous 
Iraqis.
    So their standing up--their inability to stand up to their 
fellow citizens has caused, according to the reports that I 
have read, some 850,000 Iraqi citizens to flee the country 
because they cannot even go to work every day, cannot go to 
school, without basic security.
    Again, by the indicators that I can look at, they are 
mixed, but predominantly this is a failed effort by the Iraqi 
people and it continues to be. When are we going to see some 
indications of their ability to succeed, and if not what are we 
going to do about it? Mr. Secretary, I will ask you and then 
others to respond.
    General Abizaid. Senator Dayton, thank you. I disagree. I 
believe the Iraqis are capable of succeeding. I believe they do 
want to succeed. I believe they are honorable people who want 
to live a better life and have security for their children, 
just like we do.
    These forces of extremism are strong. They are very 
ruthless. They are well-connected, not only inside Iraq but 
globally, and they present a formidable force that has to be 
dealt with.
    We are not operating in the region in some sort of a 
battlefield where the enemy does not exist. The enemy exists in 
Iraq. It exists in Afghanistan, Pakistan, Saudi Arabia, Egypt, 
Jordan, and in Lebanon. You name the location in the region and 
they exist there.
    People say the war started on September 11, 2001, but you 
can make a case for the war having started in October 1983 when 
Hezbollah destroyed the Marine barracks and killed over 200 
American marines that were stationed there. You could say the 
war played itself out to a certain extent at a lower level in 
Somalia, where we stayed there for a short period of time and 
then left. You could say that throwing a few Tomahawk land 
attack missiles (TLAMs) at this enemy created the circumstances 
by which we had to end up facing this enemy with greater force 
and greater perseverance and greater patience and courage than 
we had been able to muster before then.
    This is a very serious problem that requires the 
application of our national might and will along with that of 
the international community to face down the extremist threat, 
whether it is sponsored by Iran or whether it comes from al 
Qaeda, or we will fight one of the biggest wars we have ever 
fought.
    WMD may not have been found in Iraq, but this enemy is 
trying to develop WMD. We know that from just looking at any 
unclassified Web site you want to look at. They are working at 
it day after day and they want to use it against us, and we can 
simply not walk away from this enemy until the people in the 
region have the capacity to deal with it themselves, and they 
want to do that.
    We have to shape the environment that allows them to help 
themselves. It is a slow process. When I think of how long it 
took us to win the American Revolution and then to solidify our 
own independence and freedom through the Constitution and 
eventually through our own Civil War, this is not an easy task. 
This is a very difficult task.
    I think we should give the people in the region credit for 
wanting to live a better life and achieve greater security and 
stability. We have to help them if we are going to keep our own 
children safe from the greater dangers that lurk out there.
    Senator Dayton. General, I do not say this is about walking 
away from the enemy. I think it is a very unfair 
characterization. I can say I voted against the resolutions to 
set a timetable to begin to drawdown troops. I have gotten a 
lot of heat back home. So be it, because I agree the military 
command needs to decide what force level is necessary to carry 
out the mission that they are assigned by their Commander in 
Chief, and I am not going to second-guess that.
    But I express the concern that the force level is going to 
remain there indefinitely because of the incapacity of the 
Iraqi society. I recognize that, after living 25 years under a 
severe dictatorship, that it takes some time. But we heard 
testimony last week from Iraqis that the health ministry is 
more corrupt than it was under Saddam Hussein. The amount of 
electricity in Baghdad we are told is 8 hours a day. I was 
there with the Chairman in July 2003. As you well know, sir, 
being there, when you get 115 degree temperatures and no air 
conditioning and no running water and no sanitation and no 
refrigeration, you have a crisis on your hands. People, as I 
said earlier, cannot go to work without fearing and they are 
fleeing.
    So again, you cannot paint it all one way or the other, but 
it seems to me that the incompetence, the corruption, and the 
incapacity of the Iraqi forces, despite our 3 years of the best 
training forces we have capable--when you can train Americans 
in 8 weeks of basic training to go over and perform, to me it 
is inexplicable that after 3 years they cannot take more 
responsibility than they have so far.
    Again, if you extrapolate from those 3 years so far to a 
decade, the prediction that we would have to have a sizable 
force level there for a decade is a moderate, even an 
optimistic prediction. I mean, are we going to be there for a 
decade or 2 decades at this kind of force level in order to 
hold that country together?
    Secretary Rumsfeld. Certainly no one anticipates having 
forces in Iraq at these levels in a decade, and the Iraqi 
security forces, as I say, have gone from zero, they have been 
trained and equipped up to 275,000. They are going to complete 
325,000 by the end of this year. I do not know what the new 
government will say is the appropriate number. Maybe that 
number, maybe something more.
    But then the support systems and the strengthening of the 
ministry will be required as that is occurring. I think that 
your characterization is going to prove to not be correct.
    Senator Dayton. I am sorry; which characterization, sir?
    Secretary Rumsfeld. That they could be there up to a 
decade.
    Senator Dayton. I hope it is not. That is not my 
characterization. It is that of others.
    Chairman Warner. Thank you very much, Senator.
    Senator Dayton. Thank you, Mr. Chairman.
    Secretary Rumsfeld. Mr. Chairman, something came to my 
attention that I would like to just comment on. We were 
discussing the reset costs early on.
    Chairman Warner. In the interim I have gotten some material 
to put in the record that documents it. But I think it is 
important----
    Secretary Rumsfeld. Good. I would just like to say----
    Chairman Warner.--that we at this point continue our 
colloquy on that, and that that part of your response be 
inserted in the record.
    Please.
    Secretary Rumsfeld. Yes, Mr. Chairman. The reset costs have 
historically been in supplementals, not in the original 
budgets. The President's budget request for fiscal year 2007 
contained $50 billion request for a supplemental allowance or a 
bridge fund. This bridge fund is intended to partly cover 
fiscal year 2007 reset costs. I say partly because we fully 
expect to request additional supplemental funds in the spring, 
as we have in prior periods.
    Reset costs have always been funded in supplementals. The 
$13.1 billion in the Stevens amendment as I understand it is an 
advance payment on reset costs that would be covered in the 
spring supplemental.
    Chairman Warner. Thank you. I have done this research and 
we will put this in the record. I am going to address a 
document dated August 2 from the Executive Office of the 
President, and it reads as follows. It clearly in my judgment 
supports your statement that you have been in constant 
consultation with the OMB on this important issue. This 
document reads in part, and I will put the whole document in 
the record: ``The administration welcomes the committee's 
strong support for our troops fighting in the war on terror. 
The funds provided are critical to continuing operations in 
Iraq and Afghanistan while keeping our military well-equipped 
and ready to respond. The administration urges the Senate to 
fully support the procurement request to provide full funding 
for Afghan and Iraqi forces to enable them to assume full 
responsibility for their own security and fully fund our 
coalition support, to ensure timely reimbursement of critical 
partners.''
    Now, this is right on point: ``The administration supports 
the Senate's acceleration of $13.1 billion into the bridge that 
would have been requested next year in the spring supplemental, 
bringing the total level of bridge funding in this bill to 
$63.1 billion. This action will facilitate the needed resetting 
of the Armed Forces to continue their important missions and 
provide needed certainty to military planners. This additional 
funding is necessary to accelerate planned efforts to repair or 
replace war-damaged equipment''--the point that you addressed, 
General Pace. ``In particular, these funds address Army and 
Marine Corps depot and unit maintenance requirements and 
procurement needs, including Abrams, Bradley, Apache, and other 
helicopters, tactical vehicles, trailers, generators, and 
bridge equipment.''
    This is a document that I will also insert, which states 
the OMB funding levels, and they were followed by the 
Appropriations Committee in that amendment. So that will be 
placed in the record as I stated, and I thank the Secretary for 
bringing that to our further attention and clarifying it.
    [The information referred to follows:]
      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    Chairman Warner. I will also put in a memorandum that I 
have had prepared giving the chronological history of this 
funding.
    [The information referred to follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    Chairman Warner. I see that we are now joined by several 
colleagues. Senator Dayton having finished his testimony, 
Senator Chambliss, you are now recognized.
    Senator Chambliss. Thank you very much, Mr. Chairman.
    Gentlemen, thank you all for being here. As always, General 
Pace----
    Chairman Warner. Excuse me, Senator Chambliss, the 
colleague to your left has indicated to the chair that he has 
to depart to preside over the Senate.
    Senator Graham. At noon, but I can defer.
    Senator Chambliss. Well, go ahead. That is fine with me.
    Chairman Warner. I thank you, Senator Chambliss.
    Senator Graham.
    Senator Graham. It just speaks well of Georgia, that is all 
I can say, just nice people in Georgia.
    Senator Chambliss. This will cost him, Mr. Chairman.
    Senator Graham. It will. I know I am going to pay a heavy 
price for this.
    Gentlemen, thank you for coming, and I think it is 
important to be here and publicly talk about the war and what 
is going right and what is going wrong. But let us do 
Insurgency 101. The political situation in Iraq, Mr. Secretary, 
I think has dramatically improved. We have a government 
constituted, made up of all three groups. People voted in high 
numbers. That is something we should be proud of.
    I was with Senators Chambliss, Cantwell, and Biden on 
December 15, the national voting day. It was something to 
behold. So I would like to put on the record that the Iraqi 
people are very brave. They went to vote that day with people 
shooting at them, and they voted in larger numbers than in our 
primary in South Carolina. So the Iraqi people really have 
sacrificed a lot to get to where they are at now and I would 
like to see them get this process completed on their terms, not 
the terrorists' terms.
    But when it comes to the Sunni insurgents, how many do we 
believe there are and who is their leader?
    General Abizaid. I think the number of Sunni insurgents is 
consistent with the intelligence estimates of at the bottom 
side around 10,000, up to around 20,000. There is no distinct 
group that is in charge of it.
    Senator Graham. What is their goal?
    General Abizaid. It all depends on which group it is from 
within the Sunni insurgency. If it is the former Baathists, it 
is to come back to power. If it is al Qaeda, it is to establish 
chaos so that they can achieve a safe haven in the region. Then 
there are other various groups within the Sunni community, that 
keep violence on the table because they feel that it is the 
only thing that they have to negotiate with against the other 
communities' advantages that they see that have grown at their 
own expense.
    Senator Graham. On the Shiite side, what is the goal of the 
Shiite insurgency and how many do we think they are?
    General Abizaid. Senator, I think it is not quite what I 
would call a Shiite insurgency.
    Senator Graham. What would you describe it?
    General Abizaid. I think there are Shiite extremist groups 
that are trying to ensure that the Iraqi government as voted 
fails and that they become ascendant, and you see this within 
parts of the Jesh-al-Mahdi under Muqtada Sadr.
    Senator Graham. How many people are in that camp?
    General Abizaid. I think that those numbers are difficult 
to quantify because there are parts that are in various militia 
groups and there are other parts that are actively working 
against the government. But I think the number is in the low 
thousands.
    Senator Graham. Al Qaeda, after Zarqawi's death how would 
you rate their capability and their makeup in terms of numbers?
    General Abizaid. Al Qaeda is significantly depleted. I 
think their numbers are less than 1,000. I think they are a 
tenacious and cellular group that needs continued work, but we 
are making good progress against them and we will continue to 
make good progress against them.
    Senator Graham. The reason I bring this question up is when 
you add up all the numbers we are talking maybe less than 
30,000 people, 40,000 people. The question for our country and 
the world at large is how can we let 40,000 people in a nation 
of--how many million in Iraq?
    General Pace. 25, 26 million.
    Senator Graham. 25 million. Why cannot 200,000 armed people 
working together contain 30,000 or 40,000?
    Secretary Rumsfeld. A couple of comments. One, it is a 
country the size of California, I suppose, and it is a heck of 
a lot easier to go around killing innocent men, women, and 
children and hiding without uniforms and not in any organized 
military activity which another military could go address--
    Senator Graham. That goes to the point, it seems to me, 
that if the 25 million were united against the 40,000 that they 
would not put up with this. So it seems to me that the country 
is not united, because if you had 25 million people minus 
40,000 that were on one side of the ledger versus the 40,000 
this thing would come to an end overnight.
    There is something more going on in Iraq at a deeper level 
from a common sense perspective for this violence to be 
sustained so long and grow, not lessen. What do you think that 
something is?
    General Pace. Sir, I think you are fundamentally correct 
that if the Iraqi people as a whole decided today that, my 
words now, they love their children more than they hate their 
neighbor, that this could come to a quick conclusion. Many, 
about 4,500 to 5,000 per month, are currently feeding tips to 
their government and to our Armed Forces about potential 
aggressive movements.
    We need the Iraqi people to seize this moment. We provided 
security for them. Their armed forces are providing security 
for them and their armed forces are dying for them. They need 
to decide that this is their moment.
    Senator Graham. Well said. The question for the American 
people I think as we go forward: Will they ever seize this 
moment any time soon? I would like each of you to give me an 
evaluation as to whether or not the 25 million less 40,000 will 
seize this moment any time soon, and what is the general view 
of the average Iraqi on the street about our military presence 
and the role that we are playing in their future? Are they more 
supportive or less supportive of us being there now than they 
were a year ago? I would stop there.
    General Pace. Sir, I think they will seize the moment. I do 
not know how soon that will be. I think the Iraqi people need 
to get to the point where the amount of pain they are 
inflicting on each other goes beyond their ability to endure. I 
do not have, based on my upbringing, an understanding of how 
much they can endure or how their society accepts that kind of 
violence.
    But clearly there is a point in time where the amount of 
violence that they are inflicting on each other is going to 
reach the point where they are fed up with it and they stand up 
to be counted. I cannot tell you when that moment is, but I do 
know that Prime Minister Maliki and his team, his cabinet, 
those who have been elected as part of their parliament, are 
the leaders of that nation and are standing up to this 
challenge and are working with their people to get to that day.
    Senator Graham. Has the Iraqi public turned against us or 
are they still with us?
    General Pace. I think they would like us to leave, but not 
before it is time. I think that they are still with us, but 
they would like, as we would like, to have foreign troops off 
their soil.
    Senator Graham. Mr. Secretary?
    Secretary Rumsfeld. It is an interesting question. I think 
back over the several years and the situation has evolved 
unquestionably. The Kurds were and remain very supportive of 
our presence, concerned that we would leave. The Shiite in many 
instances were pleased with the opportunity to assert their 
majority over the country that was provided by our presence. 
The Sunni clearly were powerfully against our presence.
    More recently, the Sunnis see the role of the Shiite, they 
see influence of Iran, and they are less powerfully against our 
presence. The Kurds remain where they are and the Shiite, if 
one talks to the elected leader of the country, who represents 
the Shiite coalition, it is very clear in his mind that it 
would be very harmful to him and to his administration and to 
the country were we to leave precipitously. So it is something 
that has evolved.
    General Abizaid. Senator, I would certainly agree with the 
way General Pace characterized it. We took a society like this 
and we turned it like this [indicating], and now it is moving 
like this, and there is a tremendous amount of friction 
associated with those moves. It is a society that must either 
move towards equilibrium or towards breakup.
    Senator Graham. What do you think will happen?
    General Abizaid. I think it will move towards equilibrium.
    Senator Graham. How long?
    General Abizaid. I think it will move towards equilibrium 
in the next 5 years. That does not mean that we need to keep 
our force levels the way they are, but I am confident that the 
Iraqi security forces, with good governance, coupled together, 
will bring the country towards equilibrium because the 
alternative is so stark. They have had the experience of 
Lebanon. All you have to do is go ask the Lebanese how long a 
civil war will last and you will know that you must move 
towards equilibrium.
    Senator Graham. Thank you all.
    Chairman Warner. Thank you very much.
    Senator Bill Nelson.
    Senator Bill Nelson. Thank you, Mr. Chairman.
    Gentlemen, thank you for being here. General Abizaid, the 
Special Inspector General for Iraq Reconstruction (SIGIR) 
report last month stated that corruption is costing $4 billion 
per year. The U.S. Comptroller General, David Walker, testified 
that 10 percent of Iraq's refined fuels and 30 percent of its 
imported fuels were being stolen.
    Can you explain in your strategy how it is tailored to 
prevent the corruption and theft of the investments and the 
Iraqis' own resources as we get into the reconstruction?
    General Abizaid. Senator, clearly corruption is endemic in 
this part of the world. It was very heavily part of Saddam's 
society. It continues to be part of the current Iraqi society, 
but I believe that there are many forces within Iraq that 
recognize the problem, that the good governance that will 
emerge from representative government and accountability will 
over time move this in a positive direction.
    I think that corruption in this part of the world is one of 
the great corrosive influences that causes extremism to 
flourish and in order to be successful against the extremists 
governments must be held more and more accountable, and I 
believe this Iraqi government will be held accountable by their 
people over time.
    Secretary Rumsfeld. I would add one other thing, Senator 
Nelson, if I might. One of the real problems in my view has 
been the fact that historically the Iraqis have been paying a 
very small fraction for their fuel of what the market price is. 
So as we all know, it ought not to be a surprise, if you can 
buy it at that price you can immediately take it across the 
border and sell it for a higher price, and that has been a 
problem because the government has been--is now in the process 
of raising the price towards the market price, has not gotten 
there, but is in that direction.
    But in the mean time, it is very damaging and it does lead 
to corruption.
    Senator Bill Nelson. The SIGIR's report stated the 
deteriorating security situation has had a particularly 
deleterious effect on the establishment of our Provincial 
Reconstruction Teams (PRTs), only five of which have begun 
operations in Iraq. They went on to tell how the concept, the 
PRT concept, had worked well in Afghanistan and it was thought 
to be a key component in the Iraq reconstruction strategy.
    So General Abizaid, in your discussions with the Iraqi 
government and our State Department, what is your thinking in 
the strategy to implement the PRT in every province to aid in 
the transition?
    General Abizaid. The PRTs are the strategic responsibility 
of the Ambassador and I think it is too soon to say that they 
have not been successful. I was in Mosul the other day and I 
talked to the PRT up there and it was clear to me that they 
were making good progress, that they had good access to the 
Iraqi provincial leadership. In other parts of the country, the 
vast majority of the country, by the way, which is fairly 
secure and fairly stable, the PRTs will over time gain more 
access and become more efficient.
    Certainly in those areas around Baghdad where the sectarian 
violence is extreme it is difficult for the PRTs to do the 
work. But I am confident that the strategy that the Ambassador 
has adopted to move the PRTs forward will be successful, 
especially provided that the other agencies of the U.S. 
Government, U.S. Agency for International Development (USAID), 
State Department, et cetera, provide their manning in those 
teams and give them the strength that they are capable of 
giving it.
    Senator Bill Nelson. How committed do you think Maliki is 
to disbanding the militias?
    General Abizaid. Sir, I have talked to him personally about 
it. General Casey talks to him almost every day about it. He 
has conveyed time and time again that he is committed to it. I 
believe that to be the case.
    Senator Bill Nelson. What are the prospects that people 
like Sadr and Hakim and Hashemi will disband their militias?
    General Abizaid. I think that the prospects of the militias 
over time disbanding are good.
    Senator Bill Nelson. What is that time frame?
    General Abizaid. I am not sure I could say. I think the 
Prime Minister is in the middle of working with his cabinet--he 
has only been there for 3 months--to figure out how he is going 
to move towards militia disbandment. In Afghanistan it has 
taken us a long time to move in that direction. It is a long 
process, depending upon how dangerous the militia is to the 
state. Those that are benign or that are working in conjunction 
with the state to provide some additional security do not need 
to be disbanded right away. Those that are sponsoring death 
squads need to be dealt with immediately.
    Senator Bill Nelson. Is that the key, the disbanding of the 
militias, to the preventing of the sectarian violence that you 
testified to from going into all-out civil war?
    General Abizaid. Senator Nelson, I said in my opening 
statement that militias are the curse of the region and they 
are. Whenever non-state actors have the attributes of the 
state, yet bear no responsibility for their actions, it brings 
the region into very unpredictable directions, as you see 
Hezbollah moving with regard to inside of Lebanon. So it is 
very important that militias be controlled, but it is not 
something that can be achieved easily overnight. But it is 
something that has to be accomplished.
    Senator Bill Nelson. Are they the biggest part of stirring 
up the sectarian violence that you testified about?
    General Abizaid. In my opinion, yes.
    Chairman Warner. Thank you, Senator, very much.
    Senator Bill Nelson. Thank you, Mr. Chairman.
    Chairman Warner. Colleagues on my side, Senator Chambliss 
had begun his questions when he had to be interrupted. I would 
like now to recognize you for your full time.
    Senator Chambliss.
    Senator Chambliss. Thank you, Mr. Chairman.
    Again to all three of you, thank you for your service and 
your great leadership. General Abizaid, General Pace, when you 
see your troops on the ground just let them know how much we 
appreciate the great job they continue to do. I am always very 
humble to be in their presence.
    Let me give you my quick assessment. It is more complex 
than the way I am going to lay it out there, but here is what I 
see having happened in the 3-plus years that we have been 
involved in this conflict. We started out with a basic ground 
war, which we moved very quickly toward Baghdad. Then we began 
to face the nonconventional enemy out there and the IEDs and 
the vehicle-borne improvised explosive devices (VBIEDs) became 
a major factor. They are still a major factor, but the fact is 
that we are not seeing that type of conflict directed towards 
the American soldier now as much as we had been in the past.
    So it is pretty obvious we have done something right, both 
in the original ground war as well as our defense against the 
enemy from an IED standpoint. I do not think we talk about that 
enough, and I want you to comment on that.
    But now we are in kind of another phase, where the violence 
is primarily being directed toward the Iraqi people, a lot of 
intimidation, a lot of threats, and they are not just idle 
threats. They are being carried out. We are seeing gangland-
style executions. We are seeing literally gangs of individuals 
numbering from 12 to 25 coming in and, for example, going into 
the Olympic committee meeting and taking hostages, an entirely 
different type of reaction.
    When Senator Levin said that Mr. Talabani said that this is 
their last quiver, I am not sure whether it is their last 
quiver or not, but it is pretty obvious that we have done some 
things right and we have forced them to change their tactics.
    Now, obviously we cannot talk about, in an open hearing, 
what we are doing relative to this new type of tactic. But can 
you comment on that type of assessment and can you talk about 
some of the things that we have done right relative to the 
IEDs, and what are we doing relative to this new type of 
offensive that is coming from the insurgents?
    General Abizaid. Senator, I think it is very clear to us 
that, if you look at the recent experience that the Israelis 
are having as they operate in Lebanon and you look at how other 
armed forces, say Pakistani armed forces, operate in their 
northern territories, that asymmetric warfare is here and with 
us and it is the warfare of the 21st century, where the enemy 
seeks to attack the weaknesses of their opponent and where they 
will attempt to win media victories as opposed to military 
victories.
    It should go without saying that in 5 years of war we have 
never lost a major engagement to the enemy anywhere in the 
region. Yet there is considerable loss of confidence because 
the enemy is so agile and capable in purveying the notion that 
the situation is not winnable.
    Certainly the IED fight has been a difficult fight and it 
is a fight that we see not only in Iraq, but we see it in 
Afghanistan, and in Pakistan. We see it in southern Lebanon, 
you see it in other places such as in Egypt, where they are 
using IEDs occasionally there as well. Their tactics, 
techniques, and procedures are shared. We are learning a lot 
about it. We have gotten pretty good about it and I think in a 
closed session we could talk to you about some of the great 
successes we have had.
    With regard to other situations with tactics, techniques, 
and procedures that the enemy have applied across the battle 
space, I think we will continue to adjust. Again, I am very 
confident that our forces are not only capable but very 
effective against what the enemy has put against us.
    Senator Chambliss. Senator Graham was talking about the 
fact that it is difficult for the American people to understand 
why 40,000 military insurgents cannot be controlled by 127,000 
or whatever, Mr. Secretary, you said we had over there now, 
plus the Iraqi army. I think the numbers in Lebanon of 
Hezbollah insurgents is probably very insignificant, 
particularly compared to the force. As long as they are moving, 
hostile, and agile, as you refer to them, General Abizaid, it 
is pretty obvious that does present significant problems.
    Lastly, let me just say that Senator Graham referred to our 
trip over there in December. We met with eight members of the 
Iraqi Election Commission, all of whom happened to be Sunnis, 
and every one of them made the comment, unsolicited on our 
part, about the presence of the American soldier. The comment 
was that, do we want to see the American soldier leave, and if 
you ask the Iraqi people that today they would say sure. But if 
you ask, do you want the American soldier to leave today, the 
answer would be overwhelmingly no.
    I think that is borne out in a newspaper story today where 
there are a number of quotes here in the Washington Times from 
Iraqi citizens with regard to the troops, General Abizaid, that 
you put into Baghdad to run the militia out of the various 
neighborhoods, and the fact now that these Iraqi citizens are 
quoted as saying that for the first time in months that they 
are able to come out of their homes now, to reopen their shops, 
and for commerce to once again be present within the city of 
Baghdad, speaks volumes about the American soldier, and there 
are nothing but compliments about the job that the American 
soldiers are doing.
    It still goes back to the fact that they do want us to 
leave, but they do not want us to leave until the job is done. 
So I hope that the Iraqi leadership is right that by the end of 
the year that they are able to take over control of the entire 
country, but in the mean time it is pretty obvious that our 
troops are doing the right things over there today under your 
leadership.
    So with that, thank you. I appreciate it, Mr. Chairman.
    Chairman Warner. Thank you very much, Senator Chambliss.
    Senator Bayh.
    Senator Bayh. Thank you, Mr. Chairman.
    Gentlemen, thank you for your presence here today. General 
Abizaid, I would be interested in your opinion. Some observers 
have commented that there remain unresolved political questions 
for the Iraqis involving their constitution, division of oil 
revenues, that sort of thing, and that this is in significant 
part fueling the insurgencies and the continuing conflict. I 
would be interested in your opinion about whether you think 
that is true and, if so, what you think we can do to keep the 
pressure on the Iraqis to resolve their remaining political 
disputes.
    General Abizaid. Senator, as General Casey has said to me 
on numerous occasions, this conflict has gone from essentially 
insurgency to a discussion within the internal Iraqi groupings 
about the distribution of power, resources, and future control. 
You can approach it one of two ways. One way is by violence, 
the other way is by compromise.
    It is my opinion that the forces of compromise will 
eventually understand that violence gets them nothing and that 
the compromise is absolutely essential, just like we had to 
determine that in our own constitutional mechanisms after our 
own independence. So do I think that they can compromise? I 
think there will be a period of violence. I think that people 
are looking at very severe violence in Baghdad now that can be 
brought under control, and that the constitutional discussion 
they know has to be one of compromise, national reconciliation, 
and sharing of resources.
    If you look at their neighborhood, I think they have all 
come to the conclusion that an Iraq that is not united and 
independent will be one that will be dominated by unfriendly 
neighbors in a way that will be very bad for the Iraqi people, 
and I believe they are determined to hold the country together, 
to stabilize the country, to compromise their way through it. 
But I think it will be a violent period and one that will 
ultimately lead to stability.
    Senator Bayh. So your opinion is that these unresolved 
political disputes are contributing in a material way to the 
ongoing----
    General Abizaid. Certainly they do contribute, but I 
believe that this is part of the resolution process.
    Senator Bayh. Perhaps I can ask both you and the Secretary, 
if he thinks it is appropriate--maybe this is going on behind 
the scenes, but what is keeping them from getting on with this 
business of revisiting the constitutional disputes that 
basically were put off until after the last election? That 
would be number one.
    Number two, Mr. Secretary, perhaps this is appropriate for 
you: Some other commentators have opined that perhaps something 
similar to what happened in Dayton to help resolve the Balkans 
conflict would be appropriate to try and bring this to some 
political closure so that we can deal with this and move on. 
What do you think about that?
    Secretary Rumsfeld. Senator, it is a fair question: What is 
keeping them? They have gone from an election in January of 
last year to the drafting of a constitution, to a referendum on 
the constitution in October of last year, to an election on 
December 15 of last electing these people under the new 
constitution, to a relatively long period of some months, 
longer than we have with an election in early November and then 
finally getting our cabinet put in place some time in February 
or March here.
    They are doing it for the first time and it is a permanent 
government, and the issues are tough. Some of them were 
reasonably intractable. For example, we urged them to not put 
sectarian unskillful ministers in the Ministry of Defense and 
Ministry of Interior, and the Prime Minister-designate fought 
it and fought it and fought it, received a lot of pressure from 
people to put political people in there in a way that did not 
have the competence and did not have--and might have been 
sectarian. He prevailed, he ended up getting people that he 
accepted as being nonsectarian and competent. Time will tell, 
but it showed a lot of courage, but it took time.
    The issued you raised about the constitution were set 
aside. They kicked the can down the road just like we did. We 
still did not have women voting, we still had slavery with our 
original Constitution. So it is not as though those things come 
out perfectly formed in the first 5 minutes. It takes some 
time, and they are going to have to work on them.
    The Dayton process idea, I do not know the answer. All I 
know is that our Ambassador Zal Khalilzad, is in fact trying to 
serve, along with the British officials, a facilitating role in 
encouraging things to move faster, because time hurts. People 
are being killed while that time is being taken and there is no 
question about that.
    But my impression is that our Ambassador is doing a very 
skillful job, with the assistance of coalition countries and 
General Casey, trying to facilitate the different groups 
working out some darn tough issues.
    Senator Bayh. It is understandable why they would not get 
all of these things resolved in the first effort and some were 
postponed. But if, as I think we all agree, this is fueling the 
insurgency, I guess what we are looking for, Mr. Secretary, 
would be a greater sense of urgency and perhaps something of a 
higher profile nature like a Dayton-like process would assist 
the Ambassador with his efforts to really focus the minds of 
the participants as well as the world on, look, we need to get 
this done and the sooner the better, because some of the trend 
lines here, frankly, are not positive.
    Secretary Rumsfeld. Certainly the President and the 
Secretary of State and the U.S. Ambassador and Chief of 
Mission, who worry through those issues, are aware of that 
possibility and I am sure they are considering it.
    Senator Bayh. General, back to you for one moment. You 
mentioned that, and several others have mentioned, we can argue 
about the semantics of what constitutes a civil war, but that 
it is a real possibility if things do not go as we hope. If it 
does come to that, which side are we on?
    General Abizaid. I do not think it is a civil war because 
the institutions of the center are holding, and I believe that 
before we start talking about what we are going to do if there 
is civil war that we do everything in our power to prevent it 
from moving that way, and I do not believe that Iraq will move 
towards civil war as long as we apply the necessary military, 
diplomatic, and political actions necessary to bring the 
Baghdad situation under control in the short-term.
    General Pace. Senator, if I may, both General Abizaid and I 
have been asked if it was possible that this could lead to 
civil war, and the answer is yes, it is possible. Speaking for 
myself, I do not believe it is probable and I do not believe it 
is probable for the exact same reasons that General Abizaid 
just stipulated, which is that the government is holding, the 
army is holding solid and is loyal. When they had the Golden 
Mosque bombing, it was the army, the Iraqi army, that went into 
the streets and helped keep calm. So I do not expect this to 
devolve into civil war.
    Senator Bayh. We all hope that is right, General. But if it 
takes a course that is not as optimistic as we would all like 
to see here and it does come to civil war--the reason for my 
question essentially, if it does come to that, then what is our 
role in the country? Many people would say we would not have a 
role. That is why I asked you which side would we be on. We 
would be put in a very difficult situation where we would not 
want to take sides, but the Iraqis themselves would have chosen 
up sides and at that point the mission would become much 
different.
    Mr. Secretary, my last question, back to you again on the 
Dayton.
    Chairman Warner. Just a minute, Senator. I think you have 
posed a question in your preliminary comments. Is it, or do you 
wish to go to your last question?
    Senator Bayh. My last question, assuming we have--I have a 
couple blue cards here.
    Chairman Warner. I want to make sure the panel had adequate 
opportunity to answer.
    Senator Bayh. Let me pose it as a question, then. If it 
does come to that, do we have a continuing mission in Iraq? If 
the Iraqis themselves have not been able to hold the center and 
they have chosen up sides along sectarian lines, at that point 
do we have a continuing mission in Iraq or not?
    Chairman Warner. That will be your last question, but let 
us give the panel--it is directed to whom? All three?
    Secretary Rumsfeld. I am reluctant to speculate about that. 
It could lead to a discussion that suggests that we presume 
that is going to happen and both General Abizaid and General 
Pace have offered their comments on that. Our role is to 
support the government. The government is holding together. The 
armed forces are holding together. We are functioning in a very 
close relationship with that government in providing them 
assistance in achieving their goals.
    We have seen what happens when governments pull apart, 
militaries pull apart. We saw it in Lebanon and it is not a 
pretty picture. Obviously, that would be a set of decisions 
that the President and Congress and the country would address. 
But I think that beyond that it would be not my place to be 
discussing it.
    Chairman Warner. Thank you, Mr. Secretary. I think that 
disposes of the question unless either of the other witnesses 
want to add any views.
    If not, Senator Sessions.
    Senator Sessions. Thank you, Mr. Chairman.
    One discussion that we have had here and had some votes--I 
think the last vote we had was on the question of whether we 
should set a firm date for pulling out regardless of the 
situation in Iraq. It was voted down 83 to 16 or something to 
that effect.
    Senator Warner made a reference, General Abizaid, to the 
fact that the emotional reactions to the Lebanon situation 
could make the situation more difficult perhaps for our 
soldiers in Iraq. I would like to ask a little bit of a 
different question. It would be, what kind of reaction, what 
kind of impact would there be with regard to the Islamic 
extremists in the Middle East--and you are a student of that 
region. You have spent time in that region as a young person. 
You speak Arabic and you have been with us conducting this Iraq 
war from the beginning. What kind of impact would result if we 
were to precipitously withdraw?
    Would it mollify the extremists? Would it make them say, 
well, the United States is a nicer place and we do not have to 
be so aggressive now? Or would they likely be emboldened and 
empowered and more aggressive?
    General Abizaid. Emboldened, empowered, and more 
aggressive.
    Senator Sessions. In your opinion, would a failure in Iraq 
embolden and empower these radical extremists?
    General Abizaid. Yes, it would.
    Senator Sessions. In your opinion, would setting a fixed 
date regardless of the situation in Iraq for a withdrawal 
embolden or empower the extremist forces?
    General Abizaid. Embolden.
    Senator Sessions. General Pace, this is a matter we have 
discussed. Fortunately it has had very little support in the 
Senate. But there is a political election coming up and people 
float this idea that we should just pull out. You have heard 
General Abizaid's comments. He has been in the region for years 
and been leading this effort. Would you agree with his 
comments?
    General Pace. Sir, I agree with each of General Abizaid's 
responses to each of your questions.
    Senator Sessions. As Senator Warner has said for some time, 
we have asked much of our Nation. We have asked much of our 
soldiers. They have gone willingly. Almost without any single 
objection, they have gone and served in harm's way to carry out 
a policy that this Senate and this Congress has voted for, the 
American people ratified with the reelection of President Bush. 
It was an issue in that election.
    Do you not think we owe it to them to continue to work in 
every way possible to make the sacrifice of those who have gone 
before be successful, General Pace?
    General Pace. Sir, I was in Afghanistan last Thursday and 
Friday. Our troops there are so proud of what they are doing. 
We do owe them and their families the continued support of this 
Nation and especially those who have sacrificed their lives 
that we might live free.
    Senator Sessions. I just hope that we put an end in this 
political season to any suggestion that we may just 
precipitously withdraw without regard to the circumstances 
there.
    General Abizaid. Senator Sessions, what I would like to say 
is the troops that serve in the region are not afraid of what 
is happening there. They would be afraid of what would happen 
if we just precipitously left there.
    Senator Sessions. I heard that repeatedly. On the 
anniversary of the Army, I was with the Army to celebrate that 
day recently and this young guy told me: Senator, we want to be 
successful.
    General Pace, you made reference to the reenlistment rate. 
I am told that our reenlistment rates of National Guard units 
that deploy to Afghanistan or Iraq and return exceed that of 
units who have not gone. Do you think that bespeaks of the 
military's belief that they are doing something that is 
worthwhile and meaningful?
    General Pace. Sir, I think it does. I think that our troops 
know what they are doing. They get it. They are proud of what 
they are doing and, as General Abizaid said, the main question 
they ask is, do the American people support what we are doing? 
When we point to the numerous ways in which the American people 
support it, including what this Congress does to provide 
resources, it reinforces with them the goodness of what they 
have dedicated their lives to do.
    Senator Sessions. We have people say, well, we are spending 
too much on this war, and then they come forward and say, well, 
you did not spend enough, you did not have enough equipment. 
Let us talk about that a little bit, General Pace. I am 
familiar with just one depot, Anniston Army Depot. I know that 
they are vigorously and aggressively hiring new people to reset 
the equipment.
    I was also aware that we did not have enough money 
apparently in this budget to meet the high challenges that we 
were facing with the reset. The DOD blessed the Army's concern 
in that. It was made known to Congress. We just added another 
$13 billion and another amendment by Senator Dodd that would 
allow another $6 billion, allow another $6 billion to meet that 
challenge.
    First I will ask you, do you think we are going to, with 
those funds, will be able to meet that reset problem?
    General Pace. Sir, the money that was just--the $13.1 
billion will meet the current Marine Corps and Army backlogs at 
the depots. It will allow for hiring of the additional shifts 
of skilled workers to get the job done. That is why I mentioned 
before that as best Congress can provide a no-year funding 
stream that the depots can depend on, so they can go out and 
hire workers who know they will have a job for the foreseeable 
future, we can start working off this backlog, sir.
    Senator Sessions. I think you are exactly right and I am 
glad we have taken steps on that, and if we need to do more I 
believe this Congress will meet your demands.
    One more thing. With regard to readiness, I was in an Army 
Reserve unit and they rated us whether we were ready or not in 
the 1970s and 1980s. If you do not have all your vehicles, you 
are not rated ready. When a unit comes off any major 
deployment, particularly coming off a combat deployment, is it 
not inevitable, I think you indicated, that you will not be 
rated ready?
    One of the complicating factors for an effort like we are 
undergoing in Iraq, it seems to me, is units take their 
equipment with them and it is cheaper and smarter to leave that 
equipment over there for the next unit that replaces them. 
Therefore when they get back they may not have the full 
complement of equipment they need to be rated in your strict 
standards of readiness as ready.
    General Pace. Sir, you are exactly right, and the reset 
money has been in the supplementals. The money for the Reserve 
and National Guard to build the 28 fully-manned, trained, and 
equipped brigades that the Army has stipulated they need is in 
the baseline budget to the tune of $21 billion over the next 5 
years.
    Senator Sessions. General Pace, you have been at this quite 
a number of years. Would you say that we are moving to have the 
best-equipped, most ready military the world has ever seen, at 
least this Army in peacetime before this war started, and as we 
go forward are we not better equipped and moving to a way to 
have our Guard and Reserve have the kind of equipment they have 
never had before?
    General Pace. Sir, we are today the best-equipped, manned, 
trained, battle-hardened that we have ever been. With your 
continued support in Congress, we will be able to maintain the 
equipment and replace the combat equipment that has been lost. 
It takes upwards of 36 months from the time you lose a 
helicopter in combat until the time the replacement helicopter 
comes on line. That does not mean that people are not trying to 
do the right thing or that the system is not working. It just 
takes that amount of time for that kind of equipment to be 
identified as lost, put into the budget process, funded, 
contracted, and built.
    Senator Sessions. Thank you very much.
    Secretary Rumsfeld. It argues, Senator Sessions, for the 
possibility of Congress looking at the idea of a reset fund. 
That is to say, if you want to shorten that period of time, the 
time it takes for the analysis as to what has been lost or 
degraded, the time that Congress takes to consider and weigh 
it, the time it takes to place the orders and have the contract 
validated, and then the time it takes to produce it, which is, 
as General Pace said, it can be up to 3 years, if you had a 
reset fund that Congress approved and it was only for those 
purposes, the funds could then be drawn down in a much shorter 
period of time. Depots could plan their hiring earlier and you 
would have the ability to shorten that.
    I guess I have not talked to the OMB about this, but inside 
the DOD we have been talking that there has to be a way to 
shorten that time period, and one of the ways would be for 
Congress to act more rapidly on budgets than happens each year. 
Another way would be for Congress to approve a reset, and 
another way would be for us in the DOD to find a way to try to 
cut in half the period of time it takes to actually let a 
contract and go through that whole procedure.
    If the three of us did those things, it is conceivable we 
could abbreviate that period and solve some of the problem 
General Pace is talking about.
    Senator Sessions. General Pace, just briefly, the idea that 
was stated earlier about a number of our brigades not being 
ready, in your opinion does that misrepresent the status of our 
capability at this time? Would it cause someone to have a 
higher degree of concern than is warranted? I know we want to 
do better. We want every unit to be ready. But is it not 
inevitable that as units transition off combat that there will 
be a period when they do not meet your high standards of 
readiness?
    General Pace. Sir, there will be a period like that. Our 
readiness reporting system has been accurately reported to 
Congress as is required every quarter. We have been talking 
about the need to repair equipment now for about the last year 
to 18 months. So it is not wrong to say that we have equipment 
deficiencies and that we need to spend the money to do that. 
That is an accurate use of the data that is available.
    But if you say to me would I rather have 100 percent of the 
2,000 up-armored Humvees that I thought I needed in 2001 or 50 
percent of the 12,000 up-armored Humvees that I say I need 
today, and which Army is better, I would tell you that, 
although my reporting system would tell you I am now at 50 
percent and therefore command, control, communications, and 
computers (C4), that the Army I have built is three times 
better with regard to Humvees.
    You can multiple that toward hundreds of thousands of end 
items. That is why it is really a kaleidoscope, and to try to 
have a discussion that just lays out exactly precisely what the 
readiness ratings are lends itself to misinterpretation and 
misunderstanding.
    Senator Sessions. Well said.
    Chairman Warner. Thank you very much, Senator.
    Senator Sessions. Thank you.
    Chairman Warner. Senator Collins.
    Senator Collins. Thank you, Mr. Chairman.
    Secretary Rumsfeld. Could I say one other thing?
    Chairman Warner. Oh, yes.
    Secretary Rumsfeld. I am sorry. I apologize.
    Chairman Warner. No, that is all right.
    Secretary Rumsfeld. I think it is important that we be 
careful how we describe the capabilities and the readiness of 
the U.S. Armed Forces. We have multiple audiences and Iran 
listens and North Korea listens and other countries listen, and 
it is important to be precise, it is important to be accurate, 
and it is important to not leave an impression that might 
entice someone into doing something that would be a mistake on 
their part, because we have enormously capable Armed Forces.
    Chairman Warner. Mr. Secretary, I associate myself with 
your remarks. You are absolutely right. Unfortunately, some of 
the remarks have come from your Department from very high-
ranking officials in connection with this budget process. So we 
are trying to do our very best with that.
    Senator Collins.
    Senator Collins. Thank you, Mr. Chairman.
    General Abizaid, Senator Sessions has done an excellent job 
of pointing out the pitfalls of an abrupt withdrawal on a set 
timeline from Iraq. But I want to talk to you about my concerns 
about what our exit strategy does seem to be. It is premised on 
the ability of Iraqi troops to assume full responsibility for 
the security of their country. Over and over again we have 
heard the phrase that as Iraqi forces stand up, our troops will 
stand down. We have heard that time and again.
    Our troops are the best-equipped, the best-trained, the 
best-led in the world, and I am enormously proud of them and I 
have the utmost confidence in their ability to handle any 
mission. Yet sectarian violence is worse than ever in Baghdad 
in particular, and I wonder about the validity of a strategy 
that says that less capable troops that are not as well-
equipped, trained, and led as the best troops in the world can 
handle the security of this country.
    If the upswing in violence has occurred despite the 
presence of the best troops in the world, it does not give me a 
lot of confidence in our underlying strategy, and it suggests 
to me that what we need is a political rather than a military 
solution.
    General Abizaid. Thanks, Senator Collins. I believe you 
have to have a combination of political action and military 
action that moves towards a lessening of the sectarian 
tensions. But I would try to make people that are listening to 
this understand that there is no better troops to deal with the 
sectarian problem than well-led Iraqi troops that are loyal to 
the government. They do not want their nation to fall apart. 
They have a much better intrinsic view of what is happening. 
They have instincts about what goes on within their own culture 
that, as well-trained and as well-equipped as we might be, we 
do not have.
    So I would never sell the Iraqi armed forces short on their 
ability to make a difference. But the Iraqi armed forces must 
be well-led by their military leaders. The military leaders 
must be well-connected with the political leadership and they 
must share a common vision of where Iraq is headed.
    Again, I will emphasize that Prime Minister Maliki and his 
current government is only 3 months old. I believe they very 
much share a vision of a unified Iraq where the armed forces 
will impose its will upon the people of Iraq and defeat the 
insurgency and the groups that are sponsoring sectarian 
violence, especially the terrorists.
    I think that what General Casey has embarked upon, which is 
a very artful form of trying to gauge the capabilities of the 
Iraqi armed forces and at the same time bring down our forces 
so that the Iraqis will do more to defend their own turf, is 
one of the most difficult strategies that any wartime commander 
has ever had to execute. I think he is doing it enormously 
well, and there will come times in the campaign, such as the 
current period, where the sectarian violence is showing us a 
level of concern which means that we have to take the time to 
apply the military pressure necessary, and that Zal Khalilzad 
will help apply the political pressure necessary, to get it 
back on the right path.
    Again, I do not want to be mischaracterized by what I have 
said here today. I am very confident that can be done.
    Senator Collins. The prime minister, one of his very first 
initiatives was the new national security plan. I realize it 
has only been 3 months since he has been in office, but that 
plan does not seem to have been effective in quelling the 
upsurge in sectarian violence. Do you think that it is too soon 
to judge that plan or has it failed?
    General Abizaid. Senator, it is a great question. I do not 
think that the plan has failed. I think what you are seeing is 
an adjustment to a plan that was not working with the speed 
that we had hoped. So General Casey and his commanders are 
adjusting the plan and they are doing it in conjunction with 
the Iraqi commanders.
    Of course, the enemy is attempting to really make the 
sectarian divide become the decisive point at a point in time 
where the Iraqi government has not quite gotten itself together 
yet. I am very confident that over time you will see that the 
Iraqi forces in conjunction with our forces, primarily with the 
Iraqis at the lead, will bring the sectarian problems under 
control.
    Senator, nothing in the Middle East moves in a straight 
line. Things get worse, they get better. The question is 
whether or not the trend line is a trend line that can lead to 
success, and my belief is so far the answer is yes and it will 
continue that way.
    Senator Collins. Thank you.
    Chairman Warner. You go ahead, Senator. Go ahead.
    Senator Collins. Mr. Secretary, yesterday I chaired a 
hearing at which the SIGIR testified. He described massive cost 
overruns, schedule delays, half-completed projects for which 
the money had run out. It was not a pretty picture. It seems 
that everything in Iraq is costing more than was anticipated by 
a considerable amount and, as many of us have discussed, 
earlier this week the Senate added $13.1 billion in emergency 
spending to replace the worn-out equipment that we have 
discussed this morning.
    The chairman mentioned that we have spent some $437 
billion, I believe, over the last 3 years. I think the current 
spending rate is $2 billion a week. There has been an enormous 
cost to this war and an enormous impact on the Federal budget.
    Looking ahead to next year, what are your projections for 
the spending on the war?
    Secretary Rumsfeld. The Iraqi reconstruction is something 
that the Department of State works on and requests funds for. 
You are quite right, there have been a number of inspector 
general reports about open investigations into fraud and 
corruption and the like. There also are a number of projects 
that, because of security problems, have cost a great deal more 
than had been anticipated. As we know, a number of them are 
instances where the insurgents have actually gone in and blown 
up something that had been halfway built, and we have seen that 
happen.
    I do not have a number that I can give you. I know the OMB 
can.
    Senator Collins. I am not talking about the reconstruction 
projects, which I realize are under the State Department 
largely and USAID. I am saying for the DOD, as you look ahead 
to the next year. Many of us believe that the spending for the 
war needs to be part of the regular budget and not just dealt 
with in emergency supplementals. So I am asking you to look 
ahead because we as a Congress need to budget more accurately 
for the cost of the war and we can only do that based on your 
projections.
    Secretary Rumsfeld. I understand. We do not know yet what 
we will get for this year's budget and we do not know what the 
supplemental will be. We do know that we are in the process of 
preparing the budget for next fiscal year, and that it will be 
presented by the President in January. But I can try to get 
back to you for the record to give you something that the 
Comptroller's office at the Pentagon would take out as a 
discrete piece for the DOD's portion, if that would be helpful.
    Senator Collins. That would be. I am just trying to get a 
sense, Mr. Chairman, of whether we can expect indefinitely 
approximately $2 billion a week from our budget to be spent on 
this war.
    [The information referred to follows:]

    Given our current force levels and stability conditions in Iraq and 
Afghanistan, about $2 billion a week is a good estimate of our 
immediate war-related spending, but I certainly would not expect that 
funding level to continue ``indefinitely'' because force levels and 
stability conditions certainly will change at some point.

    Chairman Warner. Senator, that is a question that is 
constantly in the minds of the American people and it is an 
important one. As you well point out, the success of our 
ability to bring about a democracy in this country requires a 
certain amount of infrastructure rebuilding, and that has to be 
done at a constant level and make some progress.
    But as the Secretary said, we take two steps forward and 
all of a sudden we look around and have to take a step backward 
because of the internal disruption.
    Senator Collins. Thank you.
    Chairman Warner. Thank you, Senator.
    I would like to, before calling on Senator Talent, and then 
I want to ensure that the Senator from Rhode Island has an 
opportunity to speak, but our panel of witnesses must appear 
before the whole Senate at 2 o'clock sharp and consequently 
within the period of roughly 1 o'clock to 2 o'clock they have 
other obligations. So it is my hope to conclude this session 
here in a matter of 10 minutes or so.
    Senator Talent, your time is now recognized.
    Senator Talent. Thank you, Mr. Chairman.
    I want to thank all three of you for your service. I was 
going to say----
    General Pace. He will be right back, sir.
    Senator Talent.--in absentia General Abizaid in particular 
for being in that crucible for years.
    Chairman Warner. He got a telephone call.
    Senator Talent. I understand entirely, Mr. Chairman. I will 
direct my questions at the Secretary anyway.
    Mr. Secretary, I agree with an awful lot of what you said 
in your opening statement. I think it is important to remind 
people about what this is about. I agree this is an existential 
struggle and that is how they view it, a struggle for 
existence. I agree that there are no conceivable accommodations 
with them that would cause them to stop attacking us. Just we 
do not have the choice of them not attacking us. They are going 
to attack us. We therefore have to fight the war.
    I also agree that the war in Iraq, the mission in Iraq, was 
a good strategic option and maybe the only strategic option. I 
have always said that mission was to remove Saddam, who was an 
organic threat, and replace him with a multi-ethnic democracy 
that would be an ally in the war on terror.
    I also agree that we are making progress towards that end. 
If we are talking about whether the circumstances are such that 
we can withdraw, we are talking about whether the mission has 
been completed. I think we need to understand that. As long as 
the terrorists are prepared to concentrate to the extent they 
are in Iraq, we cannot guarantee that it is going to be a 
pacified country. But we are getting closer to the point where 
the Iraqi government can sustain itself with less American 
help. So I do think there has been progress and I am pleased 
about all that.
    What I want to ask you about, Mr. Secretary, is this. Given 
that we are involved in this war and in this existential 
struggle, how can we be in a situation where we are allowing 
the budgets that you think you need to be reduced by the OMB 
year after year? I refer to the budget reduction in the fall of 
2004, $30 billion over the Future Years Defense Program (FYDP), 
in the fall of 2005, $32 billion over the FYDP, April of this 
year indications there would be another 2 percent cut.
    I am concerned that we may see a cut in the fall of this 
year, and these cuts are coming from the OMB. Now, we are in an 
existential struggle. I just do not think--you referred 
appropriately, I think, that we have to be concerned about the 
message we are sending. I am concerned that these budget cuts 
coming from people who are not warfighters are sending the 
message that we are weakening, that we are not prepared to bear 
the cost of this.
    Before you answer, I will just make one other point with 
reference to something Senator Collins said. Yes, this is a 
difficult struggle. We have spent over $400 billion in 3 years. 
Our gross domestic product (GDP) in that period of time has 
been $36 trillion, so we are spending about what, 1.2 percent 
of our GDP on this? Given the importance of this struggle to 
the country, we are fighting it, it seems to me, at a cost that 
this economy can afford. We are so strong and I think sometimes 
that we forget that.
    So if you would address that I would appreciate it. This is 
what is frustrating me. We need to give you what you think you 
need, not what the bean counters at OMB think you need.
    Secretary Rumsfeld. Senator, you are experienced. You know 
how this town works. Let me say that I agree with you that the 
United States of America spending 3.8 percent of the GDP on our 
entire national security is a relatively small percentage of 
the GDP. When I came to Washington in the Kennedy and 
Eisenhower era, we were spending 10 percent of the GDP. Thirty 
years ago when I was Secretary of Defense for President Ford, 
we were spending, I think, 5 percent of the GDP. Today we are 
down to 3.8 percent of the GDP.
    That is, this country can afford to spend what is 
necessary. You have mentioned the OMB. Let me talk about 
Congress for a minute. This year, if you take the House and the 
Senate, the authorization and the appropriation committees, and 
drop a plumb line through all of it, we are looking at 
somewhere between $15 to $20 billion that we will not have to 
spend on the things we need to spend it on.
    If you look at the time it takes to pass an authorization 
and to pass an appropriation bill, the delays that are incurred 
and the gyrations that the Services have to go through to try 
to cash-drawer what they are doing, take money from this and 
spend it on that, the inefficiencies, the inability to plan 
ahead, the inability to get the depots to hire the people they 
need in advance because we do not have this depot--correction, 
the reset fund that I mentioned might be a way to help solve 
this problem--it is a combination of cuts. I guess the Senate 
Appropriations Committee wanted to cut something like $9 
billion this year.
    Then it is the Member adds, all the things that have been 
added on top that we--without money, simply things that we need 
to spend on that we do not want. Then a series of things that 
we have offered to not do--a second engine for the Joint Strike 
Fighter, a 12th carrier that we do not believe we need because 
it costs too much to repair it--and we are being forced to do 
those things.
    Then we came in and said, we can save money doing a series 
of things with respect to health care and a variety of things, 
and we were told, you may not do that. The combination of all 
of that is big dollars and it hurts.
    Senator Talent. Mr. Secretary, you are looking here at two 
committee members who offered and got passed an amendment 
raising the top line for defense and that was reallocated away. 
So I could not agree with you more about it. I just think all 
of us who understand, who have sat on these committees or been 
in your chair or the chair of the Generals there and know what 
we need, have to find a way to insist on getting what we need.
    I would encourage you very strongly, because it is just--
you mentioned Congress and I am not trying to--I am just saying 
it is harder for those of us here who understand this to hold 
this if we are getting cuts from the administration that the 
economic and the budget people are recommending.
    I do not think there is any way we can lose this war unless 
we lose it. I think you are saying the same thing in general 
terms and I agree with you completely. Let us just agree not to 
let this happen, and I certainly will do my part. The chairman 
certainly has done his part and I know Senator Reed has as 
well.
    So I wanted to make that point. Mr. Chairman, I see my time 
is up too and I know we are under time constraints.
    Chairman Warner. Thank you. Thank you, Senator Talent. 
Thank you very much.
    Senator Reed, I had indicated that you would have an 
opportunity for a follow-up question.
    Senator Reed. Thank you, Mr. Chairman.
    General Pace, you are familiar with the current readiness 
reporting of the Army and the Marine Corps, but particularly 
the Army?
    General Pace. Yes, sir, I am.
    Senator Reed. Would you dispute the conclusion of former 
Secretary of Defense Bill Perry that two-thirds of the Army's 
operating force, Active and Reserve, is now reporting as 
unready, and the conclusion of General Schoomaker in response 
to this question from Mr. Skelton, ``Are you comfortable with 
the readiness levels of nondeployed units that are in the 
Continental United States?'' General Schoomaker's reply: 
``No,'' he is not comfortable?
    General Pace. I think that the readiness reporting system 
as it is constructed has been accurately described that the 
number of brigades in the United States Army whose equipment 
requirements have changed dramatically over the last 5 years 
are being accurately described. I absolutely agree with General 
Schoomaker in his comments about additional funding needed to 
buy back combat losses, to buy back the reset.
    All those things are absolutely accurate, Senator. All I 
want to make sure we understand is that the system itself is 
reporting pure math, but as one example again, the pure math is 
based on in 2001 needing 2,000 up-armored Humvees, in 2006 
needing 12,000, and therefore the capacity of the Army to wage 
war is significantly greater than it was, even though the 
reporting system, properly utilized, is highlighting places 
where we need to put more money.
    Senator Reed. General, I can recall when General Abizaid 
and I were lieutenants together in the 504th Parachute Infantry 
Regiment. I will just speak for myself. We took this reporting 
system very seriously because we understood, and I think you 
do, that soldiers and marines, as good as they are, need 
equipment to fight. We presumed that the leadership, both 
uniformed and civilian, in the DOD, took those reports 
seriously also and that they were not requiring us to report on 
equipment which was really tangential to the needs of the unit.
    In fact, we all recall where individuals were relieved 
because they could not maintain adequate levels of readiness 
under the current reporting system at the battalion level. But 
it does not appear that takes place at the national level, 
because you have a readiness crisis. We have tried to address 
it with $13 billion last Tuesday, noting that this document was 
submitted Wednesday, a day late and $13 billion short.
    Chairman Warner. Let the record show that the document that 
you are referring to is the one that I introduced, the OMB 
document.
    Senator Reed. So I think the signal that you are sending to 
those lieutenants, sergeants, and captains is that this 
reporting system is either illogical and nonsensical or it is 
being disregarded at the highest levels, because it was not the 
DOD that was asking for this money to the President--forget 
OMB; to the President. It turned out that, I think, within the 
Army there was such concern about their troops that they went 
around you all and approached Congress. I think that is a sad 
commentary on the leadership of the DOD.
    This may not be a question but a comment, but I am 
particularly incensed with some of the suggestions that this is 
all just kind of some subjective evaluation we do, and the 
readiness reporting has no real impact in the world, and also 
the suggestion that if we talk about readiness, particularly 
when it is in a crisis like this, we are somehow giving unfair 
advantage to our adversaries.
    But I recall in 2000 when then-Governor Bush stood up and 
said the President of the United States, if he called on his 
DOD, they would have to report two divisions not ready for duty 
based upon the reporting system. How many divisions will we 
have to report that way to that question today based on the 
reporting system, General Pace?
    General Pace. First of all, sir, we are not doing divisions 
any more. We are doing brigades, as you have already----
    Senator Reed. I know that.
    General Pace. About two-thirds of the brigades, as you 
pointed out, would report C3 or C4.
    Senator Reed. Not ready for duty.
    General Pace. I will stand by my comments. First and 
foremost----
    Senator Reed. Thank you, General.
    General Pace. Sir, may I finish?
    Senator Reed. Yes, sir.
    General Pace. Thank you.
    We do take with great integrity and responsibility the 
readiness reporting system. That is exactly why for every 
quarter, as required, we report to Congress the exact accurate 
reporting for readiness. I am saying that we do need more 
money. I am not disputing that at all, sir. We do need more 
money, for all the reasons I have articulated.
    All I was trying to point out, Senator, is that the way 
that the system functions, the time it takes to build a new 
helicopter, for example, the fact that in combat we are 
learning and as a result of learning we have changed our 
requirements--we currently have 40,000 armored vehicles in Iraq 
that did not even exist 5 years ago.
    Sir, all I am saying is that we are providing for our 
soldiers and marines on the ground the finest equipment ever 
fielded. We are using it up at rates faster than we budgeted 
for and therefore to use the readiness system to identify, as 
you have, the requirement for more funding is absolutely 
correct. I am just trying to make sure that everybody listening 
to this conversation understands how you can go from 2001 with 
2,000 vehicles, 2006 with 12,000 vehicles, and not have all 
12,000 vehicles and still feel better about our Army's capacity 
to get the job done.
    Chairman Warner. Thank you very much, General.
    Senator Reed. Thank you.
    Chairman Warner. May I say to my colleague from Rhode 
Island, General Schoomaker is visiting with me on this issue 
this afternoon at 4 p.m. I would be pleased to have you join 
us. I have invited Senator Levin. He is likewise going to join 
us. It may well be that he will wish to put his comments on the 
record of these proceedings today in the section relating to 
your questions.
    Senator Reed. Thank you, Mr. Chairman.
    Chairman Warner. Thank you very much.
    One last question and then we will conclude this, I think 
an excellent hearing. Last week President Bush and Prime 
Minister Blair agreed to seek a U.N. resolution calling for the 
creation of a multinational force to help the Lebanese 
government extend control in southern Lebanon. I strongly 
support those initiatives by our President and, given that that 
country, Lebanon, is in your area of operations, given your 
long experience, first I would like to have your assessment of 
what is the capability of the Lebanese army today and what 
training and equipment would they require for the mission of 
their government to go out and begin to maintain control, given 
the assumption that there will be a multinational force 
eventually put together.
    So if you could include your assessment of the size and the 
capability of such force that would be needed to fulfill the 
commitments that President Bush and Prime Minister Blair made 
to our respective nations and the world.
    General Abizaid. Senator, certainly I do not want to let 
any of my comments get in the way of the diplomacy that is 
going on right now. It is very important that the diplomats do 
their work.
    The Lebanese armed forces is a professional armed force. It 
has one of the most educated officer corps in the Middle East. 
It is a small force for Middle Eastern standards of about 
50,000 or so, and it needs significant upgrade of equipment and 
training, capability that I believe the western nations, in 
particular the United States, can assist with.
    We recently, before the current difficulty started, visited 
the Lebanese armed forces, did an assessment of where they 
happen to be in readiness. We saw that they needed some 
significant spare parts. I think we have made our desires known 
through the DOD as to how we could help them immediately. I 
think there will be need for other assistance to the Lebanese 
armed forces because it will never work for Lebanon if over 
time Hezbollah has a greater military capacity than the 
Lebanese armed forces. The Lebanese armed forces must extend 
the sovereignty of the nation throughout the country. I believe 
that they can do that in assistance with the international 
community and with a robust peacekeeping force or peace 
enforcement force, depending upon what the diplomats decide is 
the right equation.
    I would say that I served with the U.N. Interim Force in 
Lebanon back in the mid-1980s and it was not capable of really 
enforcing peace and security in the region. So whatever force 
goes in has to have robust rules of engagement.
    Chairman Warner. Robust rules?
    General Abizaid. Robust rules of engagement, very clear and 
unambiguous mandate, and clear cooperation from the Lebanese 
government and any other parties.
    Chairman Warner. Could you further define your professional 
definition of ``robust rules of engagement''? That was the 
second part of my question.
    General Abizaid. Robust rules of engagement means that the 
commander has the ability to effect the mandate that has been 
given to him by the international community, to include the use 
of all available means at his forces' disposal, and I think in 
the case of southern Lebanon he will have to have capabilities 
that are just not minor small arms, but would include all arms.
    Chairman Warner. Thank you.
    My distinguished colleague from Minnesota, I indicated the 
hopes to have a second round. We have had some, but the 
intervention of two votes precludes a further second round of 
questions by members. But I invite you to provide for the 
record your question. It will be open until tomorrow close of 
business.
    I would like to say in conclusion, Secretary Rumsfeld, 
General Pace, General Abizaid, that this has been a very 
thorough and constructive hearing and I thank each of you for 
your participation and forthrightness in your responses.
    The hearing is now adjourned.
    [Questions for the record with answers supplied follow:]
               Questions Submitted by Senator John McCain
                          troop levels in iraq
    1. Senator McCain. Secretary Rumsfeld, General Pace, and General 
Abizaid, what do you believe are the most likely ramifications of a 
withdrawal of American forces from Iraq by a date certain? What effect 
might setting a timeline for withdrawal have?
    Secretary Rumsfeld. There are calls in some quarters for withdrawal 
or arbitrary timelines for withdrawals. The enemies hear those words as 
well. We need to be realistic about the consequences. If we left Iraq 
prematurely, as the terrorists demand, the enemy would tell us to leave 
Afghanistan and then withdraw from the Middle East, and if we left the 
Middle East they would order us and all those who do not share their 
militant ideology to leave what they call the occupied Muslim lands 
from Spain to the Philippines. Then we would face not only the evil 
ideology of these violent extremists, but an enemy that will have grown 
accustomed to succeeding in telling free people everywhere what to do.
    Setting an artificial deadline to withdraw would also send a 
message across the world that America is a weak and unreliable ally. 
Setting an artificial deadline to withdraw would send a signal to our 
enemies that if they wait long enough, America will cut and run and 
abandon its friends.
    General Pace. First, a set date for American withdrawal would 
provide something the enemy could anticipate. It would give them light 
at the end of the tunnel, a date for which to wait, prepare, and then 
claim victory. Second, it would set a limit for American commitment to 
the Iraqi government. There should not be a time limit for our support 
of a new democratic government in Iraq. Third, a set date for 
withdrawal would not be based on the actual situation, which is fluid 
and uncertain. Force reductions should be conditions-based so that we 
are adjusting troop levels to the realities on the ground. Lastly, a 
set date may limit or inhibit international donor commitment and 
investment.
    General Abizaid. Early withdrawal of American troops will endanger 
the stability of Iraqi security force (ISF) institutions, the Iraqi 
political process, and establishment of Iraqi civil institutions. Our 
objectives were developed to be conditions-based within a timeframe 
reflected in the Joint Campaign Plan in agreement with our coalition 
partners, and in line with our mandate from the United Nations. 
However, a fixed timeline for leaving Iraq would lead terrorists to 
believe that they could win by waiting for our departure. It would also 
signal a lack of coalition patience and will, and would play directly 
into the intentions of terrorists and foreign fighters who seek to 
destroy the ability of the Iraqi people to forge their own national 
identity. Our enemies know that they cannot defeat us militarily. To 
succeed, they will focus on the battle of perceptions, which they plan 
to win by encouraging the coalition's withdrawal before Iraq is ready 
to stand alone.

    2. Senator McCain. Secretary Rumsfeld, General Pace, and General 
Abizaid, could you describe the new strategy for Baghdad, one that 
reportedly involves the deployment of several thousand additional 
troops to the city and the adoption of the so-called ``oil spot'' 
strategy?
    Secretary Rumsfeld. The Baghdad Security Plan, named Operation 
Together Forward, is not an ``oil spot'' strategy but is designed to 
improve the security situation in Baghdad by increasing checkpoints, 
curfews, and enforced weapons bans in focused areas within the city. 
Security forces are also conducting targeted operations against 
terrorist cells and death squads.
    Security forces are moving from neighborhood to neighborhood 
identifying and eliminating violent forces, securing weapons caches, 
and restoring basic civil services. As the situation improves, security 
forces will transition to policing and emergency response operations.
    In addition to stepping up security operations, the Government of 
Iraq, with Multi-National Force-Iraq (MNF-I) support, is working with 
the local District Advisory Councils to employ local labor to rebuild 
neighborhood markets and restore essential services. As of September 
22, Iraqis have spent more than 11,000 man-days cleaning up and 
restoring essential services. The Provincial Reconstruction Development 
Committee approved 15 reconstruction projects totaling $9.2 million. 
Fourteen projects are in the Doura District which, until recently, was 
one of the most violent districts in Baghdad.
    General Pace. The concept of the plan is to assert increased 
control over the populace by conducting increased checkpoints, curfews, 
and enforced weapons bans in focused areas within Baghdad. Security 
forces are also conducting targeted operations against terrorist cells 
and death squads. They are conducting systematic neighborhood by 
neighborhood operations to identify and clean out violent forces, 
identify and secure weapons caches, and identify and restore basic 
civil services. Ultimately, this operation will restore the confidence 
of the Iraqi people in the ISF, which will also assist in lowering the 
levels of violence. As the situation improves, security forces will 
transition to steady state policing and emergency response operations. 
The positive reaction to the ``clean-up Baghdad streets'' initiative, 
in which Iraqi and coalition force troops were cleaning the streets 
together, is an excellent example of the `nonkinetic' effect aspect of 
the Baghdad Security Plan.
    The Government of Iraq, with MNF-I in support, is working very 
closely with the local District Advisory Councils in the areas of 
operations by employing local labor from the community to clean and 
rebuild parts of the neighborhood markets and repair and restore 
essential services. To date, more than 11,000 man-days of employment 
have been executed by Iraqis for projects directly related to cleaning 
up and developing the areas where operations are focused. On 24 August, 
the Provincial Reconstruction Development Committee voted unanimously 
to support the Baghdad Security Plan with Economic Security Funds; 15 
reconstruction projects totaling $9.2 million were approved. Fourteen 
projects are in the Doura District, until recently one of the most 
violent districts in the city. One project is in the Ghazaliya, Al 
Mansour District. Included are the following:

         - Four road projects (to include an asphalt overlay of all 
        residential city roads);
         - Two water projects;
         - Four sewer projects (to include completion of a sewer 
        network that will connect approximately 2 million residents to 
        the waste water treatment plant);
         - Four school projects (to include construction of one 
        primary, one secondary, and one high school); and
         - One project to supply essential service equipment.

    General Abizaid. The ``oil spot'' strategy is a counterinsurgency 
effort based on fixing parts of the country across all lines of 
operation such as security, government, and economic in order to return 
basic services such as sewage, water, electricity, education, trash, 
medical, and transportation. As life returns to normalcy in these ``oil 
spots'' the citizens dislocate themselves from the insurgency as they 
come to realize that the insurgency is a destructive force while the 
host nation government gains legitimacy. It is the legitimacy of the 
government which is the key in any successful counterinsurgency. Other 
areas around this ``oil spot'' will then want to enjoy those benefits 
and as the theory goes the ``oil spot'' begins to spread as oil does on 
top of water.
    The security of Baghdad is without a doubt very important to the 
successful outcome of this campaign. In order to displace the local 
citizens from the insurgency and in order to boost the legitimacy of 
the Government of Iraq we have started Operation Together Forward. 
Operation Together Forward is designed to regain those areas that were 
hardest hit by the insurgency. Those objective areas within Baghdad are 
first cleared by coalition and ISF--house by house, building by 
building. Next is a hold phase with ISF in the lead the citizens and 
the local government begin to help not only clean up the objective but 
also to re-open businesses and commerce. The last phase is the build 
phase whereupon the local citizens will build upon the successes in the 
security, economic, and government lines of operations. We are still in 
the clear stage of this operation.

    3. Senator McCain. Secretary Rumsfeld, General Pace, and General 
Abizaid, where will these additional troops come from? If we are 
redeploying U.S. troops from outside Baghdad, won't we need to replace 
those troops with additional forces?
    Secretary Rumsfeld. It is important to remember that Iraqi troops 
are also being moved into Baghdad. The number of Iraqi troops in the 
Baghdad area is greater than our troops. We are supporting them in the 
main operational areas. They can benefit from our command and control 
capabilities and the systems that a unit such as the Stryker brigade 
brings to the fight.
    Levels of violence and terrorist activities drive decisions to 
reallocate U.S. forces inside Iraq. MNF-I commanders normally do not 
reallocate troops to areas experiencing moderate levels of enemy 
activity. Moreover, the capability of the local ISF is a deciding 
factor as to whether to reallocate U.S. forces. Before any U.S. combat 
unit is reallocated, U.S. commanders must be confident that the 
departed area will not backslide into increased violence.
    General Pace. After being relieved by the 3rd Stryker Brigade 
Combat Team (SBCT), 2nd Infantry Division (2ID) in MND-N, the 172nd 
SBCT was extended for up to 120 days and repositioned to support the 
main security effort in Baghdad. Since their replacement (3rd SBCT, 
2ID) was part of a normal Operation Iraqi Freedom (OIF) force rotation, 
no additional forces were required to backfill. That said, commanders 
in the field continue to evaluate conditions on the ground and make 
recommendations and requests for force adjustments as conditions 
warrant.
    General Abizaid. [Deleted.]

    4. Senator McCain. Secretary Rumsfeld, General Pace, and General 
Abizaid, President Talabani has stated that Iraqi forces will assume 
security duties for the entire country by the end of this year. How 
does this square with the increased U.S. troop presence in Baghdad and 
the continuing presence of coalition troops throughout Iraq?
    Secretary Rumsfeld. Coalition commanders expect ISF units will have 
the security lead in all of Iraq by March or April 2007. The ministries 
and the joint headquarters, with coalition support, are expected to 
take the lead by the end of 2007. However, we believe that our 
partnership with these institutions will be required for some time into 
the future. However, our assessments are conditions-based; unforeseen 
improvements or setbacks could affect the ISF's scheduled assumption of 
the security lead. The enemy will have an affect on the timeline.
    General Pace. Given the current security situation on the ground, 
the level of training and equipping of ISF, and the development of the 
leadership core of ISF, we estimate that all Iraqi territory will be 
under ISF lead by the end of 2007. The ministries and the joint 
headquarters are expected to be in the lead with coalition support by 
the end of 2007. However, a partnership with these institutions will be 
required through at least the first peaceful transfer of power in 2010. 
These assessments are conditions-based, and unforeseen improvements or 
setbacks may affect the ISF's scheduled assumption of the security 
lead. The enemy will always get a vote.
    General Abizaid. Coalition force requirements are determined 
through a conditions-based process, factoring in the presence and 
activities of the terrorists and insurgents in an area as well as the 
strength and capabilities of Iraqi army and police forces in area. 
These factors ultimately determine the level of coalition force 
requirements in an area. Each area has its own unique circumstances. 
President Talibani noted the significant capabilities of the ISF and 
the fact that Iraqi army and police forces have assumed responsibility 
across Iraq, responsibilities that will increase through the remainder 
of the year. In many areas, however, Iraqi forces will still require 
coalition forces to help back them up. Additionally, until the Iraqi 
logistics system is fully established, Iraqi forces will require 
coalition support to provide some key resources until the Iraqi system 
is able to provide these requirements. Additionally, there are some 
areas where the terrorist and insurgent presence requires additional 
security force presence. Baghdad is currently one such area where 
additional coalition forces are required until additional ISF can be 
deployed.

    5. Senator McCain. Secretary Rumsfeld, General Pace, and General 
Abizaid, it seems clear that even today, more than 3 years after our 
invasion of Iraq, we do not have sufficient troops to control the 
country or help the Iraqi government impose its authority. We are 
talking about redeploying thousands of troops from around Iraq to 
Baghdad. More troops will be deployed to Ramadi, possibly coming from 
Falluja. Have we had since our invasion, and do we have today, 
sufficient force levels in Iraq? If you believe we do, what do you 
believe will be the turning point in this war, since additional troops 
seem to be unnecessary?
    Secretary Rumsfeld. The number of troops that went in, and the 
number of troops that were there every month since, and the number of 
troops that are there today reflected the best judgment of the military 
commanders on the ground, their superiors, General Pace, General 
Abizaid, the civilian leadership of the Department of Defense (DOD) and 
the President of the United States.
    The Iraqis will determine the ``turning point'' in the war when 
they view their security situation tenable, their political process as 
legitimate, and their economic future as hopeful. For its part, the 
Government of Iraq needs to resolve the difficult issues of national 
reconciliation, militias, oil revenue sharing, federalism, and de-
Baathification. They must address these issues in a way that does not 
exacerbate sectarian tensions.
    General Pace. It is impossible to provide a discreet ``turning 
point'' because the turning point must happen in the minds of the 
Iraqis. Iraqis, including minorities, must view the political process 
as legitimate and effective and Iraq's economic prospects as sufficient 
and equitable for themselves, their families, and their tribe or sect. 
Effective political and economic reform is central to a lasting 
reduction in violence, to a far greater extent than solely increasing 
U.S. troop numbers. The Government of Iraq must resolve the difficult 
issues of national reconciliation, including de-Baathification reform, 
militias, oil revenue sharing, and the nature of Iraqi federalism. They 
must address these issues in a way that does not exacerbate sectarian 
tensions. Additionally, the Government of Iraq must deliver basic goods 
and services and a program to increase economic opportunities to 
provide a counter to crime and militias.
    The 172nd SBCT was temporarily extended. This unit is the 
coalition's most experienced unit, with the most mobile and agile 
systems, in support of the main security effort in Baghdad at a 
decisive time. With the rest of the elements of the plan to protect the 
population in Baghdad, this unit's deployment gives coalition forces a 
potentially decisive capability to affect security in Baghdad in the 
near-term. Commanders in the field will continue to evaluate our force 
structure and recommend changes as conditions warrant. We continually 
assess future force requirements with the Iraqi government. Decisions 
about coalition troop levels are conditions based and tailored to the 
overall situation in Iraq. We continue to transition and transfer 
additional responsibilities to the ISF. The people of Iraq continue to 
meet the political milestones they have established. As these and other 
conditions are met we assess the capabilities here and make 
recommendations as to the levels of troops needed in the coming months. 
We are committed to ensuring Iraq's security forces are trained, 
equipped, and organized in a manner that will allow them to provide 
security and stability on their own. They are making progress and our 
partnership program should help develop their capabilities even more. 
Adjustments to the coalition troop levels are conditions-based and not 
based on a timeline. Those conditions include continued political 
development, ISF development, and the transition of security 
responsibilities from coalition forces to ISF. Coalition forces remain 
in a support role.
    General Abizaid. I believe we have had and currently have 
sufficient troops in Iraq. While the number of U.S. forces has varied 
from as many as 185,000 to as few as 120,000 depending on rotation 
cycles, there are still 23,000 coalition troops in Iraq, and most 
importantly we now have trained and equipped over 300,000 Iraqi 
soldiers and police, and an additional 100,000 forces in the ministries 
as well. The increasing number of ISF is the most telling number as it 
is integral to the Government of Iraq bearing ultimate responsibility 
for Iraq's security.
    As decisive as our joint military operations are, particularly our 
efforts to secure Baghdad, the turning point in this war will be when 
the majority of Iraqis believe in and support their elected government 
in the difficult tasks ahead. The year-old Iraqi Constitution calls for 
approximately 55 enabling or implementing acts to make it operative, 
including such significant and broad areas as judiciary development and 
economic reform. Passing and enforcing this legislation will be a key 
indicator of progress for the new Iraqi government and this campaign.

                             iraqi militias
    6. Senator McCain. Secretary Rumsfeld, General Pace, and General 
Abizaid, with the death of Zarqawi and the capture of several of his 
lieutenants, how would you assess the threat posed today by al Qaeda in 
Iraq?
    Secretary Rumsfeld. Killing Zarqawi did not destroy al Qaeda in 
Iraq. Its capacity, however, has been diminished. Although al Qaeda is 
a tenacious organization, we are making progress against them and we 
will continue to make progress. Sectarian violence was always Zarqawi's 
strategy. Violence creates fear and targets innocent civilians in an 
attempt to derail democracy.
    General Pace. [Deleted.]
    General Abizaid. [Deleted.]

    7. Senator McCain. Secretary Rumsfeld, General Pace, and General 
Abizaid, has Moqtada al Sadr's militia become problem number one for 
the Iraqi government and the coalition, and what are our current plans 
to deal with his and other independent militias?
    Secretary Rumsfeld. Article 9 of the Iraqi constitution prohibits 
the formation of military militias outside the framework of the armed 
forces.
    Nevertheless, the problem of illegal armed groups and militias 
requires both kinetic and political solutions. Coalition forces will 
assist the Iraqi government in addressing illegal armed groups by 
reintegrating individuals into the ISF, disarming them, and 
demobilizing them. Indeed, the two primary objectives of the security 
operations in Baghdad are rapidly reducing sectarian violence by de-
legitimizing the illegally armed groups and establishing the ISF as the 
dominant security presence.
    Once Iraqi citizens have more confidence in their security forces, 
they will be less likely to rely on militias. Improvements in the 
capabilities of the ISF are steady as seen in Baghdad neighborhoods 
cleared as part of Operation Together Forward.
    The Iraqi government is also encouraging the organization of 
popular committees. The committees, like neighborhood watches, assist 
Iraqi police and Iraqi army by providing information on threats in the 
neighborhood. The unarmed popular committees should provide information 
to be acted on by the security forces.
    General Pace. The recent increase in sectarian violence is the 
number one problem for the Iraqi government and the coalition; that 
said, any group associated with terror, murder, or extreme violence is 
equally detrimental to a free and democratically-elected Iraqi 
government. Those groups will be pursued and brought to justice by 
Iraqi and coalition forces. In that Iraq is a sovereign nation, current 
plans to deal with security in Iraq require close coordination with 
Iraqi government and associated ISF. An example of this is Operation 
Together Forward, in which coalition forces are working closely with 
Iraqi counterparts to reduce murders, kidnappings, assassinations, 
terrorism, and sectarian violence in Baghdad.
    General Abizaid. Preventing sectarian violence from escalating into 
civil war is the coalition's highest priority. Sadr's Jaysh-al-Mahdi 
militia is a contributor to sectarian violence but only part of the 
overall problem. Sunni and Shiite extremists at both ends of the 
spectrum are increasingly locked in retaliatory violence, contesting 
control of ethnically mixed neighborhoods in order to expand their 
existing areas of influence.
    The challenge for the coalition is to support the government in 
breaking the cycle of ethno-sectarian violence while allowing the Prime 
Minister to consolidate the Shiite and Sunni constituency he needs in 
order to be able to exercise power. An effective disarmament, 
demobilization, and reintegration program for militias and illegal 
armed groups is essential to meeting security requirements that will 
have long-term implications for economic development and foreign 
investment. Integrated with the effort to disarm the militias is the 
Prime Minister's ``National Reconciliation and Dialogue Project,'' 
which he presented to the Iraqi Council of Representatives in June. 
This 24-point initiative was aimed at reconciling past inequities, 
rallying Iraqis around a principle of equality devoid of sectarian 
divisions, firmly establishing the basis of national unity via a 
democratic political process, and creating conditions for Iraq to 
assume a leading role regionally and internationally. The National 
Reconciliation Project is intended to open dialogue, reduce sectarian 
tensions and violence in Iraq, and increase commitment to the 
democratic process and the new National Unity Government.

    8. Senator McCain. Secretary Rumsfeld, General Pace, and General 
Abizaid, the police obviously pose a problem for stability and safety 
in Iraq. Are there plans to eliminate infiltrators from the police 
ranks, and distance the police from militia control?
    Secretary Rumsfeld. There are some places where the local police 
are exceptionally efficient and very honest. There are other areas 
where we know that they have been infiltrated by various militias, such 
as in Basra, where the government and the British forces that are down 
there are doing their best to stand down those units, retrain them, and 
bring them on line in a credible and capable manner.
    As far as national police forces, there are battalions that need to 
be stood down and retrained. We are in the process of doing that now.
    The Iraqis are building Internal Affairs and Inspector General 
units in the police ranks, a move that will ensure that police respond 
to the legitimate chain of command.
    General Pace. The Ministry of Interior (MOI), in conjunction with 
coalition forces, is conducting a unit-by-unit inspection of the Iraqi 
national police. While this inspection is focusing on equipment 
accountability and training level proficiency, it is also providing a 
platform to conduct retraining of policemen on basic professionalism 
and anti-corruption methods. This inspection is also providing ministry 
and coalition leadership the opportunity to rid the police of those 
members whose militia affiliations take precedence over loyalties to 
the nation. While this inspection has been ongoing for more than a 
month, the retraining and revetting of police will continue for the 
foreseeable future.
    General Abizaid. During his 31 July speech to Parliament, MOI 
Bolani acknowledged there are disloyal and corrupt elements that had 
infiltrated the police and government and in less than 3 months in 
office, has shown himself to be decisive in removing infiltrators and 
criminals from police ranks. Within MOI, Internal Affairs (IA) is 
leading the effort to eliminate militia and terrorist infiltrators 
through the implementation of an aggressive MOI employee vetting 
process using the Automated Fingerprint Identification System (AFIS) 
combined with criminal record checks. The AFIS is also being integrated 
into the police cadet screening process which involves the collection 
of personal information and biometric data, to include fingerprints. 
Over 7,000 ``hits'' have been referred to the IA Directorate based on 
known criminal connections. In addition to the AFIS screening process, 
the MOI staff has taken the initiative to conduct an internal audit of 
all personnel to ensure that every employee meets the initial entry 
criteria.

                        iran's influence in iraq
    9. Senator McCain. Secretary Rumsfeld, General Pace, and General 
Abizaid, what role is Iran playing today in southern Iraq and more 
widely throughout the country?
    Secretary Rumsfeld. The primary security problem in Iraq has 
shifted from a Sunni insurgency to sectarian violence. Al Qaeda 
terrorists, insurgents, and armed Shiite militants supported by Iran 
also compete to plunge the country into civil war. The Iranian 
Revolutionary Guard Qods Force arms, trains, and equips rogue Shiite 
groups. These Shiite militias do Iran's bidding and exert an improper 
and undue influence from Basra to Baghdad. Prime Minister Maliki is 
concerned and has appointed a military officer to go to the south to 
get the security situation back under control.
    General Pace. [Deleted.]
    General Abizaid. [Deleted.]

    10. Senator McCain. Secretary Rumsfeld, General Pace, and General 
Abizaid, if Iran's influence were somehow eliminated, what concrete 
effect would that have on violence in Iraq?
    Secretary Rumsfeld. Iran talks about stabilizing Iraq but in 
reality, it arms, trains, and equips Iraqi extremist Shiite militias to 
do its bidding. Eliminating Iran's influence would likely result in 
less Shiite extremism and sectarian violence. Moreover, Sunni 
resistance probably would diminish along with their fear of a Shiite-
dominated Iranian-sponsored government that discriminates against 
Sunnis. Stability would increase.
    General Pace. First, although it is difficult to predict with 
concrete certainty, most likely there would be a reduction in funding, 
guidance, morale, and material support to Iranian parties, resulting in 
a reduction of Shiite extremism and sectarian violence. There would 
also very likely be a reduction in the sectarian motivated violence and 
a reduction in the Sunni resistance that is based on fear of a Shiite-
dominated government that discriminates against Sunnis and is a proxy 
of Iran. There would likely also be an increase in stability as these 
factors that drive conflict are eliminated.
    General Abizaid. [Deleted.]

                            violence in iraq
    11. Senator McCain. Secretary Rumsfeld, General Pace, and General 
Abizaid, what, if any, events do you think will bring down the level of 
violence in Iraq?
    Secretary Rumsfeld. National reconciliation could reduce the 
factors leading to violence by resolving those outstanding issues among 
Iraq's major factions. Dismantling militias and extragovernmental armed 
groups and reintegrating them into society would permit the Iraqi 
government to control the sole use of force which should also reduce 
violence. Finally, reforming the MOI and the Iraqi Police Service will 
also increase stability in Iraq.
    General Pace. First, national reconciliation promises to resolve 
the outstanding issues between the major factions in Iraq. This should 
greatly reduce many of the drivers of the violence. Second, the 
successful reduction of militias and extra-governmental armed groups, 
which includes a fully implemented disarm, demobilize, and 
reintegration program, should reduce violence and allow the Iraqi 
government to retain the monopoly on the use of force. Third, MOI and 
Iraqi Police Service reform, development, and supervision will also 
reduce violence in Iraq.
    General Abizaid. While individual events can cause an escalation in 
the level of violence, only a sustained campaign can reverse the trend. 
The campaign in Iraq will bring down the level of violence by 
generating capable, non-sectarian security forces with the capacity to 
counter internal threats and to deny the passage of foreign fighters 
and their support across Iraq's borders. An effective democratically 
elected government of national unity will provide security and 
essential services, removing the need to rely on local militias for 
protection and other support. Finally, provincial elections and 
constitutional reform will reinforce equities between Iraqis and their 
country's future prosperity.

                               iraqi army
    12. Senator McCain. Secretary Rumsfeld, General Pace, and General 
Abizaid, to build a truly national Iraqi army, it is necessary to build 
units of mixed ethnicities and religions (Shiite, Sunni, Kurds)--not 
simply an army comprising homogenous units. How far have we gone toward 
the goal of building mixed units so far, and what steps are we taking 
to accelerate it?
    Secretary Rumsfeld. We are committed to creating an Iraqi military 
that reflects the ethnic and religious diversity of Iraq, with units 
loyal to the nation and not to sectarian interests. Although competence 
and merit are the deciding factors when selecting recruits, 
(particularly leaders), the ISF are developing so they generally mirror 
the demographic makeup of Iraq. Sectarian lines remain drawn, however, 
in those units recruited along geographic lines, with Sunni, Shiite, or 
Kurdish over-representation within those units reflecting the areas 
where the units were formed.
    The Minister of Defense, through an Officer Selection Committee, 
uses the normal transitions to continue to diversify the senior 
leadership in the Iraqi army. This continuing process strives to ensure 
that the Iraqi army is led by competent leaders who are representative 
of the nation.
    General Pace. We do not track soldiers by ethnicity--they are all 
Iraqis. Historically, we have seen that the Iraqi army does a much 
better job in recruiting multiple ethnicities than the Iraqi police. 
The Government of Iraq is committed to ensuring ISF represent the 
population, both ethnically and geographically, to enable the Iraqi 
people to build and maintain confidence in their security forces. A 
representation of the Iraqi populace would ideally consist of 60 
percent Shiite, 20 percent Sunni, and 20 percent Kurd force.
    General Abizaid. The senior Iraqi military and political leadership 
share our views on the requirement to build units of mixed ethnicity 
and religions. It is important to note that the Iraqis are taking the 
lead to properly integrate their army and to ensure they do everything 
possible to make each division representative of the population at 
large and not a collection of units that represent different ethnic, 
religious or geographical areas. Recruiting efforts are focused at 
providing an equal opportunity to everyone to join the military. In a 
recent visit to Iraqi army units, Prime Minister Maliki stressed that 
when Iraqis join the military they must forget about the town or 
province they came from and must forget about the circumstances under 
which they joined and focus on representing Iraq as a whole. This has 
been a recurring theme for the Iraqi army and it fits well into the 
Prime Minister's plan for reconciliation. During recent missions, the 
Iraqis have sent Mobile Recruiting Teams out into areas of the country 
where no teams were previously sent, in an effort to extend 
opportunities for service to the nation. The Iraqis, with coalition 
partners in support, have made a genuine effort to extend the 
opportunity for service to all ethnic and religious groups in the 
country. They also monitor the distribution of soldiers who complete 
initial entry training to ensure ethnic diversity continues as the 
units build and sustain. The coalition understands the importance of 
diversity and will continue to provide overwatch and advice to our 
Iraqi partners. Currently, the Iraqi army units and their leaders are 
largely representative of the population of Iraq.

    13. Senator McCain. Secretary Rumsfeld, General Pace, and General 
Abizaid, there have been reports that large numbers of Iraqi troops are 
deserting and that there is corruption among the troops. In one report, 
only half of an entire unit was actually present in an operation. In 
some places, Iraqi troops have gotten caught with bombmaking materials 
or allowed insurgents to attack U.S. convoys by looking the other way. 
These activities are fueling distrust for Iraqi soldiers. What is being 
done to fix these problems and how do we ensure that it will not happen 
in the future? How is this going to affect transfer of command to the 
Iraqis and how do we guarantee that once the transfer occurs, they will 
be able to prevent corruption themselves?
    Secretary Rumsfeld. There have been several cases of unit-wide 
corruption and malfeasance but we do not see a wide-spread problem. 
Coalition force partners and ISF embedded transition teams conduct 
monthly assessments, to include unit leadership and loyalty. ISF units 
cannot assume a security lead until they are assessed as ready. Multi 
National Security Transition Corps-Iraq (MNSTC-I) along with the 
Government of Iraq and the North Atlantic Treaty Organization (NATO) 
Training Mission-Iraq, developed and fielded an Iraqi Army Training 
Command that resembles the U.S. Army Training and Doctrine Command 
(TRADOC). TRADOC implements training at all levels within the Iraqi 
army. Part of TRADOC's curriculum focuses on professionalism and 
loyalty, especially for the officers and noncommissioned officers.
    We do not believe that the few incidents of anti-coalition activity 
will affect the transfer of command to the Iraqis. Regarding 
corruption, the Iraqi Public Integrity Commission is conducting 
internal audits of senior government employees' incomes, and will 
investigate any suspicious findings.
    General Pace. While there have been a few cases of unit-wide 
corruption and malfeasance, we do not believe that it is a widespread 
problem. Units are assessed monthly in several areas, and are not 
allowed to move forward to a security lead posture until they are 
assessed as competent to do so. Coalition force partner units, in 
conjunction with ISF embedded transition teams, routinely assess ISF 
unit leadership and loyalty. Multi National Security Transition Corps-
Iraq (MNSTC-I) has, in cooperation with the Government of Iraq and the 
NATO Training Mission-Iraq, developed and fielded an Iraqi army 
Training Command that resembles the U.S. TRADOC. This command oversees 
and implements training at all levels within the Iraqi army. Some of 
this training is centered on professionalism and loyalty, especially 
for the officers and noncommissioned officers.
    We do not believe that these few cases of anti-coalition complicity 
will affect the transfer of command to the Iraqis. In fact, we have 
already transferred control of the Iraqi air force, navy, and Iraqi 
ground forces command (with one Iraqi army division), and will transfer 
another division later in September. The Iraqi Public Integrity 
Commission is conducting internal audits of senior government 
employees' incomes and will investigate any situation that exhibits 
suspicious activity. These procedures represent another step in 
fighting corruption from two angles--administratively and financially.
    General Abizaid. The Iraqi army is a developing institution. From 
essentially nothing in the summer of 2003, the Iraqi army has grown 
rapidly to meet Iraq's security requirements in the fight against the 
terrorists and insurgents. In many areas of Iraq, they have assumed the 
security lead in this fight and performed admirably--most notably in 
securing the voting process for the Constitutional Referendum and 
National Elections in late 2005, to the fight against the terrorists 
and insurgents across Iraq today. In a complex environment such as 
Iraq, the rapid buildup of the ISF has been remarkable. Challenges are 
expected in these conditions and the Iraqi government and military 
leaders are directly addressing these issues with the support of 
coalition forces. Iraqi leaders are working hard to place the right 
leaders in their units to provide dedicated, professional leadership. 
Our embedded transition teams are also making a great contribution to 
this effort and demonstrate on a daily basis how professional military 
leaders execute their missions. Desertions and other actions are an 
issue in Iraq, but the facts are that the leadership--especially the 
Iraqi leadership--is directly dealing with these issues. Every day, the 
Iraq army improves. The transition of operational responsibility to the 
Iraqi army is a conditions-based process. We will take each step as 
conditions are right to transition responsibility. Our training teams 
will remain with their Iraqi partnered units after transition and will 
continue to provide that direct support. Additionally, the Iraqis take 
great pride in this transition of responsibility and we look to the 
Iraqi government and military leaders to continue to provide direct 
support to ensure issues of performance and corruption are dealt with 
appropriately.

    14. Senator McCain. Secretary Rumsfeld, General Pace, and General 
Abizaid, I understand there are small soldier-teams supervising and 
training Iraqi forces. What feedback do you have from them regarding 
the capabilities of Iraqi troops, and how would you rate the success of 
these teams?
    Secretary Rumsfeld. More than 1,200 U.S. soldiers and leaders are 
embedded with Iraqi army and Iraqi police units. To the degree that one 
can generalize about Iraqi troops, the embedded trainers describe them 
as brave and aggressive soldiers. The trainers' monthly reports measure 
the staffing, command and control, training, sustainment/logistics, 
equipping and leadership of their partnered Iraqi units. These reports 
play a major role in determining when Iraqi provinces are ready to be 
released to Iraqi control. Iraqi units, specifically their leadership, 
benefit from the presence of these teams. The transition teams are a 
great success story, and are key in assisting Iraq to achieve security 
self-reliance.
    General Pace. We currently have more than 1,200 soldiers and 
leaders embedded with both Iraqi army and Iraqi police units throughout 
Iraq. We receive feedback from these teams monthly, which encompasses a 
large part of the overall assessment that determines when Iraqi 
provinces are released to Iraqi control. The feedback we receive from 
these teams is as dynamic as the environment in which they exist. What 
we are seeing is that Iraqi units are benefiting from the presence of 
these transition teams, specifically within the leadership of Iraqi 
units. These transition teams have been a great success story, and are 
key in Iraq achieving self-security reliance.
    General Abizaid. [Deleted.]

                              afghanistan
    15. Senator McCain. Secretary Rumsfeld, General Pace, and General 
Abizaid, what accounts for the recent upsurge in fighting in southern 
Afghanistan?
    Secretary Rumsfeld. The insurgency views the ongoing transfer of 
authority in Afghanistan as an opportunity to test NATO's will. The 
increased violence against coalition, International Security Assistance 
Force (ISAF), and Afghan national security forces is intended to 
intimidate our allies and cause them to question their commitments in 
Afghanistan. As Operation Mountain Thrust demonstrates, however, we are 
on the offensive and inflicting heavy casualties on the enemy.
    General Pace. [Deleted.]
    General Abizaid. [Deleted.]

    16. Senator McCain. Secretary Rumsfeld, General Pace, and General 
Abizaid, now that the NATO has taken over operations in southern 
Afghanistan, please describe how NATO operations will interact with 
Operation Enduring Freedom (OEF) operations. Do the missions and the 
rules of engagement (ROE) for NATO and OEF differ, as several NATO 
officials have suggested?
    Secretary Rumsfeld. Both ISAF and OEF share the same vision and the 
same endstate--a safe, free, and self-sufficient Afghanistan. Both 
share the same general lines of approach: a reconstruction and 
stabilization effort with the military creating a safe and secure 
environment for civilian relief agencies, international organizations 
and--most importantly--Afghan government agencies rebuilding the 
country. There are differences in the missions traceable, to the 
different powers of NATO versus autonomous nations in a coalition, and 
to different national capabilities and constraints. However, combat and 
stabilization operations in the field have shown that both forces are 
compatible on the strategic, operational, and tactical levels.
    This cooperation will only increase when the remaining OEF troops 
in the east fall under ISAF command this fall. The U.S. Deputy 
Commander of ISAF for Security will be charged with ensuring 
coordination.
    General Pace. OEF and the ISAF do have different ROE, as would be 
expected for any NATO operation involved in the same country as a 
coalition operation. However, this has precedent for success with many 
previous NATO operations, which include Balkan operations in the 1990s 
and Operation Active Endeavor maritime forces operating in proximity of 
other naval vessels. It is not an issue to have two forces operating 
together with different ROE but it is critically important that those 
forces have good procedures in place to provide deconfliction. NATO 
operations will interact with OEF operations in much the same way as 
they have been doing for the last couple of weeks in Operation Medusa. 
Operation Medusa concluded offensive operations on 13 September 2006 
and was accomplished by ISAFs operating in southern region of 
Afghanistan with OEF forces integrated into the operations. In this 
example, the OEF forces were SOF in their foreign internal defense 
role, but it serves as a good example of how well these two operations 
can work together. Thorough planning was conducted to ensure 
deconfliction procedures are integrated into NATO procedures as they 
operate in the region south. The primary deconfliction occurs through 
the Deputy Commander (DCOM), Security billet in the headquarters of 
Commander, ISAF. DCOM Security will be a U.S. general officer 
indefinitely and is currently being executed by Major General Freakley, 
who is also Commander, JTF-76 as the 10th Mountain Division Commanding 
General. With his ``dual-hat'' role as DCOM Security and CJTF-76, he 
has responsibility for deconflicting ISAF operations with OEF 
operations. The DOD and NATO continue to work on the effectiveness of 
this deconfliction to ensure it is set up for success for the long-
term.
    General Abizaid. [Deleted.]

    17. Senator McCain. Secretary Rumsfeld, General Pace, and General 
Abizaid, could Pakistan be doing more to crack down on Taliban and al 
Qaeda operating from Pakistani territory?
    Secretary Rumsfeld. Pakistan is a key ally in the war on terror. We 
work closely with Pakistan to improve its military capabilities, 
particularly in the critical Pakistan-Afghanistan border regions. There 
are approximately 80,000 Pakistani troops currently assigned to this 
region. Furthermore, the Government of Pakistan recently announced a 
new three-pronged strategy in the federally administered tribal areas, 
which combines political, economic, and military initiatives. These 
initiatives are designed to yield long-term results. We will 
continually assess their effectiveness. Simultaneously, we will 
continue to impress on Pakistan our desire to see results in cracking 
down on al Qaeda and Taliban in the border region.
    General Pace. Pakistan is a key ally in the war on terrorism and 
cooperates closely with the U.S. military in the ongoing fight along 
the Afghan-Pakistan border. The U.S. Government and DOD continue to 
look at ways to help improve Pakistani military capabilities in order 
to enhance their effectiveness in war on terrorism efforts in the 
border regions. President Musharraf recently unveiled a new strategy 
for efforts in the federally administered tribal areas, which includes 
a comprehensive approach involving political, economic, and military 
initiatives. Since these initiatives are just underway and many will be 
long-term efforts, it is too early to measure the effectiveness of the 
new Pakistan strategy. Of course we would like to see better results in 
cracking down on al Qaeda and Taliban in the border region. We continue 
to work closely with the Pakistan government and military to improve 
the effectiveness of the Pakistan effort.
    General Abizaid. [Deleted.]

    18. Senator McCain. Secretary Rumsfeld, General Pace, and General 
Abizaid, has the United States and the international community provided 
enough attention and resources to Afghanistan to ensure that it does 
not slide backward?
    Secretary Rumsfeld. The situation on the ground in Afghanistan is 
dynamic and requires both the United States and our international 
partners to continually review our initial assumptions and refine our 
strategy. The DOD, along with the interagency, is conducting a review 
of the situation in Afghanistan to ensure that the necessary 
requirements are correctly identified and appropriately resourced. The 
United States is fully committed to the security, stability, and 
reconstruction of Afghanistan. We and the international community are 
helping Afghanistan to rebuild and assisting the Afghans to establish a 
credible and self-sustaining government.
    General Pace. The United States is leading the international 
community in conducting a comprehensive strategic review of all aspects 
of DOD efforts in Afghanistan to ensure that it does not slide 
backward. This comprehensive strategic review, led by the NSC and in 
close coordination with the interagency, will reprioritize U.S. and 
coalition efforts to achieve the permissive environment vital to 
achieving our goals in Afghanistan. Although initial efforts were well 
thought out and appropriately resourced by the United States and 
international community, the reality on the ground has changed in 
Afghanistan and we must adapt to this new reality. I think we must keep 
in mind that not only are we fighting a counterinsurgency, but we are 
also rebuilding a nation, one of the poorest on Earth. Of course the 
U.S. Government and the international community could always do more, 
but right now, from a military viewpoint, I believe we are providing 
enough attention and resources to prevent a backward slide.
    General Abizaid. Resource levels in Afghanistan are based on the 
needs of the ground commanders and their assessment of the threat. I 
continue to review and adjust resources as necessary in order to 
achieve success.
    The center of gravity in Afghanistan is decreasingly military and 
increasingly within the domain of governance and economic development. 
Therefore, resource requirements are shifting. The enemy is focused on 
winning the battle of perception, so we must counter any perception 
that our commitment to Afghanistan is in any way wavering. Continued 
development of the Government of Afghanistan and success in stabilizing 
the country require uncompromising commitment and consistent 
international cooperation. Afghanistan will continue to require both 
U.S. and international community resources to maintain development of 
the Afghan national security forces, counternarcotics assistance, 
infrastructure, and border security. The London Compact of 2006 
provides the framework for the international community to help the 
Afghans create a legitimate government. As NATO assumes control of 
security and stability operations, I will maintain a close relationship 
so as to advise and support with regard to NATO's requirements. The 
strength and capability of the Afghan government is growing rapidly.
    Coalition forces provide the shield behind which the 
accomplishments of the past 4\1/2\ years can be made permanent.
                                 ______
                                 
              Questions Submitted by Senator Susan Collins
                             national guard
    19. Senator Collins. General Pace and General Abizaid, it has been 
widely reported in the press and through senior National Guard 
officials' testimony before Congress that the war in Iraq has badly 
depleted the National Guard's domestic store of vehicles, weapons, and 
communications gear--leaving National Guard units with one-third the 
equipment needed to meet homeland security and homeland defense 
requirements.
    The Chief of the National Guard Bureau, Lieutenant General Steven 
Blum, has repeatedly stated that in September 2001, the National Guard 
had 75 percent of its needed equipment ``on hand.'' Today, that number 
is 34 percent.
    Maine's National Guard certainly is not immune to this severe 
equipment shortage. My State's Adjutant General has informed me that 
the Army National Guard (ARNG) in Maine is currently experiencing a 
lack of vehicles--primarily Humvees and crew-served weapons--and I am 
concerned with the amount of suitable equipment available to deploy 
overseas, conduct training, or respond to a domestic emergency.
    What kind of risk is incurred by having so few resources stateside, 
and what type of vulnerability does this expose for State National 
Guard troops in responding to domestic crises?
    General Pace. At this time last year, the ARNG was just completing 
its largest deployment since World War II. Approximately 17 brigades or 
brigade equivalents were deploying, deployed, or preparing to deploy. 
Equipment on hand, available to the Governors to respond to natural 
disasters, in the 54 States and Territories was at about 26 percent. 
Yet, the ARNG was able to deploy around 50,000 soldiers, equipped to 
the Gulf Coast in support of fellow citizens during hurricane Katrina. 
Since last year, equipment has been coming out of reset and returning 
to the States and we are now at around 39 percent as a national 
average.
    The Army in coordination with the ARNG has completed an analysis of 
equipment required along the coast from Texas to Maine, and in the 
islands (Virgin Islands, Puerto Rico, Hawaii, and Guam) to support 
possible hurricanes. The Adjutants General of these States/Territories 
provided their requirements through the National Guard Bureau to the 
Department of the Army. All components of the Army have provided 
equipment or pledged unit capabilities to respond to these possible 
hurricanes. The States are confident that there is enough equipment on 
hand or through the use of the additional capabilities and Emergency 
Management Assistance Compacts to respond. Maine did not request any 
additional equipment for hurricane response.
    Maine has received 67 percent of their Table of Organization and 
Equipment requirements. They do not have all of this equipment on hand. 
The whereabouts of their equipment is as follows:

          31 percent of their authorized equipment is nondeployed and 
        currently available (5 percent substitute items) national 
        average is 39 percent.
          31 percent of their authorized equipment is deployed or in 
        reset (Maine should get 5,141 pieces back from reset in fiscal 
        year 2007).
          5 percent of their authorized equipment has been left in 
        theater (Department of the Army and ARNG are working payback 
        plans for equipment left in theater).
          Critical Dual Use Equipment: Maine is at 60 percent and 
        national average is 53 percent.
          Maine is scheduled to get 68 pieces of new equipment in 
        fiscal years 2007 and 2008 (includes 20 medium trucks and 15 
        trailers for medium vehicles).
          Of Army's total new procurement allocations over fiscal years 
        2007 and 2008, ARNG will receive 24 percent of night vision 
        devices, 32 percent of Single Channel Ground Airborne Radio 
        System (SINCGARS) radios, and 71 percent of Medium Tactical 
        Vehicles.

    General Abizaid. As the combatant commander, the Service force 
providers continue to provide me with highly qualified troops and the 
equipment needed to meet operational requirements in the Central 
Command AOR. As the proponent for manning and equipping the National 
Guard to meet their full spectrum of missions, the National Guard 
Bureau is best suited to respond to this query.

                          troop levels in iraq
    20. Senator Collins. Secretary Rumsfeld, the DOD Office of 
Inspector General (OIG) announced several months ago that it is 
conducting an audit to see if U.S. troops deployed to Iraq have the 
equipment they need. The ongoing audit is supposed to determine whether 
units were provided with required equipment before they deployed, 
whether modifications made to equipment satisfy unit requirements, and 
the impact decisions on equipment repair have when units are 
redeployed, according to the IG's office.
    What is the status of this audit and can you share any interim 
findings with the committee at this time, particularly regarding the 
equipment available to units as they prepare to deploy from the United 
States to Iraq?
    Secretary Rumsfeld. The OIG has initiated two separate audits 
regarding the equipment provided to troops deployed to Iraq. The first 
audit is nearing completion and the second was just recently announced.
    On November 17, 2005, the DOD OIG announced the Audit of Equipment 
Status of Deployed Forces within U.S. Central Command. The objective of 
the audit is to determine whether units deployed to Iraq have been 
equipped in accordance with mission requirements. Specifically, the 
audit is evaluating whether units were provided the required items of 
equipment and whether the equipment modifications satisfied mission 
requirements. The audit is still ongoing and final results are not 
available. The OIG expects to issue a final report by the end of the 
year.
    On August 30, 2006, the OIG announced the Audit of the Inspection 
Process of the Army Reset Program for Ground Vehicles for Units 
Returning from OIF. The objective of the audit is to evaluate the 
Army's reset program for ground vehicles to determine the effectiveness 
of the technical inspection process for those units that are completing 
their tours in support of OIF. The audit team plans to start the 
project in September and travel to Iraq during the first quarter fiscal 
year 2007.

                                haditha
    21. Senator Collins. General Abizaid, on November 19, 2005, a 
Marine convoy in the Iraqi town of Haditha was hit by a roadside bomb. 
One marine and 24 Iraqi civilians, including women and children, were 
killed. Allegations surfaced in February 2006 that the marines may have 
killed the Iraqi civilians in reprisal.
    Two investigations were then opened to review this tragic incident. 
The Naval Criminal Investigative Service is conducting one 
investigation, and Major General Eldon Bargewell, USA, recently 
completed a separate, independent report into whether marines attempted 
to cover up the incident or if commanders were negligent in failing to 
initially investigate. While General Bargewell's report is not yet 
public, he reportedly submitted his findings to General Chiarelli on 
June 16, 2006.
    As a member of the Senate Armed Services Committee, I have asked 
Senator Warner, the chairman of the committee, to hold a public hearing 
on the Haditha incident at the earliest possible date. He has assured 
me that such a hearing will be held in the coming weeks.
    I believe congressional oversight is essential to ensure that our 
Armed Forces investigate accusations of this nature in an appropriate 
manner. These serious allegations of misconduct are deeply troubling, 
although the vast majority of our troops in Iraq continue to perform 
their duties with the utmost respect, restraint, and courage.
    What strikes me as curious is the lapse of time between the 
incident and subsequent investigations. Although marines initially 
reported that civilian casualties resulted from an IED explosion, 
photographs taken by the exploitation team conflicted with this report. 
The photographs clearly showed that the victims were killed as a result 
of gunshot wounds.
    According to a June 1 Washington Post article, the exploitation 
team's reporting chain lay outside that of the other marines--who were 
members of the 3rd Battalion of the 1st Marines--and went up through 
military intelligence channels directly to the 1st Marine Division's 
intelligence director. Had the exploitation team reported accurately 
what it witnessed, it would have presumably set off alarms and prodded 
military commanders to immediately investigate.
    I understand that you are currently reviewing General Bargewell's 
report on the Haditha incident. Are you able to share what his 
investigation revealed about the exploitation team actions or 
inactions? Are you aware of any exploitation team reporting policies 
changed as a result of this incident?
    General Abizaid. The United States Central Command is unable to 
share any details of the Major General Bargewell AR 15-6 Investigation. 
That investigation was previously forwarded to U.S. Marine Forces 
Central Command and this headquarters will transmit a copy of the 
investigation to the Secretary of Defense through the Chairman of the 
Joint Chiefs of Staff. I recommend appropriate coordination with the 
Office of the Secretary of Defense and the Marines.

                            troop readiness
    22. Senator Collins. General Pace and General Abizaid, General 
Pace's answer to Senator Reed talked about the components of readiness. 
Just this week, USA Today reported that the Army has begun training the 
oldest recruits in its history . . . ``the result of a concerted effort 
to fill ranks depleted during the Iraq war.''
    Just 5 months after the enlistment age limit was raised from 35 to 
40, the Army raised it to just under 42. The Army has also lowered the 
minimum physical requirements needed to pass basic training.
    Another article earlier this year described one strategy being 
employed by General Thomas Bostick, USA, Commander of all Army 
recruiting efforts. The article referenced many new and varied 
incentives being used to attract potential recruits in what has been a 
tough environment during the last several years.
    The ARNG, Reserve, and Active-Duty Forces all fell short of their 
fiscal year 2005 recruiting goals. While the Army has reached many of 
its recruiting targets this year, some could argue that this occurred 
in part due to the fact that the goals were lowered. The press report 
indicates that recruiters sent 2,697 fewer Active-Duty recruits to 
basic training from October to December than they did during that 
period in 2004.
    More troublesome is the fact that General Bostick admitted that 
more than 10 percent of the recruits during these 3 months had scores 
on the aptitude test that were ``near the bottom of the scale--more 
than double the annual 4 percent limit set by the DOD.''
    Does the recruiting shortfall, combined with lowered benchmarks, 
indicate trouble for our force and ability to re-supply the ranks?
    General Pace. At this time, we do not see any significant 
challenges with our ability to resupply the ranks with high quality men 
and women needed to support our deployed forces.
    Although challenges remain in this tough recruiting environment, 
our superb recruiters in the field and the great support of Congress 
have made for recruitment success during fiscal year 2006. The Active 
Army and the ARNG are postured for mission success as we near the end 
of the fiscal year. Predictions for the Army Reserve are somewhat less 
optimistic. However, with high missions the last 2 months and continued 
strong resourcing and efforts, the fiscal year 2006 accession mission 
is achievable. In fact, the Army Reserve has already recruited more 
soldiers this year than they did in all of fiscal year 2005.
    As of the end of July 2006, the Army has met its Active recruiting 
goals for 14 consecutive months and has recently announced that they 
will meet their annual recruiting goal of 80,000. The Army Reserve and 
the National Guard are just behind (99 percent) their mission goals 
through the month of July. Additionally, a major contributing factor to 
the overall health of the force is that retention rates remain high 
across all three Army components.
    The Army accessed higher numbers of lower mental category soldiers 
early this fiscal year. However, through the end of July they remain at 
3.8 percent, under the DOD goal of 4 percent for Test Category IV 
accessions (those scoring between the 10th and the 30th percentiles on 
the Armed Forces Qualification Test). They are committed to achieving 
mission success while maintaining this DOD standard.
    At this point, there is no indication that the increase in this 
area will have any effect on overall unit readiness. In fact, attrition 
in the training base remains at all-time lows; a remarkable feat in 
light of the increased rigor of basic training.
    General Abizaid. As the combatant commander, the Service force 
providers continue to provide me with highly qualified troops to meet 
my operational manpower requirements. As the title X proponents for 
recruiting and training requirements, the Service Chiefs are best able 
to fully respond to this query.
                                 ______
                                 
               Questions Submitted by Senator Carl Levin
                   counterdrug--u.s. military support
    23. Senator Levin. General Abizaid, in January 2005 a group of 35 
NGOs wrote to Secretary Rice recommending that coalition forces:

          (1) focus intelligence collection efforts on identifying 
        major traffickers;
          (2) cease all payments to traffickers; and
          (3) assist in the destruction of laboratories and 
        interdiction of imports of precursor chemicals and exports of 
        narcotics.

    Are the forces under your command doing any of this?
    General Abizaid. The United States Central Command has supported 
the lead nation and lead U.S. Government agencies responsible for the 
counternarcotic mission in Afghanistan with intelligence support and 
has provided assistance, within our existing means and authorities, to 
those lead agencies to identify and destroy laboratories, and interdict 
the movement of narcotics. Regarding the group's second recommendation, 
forces under my command are not authorized to make payments to 
traffickers. Since counternarcotics is primarily a law enforcement 
mission, the United States Central Command is actively supporting 
Department of State (DOS) International Narcotics and Law (INL), Drug 
Enforcement Administration (DEA), international, and Afghan efforts to 
build an Afghan capability to effectively address the threat posed by 
the illicit narcotics trade. Since 2004, Congress has provided, and the 
DOD has expended, approximately $470 million for counternarcotics 
programs in Afghanistan and the surrounding region. These programs are 
training Afghan counternarcotics police forces, providing 
infrastructure and equipment for the police and border security forces, 
purchasing equipment to improve command and control, building an Afghan 
counternarcotics intelligence capability, assisting the Government of 
Afghanistan in their public information campaign, and leveraging 
interagency intelligence capabilities in the fight against drugs. We 
are also providing operational support as directed by the Secretary of 
Defense in support of the U.S. Embassy Kabul Counternarcotics Action 
Plan.

    24. Senator Levin. General Abizaid, do the United States and ISAF 
have a unified operational plan to deal with eliminating drug 
cultivation and trafficking--activity which essentially funds the 
Taliban and al Qaeda? More specifically, are we doing enough to 
interdict cross-border flows of narcotics?
    General Abizaid. Reducing drug cultivation and trafficking in 
Afghanistan are missions of U.S. Government and international aid and 
law enforcement agencies. However, the ISAF does have sufficient ROE 
which allow these forces to assist with the drug threat in Afghanistan. 
We are confident that ISAF will continue to provide adequate support to 
these organizations in the poppy elimination and countertrafficking 
tasks. Regarding our efforts at stopping the cross-border movements of 
narcotics, U.S. military forces are currently not actively engaged on 
the border to interdict drugs. However, DOD is aggressively assisting 
the Government of Afghanistan, DOS, and the DEA to build an Afghan 
capacity to interdict narcotics and precursor chemicals. Additionally, 
while Afghanistan is the source of much of the world's opium, we 
recognize that this opium must transit the region to reach its 
worldwide market. As a result, we are also working with other regional 
partners to improve their capacity to interdict narcotics as they move 
across national boundaries.

                         counterdrug--strategy
    25. Senator Levin. Secretary Rumsfeld, do you believe that we are 
doing enough with our allies in the Middle East, including the Gulf 
States, to interdict drugs flowing out of Afghanistan?
    Secretary Rumsfeld. Aside from the many capacity-building programs 
DOD executes within Afghanistan in support of DOS, INL, and DEA 
requests, DOD also executes programs throughout the surrounding region 
in those countries that serve as the main transit zones for Afghan 
narcotics. DOD has programs in support of the governments of Pakistan, 
Kyrgyzstan, Kazakhstan, Tajikistan, Turkmenistan, Oman, Djibouti, 
Ethiopia, and Kenya in an effort to better interdict drug flows from 
Afghanistan.
    DOD also participates in the Central and South Asian 
Counternarcotics and Security Working Group. This group of 
representatives from Central and South Asian countries meets regularly 
to examine strategies that promote regional stability and enhance their 
capability to defeat narcotics trafficking in the region.
    Despite relative improvements in their capabilities to date, 
Afghanistan will require continued long-term assistance from the United 
States and the entire international community to fully handle its own 
narcotics issues.

    26. Senator Levin. Secretary Rumsfeld, do you see an opportunity 
for us to work with the Gulf States, with Pakistan, and even--despite 
our tremendous differences with the government--Iran, to stem the flow 
and thereby stem the drug proceeds to Taliban and al Qaeda? If so, how 
would you ensure that this opportunity is seized--that we develop a 
multinational, cross-border drug interdiction strategy?
    Secretary Rumsfeld. As previously mentioned, our programs focus on 
those countries that serve as the main transit zones for Afghan 
narcotics. Pakistan is one of these countries, and the amount we spend 
on support to counternarcotics efforts in Pakistan is second only to 
what we provide in Afghanistan when compared to the rest of the region.
    The Afghan drug trade also has seriously affected Iran, and Iran 
has a strong interest in combating the drug flows from Afghanistan 
through their country. There is little opportunity at the present time 
for DOD to work directly with Iran on this issue, but the United 
Kingdom and the Government of Afghanistan may be in a better position 
to develop counternarcotics relationships with Iran.

           counterdrug--provincial reconstruction teams role
    27. Senator Levin. General Abizaid, do the Provincial 
Reconstruction Teams (PRTs) have an explicit counterdrug mission?
    General Abizaid. Although the PRTs do not have an explicit 
counterdrug mission, the PRTs do coordinate with and support Afghan, 
U.S., and other international efforts to provide alternatives to poppy 
cultivation. For instance, the PRTs support the Afghan Poppy 
Elimination Program (PEP) teams in their efforts to provide education, 
alternative crops, and jobs for Afghans involved in the cultivation of 
poppy. Both DOS/International Narcotics and Law Enforcement (INL) and 
United States Agency for International Development provide significant 
support to these PEP efforts.

    28. Senator Levin. General Abizaid, are the PRTs helping build 
infrastructure and providing alternative livelihoods at a rate, and in 
a fashion, that leads you to believe we may be able to achieve reduced 
levels of poppy cultivation in the future?
    General Abizaid. The PRT program is a great success and is key to 
stabilizing Afghanistan. There are 23 PRTs operating and they allow the 
Afghan government to expand reconstruction and outreach efforts and 
security. PRTs are a catalyst and their presence brings security to the 
area where it operates and serves to enable reconstruction and 
development. I believe their support is absolutely critical to develop 
the infrastructure and markets required to provide the Afghan farmer 
with a licit means to make a living and to the establishment and 
sustainment of enduring alternative livelihood programs, which in time, 
will favorably impact poppy cultivation.

                       afghanistan--nato capacity
    29. Senator Levin. Secretary Rumsfeld and General Abizaid, I 
understand that the current plan is to turn responsibility for 
Afghanistan over to NATO by the end of the year. Are there conditions 
that will determine whether NATO takes control of the east, where U.S. 
troops are concentrated now?
    Secretary Rumsfeld. Stage IV transfer of authority for Regional 
Command East is conditions-based. We are working with NATO, coalition 
members, and the Government of Afghanistan to ensure that the ISAF 
Commander has the forces and assets available to succeed in his 
mission, and to ensure a seamless transition.
    General Abizaid. We have already completed transition of three of 
the four regional commands to NATO. Each transition decision was 
determined by established criteria. The decision to execute transfer of 
authority (TOA) of Regional Command-East (RC-E) to the NATO ISAF is 
based on a set of 12 major operational and tactical criteria, as well 
as a strategic evaluation. These criteria have been agreed upon by both 
the United States and NATO. They are not simply focused on RC-E, but 
rather encompass an evaluation of ISAF operations throughout 
Afghanistan. The decision involves estimations of the effectiveness of 
current and planned ISAF operations throughout the regions; the level 
of cooperation they have achieved with the Government of Afghanistan; a 
determination on whether NATO has sufficient combat enabling 
capabilities such as emergency medical evacuation support; coordination 
of detainee operations; agreement on execution of ROE; and NATO's 
ability to operate and support the PCTs.
    TOA execution will not take place until the United States, through 
the Secretary of Defense, and NATO, through the NATO Advisory Council, 
agree that all of the criteria have been satisfied, and the strategic 
conditions are determined appropriate.

    30. Senator Levin. Secretary Rumsfeld and General Abizaid, what 
will be the ongoing U.S. role? Will the troop commitment remain at the 
same levels, and if not, what matrices are you using to determine 
whether we need to increase, decrease, or change the composition of the 
U.S. troop contribution?
    Secretary Rumsfeld. With regards to Stage IV, the ongoing U.S. role 
in Afghanistan will be two-fold. First, as a member of NATO, the United 
States will be the single largest contributor of forces and 
capabilities to ISAF. Second, we will retain a strong national 
capability to support counterterrorism missions and to continue our 
role in training and equipping Afghan National Security Forces (ANSF), 
a mission that is essential to our long-term strategy in Afghanistan. 
U.S. force numbers will continue to be determined by conditions and 
requirements. As the ANSF develop the capability to provide for 
Afghanistan's security, the requirement for U.S., NATO, and coalition 
troop contributions will decrease.
    General Abizaid. The United States will continue its significant 
role in the security and development of Afghanistan during and after 
the transfer of authority to NATO. U.S. forces are deployed throughout 
Afghanistan, in support of OEF and NATO ISAF. While the bulk of combat 
forces will be under ISAF, the support enablers for those units will 
remain under national command. Additionally, we will continue operation 
of nine PCTs under ISAF.
    The Counterterrorism Task Force, as well as development of the 
ANSF, to include the Afghan National Army and the Afghan National 
Police, will remain the responsibility of the United States in 
partnership with the Government of Afghanistan.
    U.S. force levels will be predicated on conditions on the ground as 
observed and evaluated by U.S. Central Command, and with the 
concurrence of the Government of Afghanistan. Our troop commitment is 
perceived by the Government of Afghanistan as a direct reflection of 
our confidence in President Karzai's administration and our national 
commitment to the development of Afghanistan.

                            risk assessment
    31. Senator Levin. General Pace, in February of this year, you 
provided this committee with a classified assessment of the risk of 
executing our National Military Strategy (NMS). The classified risk 
assessment you provided to this committee earlier this year does not 
appear, in my judgment, to be consistent with the readiness statistics 
the Army and the Marine Corps have provided to this committee in recent 
months.
    Do you stand by that risk assessment today?
    General Pace. Yes. I remain confident that the Armed Forces can 
accomplish the objectives of the NMS. The 2006 Biennial Review of the 
NMS provided an assessment of the current security environment and the 
capacity of the Armed Forces to accomplish the objectives of the NMS. 
This assessment is updated through a continuous risk assessment process 
in which the Joint Chiefs of Staff and the combatant commanders review 
the risks associated with accomplishing the objectives of the NMS and 
recommend appropriate actions to address these risks. I will not 
hesitate to notify the committee should my judgment change on the risk 
of executing our NMS.

    32. Senator Levin. General Pace, what level of risk exists today if 
our military were called on to execute a mission, requiring a 
substantial number of ground forces, somewhere in addition to the 
operations ongoing in Iraq and Afghanistan?
    General Pace. While our Armed Forces are engaged in a variety of 
activities, including significant operations in Iraq and Afghanistan, 
we fight as a joint team--ground, air, and naval forces working 
together. This joint approach provides the Nation with an exceptionally 
flexible and capable military. Our joint team is fully capable of 
responding to changing circumstances and situations throughout the 
world and prevailing against any threat--decisively.
                                 ______
                                 
             Questions Submitted by Senator Daniel K. Akaka
                           corruption in iraq
    33. Senator Akaka. Secretary Rumsfeld, the July 2006, Quarterly and 
Semi-Annual Report by the Special Inspector General for Iraq 
Reconstruction states that corruption has become wide-spread in Iraq, 
so much so that, according to the report, it ``threatens to undermine 
Iraq's democracy.''
    Prior to this report, to what extent were you aware of how rampant 
corruption had become in Iraq? Also, what steps have you taken or do 
you plan to take to counteract fraud and corruption?
    Secretary Rumsfeld. Corruption was omnipresent in Saddam's society 
and it continues to be a part of the current Iraqi society. It is one 
of the causes that leads to extremism. In order to be successful 
against extremists, governments must be held accountable. Such 
accountability will emerge in Iraq with the good governance created by 
representative government. For our part, we are helping the Iraqis 
develop anti-corruption agencies such as the Board of Supreme Audit and 
the Commission on Public Integrity.

                          middle east conflict
    34. Senator Akaka. Secretary Rumsfeld, if the U.N. were able to 
successfully negotiate a permanent cease-fire between Israel and the 
Hezbollah forces in Lebanon, a number of European countries, including 
France, Italy, and Poland, have indicated a willingness to contribute 
forces in order to help maintain the peace. What role do you imagine 
that U.S. forces would play in the deployment of an international 
peacekeeping force?
    Secretary Rumsfeld. The United States is considering how it can 
best support an international peacekeeping force in Lebanon. That 
support could take the form of logistics, communications, and other 
assistance.

                              troop levels
    35. Senator Akaka. Secretary Rumsfeld, the President has asserted 
the need for more troops in Iraq in order to help stem the ongoing 
violence and insurgency. Just last week, you approved a request to 
extend the deployment of the Army's 172nd SBCT. Given that Lieutenant 
General Steven Blum, Chief of the National Guard Bureau, has recently 
asserted that two-thirds of the Active Army's National Guard's brigades 
are not ready for war, I am very concerned about our military's ability 
to fulfill its worldwide mission. More specifically, to what extent has 
the large scale deployment of troops to Iraq limited our ability to 
respond to a threat from North Korea?
    Secretary Rumsfeld. The DOD has refined its Force Planning 
Construct to focus on three objective areas: homeland defense, war on 
terrorism and irregular warfare, and conventional campaigns. We are 
continuously assessing the force sizing and capability mix required by 
the operational commitments associated with our worldwide mission. 
Operations in Iraq and Afghanistan have stressed military personnel and 
equipment, particularly of the ground forces. We are seeking ways to 
reset the force and are reassessing the overall size of our military 
forces.
    The United States must maintain the ability to conduct and win 
conventional campaigns, and we remain fully committed to fulfilling our 
historic responsibilities of mutual defense on the Korean peninsula to 
deter and, if required, defend against the threat from North Korea. The 
United States has encouraged all parties involved to resume the Six-
Party Talks that provide a multinational discourse on achieving a 
peaceful resolution to the North Korean weapon issue. Moreover, U.S. 
Pacific Command and U.S. Forces Korea have been working with the South 
Korean military to increase capacity to deter aggression and further 
prospects for lasting peace.
    The increased operational tempo and resulting readiness concerns 
have impacted the risk associated with other commitments, and we are 
continuously analyzing risk and prioritizing U.S. military activities. 
The Chairman is specifically charged with formally assessing the 
National Military Risk and will provide that annual assessment to 
Congress in 2007.

                         iraqi security forces
    36. Senator Akaka. General Pace and General Abizaid, the latest 
Executive Summary Report to Congress regarding the United States policy 
in Iraq asserts that Iraq's Ministry and Defense and MOI forces 
``continue to increase in size and capability and are increasingly 
taking over lead combat responsibility from coalition forces'' yet 
rather than drawing down our troops we are increasing the numbers 
deployed and extending the tours of the men and women already there.
    To what extent did the report overestimate the progress of the ISF? 
Also, what more needs to be done in order to make the transition to a 
more limited mission and to prepare the ISF to be able to take over 
responsibility?
    General Pace. Effective political and economic reform is central to 
a lasting reduction in violence, to a far greater extent than the 
number of Iraqi or coalition troops. The Government of Iraq (GOI) must 
resolve the difficult issues of national reconciliation, including de-
Baathification reform, militias, oil revenue sharing, and the nature of 
Iraqi federalism. They must address these issues in a way that does not 
exacerbate sectarian tensions. Additionally, the GOI must deliver basic 
goods and services and a program to increase economic opportunities to 
provide a counter to crime and militias.
    Before the Samarra shrine bombing in February 2006, we anticipated 
that insurgent attacks would decline. The bombing ignited sectarian 
tensions that have necessitated adjusting U.S. troops to assist the ISF 
in quelling the violence. Accomplishment of 325,000 individually 
trained and equipped ISF is just a step in the process. Our ability to 
reduce the number of coalition forces depends on the overall capability 
of ISF, capacity of the GOI and its institutions, and GOI ability to 
provide essential services.
    We are seeing progress as Iraqi units go from formation to being 
able to operate side-by-side to being in the lead. We are just now 
beginning to see more ISF being able to operate independently without 
coalition support. We anticipate we will begin to reduce our footprint 
as ISF become more capable and enemy activity can be handled solely by 
the ISF.
    The MNF-I Commander is the best judge of when forces can be 
redeployed. He has a process to make those decisions and we base our 
recommendations to the Secretary of Defense based on his judgment. 
Finally, the enemy gets a vote on when we withdraw forces.
    General Abizaid. The August Report to Congress did not overestimate 
the progress of the ISF. Rather, the report accurately stated the 
progress the coalition is making in developing the ISF. By the end of 
2006, the 325,000-person ISF will be trained and equipped. In just 
under a year's time, the Iraqi army has grown from 23 battalions in the 
lead conducting security operations, to 88 battalions in the lead.
    Iraqi units designated as ``in the lead'' are capable of planning 
and executing counterinsurgency and security operations today. These 
units can and do conduct independent operations, however most of these 
units still require support from the coalition, particularly in the 
areas of logistics and sustainment. Where our initial focus in 
developing the ISF was on creating, equipping, and training the units, 
our focus is now shifting to developing the ISF's capacity to sustain 
itself. One of our key efforts is to assist the Government of Iraq in 
developing policy, planning, and budgeting capabilities in the 
Ministries of Defense and Interior. These efforts will allow the ISF to 
continue assuming more of the security responsibility for Iraq, thus 
permitting coalition forces to transition to a supporting role.

                          iraq reconstruction
    37. Senator Akaka. General Pace and General Abizaid, the DOD 
reported that it is working closely with Iraq and international donors 
to maximize international reconstruction assistance. What impact do you 
believe that the recent violence between Iraq and Hezbollah forces in 
Lebanon will have on the ability of the Iraqi government to garner 
further international support?
    General Pace. The International Compact with Iraq is a joint Iraqi/
U.N. initiative to garner increased international support for Iraq. The 
Government of Iraq commits to reforms, while donor nations pledge 
assistance to help Iraq meet its commitments. As the co-lead U.S. 
Government agencies, the Departments of State and Treasury are better 
positioned to comment on the impact on the Compact of the recent 
fighting between Hezbollah and Israel.
    General Abizaid. Recently, the struggle within Iraq has 
transitioned from violence directed against coalition forces to 
violence between ethnic and sectarian groups, mainly Sunni and Shiite, 
seeking to control Baghdad and the distribution of political and 
economic power. Continued sectarian violence will ultimately serve as a 
deterrent to further international support. In order to set favorable 
conditions for garnering international support, Prime Minister Maliki 
has initiated key programs to resolve issues leading to sectarian 
violence. These key programs include the National Reconciliation and 
Dialog Plan, the International Compact for Iraq, the Iraq 
Constitutional Review Process, and the Baghdad Peace Initiative.
                                 ______
                                 
         Questions Submitted by Senator Hillary Rodham Clinton
                              afghanistan
    38. Senator Clinton. Secretary Rumsfeld, on July 21, Lt. Gen. David 
Richards, the head of NATO's International Security Force in 
Afghanistan, the man now in charge of coalition military operations in 
the south, described the situation in Afghanistan as ``close to 
anarchy,'' and said that we are ``running out of time'' if we are going 
to meet the expectations of the Afghan people.
    Reports indicate that Operation Mountain Thrust has been successful 
in killing more than 600 suspected Taliban in the run-up to the recent 
handover of operations in the south to NATO forces. Considering that 
we've had a significant troop presence in Afghanistan for over 4\1/2\ 
years, it's disturbing that there has been a comeback of the Taliban in 
the south. Were you wrong when you said ``the Taliban are gone''? What 
has gone wrong in Afghanistan?
    Secretary Rumsfeld. Five years ago, Afghanistan was ruled by the 
Taliban and provided a safe haven for the terrorists who planned 
September 11. Today, the Taliban are no longer in power. The Afghans 
have a democratically elected President and National Assembly leading 
the international community's reconstruction efforts. Meanwhile, ANSF 
are fighting insurgents alongside U.S., coalition, and NATO ISAF 
forces. Challenges remain, including violence, narcotics, and the lack 
of infrastructure, but it will take time and international 
participation to completely address the damages caused by close to 30 
years of war.

    39. Senator Clinton. Secretary Rumsfeld, General Pace, and General 
Abizaid, given that the lead coalition commander has described the 
situation as ``close to anarchy,'' how does the current plan to turn 
this around differ from the earlier game plan? What are our ``lessons 
learned''?
    Secretary Rumsfeld. A cornerstone of our strategy in Afghanistan is 
the coordination of aggressive combat operations with reconstruction 
and development efforts. We have found that in areas where this 
coordination is implemented effectively, the perception of government 
control is bolstered and the local populace is disinclined to lend its 
support to insurgent elements. Successfully pairing the removal of 
insurgents with reconstruction efforts will prove to the Afghans that 
it is the government, not the insurgency, which will provide the 
security and economic stability that is needed for Afghans to prosper.
    General Pace. One of the larger lessons learned at this stage in 
our mission is the strategic importance of redevelopment. Within the 
broad category of redevelopment, three areas are most prominent and 
appear to be the most cost-effective. Our strategic review strives to 
incorporate our lessons learned and place great emphasis in these three 
areas: roads, power, and rural development.
    In areas that the central Government of Afghanistan and the ANSF 
and alliance can access via roads, the insurgency is far less likely to 
hold sway over the local area. Simply put, where the roads end, the 
Taliban begins. Power increases in priority based on the broad-based 
expectation from the Afghans that they should have power. Power also 
gains them access to alliance information operation efforts via radio 
and television. Rural development is the ability to stimulate economic 
activity through efforts aimed at supporting farmers getting their 
produce to markets. Taken in combination, we are striving to create an 
environment where Afghans from outlying areas maintain a greater 
connection with the central government through the ability to grow, 
transport, and market goods to areas beyond the immediate village. With 
a greater belief in the ability of the central government to provide, 
we are hopeful that Afghans who earlier tolerated or even supported the 
insurgency see a greater benefit to themselves and their families to 
support the central government. If so, they will no longer provide any 
support and may start to actively oppose the presence and activities of 
insurgents.
    The south of Afghanistan is the historical home of the Taliban and 
the area where most of the violence is occurring. We have adapted our 
strategy there to more broadly coordinate kinetic and nonkinetic 
activities. This summer we have conducted a series of major operations 
in the south and achieved significant successes against the Taliban. 
One of the most important components of our effort is that once the 
kinetic activity is complete and we gain control of an area, we then 
begin intensive nonkinetic civil-military operations to solidly control 
and maintain it.
    General Abizaid. U.S. Central Command's strategic vision for 
Afghanistan has not changed since the beginning of OEF. We remain 
committed to a fully self-reliant Afghanistan with a representative 
government that is committed to national development, respect for the 
rule of law, and that rejects international terrorism. It is an 
Afghanistan that is capable of providing for its own security, 
controlling and governing its territory, implementing economic 
development policies, and eliminating the production of illegal drugs.
    We are conducting a variety of military and non-military operations 
to counter the recent resurgence of Taliban rejectionist forces in 
Southern Afghanistan. Much of this resistance is occurring as NATO and 
the Government of Afghanistan expand control into those areas; areas 
where we have had a very small presence over the past 4 years. As they 
expand, they will naturally encounter areas where the populace is 
unaccustomed to a national government and will provide some level of 
resistance until the population accepts that the Government of 
Afghanistan is serving their interests.

                            troop readiness
    40. Senator Clinton. Secretary Rumsfeld, General Pace, General 
Abizaid, at the August 2, 2006, DOD press conference, Secretary 
Rumsfeld stated, ``One of the problems we've seen is that in the 
readiness charts that are used, we see apples and oranges; we see a 
standard on the left side for some years back, and then a standard 
that's different on the right side.'' Secretary Rumsfeld went on to 
say, ``. . . a third aspect of that that General Pace and I have been 
probing is you can say, `Ready for what,' and if they're ready for the 
task they're doing, that's what you want. Or you could put a standard 
that says, `Are they ready for any conceivable task that might be 
asked,' and if that's the standard, then you get a different set of 
numbers.''
    If you change the readiness standard, doesn't it make sense to 
measure against the new standard?
    Secretary Rumsfeld. Yes, we should measure our readiness against 
the new standard, and are in the process of changing our readiness 
reporting system to do exactly that. Our legacy reporting system, the 
Status of Resources and Training System (SORTS), simply measures the 
amount of assets assigned to a unit. This measure does not account for 
the mission the unit is tasked to perform, the capabilities of its 
equipment, or the experience of the people. These legacy system 
measures can be very misleading. A unit can be ``unready'' simply 
because it did not deploy with all of its equipment, even if that 
equipment is not needed for the mission. Likewise, units undergoing 
transformation to a modular configuration can become ``unready'' 
overnight because of newly authorized organizational structures and 
equipment. Our new Defense Readiness Reporting System (DRRS) allows us 
to see true mission requirements as well as unit assets on hand.
    General Pace. Yes. To meet this new standard, the DOD is 
transitioning readiness reporting to a capabilities-based readiness 
assessment focused on a unit's ability to perform specific mission 
essential tasks (MET) while integrating this additional information 
with our legacy resources-based readiness assessment of personnel, 
equipment, supply, training, and ordnance. The integration of MET data 
requires establishing conditions and standards for the tasks and 
dissemination of the new requirements procedures across the DOD.
    The DOD is in the process of developing new policy guidance to 
address the improved standards. In addition, the new standard requires 
information technology systems and training to accompany the process. 
The new DRRS is making significant progress toward supporting the new 
readiness reporting model. We need appropriate testing and validation 
for the DRRS system prior to full implementation.
    General Abizaid. The new DRRS is intended to identify and implement 
reporting standards across the DOD. The DDRS Office is responsible for 
developing and establishing this system within the DOD. As the 
proponent responsible for this new readiness measurement system, the 
DRRS Implementation Office is best able to fully respond to this query.

    41. Senator Clinton. Secretary Rumsfeld, General Pace, and General 
Abizaid, aside from the fact that changing standards apparently is 
causing issues with the readiness charts, how long is reasonable for 
units to not be ready as they reset?
    Secretary Rumsfeld. As the Army resets, it is refurbishing some 
assets, modernizing others, and creating the new Brigade Combat Team 
structure. As one would expect, these processes take some time to 
complete. Generally speaking, it takes about 9 to 12 months to complete 
this process. We are very interested in making sure this conversion 
happens expeditiously.
    General Pace. The amount of time necessary for a unit to reset 
varies according to individual Service reset procedures, the type of 
unit, length of deployment, equipment availability, and other issues. 
There is no single answer or template for all units on how quickly they 
reset. Each Service maintains a structured process to provide combat 
ready forces. For example, the Army uses an Army Force Generation model 
with force pools of `Reset/Train,' `Ready,' and `Available' forces as a 
framework for the structured progression of increased readiness. In 
this model, Army Active component units require 9 to 12 months in the 
`Reset/Train' Force Pool before the unit can be certified to move into 
the `Ready' Force Pool. An Army Reserve component unit will typically 
spend 36 to 48 months in the `Reset/Train' Force Pool before it can be 
certified to move into the `Ready' Force Pool. Currently, these time 
frames are compressed due to high operational tempo of ongoing war on 
terrorism operations. The sustained strategic demand has placed 
tremendous strain on the Army's people and equipment that have been 
employed in the harsh operating environments of Iraq and Afghanistan.
    Case-by-case assessments are made by senior commanders within each 
Service, and rolled up into top-level reporting forums. This process 
ensures that deploying units are trained and equipped to support the 
full spectrum of operations outlined in our NMS.
    General Abizaid. As the combatant commander, the Service force 
providers continue to provide me with highly qualified troops to meet 
my operational manpower requirements. As the title X proponents for 
establishing individual Service reset requirements, the Service Chiefs 
are best able to fully respond to this query.

    42. Senator Clinton. Secretary Rumsfeld, General Pace, and General 
Abizaid, how far in front of the next deployment is sufficient to 
ensure units have the equipment and personnel they need to accomplish 
their assigned mission?
    Secretary Rumsfeld. We try to maximize the time available to man, 
equip, and train our units for the mission at hand. To date, we have 
been able to provide most units with the appropriate personnel and 
equipment in time to conduct a Mission Readiness Exercise prior to 
deployment. The ``lead time'' necessary for these actions vary 
considerably depending on the mission and unit assigned.
    General Pace. This answer varies by the type of unit, the deployed 
mission assignment, and the requirements associated with that assigned 
mission. We make every effort to have the equipment and personnel 
necessary to train for assigned missions in place before units commence 
their pre-deployment training cycles. Optimally, these training cycles 
range from 120 days to 20 months prior to deployment. Currently, these 
times are compressed due to high operational tempo and demand.
    General Abizaid. As the combatant commander, the Service force 
providers continue to provide me with highly qualified troops to meet 
my operational manpower requirements. As the title X proponents for 
establishing individual Service personnel and training requirements, 
the Service Chiefs are best able to fully respond to this query.

    43. Senator Clinton. Secretary Rumsfeld, General Pace, and General 
Abizaid, how does that timeline mesh with the units' training timeline?
    Secretary Rumsfeld. Training timelines are tailored to account for 
the lessons learned from previous deployments, the experience of the 
unit and personnel involved, and current events in theater. In the 
preponderance of cases, there is time available to allow units to 
become fully trained for their assigned missions.
    General Pace. Training timelines are built into Service pre-
deployment cycles and vary by individual unit missions. The consistent 
policy across Services is that every effort is made to ensure 
appropriate enablers are in place for units commencing their pre-
deployment training. In a traditional operational cycle, training 
commences from 120 days to 20 months prior to deployment and would 
enable forces to train to a full-spectrum capability. The current high 
operational tempo has resulted in shortened training timelines and, in 
some cases, has required the focusing of training enablers on deployed 
missions.
    General Abizaid. As the combatant commander, the Service force 
providers continue to provide me with highly qualified troops to meet 
my operational manpower requirements. As the title X proponents for 
establishing individual Service personnel and training requirements, 
the Service Chiefs are best able to fully respond to this query.

    44. Senator Clinton. Secretary Rumsfeld, General Pace, and General 
Abizaid, what standard of personnel and equipment on hand is required 
for units to participate in the collective training prior to 
deployment?
    Secretary Rumsfeld. The unit commander makes the decision on 
whether his unit can perform collective training with the personnel and 
equipment on hand. Collective training is a continuum, and starts with 
smaller units of organization and builds to include multiple 
organizations and command staffs. Generally speaking, the unit will 
have appropriate personnel and equipment in place to conduct the 
mission rehearsal exercise.
    General Pace. The goal is to ensure there is an adequate amount and 
type of equipment on hand to support the realistic training objectives 
required for deployment. Those specific numbers vary by the type of 
unit, assigned mission, equipment on hand, training level of personnel, 
and other variables. Two specific examples follow:
    The Army mans units to 85 percent and equips them to a level 
determined by a Force Feasibility Review as required to start 
collective training. The Army's goal is to increase equipment and 
manning to 100 percent prior to the unit's deployment.
    Certain Navy units, such as the Naval Mobile Construction 
Battalions, train with stateside equipment and systems that are 
identical to those that are used when deployed overseas. They remain 
fully capable to participate in collective training prior to 
deployment.
    The intent is to ensure units have enough personnel and equipment 
to fully participate in pre-deployment training events as they ramp up 
to peak readiness for deployments and wartime taskings.
    General Abizaid. As the combatant commander, the Service force 
providers continue to provide me with highly qualified troops to meet 
my operational manpower requirements. As the title X proponents for 
establishing individual Service train and equip requirements, the 
Service Chiefs are best able to fully respond to this query.

    45. Senator Clinton. Secretary Rumsfeld, General Pace, and General 
Abizaid, is it possible to train to standard if you do not have 
comparable equipment on hand to train with?
    Secretary Rumsfeld. Yes, the majority of training can be 
accomplished with similar or substitute items. Ideally, units will have 
comparable equipment for the mission rehearsal exercise, but some of 
this equipment may only be available in theater (e.g., up-armored High 
Mobility Multipurpose Wheeled Vehicles). Accordingly, training with 
these specific pieces of equipment will only take place upon deployment 
in a non-combat, training environment in theater. The Udari range in 
Kuwait is used specifically for this in-theater training.
    General Pace. With approved equipment substitutes, our personnel 
train to standards every day. Military processes exist that ensure 
equipment substitutes are similar enough in form, substance, and 
function to be adequate for realistic and reasonable training. In those 
cases in which units do not organically possess adequate equipment, we 
ensure that equipment or a suitable substitute is provided to the unit 
during its training for deployment.
    Additionally, many of our military systems rely on simulators and 
embedded training systems. Quite often, a large percentage of the 
initial training is actually conducted on these simulators, so there is 
no loss of capability associated with the usage of these systems.
    We will continue to do our best to ensure the needs of the units 
getting ready for their next rotation are met to ensure they are at the 
peak of readiness prior to deploying.
    General Abizaid. As the combatant commander, the Service force 
providers continue to provide me with highly qualified troops to meet 
my operational manpower requirements. As the title X proponents for 
establishing individual Service train and equip requirements, the 
Service Chiefs are best able to fully respond to this query.

    [Whereupon, at 1:06 p.m., the committee adjourned.]


    TO RECEIVE TESTIMONY ON THE CURRENT SITUATION AND U.S. MILITARY 
                   OPERATIONS IN IRAQ AND AFGHANISTAN

                              ----------                              


                      WEDNESDAY, NOVEMBER 15, 2006

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 11:28 a.m. in 
room SH-216, Hart Senate Office Building, Senator John Warner 
(chairman) presiding.
    Committee members present: Senators Warner, McCain, 
Roberts, Sessions, Collins, Talent, Chambliss, Graham, Cornyn, 
Thune, Levin, Kennedy, Lieberman, Reed, Akaka, Bill Nelson, E. 
Benjamin Nelson, Dayton, Bayh, and Clinton.
    Committee staff members present: Charles S. Abell, staff 
director; Leah C. Brewer, nominations and hearings clerk; and 
John H. Quirk V, security clerk.
    Majority staff members present: William M. Caniano, 
professional staff member; Regina A. Dubey, professional staff 
member; Ambrose R. Hock, professional staff member; Derek J. 
Maurer, professional staff member; Elaine A. McCusker, 
professional staff member; David M. Morriss, counsel; Lucian L. 
Niemeyer, professional staff member; Lynn F. Rusten, 
professional staff member; Sean G. Stackley, professional staff 
member; Scott W. Stucky, general counsel; Kristine L. Svinicki, 
professional staff member; Diana G. Tabler, professional staff 
member; and Richard F. Walsh, counsel.
    Minority staff members present: Richard D. DeBobes, 
Democratic staff director; Jonathan D. Clark, minority counsel; 
Daniel J. Cox, Jr., professional staff member; Evelyn N. 
Farkas, professional staff member; Richard W. Fieldhouse, 
professional staff member; Gerald J. Leeling, minority counsel; 
Peter K. Levine, minority counsel; Michael J. McCord, 
professional staff member; William G.P. Monahan, minority 
counsel; and Michael J. Noblet, research assistant.
    Staff assistants present: David G. Collins, Micah H. 
Harris, and Jessica L. Kingston.
    Committee members' assistants present: Sandra E. Luff, 
assistant to Senator Warner; Christopher J. Paul and Richard H. 
Fontaine, Jr., assistants to Senator McCain; John A. Bonsell, 
assistant to Senator Inhofe; Libby Burgess, assistant to 
Senator Roberts; Arch Galloway II, assistant to Senator 
Sessions; Mark Winter, assistant to Senator Collins; Clyde A. 
Taylor IV, assistant to Senator Chambliss; Andrew G. Brake, 
assistant to Senator Graham; Arjun Mody, assistant to Senator 
Dole; Stuart C. Mallory, assistant to Senator Thune; Mieke Y. 
Eoyang, assistant to Senator Kennedy; Barry Gene (B.G.) Wright, 
assistant to Senator Byrd; Frederick M. Downey, assistant to 
Senator Lieberman; Elizabeth King, assistant to Senator Reed; 
Richard Kessler and Darcie Tokioka, assistants to Senator 
Akaka; William K. Sutey and Alea Brown, assistants to Senator 
Bill Nelson; Eric Pierce, assistant to Senator Ben Nelson; Luke 
Ballman, assistant to Senator Dayton; Todd Rosenblum, assistant 
to Senator Bayh; and Andrew Shapiro, assistant to Senator 
Clinton.

       OPENING STATEMENT OF SENATOR JOHN WARNER, CHAIRMAN

    Chairman Warner. Good morning, everyone. The committee will 
meet today to receive testimony on the current situation in 
Iraq as well as Afghanistan and to discuss strategy options for 
the future. The hearing will be conducted with two panels. It 
was a challenge to arrange this hearing and our schedules, and 
I thank you, Senator Levin, for assisting me in making this 
come about.
    I congratulate you on the recognition that your colleagues 
have given you and that you will become chairman the first of 
the year.
    Senator Levin. If I could intervene, Mr. Chairman, as 
always we are going to need your help, support, and advice, 
because we have been doing this together for many years.
    Chairman Warner. Twenty-eight years the Senator and I have 
been working together. We came together to the Senate.
    As I look back on my own modest career and association with 
the U.S. military, I value above all events in my life the 
association over these many decades with the men and women of 
the Armed Forces. General Abizaid, I say to you, as I have come 
to know you very well over the past 3-plus years in meetings 
here, in Washington, and in this committee room, and both of us 
in fatigues in far parts of the world where you have commanded 
our forces with an extraordinary degree of professionalism. You 
have been at the point of one of the most challenging chapters 
in the military history of this country.
    Speaking for myself, and I do believe a number of my 
colleagues, you have discharged that professionalism, not only 
to your own credit, but to the credit of the men and women of 
the Armed Forces in your command and all those who have served. 
We thank you, sir.
    The committee also welcomes Ambassador David Satterfield, 
Special Advisor and Coordinator for Iraq, on his first 
appearance before this committee. Ambassador Satterfield has a 
distinguished background. He served as Deputy Chief of Mission 
at the embassy in Baghdad from May 2005 until July 2006, where 
we saw him in visits that Senator Levin and I made to the area. 
We thank you for your work and service to country. I have had 
the opportunity, as has Senator Levin, to visit with you on a 
number of occasions. I think you are an extraordinary 
professional and you tell it like it is, and we anticipate you 
will do the same this morning.
    Last month when Senator Levin and I returned from Iraq, in 
press conferences we both described the situation as we saw it. 
I used a phrase that was given to me by a Marine sergeant in 
the darkness as we were departing the Al Anbar Province. I 
turned to him and said: ``How do you think things are going?'' 
He said: ``Senator, I simply say that Iraq is going sideways.''
    I saw personally the forward progress in many areas in 
Iraq, but I also witnessed and learned of other areas sliding 
backwards. So I think that sergeant's appraisal was pretty 
accurate. That was about 4 weeks ago is my recollection.
    My views and that of my colleague Senator Levin and other 
Senators expressed in that timeframe I think, and say with 
modesty, resulted in a substantial increase in the 
introspective study within all levels of the executive and 
legislative branches of our Government. I draw your attention 
to press reports this morning where the President has formally 
launched a sweeping internal review of Iraq policy yesterday, 
pulling together studies underway by various Government 
agencies, according to U.S. officials. I understand, Ambassador 
Satterfield, in your opening remarks you will address that 
subject further.
    It is interesting to note that World War II began on 
December 7, 1941. The European theater conflict concluded with 
the German surrender in May 1945 and operations in the Pacific 
theater ended in August 1945. I remember the period well. I was 
a young sailor in the following year of that war. Accordingly, 
I note that on November 26, 2006, this year, but a few days 
away, our involvement in Iraq will surpass the length of this 
historic World War II period.
    In October 2002, Congress approved a joint resolution 
authorizing the President to use the Armed Forces of the United 
States to, ``One, defend the national security of the United 
States against the continuing threat posed by Iraq; and two, 
enforce all relevant United Nations Security Council 
resolutions regarding Iraq.''
    With regard to this resolution, I make two observations. 
First, I observe that the resolution at that time--and I had a 
hand in drafting it--addressed the Iraq of Saddam Hussein, 
which is now gone and no more a threat to us. Today our Nation, 
together with our coalition partners, is engaged with a 
government of Iraq which we helped create and was freely 
elected by the people of Iraq. We are helping this Government 
to assume the full reins of sovereignty and eventually become a 
member of the coalition of free nations fighting international 
terrorism. That has been our goal, certainly this Senator's 
goal, and hopefully will continue to be our goal. But we need 
to revise our strategy to achieve that goal.
    Second, I note that the current United States Security 
Council Resolution on Iraq, No. 1637, will expire on December 
31, 2006. We anticipate the coalition of nations and the 
Government of Iraq will work with the United Nations Security 
Council on a follow-on version of this resolution. Having just 
spoken with Ambassador Satterfield, I learned there have been 
developments overnight and he will specifically refer to them 
in his opening statement.
    Again, currently all levels of the executive branch, now 
confirmed by the President, that have a responsibility for our 
Nation's security are in the process of reexamining the 
strategy and means to achieve a goal, to continue our support 
for the Government of Iraq. In addition, in Congress as well as 
the executive branch we have the potential benefit of views 
coming from the private sector, particularly from the Baker-
Hamilton Iraq Study Group.
    With that said, we as Congress, and particularly the Senate 
through our Committee on Armed Services, have to consider at 
least five developments between today and late in December.
    First, this very important hearing today. This is a most 
appropriate and timely way to perform the committee's first 
step in our thorough review of this situation.
    Second, our committee, as the White House forwards the 
nomination of Robert Gates to the Senate, will provide Dr. 
Gates with an opportunity to share his views on the future 
strategies in Iraq.
    Third, the Baker-Hamilton Iraq Study Group will submit 
their report. Depending on the timing of their report, Senator 
Levin and I will renew our invitation to members of that group 
to come before our committee and to give us a briefing.
    Fourth, General Pace, the Chairman of the Joint Chiefs of 
Staff, has undertaken an independent study among his own 
military analysts. Likewise, I have spoken to him desiring that 
he and such colleagues as he wishes come before the committee 
and provide us with the advice that he will be giving to the 
President.
    Finally, the committee will benefit from the overall 
dialogue between the Government of Iraq, our coalition 
partners, and other nations as the Security Council resolution 
progresses, that is the revised one.
    We have been informed that the Government of Iraq is 
interested in influencing how that follow-on resolution will be 
drawn up and, Ambassador Satterfield, you showed me this 
morning copies of a communication that related to those 
recommendations by the Government of Iraq to the Security 
Council, and you will cover that important subject.
    As we go through this process as a committee, indeed as a 
Senate, we must be ever mindful of the daily loss of life, and 
life of not only our brave forces, men and women, but of those 
of our coalition partners and indeed the many, many innocent 
citizens of Iraq who every day, every hour of every day, are 
losing their lives.
    Fortunately, the American people know and deeply appreciate 
that our Nation's men and women in uniform and their coalition 
partners are performing courageously, selflessly, and with the 
highest degree of military professionalism. The American people 
honor deeply, reverently the sacrifices of the families of our 
servicemembers.
    I am personally concerned about the challenges of two 
sovereign nations, Iraq and the United States, exercising 
command and control, directly, as in the case of the United 
States from President Bush down to the privates, and likewise 
Prime Minister Maliki through his forces. This poses a very 
challenging situation and we are endeavoring to bring about the 
increased security and stability of Iraq for the people of Iraq 
through the coordination of those two independent sovereign 
nations' forces.
    For example, I found the events in late October in Sadr 
City especially complex. On October 25 Iraqi special forces and 
U.S. forces launched a combined joint raid in Sadr City. That 
was a step, in my judgment, in the right direction. We put 
tremendous emphasis, General, on the importance of bringing 
about a degree of security in Baghdad and this was an integral 
part of that operation. However, on October 31, U.S. troops 
complied with orders from U.S. commanders, those commanders 
reacting to Prime Minister Maliki's direction, to abandon 
certain checkpoints, particularly in Sadr City.
    I would like to know if that situation in any way increased 
the danger to any of our Armed Forces in the performance of 
their military mission and was that a reflection of what we 
expect to come, or can we have a clear sense of confidence in 
the coordination between the two military forces in the days 
and months to come as they continue to try and help the Iraqi 
people?
    In closing, I urge my colleagues as we proceed through the 
steps outlined above to carefully study all of the material 
that we develop in this committee and elsewhere and then reach 
individual and collective recommendations for the Senate and 
indeed for the President on the future strategy in Iraq.
    The committee welcomes our first panel and looks forward to 
your very important testimony. Senator Levin.

                STATEMENT OF SENATOR CARL LEVIN

    Senator Levin. Thank you, Mr. Chairman, for scheduling this 
important hearing, which is just the most recent example of 
your steady, thoughtful, and fair leadership of this committee. 
I join you in welcoming our witnesses this morning.
    Last week, the American people delivered a clear, indeed a 
dramatic, message to the administration, to Congress, and to 
the Iraqi Government that ``stay the course'' is not a strategy 
for success in Iraq. It was a message heard around the world. 
The American people don't accept the President's recent 
assessment that, ``absolutely we're winning'' in Iraq, nor 
should we.
    The American people have said forcefully that they are 
impatient with Iraqi leaders who will not make the political 
compromises required to blunt the sectarian violence and unite 
the Iraqi people. They are impatient with Iraqi Government 
leaders who have not disbanded the militias and death squads 
that are a plague on Iraqi society. They have lost patience 
with the Iraqi leaders who will not condemn Sunni-Shiite 
enmity, tribal rivalries, and ethnic hatred.
    America has given the Iraqi people the opportunity to build 
a new nation at the cost of nearly 3,000 American lives and 
over 20,000 wounded. But the American people do not want our 
valiant troops to get caught in a crossfire between Iraqis, if 
Iraqis insist on squandering that opportunity through civil war 
and sectarian strife.
    We were assured by the President over a year ago that, ``As 
Iraqis stand up, we will stand down.'' Even though the Pentagon 
claims that almost 90 percent of the Iraqi security forces 
(ISFs) are now trained and equipped, our troop level remains 
about the same. We were momentarily hopeful when the Iraqi 
leaders signed a four-point agreement on October 2 to end the 
sectarian violence. That turned out to be another false hope.
    Recently, Ambassador Khalilzad announced that Iraqi 
officials had agreed to a timeline for reaching benchmarks to 
confront the sectarian militias, to implement a reconciliation 
program, to share oil revenues, and to recommend changes to the 
constitution. Prime Minister Maliki repudiated that timeline 
the next day, providing additional evidence that the Iraqi 
political leaders do not understand that there is a limit to 
the blood and treasure that Americans are willing to spend, 
given the unwillingness of the Iraqis themselves to put their 
political house in order.
    Our uniformed military leaders have repeatedly told us that 
there is no military solution to the violence in Iraq and that 
a political agreement between the Iraqi sectarian factions 
themselves is the only way to end the violence. Just last month 
at his October 25 press conference President Bush said that, 
``In the end the Iraqi people and their Government will have to 
make the difficult decisions necessary to solve these 
problems.'' In the end, we are 3\1/2\ years into a conflict 
which has already lasted longer than the Korean conflict and 
almost as long as World War II.
    We should put the responsibility for Iraq's future squarely 
where it belongs, on the Iraqis. We cannot save the Iraqis from 
themselves. The only way for Iraqi leaders to squarely face 
that reality is for President Bush to tell them that the United 
States will begin a phased redeployment of our forces within 4 
to 6 months. That is not precipitous. It is a responsible way 
to change the dynamic in Iraq, to stop the march down the path 
to full-blown civil war on which the Iraqis are now embarked.
    Yes, some U.S. troops would need to remain in Iraq for the 
limited missions of counterterrorism and training of ISFs and 
to provide logistical support and force protection. Yes, we 
should also convene an international conference to support a 
political settlement and to provide resources for Iraq's 
reconstruction.
    We are grateful to our witnesses for their service to our 
Nation. We are especially grateful and united in support of the 
brave troops who are serving us in Iraq, Afghanistan, and 
elsewhere. We look forward to our witnesses' best judgment on 
the issues and we and other groups that have been outlined by 
our chairman will be grappling with these issues in the weeks 
and the months to come.
    Thank you, Mr. Chairman.
    Chairman Warner. Thank you very much, Senator Levin.
    We will now proceed to hear directly from you, General 
Abizaid, followed by Ambassador Satterfield.

STATEMENT OF GEN JOHN P. ABIZAID, USA, COMMANDER, U.S. CENTRAL 
                            COMMAND

    General Abizaid. Chairman Warner, Senator Levin, members of 
the committee: Thank you for the opportunity to testify today. 
I refer the committee to my August 3 opening statement, where I 
outlined the broader strategic dangers to United States' 
interests in the Middle East. Indeed, the dangers outlined in 
that statement--al Qaeda's extreme ideology, hegemonistic 
revolutionary Iranian ambitions, and the corrosive effect of 
continued Palestinian-Israeli confrontation--represent major 
dangers to international peace and security for decades to 
come.
    American regional and international deployment and security 
policies must be articulated and coordinated to confront these 
problems. Despite our current focus on the struggle underway to 
stabilize Iraq, the interests of the international community 
still require the confrontation and defeat of al Qaeda's dark 
ideology, the containment of Iranian expansionism, and progress 
towards Arab-Israeli peace. In the current atmosphere in the 
region, with the use of powerful non-state militias, the 
development of weapons of mass destruction, and the acceptance 
by some of terror as a legitimate tool of normal discourse, 
American leadership in diplomatic, economic, and security 
elements of power is essential to protect the international 
order.
    How we confront these problems and empower forces of 
moderation in the region to resist them will define our future. 
Today over 200,000 men and women of the Armed Forces are 
deployed in the Central Command (CENTCOM) area of operations 
(AORs). They protect the flow of global commerce. They confront 
terrorists. They work hard to stabilize young, unsteady yet 
elected governments in Iraq and Afghanistan. They support 
stability by increasing regional security capacities of our 
partners and our friends in the region.
    Well over 1.5 million Americans have served in the region 
since September 11, 2001. Many have given their lives and even 
more have suffered life-changing injuries. Whatever course our 
Nation chooses in the years ahead, we must be ever mindful of 
the sacrifice and courage of our troops and the debt we owe our 
veterans and their families. We must also remember that 
hundreds of thousands of coalition and partner forces fight 
directly or indirectly with us in the broader region.
    Today the committee will no doubt focus on the way ahead in 
Iraq, and rightfully so. Yet we must be mindful of increasing 
threats from Iran, as evidenced by its recent military 
exercise, which was designed to intimidate the smaller nations 
of the region. We must also be mindful of the real and 
pervasive global threat presented by al Qaeda and its 
associated movements. Failure to stabilize Iraq could increase 
Iranian aggressiveness and embolden al Qaeda's ideology. It 
could also deepen broader Sunni-Shiite fissures that are 
already apparent throughout the region.
    The changing security challenges in Iraq require changes to 
our own approach to achieve stability. Let me remind the 
committee, however, that while new options are explored and 
debated, my testimony should not be taken to imply approval of 
shifts in direction. It is my desire today to provide an update 
on current security conditions in Iraq and elsewhere and 
current thinking about the way ahead on the security lines of 
operation. I remain optimistic that we can stabilize Iraq.
    I just departed Iraq, where I visited with General Casey 
and his senior commanders. On the Iraqi side, I had meetings 
with the prime minister, the defense minister, and the interior 
minister. Over the past 4 weeks, levels of sectarian violence 
are down in Baghdad from their Ramadan peak, but they remain 
dangerously high. The Iraqi armed forces, while under sectarian 
pressure, continue to perform effectively across Iraq. Our 
focus against al Qaeda in Iraq (AQI) continues to take a toll 
on Iraqi AQI members and foreign fighters. Operations against 
selected targets on the Shiite death squad side also have had 
good effect, and our understanding of these complex 
organizations continues to improve.
    Sunni insurgent attacks against ISFs and the Multi-National 
Force remain at high levels and our forces continue to 
experience attacks from armed Shiite groups, especially in the 
Baghdad region. In the north, significant progress is being 
made in transitioning security responsibilities to capable 
Iraqi forces. Currently around 80 percent of the sectarian 
violence in Iraq happens within a 35-mile radius of Baghdad. 
Nonetheless, security transitions continue in most of the 
country.
    Iraqis and Americans alike believe that Iraq can stabilize 
and that the key to stabilization is effective, loyal, 
nonsectarian ISFs coupled with an effective government of 
national unity.
    In discussions with our commanders and Iraqi leaders, it is 
clear that they believe Iraqi forces can take more control 
faster, provided we invest more manpower and resources into the 
coalition military transition teams, speed the delivery of 
logistics and mobility enablers, and embrace an aggressive 
Iraqi-led effort to disarm illegal militias. This is 
particularly important with regard to the Jaysh al-Mahdi 
elements operating as armed death squads in Baghdad and 
elsewhere.
    As we increase our efforts to build Iraqi capacity, we 
envision coalition forces providing needed military support and 
combat power to Iraqi units in the lead. Precisely how we do 
this continues to be worked out with the Iraqis and with our 
own staffs, but we believe that ultimately capable, independent 
Iraqi forces loyal to an equally capable independent Iraqi 
Government will set the conditions for the withdrawal of our 
major combat forces.
    Our commanders and diplomats believe it is possible to 
achieve an end state in Iraq that finds Iraq at peace with its 
neighbors, an ally in the war against extremists, respectful of 
the lives and rights of its citizens, and with security forces 
sufficient to maintain order, prevent terrorist safe havens, 
and defend the independence of Iraq.
    At this stage in the campaign, we will need flexibility to 
manage our force and to help manage the Iraqi force. Force caps 
and specific timetables limit that flexibility.
    We must also remember that our enemies have a vote in this 
fight. The enemy watches not only what we do on the ground, but 
what we say and do here at home. Also, Prime Minister Maliki 
and his team want to do more. We want them to do more. 
Increased Iraqi military activity under greater Iraqi national 
control will only work, however, if his government embraces 
meaningful national reconciliation. His duly elected legitimate 
government deserves our support and his Armed Forces, backed by 
ours, deserve his full support.
    While I know the committee has a wide range of interests, 
including developments in Central Asia, Afghanistan, Pakistan, 
Lebanon, and the Horn of Africa, I will defer comment on those 
subjects in order to take your questions.
    In closing, thank you for your support of our great 
soldiers, sailors, airmen, and marines in the field. Their 
still unfinished work keeps us safe at home. Thank you.
    [The prepared statement of General Abizaid follows:]
             Prepared Statement by GEN John P. Abizaid, USA
    Chairman Warner, Senator Levin, members of the committee: Thank you 
for the opportunity to testify today. I refer the committee to my 
August 3 opening statement where I outlined my broader strategic 
dangers to United States interests in the Middle East.
    Indeed the dangers outlined in that statement; al Qaeda's extremist 
ideology, hegemonistic revolutionary Iranian ambitions, and the 
corrosive effect of continued Palestinian-Israeli confrontation 
represent major dangers to international peace and security for several 
decades to come. American, regional, and international diplomatic and 
security policies must be articulated and coordinated to confront these 
problems. Despite our current focus on the struggle underway to 
stabilize Iraq, the interests of the international community still 
require the confrontation and defeat of al Qaeda's dark ideology, the 
containment of Iranian expansionism, and progress toward Arab-Israeli 
peace. In the current atmosphere in the region, with the use of 
powerful non-state militias, the development of weapons of mass 
destruction, and the acceptance by some of terror as a legitimate tool 
of normal discourse American leadership in diplomatic, economic, and 
security elements of power is essential to protect the international 
order. How we confront these problems and empower forces of moderation 
in the region to resist them will define our future.
    Today, over 200,000 men and women of the Armed Forces are deployed 
in the Central Command area of operations. They protect the flow of 
global commerce; they confront terrorists; they work hard to stabilize 
young, unsteady, yet elected governments in Iraq and Afghanistan; and 
they indirectly support stability by increasing regional security 
capacities of our partners and friends in the region. Well over 1.5 
million Americans have served in the region since September 11, 2001. 
Many have given their lives, and even more have suffered life-changing 
injuries. Whatever course our Nation chooses in the years ahead, we 
must be ever mindful of the sacrifice and courage of our troops and the 
debt we owe our veterans and their families. We must also remember that 
hundreds of thousands of coalition and partner forces fight directly or 
indirectly with us in the broader region.
    Today the committee will no doubt focus on the way ahead in Iraq 
and rightfully so. Yet we must be mindful of increasing threats from 
Iran as evidenced by its recent military exercise, which was designed 
to intimidate the smaller nations in the region. We must also be 
mindful of the real and pervasive global threat presented by al Qaeda 
and its associated movements. Failure to stabilize Iraq could increase 
Iranian aggressiveness and embolden al Qaeda's ideology. It could also 
deepen broader Sunni-Shiite fissures throughout the region. The 
changing security challenges in Iraq require changes to our own 
approach to achieve stability. Let me remind the committee, however, 
that while new options are explored and debated, my testimony should 
not be taken to imply approval of shifts in direction. It is my desire 
today to provide an update on current security conditions in Iraq and 
elsewhere and current thinking about the way ahead on the security 
lines of operation. I remain optimistic that we can stabilize Iraq.
    I just departed Iraq, where I visited with General Casey and his 
senior commanders. On the Iraqi side I had meetings with the Prime 
Minister, the Defense Minister, and the Interior Minister. Over the 
past 4 weeks, levels of sectarian violence are down in Baghdad from 
their Ramadan peak. The Iraqi armed forces, while under sectarian 
pressure, continues to perform effectively across Iraq. Our focus 
against al Qaeda in Iraq (AQI) continues to take a toll on Iraqi AQI 
members and foreign fighters. Operations against selected targets on 
the Shiite death squad side also have had good effect, and our 
understanding of these complex organizations continues to improve. 
Sunni insurgent attacks against Iraqi security forces and Multinational 
Forces remain at high levels, and our forces continue to experience 
attacks from armed Shiite groups, especially in the Baghdad region. In 
the north significant progress is being made in transitioning security 
responsibilities to capable Iraqi forces. Currently around 80 percent 
of the sectarian violence in Iraq happens within a 35-mile radius of 
Baghdad. Nonetheless, security transitions continue in most of the 
country.
    Iraqis and Americans alike believe that Iraq can stabilize and that 
the key to stabilization is effective, loyal, non-sectarian Iraqi 
security forces coupled with an effective government of national unity.
    In discussions with our commanders and Iraqi leaders it is clear 
that they believe Iraqi forces can lake more control faster, provided 
we invest more manpower and resources into the coalition military 
transition teams, speed the delivery of logistics and mobility 
enablers, and embrace an aggressive Iraqi-led effort to disarm illegal 
militias. This is particularly important with regard to the Jaysh al 
Mahdi elements operating as armed death squads in Baghdad and 
elsewhere. As we increase our efforts to build Iraqi capacity, we 
envision coalition forces providing needed military support and combat 
power to Iraqi units in the lead. Precisely how we do this continues to 
be worked out with the Iraqis as ultimately capable independent Iraqi 
forces, loyal to an equally capable independent Iraqi Government, will 
set the conditions for the withdrawal of our major combat forces.
    Our commanders and diplomats believe it is possible to achieve an 
end state in Iraq that finds Iraq at peace with its neighbors, an ally 
in the war against extremists, respectful of the lives and rights of 
its citizens, and with security forces sufficient to maintain order, 
prevent terrorist safe havens and defend the independence of Iraq. At 
this stage in the campaign, we'll need flexibility to manage our force 
and to help manage the Iraqi force. Force caps and specific timetables 
limit flexibility. We must also remember that our enemies have a vote 
in this fight. The enemy watches not only what we do on the ground but 
what we say and do here at home. Also, Prime Minister Maliki and his 
team want to do more; we want them to do more. Increased Iraqi military 
activity under greater Iraqi national control will only work however if 
his government embraces meaningful national reconciliation. His duly 
elected, legitimate government deserves our support and his armed 
forces, backed by ours, deserve his full support.
    While I know the committee has a wide range of interests, including 
developments in Central Asia, Afghanistan-Pakistan, Lebanon, and the 
Horn of Africa, I will defer comment on those subjects in order to take 
your questions. In closing, thank you for your support of our great 
soldiers, sailors, airmen, and marines in the field. Their still-
unfinished work keeps us safe at home.

    Chairman Warner. Thank you, General.
    Ambassador Satterfield.

 STATEMENT OF HON. DAVID M. SATTERFIELD, SENIOR ADVISOR TO THE 
  SECRETARY OF STATE AND COORDINATOR FOR IRAQ, DEPARTMENT OF 
                             STATE

    Ambassador Satterfield. Thank you, Mr. Chairman, Senator 
Levin, members of the committee, for the opportunity to testify 
today.
    The situation in Iraq is very serious. The Iraqi people as 
well as Iraqi and coalition forces have suffered through months 
of extreme brutal bloodshed. The insurgency and al Qaeda terror 
are responsible for the major U.S. casualties taken. They 
remain lethal challenges above all to the Iraqi citizens 
themselves.
    It is increasingly clear that al Qaeda's strategy to 
undermine the Iraqi Government by sowing sectarian conflict has 
created and fuels today a dangerous, indeed a strategically 
threatening, cycle of violence. Some Iraqis have turned to 
armed militias and other extragovernmental groups to provide 
security, while others have seized upon a security vacuum to 
pursue local political power, criminal aims, or narrow 
sectarian interests. Sustained sectarian violence, the 
associated rise in armed militias and other extragovernmental 
groups are now the greatest threat to a stable, unified, and 
prosperous Iraq.
    Sectarian differences in Iraq have long historic roots, but 
coexistence has been the rule in Iraq until the past 10 months, 
when, pushed too hard by al Qaeda's targeted attacks, sectarian 
violence has now emerged and continues to be fomented by al 
Qaeda violence to create the violent conflagration we see 
today.
    If the increasing presence and activity of armed militias 
with a sectarian identification are not dealt with, then indeed 
Iraqi national identity will erode and hope for a united Iraq, 
a peaceful, stable Iraq, will over time diminish. This outcome 
in Iraq is unacceptable. It would undermine U.S. national 
interests in that country and in the broader region and it 
would lead to a humanitarian disaster for the Iraqi people.
    The goals of the United States in Iraq remain clear. We 
support a democratic Iraq that can govern itself, sustain 
itself, defend itself, and be an ally in the war against 
terror. While our goals do not change, we are constantly 
reviewing, adapting, and adjusting our tactics to achieve them. 
The President has asked his national security agencies to 
assess the situation in Iraq, to review options, to recommend 
the best way forward. The Iraq Study Group to which you 
referred, Mr. Chairman, will have its own recommendations. They 
will be duly considered. We look forward to their 
recommendations. As the President has said, our goal is success 
in Iraq, and we look forward to pursuing, including with the 
bipartisan leadership of Congress, the best means to accomplish 
that.
    At the Department of State (DOS), we have adapted over the 
past year by significantly increasing our staffing levels in 
Baghdad and at our vital Provincial Reconstruction Teams (PRTs) 
located throughout Iraq. Over twice the number of DOS employees 
and a significant number of other civilian agency staff are now 
present in these sites, some of which encounter daily incoming 
fire. This is a hazardous undertaking, but it is a vital 
undertaking for the sake of our interests in that country and 
for the sake of developing Iraqi institutions, Iraqi democracy, 
and projecting our own ability to shape events on the ground in 
a way that supports success.
    We have also changed in the DOS our fundamental assignments 
process. Filling positions quickly and with the most qualified 
officers at posts which are in critical threat, which are 
unaccompanied, such as Iraq and Afghanistan, is now the DOS's 
number one priority. We are pleased to be able to inform the 
committee that the rate of volunteerism by qualified officers 
for these positions has steadily increased. We are very pleased 
at the support being expressed and we will continue to devote 
our own resources to ensuring that we provide our best to these 
challenging posts.
    Mr. Chairman, Iraq's future is dependent upon the 
performance and the commitment of three pillars of actors: 
first and foremost, the Iraqi Government and the Iraqi people; 
second, the United States and our coalition allies; and third, 
the international community, in particular Iraq's neighbors. 
All of these groups need to work together to help make progress 
in Iraq possible.
    Progress has to occur along three critical strategic 
tracks--political, security, and economic--if a stable, united, 
peaceful Iraq is to emerge. As the President, Ambassador 
Khalilzad, and General Casey have all stated, it is essential 
that, we the United States, work with the Government of Iraq to 
set out measurable, achievable goals and objectives on each of 
these tracks. In short, the Iraqis themselves need, with our 
help but with their lead, to articulate and then achieve 
clearly defined goals on a clearly defined timeline.
    On the security track, our focus is on transitioning more 
control and responsibility to the Iraqis, as General Abizaid 
has stated. Prime Minister Maliki wants this and so do we. 
While I will leave further details to questions to General 
Abizaid, we are in the process of transitioning more command 
and control to Iraqi commanders, to divisions, to battalions. 
We have already moved Muthanna and Dhi Qar Provinces to 
provincial Iraqi control and we expect to move the rest of 
Iraq's provinces to that status over the months to come.
    We are working very closely, Mr. Chairman, with Iraq's 
leaders to produce a set of security goals and objectives that 
ensure the transition in that critical area is as smooth and 
seamless as possible. We are working with the Iraqi Government 
as well, and very successfully, on renewal of the United 
Nations mandate for coalition forces in Iraq. I am pleased to 
be able to tell the committee that in a letter sent yesterday 
to the President of the Security Council, the Iraqi Government 
explicitly reaffirmed both its desire for such a renewal and 
underscored the transitional nature of that extension. The 
Iraqis want more control. We want to give it to them. We hope 
the United Nations will in the days ahead approve that 
resolution.
    On the political track, we are very pleased that the Iraqi 
presidency council agreed in mid-October to a detailed set of 
political goals and objectives. The Iraqi Government has 
already made some progress on these goals. It has passed a 
regions formation law, an investment law, and it has said just 
last week that it would introduce legislation that would 
reinstate thousands of former Baath Party members as part of a 
fundamental reform and revision of the de-Baathification 
process. These are hopeful signs that Iraq's leaders can find 
convergence, can find a middle ground on which to proceed.
    But I want to underscore, much more work remains and the 
time for that work is now. Prime Minister Maliki has 
appropriately focused his attention on pursuing national 
reconciliation. There are numerous requirements for any 
national reconciliation process to be successful, all of which 
must be pursued simultaneously and rapidly. First, ISFs with 
coalition support must achieve security conditions under which 
Iraqis can feel free to make the difficult choices necessary to 
pursue a national compact, a political reconciliation deal.
    Second, the Iraqi Government must reach out and engage all 
those willing to abandon violence and terror, including former 
members of the Baath Party, while credibly threaten to combat 
those insurgents and terrorists who remain wholly opposed to a 
reconciled democratic Iraq.
    Third, Iraqis must establish a robust process aimed at 
disarming, demobilizing, and reintegrating (DDR) members of 
armed groups into normal Iraqi society. For this to be 
successful, such a DDR process has to require agreement on an 
amnesty plan that comprehensively gives militants incentives to 
return to civilian life.
    Fourth, Iraqis must pursue, and they must complete, a new 
modern and comprehensive national hydrocarbon law, both to 
ensure that the country remains united as well as to spur much-
needed international investment that can only come, will only 
come, when Iraq's laws are fully established and clear to all.
    On the international economic track, the Government of Iraq 
is moving forward aggressively. Iraq and the United Nations 
announced on July 27 they would jointly lead efforts to launch 
a new International Compact with Iraq. Such a compact will 
provide a new framework for mutual commitments between Iraq and 
the international community, particularly those in Iraq's 
neighborhood, in bolstering Iraq's economic recovery.
    The goal of the compact is simple. It is for Iraq's 
Government to demonstrate to the international community, to 
the world, private and public sectors, its commitment to 
implementing needed social, political, and economic reform. 
Iraq will commit to reforming its main economic sectors--oil, 
electricity, agriculture--and to establishing the laws and 
building the institutions necessary to combat corruption, 
assure good governance, and protect human rights, and in return 
the international community will provide the assistance 
necessary to support Iraq's needs over the next 5 years.
    With the compact, Iraq is reaching out to the world. I am 
pleased to report that the world is beginning to reach back, 
though more commitment is certainly needed, particularly from 
Iraq's neighbors.
    This compact is nearly complete. On October 31, Kuwait 
hosted a preparatory group meeting where a final text was 
neared. The compact we hope can be completed before the end of 
this year. Iraqis will be asking their friends and neighbors to 
consider what Iraq has pledged to do and what Iraq is doing and 
will ask them to come forward with concrete pledges, and we 
will help.
    In conclusion, Mr. Chairman, we will continue to support 
the Government of Iraq as it moves forward on the tracks that I 
have outlined. But I want to make one point very clear. Each of 
these tracks--security, political, and economic--is 
inextricably inseparably linked one to the other. While all 
must move forward together, a failure or significant setback in 
any one area will certainly affect progress in the others. 
Militias cannot be effectively confronted and demobilized in 
the absence of a larger political reconciliation agreement. 
Political reconciliation cannot survive if the government 
cannot agree on the distribution of oil revenue, if it cannot 
create jobs. Iraqis cannot modernize their economy or draw 
foreign investment if there is violence in the streets.
    We believe that a successful path forward can still be 
forged in Iraq. As the transition continues to full Iraqi 
Government control, we will stand firmly behind the Iraqi 
Government. They have much work to do in the weeks and months 
ahead to resolve differences and reach compromises on issues 
that will determine their country's future.
    The fate, the interests of our two countries, and beyond 
our two countries of the region and the world, are intertwined. 
Success is critical. Failure is unacceptable.
    Thank you, Mr. Chairman. I look forward to your questions.
    [The prepared statement of Ambassador Satterfield follows:]
           Prepared Statement by Ambassador David Satterfield
    Thank you, Mr. Chairman, for the opportunity to testify before your 
committee today.
    The situation in Iraq is very serious. The Iraqi people, as well as 
Iraqi and coalition forces, have suffered through several months of 
extreme, brutal bloodshed. The insurgency and al Qaeda terror are 
responsible for the majority of U.S. military casualties and remain 
lethal challenges to Iraqis. It is increasingly clear that al Qaeda's 
strategy to undermine the Iraqi Government by sowing sectarian conflict 
has created a dangerous cycle of violence.
    Some Iraqis have turned to armed militias and other extra-
governmental groups to provide security, while others have seized upon 
this security vacuum to pursue local political power or narrow 
sectarian interests. Sustained sectarian violence and the associated 
rise in armed militias and other extra-governmental groups are now the 
greatest strategic threat to a stable, unified, and prosperous Iraq.
    Sectarian differences in Iraq are like tectonic plates. 
Historically, they have been stable. However, if pushed too hard they 
can lead to tremors and, ultimately, to a devastating earthquake. While 
average Iraqis want nothing more than sanctuary from violence and a 
normal life, if they believe that the only source of security is their 
local sectarian militia, sectarian plates will shift, Iraqi national 
identity will erode, and hope for a united Iraq will crumble.
    Such an outcome in Iraq is unacceptable. It would undermine U.S. 
national interests in Iraq and in the broader region. It would lead to 
a humanitarian disaster for the Iraqi people.
    The goals of the United States in Iraq remain clear. We support a 
democratic Iraq that can govern itself, sustain itself, defend itself, 
and be an ally in the war against extremists. While we have not changed 
our goals, we are constantly reviewing, adapting and adjusting our 
tactics to achieve them.
    At the Department of State, we have adapted over the last year by 
significantly increasing staffing levels at our Provincial 
Reconstruction Team (PRT) sites located throughout Iraq. Fifty-five 
State employees are currently on the ground working from U.S.- and 
coalition-led PRTs (up from 21 State employees at PRT locations in 
February 2006) providing support to local Iraqi officials and 
communities to improve governance on the grassroots level. Many of our 
PRT staff are operating at great physical risk, particularly at PRTs 
located in Anbar province and in Basrah. State has also changed its 
Foreign Service assignments policy. Filling positions quickly and with 
the most qualified officers in critical threat, unaccompanied posts, 
such as Iraq and Afghanistan, is now the Department's number one human 
resources priority. Fill rates for U.S. Mission Iraq for Summer 2007 
are farther along now--just 3 weeks into the assignments cycle--than 
they were in February for summer 2006. As of last Friday, we had 101 
out of 194 available positions mission-wide, committed--that is 52 
percent.
                       three pillars/three tracks
    Iraq's future is dependent upon the performance and commitment of 
three pillars of actors: first and foremost is the Iraqi Government and 
people. Second, is the United States and the coalition; and third, the 
international community, in particular, Iraq's neighbors. All these 
pillars need to act together to help make progress in Iraq possible.
    Progress must occur along three key tracks--political, security, 
and economic--for a stable, united, peaceful Iraq to emerge. As the 
President, Amb. Khalilzad, and General Casey have all stated, it is 
critical that we, the United States, work with the Government of Iraq 
to set out measurable, achievable benchmarks on each of these tracks. 
In short, the Iraqis need to set and then achieve clearly defined 
goals.
                                security
    On the security track, our current focus is on transitioning more 
control and responsibility to the Iraqis. Prime Minister Maliki wants 
this, and so do we. While I will leave the details to General Abizaid, 
we are in the process of transitioning more command and control to 
Iraqi commanders, divisions, and battalions. We have already moved 
Muthanna and Dhi Qar provinces to ``Provincial Iraqi Control'' and 
expect to move the rest of Iraq's provinces to that status over the 
next 16-18 months.
    We are working closely with Iraqi leaders to produce a set of 
security benchmarks to ensure that the transition is as smooth and 
seamless as possible. We are also working with the Iraqi Government on 
renewal of the United Nations (U.N.) mandate for Coalition forces in 
Iraq for another year. In its letter sent yesterday to the security 
council, the Iraqi Government explicitly reaffirmed both its desire for 
such a renewal and the transitional nature of the extension. The Iraqis 
want more control and we want to give it to them. We hope the U.N. will 
approve the resolution.
                               political
    On the political track, we are pleased that the Iraqi Presidency 
Council agreed in October to a set of political benchmarks. The Iraqi 
Government has already made some progress. It passed a regions 
formation law, an investment law, and last week said it would introduce 
legislation that would reinstate thousands of former Baath officials as 
part of the de-Baathification process. These are hopeful signs that 
Iraq's leaders can find middle ground.
    However, much more work remains. Prime Minister Maliki has 
appropriately focused his attention on pursuing national 
reconciliation. There are several requirements for reconciliation to be 
possible and the Iraqi Government must pursue all simultaneously.
    First, the Iraqi security forces with coalition support must help 
achieve security conditions under which Iraqis will be more comfortable 
making the difficult choices needed to pursue political reconciliation.
    Second, the Iraqi Government must reach out and engage all those 
willing to abandon violence and terror, including former members of the 
Baath Party, while credibly threatening to combat those insurgents and 
terrorists who remain wholly opposed to a democratic Iraq.
    Third, they must establish a robust process aimed at disarming, 
demobilizing, and reintegrating (DDR) members of armed groups into 
normal Iraqi society. To be successful, the DDR process will require 
agreement on an amnesty plan that gives militants incentives to return 
to civilian life.
    Fourth, the Iraqis must pursue and complete a national hydrocarbon 
law both to ensure that the country remains united as well as to spur 
much-needed international investment that will come only when Iraq's 
laws are firmly established and clear to all.
                    economic--international compact
    In the economic track, the Government of Iraq is moving forward 
aggressively. Iraq and the United Nations announced on July 27 that 
they would jointly lead efforts to launch a new International Compact 
with Iraq. The Compact will provide a new framework for mutual 
commitments between Iraq and the international community, particularly 
those in Iraq's neighborhood, in bolstering Iraq's economic recovery.
    The goal of the Compact is for the Iraqi Government to demonstrate 
to the international community its commitment to implementing needed 
social, political, and economic reforms. Iraq will commit to reforming 
its main economic sectors -oil, electricity and agriculture--and to 
establishing the laws and building the institutions needed to combat 
corruption, assure good governance and protect human rights. In return, 
the members of the international community will provide the assistance 
needed to support Iraqi efforts to achieve economic and financial self-
sufficiency over the next 5 years.
    In short, with the Compact, Iraq is reaching out to the 
international community for help. I am pleased to report that the world 
is beginning to reach back, though more commitment is needed, 
especially from Iraq's neighbors.
    The Compact is nearly complete. On October 31, Kuwait hosted a 
preparatory group meeting where members moved closer to a final Compact 
text. They intend to complete the Compact before the end of the year. 
Between now and then, the Iraqis will be asking their friends and 
neighbors to consider their goals and reforms, and to come forward with 
concrete pledges of assistance. We are urging Iraq's neighbors, in 
particular, to step forward and support Iraq's future.
                               conclusion
    In conclusion, Mr. Chairman, we will continue to support the 
Government of Iraq as it moves forward on these three tracks. However, 
I want to make one point very clear. Each of these tracks--security, 
political, and economic--is inextricably linked to the other. While all 
must move forward together, a failure or setback in any one area 
hinders progress in the others. Thus, militias cannot be effectively 
demobilized in the absence of a larger political reconciliation 
agreement. Political reconciliation cannot survive if the government 
cannot agree on the distribution of oil revenue and create jobs. Iraqis 
cannot modernize their economy and draw foreign investment if there is 
sectarian violence in the streets.
    We believe that a successful path forward can still be forged in 
Iraq. As the transition continues to full Iraqi Government control, we 
must stand firmly behind the Iraqis. They have a lot of work to do in 
the coming months to resolve their differences and reach compromises on 
issues that will determine their country's future. The fate and 
interests of our two countries are, for better or for worse, now 
intertwined.
    Thank you, Mr. Chairman and members of the committee. I look 
forward to your questions.

    Chairman Warner. Thank you, Mr. Ambassador, for a very 
carefully and well-delivered statement, quite informative about 
the situation.
    We will now proceed with a first round of questions, 
limiting to 6 minutes each for each Senator. I will open, 
General Abizaid, with you.
    On August 3 you appeared before the committee and you 
stated as follows, ``I believe the sectarian violence is 
probably as bad as I have seen it in Baghdad in particular, and 
if it is not stopped it is possible that Iraq could move to a 
civil war.'' Using that as a baseline, would you restate that, 
add to it, or amend it?
    General Abizaid. Mr. Chairman, I am very encouraged by my 
most recent trip in that, while sectarian violence remains high 
and worrisome, it is certainly not as bad as the situation 
appeared back in August. There is more confidence being shown 
in the Iraqi Government, more independent action on behalf of 
Iraqi units, and in many of the neighborhoods where 
particularly U.S. forces are operating, a lot of the sectarian 
violence is down. It is still at unacceptably high levels. I 
would not say that we have turned a corner in this regard. But 
it is not nearly as bad as it was back in August, and I am 
encouraged by that.
    Chairman Warner. I made reference to the World War II 
period for the following reason. The United States mustered, 
trained, and sent to the foreign battlefields from a force, a 
total force at home and abroad, of 16 million soldiers, 
sailors, airmen, and marines. That is extraordinary, stop to 
think about it. Two major battlefronts and eventually victory 
was obtained on both fronts.
    We are now approaching the same timeline. We have trained 
some 300,000 Iraqis. My understanding, there is a desire to 
raise that number and train more. Yet we are still as you come 
before us today, although you express greater optimism than 
August, confronted with an extraordinary situation of civil 
disruption, the inability of the government to fully exercise 
the range of sovereignty.
    How do you explain that in simple terms to the American 
people?
    General Abizaid. Mr. Chairman, as we moved into January of 
this year it appeared to all of us that in light of elections 
there was optimism for being able to move forward with a 
national unity government. The attack on the mosque in Samarra, 
the inability of a government to form, the arguments of the 
various sects, and then the increase in sectarian violence made 
it very clear that optimism was not going to be seen in any 
terms of facts on the ground or reduction of U.S. troops. As a 
matter of fact, when we look at the troop size today, we have 
15 brigades. At this point we had hoped to be well below that, 
somewhere between 10 and 12.
    I think it is very clear that had we let the sectarian 
violence continue without applying the necessary military 
action and political action on the part of the Iraqi Government 
that things would have moved in a very bad direction. Like in 
any campaign, there are ups and downs. There are battles that 
go your way and battles that do not go your way. The period 
from February to August was a deterioration of the security 
situation brought about by severe sectarian tensions.
    I believe everybody that has looked at that within Iraq 
understands how devastating it can be if allowed to continue. 
With the new government showing more experience and more 
confidence, and with Iraqi forces in particular tied to a 
government that shows confidence in them, I believe that we can 
move forward, although the work ahead will be tough.
    Chairman Warner. Do you have rising confidence in the 
ability of the Iraqi forces to continue to assume more and more 
responsibility for the military operations?
    General Abizaid. I have confidence that the Iraqi army is 
up to the job, providing the Iraqi Government shows the 
confidence in its own army and gives support to its own army to 
take the lead the way that they should. That has yet to be 
demonstrated, although today, for example, with Iraqi Ministry 
of Interior (MOI) and Ministry of Defense (MOD) forces moving 
in to the Sadr City area to deal with the people that had 
perpetrated the kidnappings yesterday, I thought that they 
showed initiative and decisiveness that they will need to show 
in the days ahead. It was a good sign, but there needs to be 
more of it.
    Chairman Warner. General, I mentioned in my opening 
statement that I am concerned about the ability of two 
sovereign nations exercising a chain of command from their 
respective leaders, our President and the prime minister, down 
to the troops, that they can effectively operate these joint 
operations. Sadr City seemed to some of us to pose a greater 
challenge than we anticipated to that problem.
    Could you give us your own professional judgment on the 
current ability to jointly operate so as not to put at risk 
either our forces, U.S. and other coalition, or the Iraqi 
forces, and what do you look to the future, particularly if 
this United Nations (U.N.) resolution has modifications in it 
giving greater authority as I understand it, Ambassador 
Satterfield, to the prime minister of Iraq?
    Ambassador Satterfield. Mr. Chairman, if I could just 
comment on the resolution. The resolution's text as proposed is 
very similar in all key elements to the existing mandate for 
the Multi-National Forces.
    Chairman Warner. We saw earlier statements to the effect 
that he wanted more authority.
    Ambassador Satterfield. It is essentially the same 
authority. In our own dealings with the prime minister and his 
military commanders, we are discussing the transition to 
greater Iraqi control. But that is outside the context of the 
mandate.
    Chairman Warner. Thank you.
    Will you provide for the committee today that communication 
that you referred to?
    Ambassador Satterfield. We will certainly provide the 
letter from the prime minister to the Security Council.
    [The information referred to follows:]
      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
      
    Chairman Warner. Thank you very much.
    Ambassador Satterfield. Thank you.
    General Abizaid. Mr. Chairman, in the past 6 weeks we have 
had increasing success with joint Iraqi-U.S. forces moving into 
Sadr City, precisely targeting death cells and death squad 
leadership and taking them out. I believe that this will 
continue. It needs to be worked in consultation with the Iraqi 
Government. But I am confident that the command and control 
arrangements are adequate for the current period, but they must 
be codified as we move ahead with Iraqi units taking more and 
more leadership in combat operations.
    Chairman Warner. By codified, what do you mean?
    General Abizaid. I think we need to have some very clear 
understanding of who moves forward, with what type of units, 
who has the lead, and as we anticipate moving into the next 
phase of the campaign it becomes pretty clear to us that Iraqi 
forces will be in the lead and that we will move forward to 
assist them when they need our additional combat power.
    There will also be American military transition teams 
embedded with Iraqi units and it is our opinion that those 
military transition teams need to be substantially increased 
and given the capacity to operate more robustly with the 
Iraqis. Exactly what those arrangements need to be needs to be 
a subject of discussions and agreements between our staff and 
the senior Iraqi staffs.
    Chairman Warner. Thank you.
    Mr. Ambassador, you mentioned the three pillars that were 
essential and you referred to the region and the responsibility 
within the region to bring to bear with respect to forces, not 
military but deployment and otherwise, of the surrounding 
nations. There are individuals and groups considering that that 
would embrace some contact with both the Syrian Government and 
Iranian Government. Can you advise the committee as to the 
current thinking on those options as a part of a plan to bring 
in the greater community in the region to hopefully bring about 
the stabilization of the strife in Iraq?
    Ambassador Satterfield. Mr. Chairman, there is a vital 
role, an ongoing role, for the region to play in stabilizing 
Iraq. The Gulf states, our critical Arab partners in Egypt, 
Jordan, and elsewhere, have contacts with both the Iraqi 
Government and with elements of the Sunni community that are 
very important. We have been working closely with them to try 
to mobilize the greatest concerted effort to press those sides 
which are engaged in violence to stop and to provide support 
for the Iraqi Government. But more needs to be done.
    Political support for the new Iraq, for a democratic post-
Saddam Iraq, economic support, particularly in the form of Gulf 
state debt forgiveness, need to move forward, and the time to 
move is now. Our friends in the Gulf, in particular, speak and 
we listen to them when they express concern over the extension 
of negative Iranian influence in Iraq, the growth of al Qaeda 
and Islamic extremism in Iraq. These are valid concerns. We 
share them. We need their support in helping to confront these 
growing concerns, and the best way to do that is through active 
engagement, not isolation, not fence-sitting, on the part of 
these regimes.
    Mr. Chairman, your question about engaging the negative 
actors in the region--Syria and Iran--is a very significant 
one. With respect to Syria, we do not believe that the issue 
involving Syria's negative behaviors towards Iraq, Hezbollah, 
Lebanon, Iran, or Palestinian radical groups is a question of 
lack of dialogue or lack of engagement. We believe the Syrian 
Government is well aware of our concerns and the steps required 
to address those concerns. But Syria has made a series of 
choices and the last choice, the most significant and negative 
choice, was during the Lebanon war, when Syria cast its lot, as 
it remains today, with Iran, with Hezbollah, with forces of 
violence and extremism. When that changes, we will of course 
respond. The problem is not one of dialogue or engagement.
    With respect to Iran, we are prepared in principle to 
discuss Iranian activities in Iraq. The timing of such a direct 
dialogue is one we still have under review.
    Chairman Warner. Thank you very much. So in summary, you 
would say at the present time negotiations with those two 
countries are not on the table?
    Ambassador Satterfield. We are prepared in principle for a 
direct dialogue with Iran. The timing of that dialogue is one 
that we are considering.
    Chairman Warner. Thank you.
    Senator Levin.
    Senator Levin. Thank you, Mr. Chairman.
    General, you indicated in your statement that the changing 
security challenges in Iraq require changes to our own approach 
to achieve stability. What changes are you referring to?
    General Abizaid. Primarily referring to the need to 
increase our commitment to our military transition teams, to 
increase the number of people that are on each of these teams, 
to ensure that they are as robust as they need to be to give 
the Iraqis the capability to take the lead. I believe that that 
is essential for being able to change from us being in the lead 
to Iraqis being in the lead.
    Senator Levin. You also say that new options are being 
explored and debated. Is one of the options that is being 
explored additional U.S. forces going to Iraq?
    General Abizaid. We have every option on the table and we 
will present them to the chain of command.
    Senator Levin. Including that?
    General Abizaid. To include that.
    Senator Levin. Including an announcement of a plan for 
possible reduction of forces some time down the road? Is that 
also on the way----
    General Abizaid. Yes, Senator, it goes all the way from 
increasing our U.S. forces, our U.S. combat forces, all the way 
down to withdrawing our U.S. combat forces.
    Senator Levin. Are some of them down the road, in some 
planned way?
    General Abizaid. Right, and repositioning of forces in 
different ways, et cetera.
    Senator Levin. Thank you.
    Ambassador, you testified that it is critical that we work 
with the Government of Iraq to set out measurable, achievable 
benchmarks on the three tracks that you mentioned--political, 
security, and economic. Apparently there were some benchmarks 
and timelines that were said by Ambassador Khalilzad to have 
been agreed upon by the Iraqi leaders. He made that 
announcement, then the next day Prime Minister Maliki rejected 
what apparently the Ambassador thought had been accepted.
    Were we surprised Prime Minister Maliki rejected those 
timelines?
    Ambassador Satterfield. Senator Levin, the Iraqi Government 
has articulated a sense of goals and objectives on the 
political process and they have been actively engaged in 
articulating with the U.N. a very detailed set of goals and 
objectives on the economic side. On security, the discussions 
between our two sides continue. With respect to timelines, 
there is a timeline embedded in the political process outlined 
by the Iraqi Government, as well as on the economic steps now 
in the process of finalization.
    Similarly on security, we think it is valuable, very 
valuable, for the Iraqis to articulate, certainly with our 
input, where they intend to move, how they intend to move, and 
over what timeline on security goals, as General Abizaid has 
outlined. But all of these processes are very much in train.
    Senator Levin. Apparently there was a specific document 
which Ambassador Khalilzad was referring to when he said that 
certain timelines and benchmarks had been agreed upon. Is that 
true? Is there a document?
    Ambassador Satterfield. There is a document on political 
benchmarks that is a document articulated and published by the 
Iraqi Government in mid-October.
    Senator Levin. Did we present a different timeline and set 
of benchmarks to them from the one you just referred to?
    Ambassador Satterfield. No, Senator. I think whatever 
confusion may have been reflected in Prime Minister Maliki's 
remarks has been resolved. I would not overplay the 
significance certainly at this point of those comments. We are 
very closely working on benchmarks and goals and objectives on 
the security process.
    Senator Levin. So there was no document which we said that 
the Iraqis had agreed to, which in fact Prime Minister Maliki 
said had not been agreed to?
    Ambassador Satterfield. No, Senator.
    Senator Levin. There is no such document?
    Ambassador Satterfield. I do not think that was the 
substance of the prime minister's remarks.
    Senator Levin. All right. But that is not my question. My 
question is: was there a document?
    Ambassador Satterfield. They have not repudiated any agreed 
document, no, sir.
    Senator Levin. Was there a document presented, which was 
not accepted?
    Ambassador Satterfield. No, sir. There are documents in 
discussion.
    Senator Levin. Recent reports have been published about the 
ISFs being infiltrated by Shiite militias implicated in 
sectarian death squads, and there has been some evidence that 
has been true now of the Iraqi army. General, a recent, very 
devastating report in the New York Times last Sunday implicated 
the division commander of the Fifth Iraqi Army Division in 
Diyala Province of a campaign to drive the Sunnis out of that 
province. His actions reportedly led American officers to 
require that the general clear all operations with them, even 
though on July 3 there had been a transfer of lead authority to 
the Iraqis.
    Are you familiar with that specific report?
    General Abizaid. I am familiar with the article that 
appeared in the New York Times.
    Senator Levin. Is that accurate?
    General Abizaid. It is not completely accurate, no.
    Senator Levin. Is it essentially accurate?
    General Abizaid. There is certainly concern that in some 
units there is infiltration by sectarian groups.
    Senator Levin. Did the events that were described there 
occur?
    General Abizaid. Did the events described in the article 
occur?
    Senator Levin. Did the event that was described there in 
that article occur?
    General Abizaid. I cannot really say that the article is 
exactly accurate. I can say in that division there were 
sectarian problems that were brought to the attention of our 
chain of command and were brought to the attention of the Iraqi 
chain of command.
    Senator Levin. Was there a list of people that the Iraqi 
general wanted us to arrest and detain?
    General Abizaid. Wanted us, Americans, to arrest and 
detain?
    Senator Levin. Right.
    General Abizaid. I do not know that that is true.
    Senator Levin. Do you believe, General, that Prime Minister 
Maliki will move against the Sadr militia?
    General Abizaid. I think he must move against the Sadr 
militia if Iraq is to become a free and sovereign and 
independent state.
    Senator Levin. You believe he will?
    General Abizaid. I believe he will and he will use the 
Iraqi army to do so, and he will use political activity to 
ensure the disarmament of the Jaysh al-Mahdi. I believe he must 
do that; otherwise the Jaysh al-Mahdi starts to become the 
curse of Hezbollah, except on an Iraqi scale as opposed to a 
Lebanon scale.
    Senator Levin. I can ask this of either of you--do we 
believe that the grand ayatollah can influence Sadr's behavior?
    Ambassador Satterfield. Senator, Ayatollah Sistani has 
significant influence in Iraq, an influence that extends well 
beyond Najaf and well beyond the Shiite community alone. He has 
been a sustained and consistent voice for moderation, for calm, 
and against sectarian violence. But he is challenged, as all 
moderates in Iraq are challenged, by the militias, by their 
sectarian violence, by the campaign of terror that foments and 
sustains that violence.
    Certainly the Ayatollah has a vital role. It is a role we 
very much hope he will continue to play.
    Senator Levin. Could he just declare a truce to sectarian 
violence or deliver a religious fatwa against that violence?
    Ambassador Satterfield. Senator, I believe there will need 
to be concerted action by the political leadership of Iraq and 
by ISFs in order to bring about a meaningful drop and sustained 
end to sectarian violence.
    Senator Levin. My time is up. Thank you, Mr. Chairman.
    Chairman Warner. Thank you, Senator Levin.
    Senator Graham.
    Senator Graham. Thank you, Mr. Chairman.
    Do you agree or disagree with the following statement: that 
Iraq is the central battlefront in the war on terror? General?
    General Abizaid. I agree with that.
    Senator Graham. Ambassador?
    Ambassador Satterfield. It is a central battlefront. It is 
not the only battlefront.
    Senator Graham. Who would be the biggest winners and losers 
in a failed Iraqi state? General?
    General Abizaid. Al Qaeda and Iran.
    Senator Graham. Ambassador?
    Ambassador Satterfield. Absolutely.
    Senator Graham. Was General Shinseki correct when you look 
backward that we needed more troops to secure the country? 
General Abizaid?
    General Abizaid. General Shinseki was right that a greater 
international force contribution, U.S. force contribution, and 
Iraqi force contribution, should have been available 
immediately after major combat operations.
    Senator Graham. So both of you believe that more troops 
would have been helpful, that we are in the central battle, one 
of the biggest battles in the war on terror; is that correct? 
Both of you believe that, that this is a central battle in the 
war on terror, Iraq?
    General Abizaid. The central battle is happening in Iraq. 
That is by the definition of our enemies, and the question is--
--
    Senator Graham. Well, and you agree with their definition?
    General Abizaid.--do we need more troops? My answer is yes, 
we need more troops that are effective, that are Iraqi.
    Senator Graham. Do we need more American troops at the 
moment to quell the balance?
    General Abizaid. No, I do not believe that more American 
troops right now is the solution to the problem.
    Senator Graham. Do we need less American troops?
    General Abizaid. I believe that the troop levels need to 
stay where they are. We need to put more American capacity into 
Iraqi units to make them more capable in their ability to 
confront the sectarian problem----
    Senator Graham. So it is your testimony that we do not need 
any change in troop levels to get this right?
    General Abizaid. It is possible that we might have to go up 
in troop levels in order to increase the number of forces that 
go into the ISFs, but I believe that is only temporary.
    Senator Graham. If we withdrew troops to Okinawa, would 
that be a good idea?
    General Abizaid. No.
    Senator Graham. If we withdrew troops to Kuwait, would that 
be a good idea?
    General Abizaid. Not at this stage in the campaign.
    Senator Graham. People in South Carolina come up to me in 
increasing numbers and suggest that no matter what we do in 
Iraq the Iraqis are incapable of solving their own problems 
through the political process and will resort to violence and 
we need to get the hell out of there. What do you say?
    General Abizaid. I say the Iraqis are capable of fighting 
for their country, solving their political problems, and 
bringing their country towards stability with our help and 
support.
    Senator Graham. Having said that, do you see it possible to 
get political solutions to these difficult problems the Iraqis 
are facing with the current level of violence?
    Ambassador Satterfield. Senator, we see the need for action 
both on the political front and on the security front. The 
current levels of violence work against a political resolution 
and the failure to move forward a political process, a 
reconciliation process, feed and sustain those levels of 
violence.
    Senator Graham. Would you agree with this statement, that 
if the current level of violence is not contained or reduced 
dramatically the chance of a political outcome being successful 
in Iraq is almost zero?
    Ambassador Satterfield. There is no question that if levels 
of sectarian violence, if the growth of militias are not 
addressed and brought down significantly, that the chances of a 
political resolution are significantly diminished.
    Senator Graham. Having said that, our troop posture will 
basically stay the same?
    General Abizaid. Senator, our troop posture needs to stay 
where it is as we move to enhance the capabilities of the ISFs, 
and then we need to assess whether or not we can bring major 
combat units out of there due to the increased effectiveness of 
the ISFs. My belief is that the Iraqi army, which has taken 
casualties at three times the rate of our own troops, is 
willing to fight. They need to be led properly by their own 
officers and they need to be supported by their own government.
    The government needs not to support the sectarian militias. 
They need to disband the sectarian militias.
    Senator Graham. Why is the government not supporting the 
army--why are they supporting the militias over the army? That 
would be my last question.
    General Abizaid. I believe that the government understands 
that they must support the army over the militias.
    Senator Graham. Why are they not doing it?
    General Abizaid. I believe they are starting to do it.
    Senator Graham. No further questions.
    Chairman Warner. Thank you.
    Senator Reed.
    Senator Reed. Thank you very much.
    General Abizaid, the Shiite control the Government of Iraq 
at the moment and there seems to be, at least in my view, a 
conscious process of ethnic cleansing going on. Would you 
ascribe to that view?
    General Abizaid. There are certainly areas in Baghdad where 
Shiite death squads have moved in and tried to move Sunni 
families out of there by threatening them, murdering them, or 
kidnapping them.
    Senator Reed. Do you see that as something more than just 
coincidental, but organized and systematic?
    General Abizaid. I think it is organized by some of the 
Shiite militia groups, yes, I do.
    Senator Reed. It seems also to me that the Shiite 
Government recently passed legislation creating a super-region 
which would encompass the Kurdish area in the north, making it 
autonomous. In effect, what seems to be happening or could be 
happening is that the Shiite plan, the government plan, is that 
they will end up with an oil-rich region in the south, much as 
the Kurds have in the north, that on the edges between Shiite 
and Sunni communities there is some deliberate action of ethnic 
cleansing going on and that that rationale might explain why 
there is not a lot of activity directed at disbanding militias, 
cooperating with United States forces, sharing intelligence, 
doing lots of things.
    Ambassador Satterfield. Senator, in fact that has not 
happened. The manner in which the issue of moving forward on 
the constitutional provisions for the formation of federal 
regions was handled shows not a dominant Shiite unilateral 
agenda, but rather cross-sectarian alliances, in which Shiite 
in the political process expressed very different views on what 
ought to be the course forward, in which Sunnis participated 
very much in a decision, along with Kurds, that put off for 18 
months any step by provinces to take advantage of the 
constitutional provisions to form a federal region.
    We see this as a positive, not a negative outcome. 
Similarly, we have seen significant progress made on a national 
hydrocarbon law, which would provide for national distribution 
of revenues on a fair and equitable basis, which would reflect 
both local and national needs, and those are both encouraging 
signs.
    Senator Reed. Is it encouraging that there are significant 
revenues that they are not committing to reconstruction 
efforts? Tal Afar is one example among many where they are not 
committing their own resources to do what everyone argues has 
to be done.
    Ambassador Satterfield. Senator, there are very significant 
Iraqi resources which are available and which need to be moved 
into Iraqi reconstruction, development, and growth. We are 
working with the Iraqis, as is the international community, on 
focusing them on the need to move those resources through 
better budget execution, through other means, to get them to 
the fight where they are needed.
    Senator Reed. General Abizaid, how much time do you think 
we have to bring down the level of violence in Baghdad before 
we reach some type of tipping point where it accelerates beyond 
the control of even the Iraqi Government?
    General Abizaid. I think it needs to be brought down within 
the next several months.
    Senator Reed. 90 days, 60 days?
    General Abizaid. 4 to 6 months.
    Senator Reed. 4 to 6 months.
    You have said that your view is that the Iraqi Government 
and Maliki are committed to do that. The $300 billion question 
is when?
    General Abizaid. I think he is ready to do it now.
    Senator Reed. What is holding him up, is he ready to do it 
now?
    General Abizaid. I believe he has moved in a direction with 
national police reform, which has been a major problem, with 
dismissing officers that are showing sectarian values as 
opposed to national values, with committing the armed forces to 
independent operations that are necessary to quell the 
sectarian violence, in a way that leads me to believe he is 
going to continue to be doing more. I talked to him about it 
just 2 days ago.
    Senator Reed. It was reputed, and I think in that 
conversation, General, that you said he must disband the Shiite 
militias and give the United States proof that they were 
disbanded. Is that accurate?
    General Abizaid. I would not say that is exactly accurate. 
I said he must disband the Shiite militias, absolutely.
    Senator Reed. Did you give him a notional timeframe of 
months?
    General Abizaid. I said very soon.
    Senator Reed. Very soon.
    Ambassador Satterfield, do you think it is in the interests 
of the regional parties, including Iran and Syria, to have a 
destabilized Iraq?
    Ambassador Satterfield. It is certainly not in the interest 
of any state in the region committed to peace and stability to 
see a destabilized, violent Iraq. Iran and Syria have both made 
their intentions very clear. Their role has not been 
constructive and, while their rhetoric supports stability in 
Iraq, their actions do not.
    Senator Reed. So you feel that they have a deliberate 
national policy of continuing to destabilize or attempt to help 
destabilize Iraq?
    Ambassador Satterfield. Their actions certainly reflect 
that.
    Chairman Warner. Thank you, Senator. We must move along.
    Senator Sessions.
    Senator Sessions. Thank you, Mr. Chairman.
    One of the things I believe we should talk about to get a 
really effective effort in Iraq is for all of us to understand 
who is responsible for what. I know our military has been 
carrying a heavy, heavy burden. They have suffered casualties 
and performed magnificently in my view. But some people seem to 
think they should be responsible for everything there.
    Ambassador Satterfield, let me ask you, with regard to the 
management of the infrastructure, the electricity and water, 
the educational improvements, the relations with governments, 
the Government of Iraq, the reconciliation process, oil, law 
and order, is that the DOS's responsibility?
    Ambassador Satterfield. Senator, it is the Iraqis' 
responsibility first and foremost, and we have to make that 
very clear. It is their country. They are responsible for their 
own fate. The consequences of their choices are very 
significant for us, extremely significant. But they, at the end 
of the day, must be seized with responsibility for all the 
sectors that you referred to.
    Now, our mission in Iraq and our mission back here, the 
U.S. Government's mission, are closely interrelated. I have 
never seen an example of closer military-civilian cooperation, 
of a fully joint undertaking, than our embassy in Baghdad and 
our PRTs. Indeed, those PRTs are extensions of classic civil-
military operations, with investment from the civilian 
community to augment our military's resources.
    But at the end of the day, our efforts, whether in Baghdad 
or in the field, are supportive of what must be an Iraqi lead.
    Senator Sessions. You stated that well. It is up to the 
Iraqis. But with regard to our effort to encourage them to 
achieve a common goal of a stable and peaceful and prosperous 
Iraq, these areas of responsibility are really the 
ambassador's, the DOS's, are they not?
    With the military as a supportive role, or are we confused 
about who is responsible?
    Ambassador Satterfield. We are not confused at all, 
Senator. It is a joint mission. All of the key issues that you 
have raised, and they are all critical, have elements which 
reflect both our military input, and our civilian input, not 
just from DOS, but from other Government agencies represented. 
But we act in tandem.
    Our strategic plans are jointly developed. Our benchmarks 
and timelines--and we do have them--are jointly arranged and 
reviewed and they are jointly executed.
    Senator Sessions. It is good that you are working well 
together. I hear that when I am in Iraq, both from the 
uniformed people and the people. But are you confident that the 
DOS, the Justice Department, the Commerce Department, the other 
Departments of this Federal Government, are contributing to 
this effort as their capability exists sufficiently when 
compared to DOS and the military?
    Ambassador Satterfield. Senator, this is a very important 
issue for the President and for Secretary Rice, and we are very 
pleased, particularly over the last 6 months, at the outpouring 
from other agencies apart from the DOS and the DOD to provide 
qualified civilians to the fight in Iraq, including in those 
very dangerous, very exposed PRTs.
    Senator Sessions. With regard to an issue that I spent most 
of my professional career dealing with crime, both of you, I 
would like your comments. I have heard from a parent who I have 
confidence in that his son, a soldier there, that they are 
apprehending dangerous people that are being released far, far 
too quickly. When we were there on my last trip to Iraq, we met 
with military people. They expressed great frustration that 
they are taking risks to arrest people and they are being 
released promptly.
    I believe it was Robert Kagan writing in Atlantic Monthly 
talked about Mosul and he met with the mayors in that whole 
region, and after the pleasantries ended the first thing they 
complained about was too many of the people that had been 
arrested being released from the prison. That was their number 
one complaint.
    I will just tell you as someone who knows a little bit 
about the crime thing, people have to have some stability. You 
noted it in your comments, Mr. Ambassador. Some Iraqis have 
turned to armed militias and other extragovernmental groups to 
provide security, while others have seized upon the security 
vacuum to pursue local power.
    I guess what I am saying to you is, are you confident that 
you have enough prison spaces, that we are adequately 
adjudicating those who are involved in these bad activities, 
and do you recognize the importance of that to creating a 
stable Iraq?
    Ambassador Satterfield. Senator, there are two issues here 
that you allude to. The first is how we, the U.S. Government, 
the U.S. military, handle our own detention process in terms of 
releases, and we do have a high level of confidence in that 
process.
    But there is another area in which we do not have a similar 
level of confidence, and that is how Iraqis are proceeding to 
establish the rule of law, a transparent and effective judicial 
process. I will take that to a very simple point. The Iraqi 
Government must establish consequences for bad actions, whether 
those actions are abuse of human rights or financial 
corruption, both of which sap the fabric of Iraqi society and 
the Iraqi state. Much more needs to be done.
    Now, we are helping. We have an aggressive program to 
provide physical capacity, physical infrastructure, prisons, 
corrections officers. But that capacity is only as good as the 
judicial process that supports it on the Iraqi side. For a 
combination of reasons, including intimidation and threats, 
there are significant challenges ahead which we and the Iraqis 
need to continue to address.
    But I would like to follow up on an earlier comment you 
made and express particular appreciation to the Attorney 
General for the support that the Department of Justice has 
offered us in Iraq and in our PRTs. It is a very robust and an 
absolutely critical presence. Thank you very much.
    Senator Sessions. One of my assistant U.S. attorneys 
volunteered from the Department of Justice and is over there 
today. But that is a critical element, is creating a system of 
law, and that includes, sir, guilty people not being released. 
That is really a serious problem in this kind of culture.
    Chairman Warner. Thank you, Senator.
    Before proceeding to Senator Bill Nelson, I will ask the 
indulgence of the committee.
    [Whereupon, at 12:42 p.m., the hearing was recessed and the 
committee proceeded to other business, then reconvened at 12:45 
p.m.]
    Chairman Warner. Senator Bill Nelson.
    Senator Bill Nelson. Thank you, Mr. Chairman.
    General Abizaid, I trust you. I must say that I come to 
this hearing with a great deal of skepticism because prior to 
this hearing there has been a great deal of obfuscation by the 
witnesses in front of this committee as to what the truth is, 
and I trust you, and you have been to me the most forthcoming 
witness as you have appeared in front of this committee over 
the course of time.
    Now, I want to pick up on what Senator Graham was asking 
you about in the stability and the degree of the number of 
forces that we need. I draw attention to an article yesterday 
in USA Today in which, talking about Anbar Province, where we 
have had 40 Americans killed there in October. Marine General 
Zilmer says that he has enough troops to train Iraqis, but he 
does not have enough to defeat the insurgency. Then Marine 
General Neller says many police in Anbar Province have not been 
paid for 3 months.
    Now, how do we reconcile that, if it is true, with your 
response to Senator Graham?
    General Abizaid. First of all, Senator, it is true. I was 
out talking to General Zilmer and his commanders just 2 days 
ago, and there is a problem in Al Anbar Province and there is a 
big problem with pay getting to the police in Al Anbar 
Province, and it has to do with on the one hand, the immaturity 
of the Iraqi Government, and on the other hand, suspicions 
within the national police organization that people in the 
Sunni areas are in particular not being paid in order to 
advance a sectarian agenda.
    We have discussed this with the Minister of the Interior. 
He understands what the problem is. They must be paid. But what 
those officers said is a problem is in fact a problem. On the 
other hand----
    Senator Bill Nelson. The question is, our troop strength to 
get the job done, since this is a critical area for terrorism 
in the world.
    General Abizaid. Al Anbar Province is critical, but more 
critical than Al Anbar Province is Baghdad. Baghdad is the main 
military effort. I told the marines when I was out there that 
the main effort is clearly Baghdad. They understand that. That 
is where our military resources will go. On the other hand, I 
would tell you that the al Qaeda activity, which is highest in 
Al Anbar Province, is being very robustly challenged by our 
Special Operations Forces and our Marine Forces and we are 
having what I would call very good success out there.
    Senator Bill Nelson. Both are critical. But the question 
is, because I am asked this question all the time, do we need 
more troops or should we withdraw? I say I want to leave it to 
the commanders, like General Abizaid. You have stated to 
Senator Graham that you do not need a change in the troops 
right now. But the commentary coming out of Anbar by General 
Zilmer and General Neller would indicate otherwise.
    General Abizaid. I understand that. I have talked it over 
with those commanders out there. I think our main effort is 
where it has been designated, which is in the Baghdad area. It 
is where it needs to stay. I think that we have made progress 
in Baghdad. We are going to continue to make progress in 
Baghdad, and that we do need more troops and the more troops we 
need are Iraqis.
    The Iraqis understand that. They have increased the size of 
their armed forces. They have gone out to recruit more police. 
I believe that the 300,000-plus armed Iraqis, in addition to 
our current force strength, give us the opportunity to put the 
Iraqis in the lead, provided the Government of Iraq will get 
behind their armed forces. I believe that is a good bet.
    Senator Bill Nelson. Okay. Let me ask you on the opposite 
side of the question, because I get this all the time: ``We 
ought to withdraw; we ought to have a phased withdrawal.'' Can 
you tell us in your professional military opinion what does 
that involve? You have to consider the tactical questions, you 
have to consider the logistical considerations. Clearly you 
just cannot pick up and walk out. You are talking about plans 
over some period of time understanding that any kind of phased 
withdrawal depends on political, economic, and military 
conditions, what are the essential questions that you as a 
commander would need to have answered in order to set that 
timetable?
    General Abizaid. Clearly, the number one question we need 
if someone were to say withdraw is when. You have to understand 
that moving 140,000 troops from combat positions out of the 
country and then dealing with their withdrawal and all of the 
logistics apparatus that is entailed is a considerable 
endeavor.
    We would have to know what the policy conditions and 
constraints are, what the rules of engagement would be during 
this period. It is an extremely complex and difficult 
operation.
    I would also tell you, Senator Nelson, just to make sure 
that we are completely communicating here, I did release the 
Marine Expeditionary Unit that is under my control to the 
marines in Al Anbar Province and it has already started its 
deployment up in the area to help address some of General 
Zilmer's concerns, with General Casey's concurrence of course.
    Senator Bill Nelson. That is useful information.
    Chairman Warner. Thank you very much, Senator.
    Senator Bill Nelson. Thank you.
    Thank you, Mr. Chairman.
    Chairman Warner. Senator McCain.
    Senator McCain. General Abizaid, is Al Anbar Province under 
control?
    General Abizaid. Al Anbar Province is not under control, 
Senator.
    Senator McCain. Yet we have enough troops to take care of 
the problem, which you say Baghdad is the primary area. Would 
it not make sense to say it might be well to get both Baghdad 
and Al Anbar Province under control before we have another 
battle of Fallujah and lose many more lives because the 
insurgents have taken control of a good part of Al Anbar 
Province?
    General Abizaid. Senator McCain, I believe that the marines 
have done an excellent job in securing the key areas of Al 
Anbar Province, Ramadi, and Fallujah. They are the three most 
decisive areas. I believe that you cannot have a main effort 
everywhere and that the preponderance of military activity 
needs to go into the Baghdad area.
    Senator McCain. I do not understand that tactic, General. 
You just told Senator Graham that General Shinseki was right 
that we did not have enough troops there after the initial 
military operation. Is that correct?
    General Abizaid. I believe that more ISFs that were 
available would have made a big difference. I believe more 
international forces would have made a big difference.
    Senator McCain. Would more American troops have made a 
difference?
    General Abizaid. I think you can look back and say that 
more American troops would have been advisable in the early 
stages of May, June, and July.
    Senator McCain. Did you note that General Zinni, who 
opposed the invasion, now thinks that we should have more 
troops? Did you notice that General Battiste, who was opposed 
to the conduct of this conflict, says that we may need tens of 
thousands of additional troops?
    I do not understand, General, when you have a part of Iraq 
that is not under our control as Al Anbar Province is, I do not 
know how many American lives have been sacrificed in Al Anbar 
Province--but we still have enough and we will rely on the 
ability to train the Iraqi military, when the Iraqi army has 
not sent the requested number of battalions into Baghdad.
    General Abizaid. Senator McCain, I met with every 
divisional commander, General Casey, the corps commander, and 
General Dempsey. We all talked together, and I said: ``In your 
professional opinion, if we were to bring in more American 
troops now, does it add considerably to our ability to achieve 
success in Iraq?'' They all said ``no.''
    The reason is because we want the Iraqis to do more. It is 
easy for the Iraqis to rely upon us to do this work. I believe 
that more American forces prevent the Iraqis from doing more, 
from taking more responsibility for their own future. They will 
win the insurgency, they will solve the sectarian violence 
problem, and they will do it with our help. If more troops need 
to come in, they need to come in to make the Iraqi army 
stronger. That is my professional opinion.
    Senator McCain. General Battiste also says that if there 
were congressional proposals for troop withdrawals, he says, 
``terribly naive.'' Do you agree with that comment?
    General Abizaid. Under the current circumstances, I would 
not recommend troop withdrawals.
    Senator McCain. So we have sufficient number of forces to 
clear insurgent sanctuaries, hold the territory with a 
combination of coalition and Iraqi forces, provide sufficient 
security in Iraq, so that economic reconstruction and political 
activity can take place, to arrest the momentum of sectarian 
death squads, disarm militias, to train the Iraqi army, and 
keep an American presence in Iraqi units, and place U.S. 
personnel in Iraqi police units? We have sufficient troops to 
carry out all those tasks?
    General Abizaid. We have sufficient troop strength, Iraqi 
and American, to make those tasks become effective.
    Senator McCain. Was it encouraging when in broad daylight 
that yesterday or the day before, that people dressed in police 
uniforms were able to come in and kidnap 150 people and leave 
with them and go through checkpoints, General? It is not 
encouraging to us. It is not encouraging to those of us who 
heard time after time that things are ``progressing well,'' 
that we are making progress, et cetera, because we are hearing 
from many other sources that that is not the case. I am, of 
course, disappointed that basically you are advocating the 
status quo here today, which I think the American people in the 
last election said that is not an acceptable condition for the 
American people.
    So I regret your position that, apparently against the 
recommendation of most military experts that we do not have 
sufficient troops--Al Anbar Province is a classic example of 
that--that you still are continuing to hold this position when 
numerically most of the attacks, most of the kidnappings, most 
of the others, continue to be on a rise in Baghdad itself, 
where, as you say, the majority of our effort takes place.
    I respect you enormously. I appreciate your service. I 
regret deeply that you seem to think that the status quo and 
the rate of progress we are making is acceptable. I think most 
Americans do not.
    General Abizaid. Senator, I agree with you. The status quo 
is not acceptable and I do not believe what I am saying here 
today is the status quo. I am saying we must significantly 
increase our ability to help the Iraqi army by putting more 
American troops with Iraqi units in military transition teams, 
to speed the amount of training that is done, to speed the 
amount of heavy weapons that gets there, and to speed the 
ability of Iraqi troops to deploy.
    It is a very difficult thing to do. Senator, I believe in 
my heart of hearts that the Iraqis must win this battle with 
our help. We can put in 20,000 more Americans tomorrow and 
achieve a temporary effect, but when you look at the overall 
American force pool that is available out there, the ability to 
sustain that commitment is simply not something that we have 
right now with the size of the Army and the Marine Corps.
    We can win with the Iraqis if we put our effort into the 
Iraqis as our first priority, and that is what I think we 
should do. I do not think that is status quo. I think that is a 
major change.
    Chairman Warner. Thank you very much, General.
    Senator McCain. Could I just say in response, Mr. Chairman. 
You say we need to do all these things--train the Iraqis. I do 
not know where those troops come from, number one; and many of 
us believe that, this may not be a long-term commitment, but at 
least a commitment to bring Baghdad under control, and that is 
not happening today, and that is in my view where you and I 
have significant disagreement.
    I thank you, Mr. Chairman.
    Chairman Warner. Thank you.
    Senator Dayton.
    Senator Dayton. Thank you, Mr. Chairman.
    General Abizaid, when you were confirmed by this committee 
you signed a questionnaire on June 14, 2003, that said yes to 
the question ``Do you agree when asked before any duly 
constituted committee of Congress to give your personal views, 
even if those views differ from the administration in power?'' 
I guess I would ask you if think you have been true to that 
commitment?
    General Abizaid. Yes, I do.
    Senator Dayton. Since I have not been campaigning for 
reelection in the last month, I had a chance to visit Iraq and 
also to read a couple of the books, State of Denial and Fiasco, 
about the past circumstances there. In State of Denial, there 
is a reference to you and Jay Garner where you turned, 
according to the book, to the policies on de-Baathification and 
disbanding the army. ``Garner told Abizaid: `John, I'm telling 
you, if you do this it is going to be ugly. It will take 10 
years to fix this country and for 3 years you will be sending 
kids home in body bags.' Abizaid did not disagree. `I hear 
you,' he said. On the video screen, Abizaid argued that they 
needed to bring back officers from Saddam's army.''
    That same contradiction is reflected in the other book as 
well, where Garner says: ``We planned to bring the army back. 
Having an operating Iraqi army was a key element of the U.S. 
military planning. Abizaid was all for it, Tommy Franks, 
McKearnan.''
    I cannot find anywhere where you told this committee, sir, 
that you opposed the policy of either de-Baathification or the 
policy of disbanding the Iraqi army. In fact, in March 2005 
when Senator Reed asked you specifically about de-
Baathification, you did not indicate your disagreement with 
that policy.
    General Abizaid. De-Baathification issues are very, very 
serious and the degree to which the depth of de-Baathification 
has gone affects reconciliation of the Sunni community. I 
believe that if we go too deep, and that we initially went too 
deep, that it made it harder for reconciliation.
    Senator Dayton. Is it accurate or inaccurate, these 
accounts that say that you at the time of Mr. Bremer's order on 
de-Baathification disagreed strongly with that policy? Did you 
express that disagreement before this committee or any other 
committee of Congress?
    General Abizaid. I would have to go back and check my 
testimonies on what I said and what I did not say. But I do 
know that I was never interviewed for the book. I do not know 
what other people said and I have not read the book. So you 
will forgive me for not commenting about it.
    Senator Dayton. In State of Denial, you are quoted as 
saying to Richard Armitage: ``We've got a really bad situation 
over here,'' you told him in frustration one day in the summer 
of 2004. ``Can't win it militarily.''
    Then in March 2005, before this committee you said that: 
``The strength of the Iraqi insurgency is waning as a result of 
momentum from elections,'' and you predicted that ISFs would be 
leading the fight against insurgents in most of Iraq by the end 
of 2005.
    Then in one very widely reported comment in March 2006, 
according again to State of Denial, you were in Washington to 
testify before this committee. You painted a careful but upbeat 
picture of the situation in Iraq. Afterward--this is reading 
from the account--``He went over to see Congressman Murtha, the 
73-year-old former marine who had introduced a resolution the 
previous November calling for the redeployment of troops from 
Iraq as soon as practicable, in the Rayburn House Office 
Building.''
    ``According to Murtha,''--you--``Abizaid raised his hand 
for emphasis and held his thumb and forefinger a quarter of an 
inch apart from one another and said: `We're that far apart.' 
''
    Is that, Representative Murtha's account of that meeting, 
an accurate representation?
    General Abizaid. Senator Dayton, if you would look at my 
testimonies before this committee, I have never once said we 
should withdraw from Iraq precipitously, and I believe that is 
completely different from what Congressman Murtha believes. So 
as far as being on the record for what I said versus what 
people said I said, I would say my record is pretty clear.
    Senator Dayton. So you disagree with Representative 
Murtha's account of that meeting?
    General Abizaid. I agree that I have been doing this for a 
long time and I agree that the situation in Iraq has changed. I 
was very comfortable up until about February of this year that 
we were moving in a direction that was exactly as I said, where 
the Iraqis would move to the front, defeat the insurgency, and 
achieve stability. The sectarian violence that took place has 
been, quite frankly, a clear indication of how difficult this 
project is and how steadfast we need to be in order to make it 
work.
    Senator Dayton. I do not question for a minute the 
sincerity of your and our shared desire to win this conflict. I 
guess the accounts in these books--when I was traveling over 
and meeting with some 2,600 Minnesota National Guard men and 
women who are putting their lives on the line every day, as you 
meet with those individuals too, I do not recall in this 
committee you or any other leading general or military 
commander saying anything that substantially differed with the 
official administration policy as articulated by the President, 
the Vice President, and the Secretary of Defense.
    I, frankly, while finding that I could not entirely believe 
their comments, always believed here in this committee that I 
could believe and trust what you were saying and what other 
leading generals were telling us. I find here--and again, I do 
not know whose accounts to believe, but I find here consistent 
contradictions of those upbeat statements and statements of 
agreement with in particular the Secretary of Defense about 
these major decisions.
    It is being pursued here again today, the question of troop 
strength. Again and again, these books attest that you, sir, 
and the other military commanders, at least some of the others, 
believed that we needed more troops. I do not know what to 
believe, sir, when I hear these contradictions.
    General Abizaid. What you can believe is that when we 
evaluate what needs to be done on the battlefield, we make our 
recommendations, we have our debate, we make our decisions, and 
then we move on.
    Senator Dayton. But this commitment you made at the time of 
your confirmation says that you will express your personal 
views to this committee even if they disagree with the 
administration. I do not, in my view, believe, sir, that you or 
others have done that if these accounts are accurate.
    General Abizaid. I have given you my best judgment. I stand 
by the record. I think the record is pretty clear. If you want 
to infer that the Woodward book is correct, feel free to do so. 
But I cannot say that it is.
    Chairman Warner. Thank you very much, General.
    Senator Dayton. Thank you very much, General.
    Chairman Warner. I wish to be recorded on the record that I 
have been at every one of these hearings and have had the 
privilege to chair them. I think you have been very 
forthcoming, and I opened this hearing with a very pragmatic 
statement you made on August 3, which was heard not only 
throughout this country but around the world.
    Thank you very much.
    Senator Collins.
    Senator Collins. Thank you.
    Ambassador, in your testimony you noted that we need to 
move forward on three tracks--security, policy, and economics. 
The solution in Iraq depends not just on a military approach, 
but on an economic and political success as well. In that 
regard, the lack of adequate Sunni participation in the 
political process and in the governing bodies presents a major 
challenge to the long-term stability of Iraq.
    The power imbalance is particularly acute in Baghdad, where 
the mayor's office, the governor's office, and the provincial 
council are all entirely in Shiite hands. Now, one way to 
remedy that imbalance is through additional elections. Yet I am 
told that provincial elections, which might help to remedy that 
power imbalance, have once again been delayed. I believe they 
were supposed to have occurred in September of this year. They 
were then postponed to March of next year, and now I am told 
that they are being postponed again until the fall of 2007.
    That delay effectively perpetuates the lack of power for 
the Sunni population. What are we doing to try to remedy the 
imbalance politically, because we are never going to have a 
stable and peaceful democratic Iraq if the Sunnis feel that 
they are excluded.
    Ambassador Satterfield. Senator, Iraq has had two 
extraordinary elections, the constitutional drafting process 
and the referendum for the constitution, in which the 
overwhelming majority of Iraqis participated, including Sunnis. 
That was a major step forward. The council of representatives 
reflects, we think, in a fair and accurate fashion the balance 
of demographics within Iraq, and the reality is that in Iraq, 
as in many other states, demographics do shape the way voting 
patterns trend.
    But that does not diminish from the fact that at a 
provincial level, at a local level, including in Baghdad, there 
do need to be new free elections held with full Sunni 
participation. The Sunnis largely boycotted those initial 
elections. They have come in at the national level. They now 
need to come in at the provincial level.
    We want to see local elections take place as soon as 
possible and there has been no decision to postpone elections. 
There are several legislative steps and there are some 
organizational measures in which international organizations 
are involved and Iraqi nongovernmental organizations are 
involved that need to be put in place. But we believe the 
government is committed to moving forward with provincial 
elections as rapidly as possible. Frankly, I would hope that 
could still take place early in the new year.
    Senator Collins. I certainly hope so. I think it is 
absolutely essential.
    General, are any of the Iraqi army battalions operating 
independently, without U.S. support, at this point?
    General Abizaid. There are a large number of Iraqi 
battalions, 91 to be, in fact that are in the lead. But they 
have embedded U.S. training teams. Again, this is one of the 
key and important changes that we are recommending, that we 
make those teams more robust.
    Senator Collins. I know we are making progress and that 
obviously has been the cornerstone of our strategy in Iraq, is 
to transfer security. I realize that there are additional army 
battalions every day that are taking the lead in operations, 
but are there any that are able to operate without support from 
the U.S., without embedded advisers, at this point?
    General Abizaid. That would operate completely 
independently?
    Senator Collins. Right.
    General Abizaid. No, we are not doing that at this time.
    Senator Collins. Do we have a timetable or a goal for 
having a significant number of Iraqi battalions operating 
without U.S. support? The reason I am pressing you on this is 
obviously our ability to start withdrawing our troops in large 
numbers depends on the ability of Iraqi army troops to operate 
without significant support.
    General Abizaid. We want to speed the transition. The 
transition ultimately is Iraqi units independently operating in 
the field under Iraqi command. But it requires more heavy 
weapons, more deployable types of equipment such as trucks, the 
ability to move around the battlefield, and more logistics. We 
need to speed this process.
    When we can arrive at the point where Iraqi forces under 
Iraqi command can operate without U.S. military transition 
teams, it is hard to really say where that will be, but it is 
some months away. I think you will start to see some divisions 
very capable of independent operations, especially down in the 
south and up in the north, very soon.
    Chairman Warner. Thank you very much, Senator.
    Senator Collins. Thank you, and thank you for your service.
    Chairman Warner. For the information of colleagues, Senator 
Levin and I have conferred. The witness team before us has to 
appear before the House, but we will hopefully have sufficient 
time for each member present now to ask their questions within 
a 5-minute timeframe. I thank the indulgence of the committee.
    Senator Lieberman.
    Senator Lieberman. Thanks, Mr. Chairman.
    General and Ambassador, thanks for your service to our 
country. General, you said earlier that the status quo in Iraq 
is not acceptable. I think everyone agrees with that, and my 
hope is that we have a window of opportunity and really 
responsibility now, after the election to find a bipartisan 
consensus for being supportive of the efforts of our troops and 
our diplomats there to achieve success, because it is critical 
to our security to achieve success there, I believe.
    You know that there has been a range of suggestions, from a 
congressionally-mandated forced withdrawal by a deadline, to 
what is now being described as phased redeployment, which I 
take it to be a general withdrawal but not a date yet by which 
it will happen, to the increasing of our troops there. I want 
to ask you a few questions about some of those alternatives.
    If Congress ordered the beginning of a phased redeployment 
of American forces out of Iraq to occur within the next 4 to 6 
months, what do you believe, General, would be the effect on 
the sectarian violence in Iraq?
    General Abizaid. I believe it would increase.
    Senator Lieberman. Why do you believe it would increase?
    General Abizaid. Because we are at this point right now 
where building capacity and confidence in the ISFs, along with 
building confidence in the Iraqi Government, needs to come 
together in order for them to be able to start taking the lead. 
It is very important that we keep our troop levels at the right 
level.
    Senator Lieberman. Right.
    General Abizaid. Despite discussions between Senator McCain 
and I, it is not that we are absolutely not considering force 
increases. We will, but it seems to me that the prudent course 
ahead is keep the troop levels about where they are, increase 
the number of forces that are with ISFs to make them better, 
more confident, and in conjunction with our colleagues on the 
diplomatic side move towards governance policies that will seek 
reconciliation.
    Senator Lieberman. Understood. So most importantly, you 
have told me that if we began, if Congress ordered a phased 
redeployment out of our troops in the next 4 to 6 months, 
sectarian violence would increase. If Congress ordered a phased 
redeployment of American troops out of Iraq in the next 4 
months, what effect do you think that would have on the Maliki 
Government? Ambassador?
    Ambassador Satterfield. Senator, it would be interpreted as 
a withdrawal of U.S. support. It would encourage even greater 
hedging behaviors by all actors in Iraq as they begin to 
negotiate for position, and that would be in an unhelpful, not 
helpful, direction after the fact.
    Senator Lieberman. I appreciate the answer.
    Some of those who are recommending a phased redeployment 
begin in the next 6 months I think have essentially given up on 
our effort in Iraq. But I think others quite sincerely believe 
that it may be the only way we can convince the Maliki 
Government and the ISFs that they have to take over. I take it 
by your answer that you profoundly disagree with that 
conclusion?
    Ambassador Satterfield. Senator, the U.S. presence in Iraq, 
our activities there, whether civilian or military, are gauged 
against specific missions. Those missions reflect our best 
assessment of dynamics in Iraq and outside Iraq. Adjustments in 
either of our presences in Iraq of any kind up or down, or 
changing in missions, that is part of a concerted strategy that 
thinks through the knock-on consequences of what we do, is one 
thing and that is something we are committed to examining and 
reexamining.
    But a declaration that affects presence without linkage in 
a strategic sense to consequences and other issues we believe 
would be harmful.
    Senator Lieberman. I agree with both of you that a 
congressional mandate to begin a withdrawal from Iraq in a time 
certain would be a disaster for the Iraqis and more directly 
for the United States.
    Let me ask you the other part of the question, picking up 
on what Senator McCain and Senator Graham asked you. General, I 
want to ask you: You have said that the military transition 
teams, the Americans embedded with the ISFs, are probably 
having a very significant positive effect on those forces and 
that our forces embedded with the Iraqis should be, I believe 
you said in your initial testimony, significantly increased. 
How can we do that without increasing the overall number of 
American troops in Iraq? In other words, I fear that the only 
other way to do it is to pull our troops out of other danger 
areas, like Anbar Province, and then they will fall into more 
chaos.
    General Abizaid. I cannot say for sure that we can do it 
without having to increase our overall troop levels. But I 
believe that there is a way to make the transition teams more 
robust from within the existing force structure inside Iraq.
    Senator Lieberman. I hope that you will take a look and not 
hesitate to most directly ask the Commander in Chief to give 
you authority to send more troops in if you really feel that 
the embedding--and I do strongly feel--that the embedding is 
working best to enable the ISFs to take over. It may be that a 
short-term increase in our forces there embedded with them will 
be the best way for us to more quickly get to a point where we 
can actually draw down our forces.
    A final quick question----
    Chairman Warner. Thank you, Senator. We are quite a bit 
over, and I appreciate that.
    Senator Lieberman. I will save it.
    Chairman Warner. Senator Thune.
    Senator Thune. General, thank you for your service. Mr. 
Ambassador, thank you for being here today.
    With regard to the previously asked question by the Senator 
from Connecticut, they talk about 4 to 6 months. General Casey 
is now estimating it is 12 to 18 months before ISFs are ready 
to take control of the country, and I guess I would ask you, 
General, what your confidence level is in that latest 
assessment?
    General Abizaid. General Casey and I just had the 
discussion the other night about increasing the pace of 
transition to bring that 12- to 18-month period forward. I 
cannot exactly say how many months we could bring it forward. 
We are doing the staff work right now to make sure we 
understand how to do it. But it is important for the committee 
to understand and the people that are watching this to 
understand that we have not ruled anything out, that all the 
options are on the table.
    But I think it is very clear that we have to do more to 
speed the transition, to get the Iraqis in the front, because 
the Iraqis being in the front is the key to victory.
    Senator Thune. A lot of the discussion today has focused on 
troop levels and I guess my follow-up question to that would 
be, you talk about speeding that up. If getting additional U.S. 
troops there, if the purpose is to get the ISFs trained and we 
can accomplish that more effectively and more quickly by 
embedding additional U.S. troops for that purpose, does that 
help you speed it up, that 12- to 18-month timeframe?
    General Abizaid. Additional U.S. troops, sir, in that 
period? Right now we have three more brigades than we had 
planned to have in Iraq and I think, as does General Casey, 
that the force structure is adequate to move Iraqi transition 
forward at greater speed. But look, again I cannot tell you for 
sure that there will not be some increase required, as I 
answered to Senator Lieberman's question.
    Senator Thune. I guess I was following up on that question 
as well, because that question has been asked a lot today about 
troop strength, whether or not the current levels are 
sufficient. But if the objective can be more effectively 
accomplished by getting more U.S. troops embedded with the ISFs 
in the short-term, if that enables us to eventually get our 
troops home in a shorter timeframe, that would seem to make 
some sense. I guess that is what I was getting at.
    You recently met with, and there are some documented 
statements in the press recently by, Prime Minister Maliki 
wanting the United States to speed transfer of security 
operations to the Iraqi army and to relegate U.S. forces to 
bases. The defense minister has rejected that idea, saying his 
forces are not ready. Can you give us some insight into what 
the conflict is between the two leading officials there in 
Iraq?
    General Abizaid. I think there is some concern on the part 
of the defense minister that they are not ready to move as fast 
as the prime minister would like them to move. But I talked to 
both the defense minister and the prime minister and they both 
want to speed the pace of transition, and the question is what 
is the best way to do that? Again, I think making our 
transition teams more robust is the right way to do that.
    Now, the other thing I would like to say, you have to 
understand that as we move towards more and more sovereignty in 
Iraq that the Iraqis have a view about more U.S. troops coming 
on their territory as well. I have asked them several times 
about how they would view a major increase in American troops 
in order to help with the security situation for a short period 
of time, and they are not very much in favor of that. They 
believe it undermines their gaining greater and greater 
authority and responsibility.
    Senator Thune. Is it possible that in your efforts to 
establish the stability and to get rid of or stem the rising 
sectarian violence, that while this permanent professional and 
trained police force is being developed, have you explored the 
possibility of bringing in some trained police units that might 
be contributed on a temporary basis from other Arab Muslim 
countries in the region, like Jordan, Egypt, Saudi Arabia, or 
some of the Gulf countries where you would be having primarily 
Shiite-manned units donate?
    General Abizaid. Senator, I would defer that to Ambassador 
Satterfield, but I would tell you, Senator, that there have not 
been any real contributions in that regard from the neighboring 
states that have been forthcoming.
    Ambassador Satterfield. Senator, Jordan hosts a training 
facility which has proved vital to the efforts to build Iraqi 
forces. But in terms of direct contributions of Arab security 
forces, whether police or other, I do not think that is a 
likely prospect, and it is not for any failure on our part to 
solicit. I do not think the willingness exists.
    Senator Thune. So that has been asked. It seems like some 
of those countries, particularly neighboring countries, have a 
real stake in making sure that this transition occurs.
    Ambassador Satterfield. That stake is unmistakable. They do 
and it is a very significant one. But as General Abizaid said, 
we have seen little if any willingness to provide the kind of 
direct support, Senator, that you have referred to.
    Senator Thune. Thank you, Mr. Chairman. My time has 
expired.
    Chairman Warner. Thank you very much.
    Senator Ben Nelson.
    Senator Ben Nelson. Thank you, Mr. Chairman.
    General Abizaid, let me add my appreciation for your 
service. You are certainly in a period of time and an era that 
will be recorded, so I appreciate what you are attempting to 
do. Mr. Ambassador, thank you.
    I have said for a long time that--and I think I am hearing 
this today--when people are asked are we winning the war, that 
the answer is: We cannot win the war. The Iraqis have to win 
their own war. I have been asked, can we help quell the 
sectarian violence? The answer is: Perhaps provide support in 
that effort, but we do not even understand the 1,000 years-plus 
differences between these two groups.
    So I agree with the embedding of military personnel, ours, 
in their military personnel. I agree, and I have heard it so 
many times that we are going to stand up their troops to stand 
down our troops. I understand the symmetry that goes with that 
and I think that is what you are saying, General Abizaid, 
perhaps better than I have.
    But the continuing question will always be, how quickly are 
we moving, what is the progress, and what remains to be done. 
That is why I have been for 2 years asking if we can have 
conditions for staying, in other words measurable goals and 
outcomes that you can identify in advance and then measure 
success toward that.
    Is that similar to what we are hearing in terms of 
benchmarks? Because I wrote a letter last September to 
Secretary Rumsfeld to follow up on that hearing that we had at 
that time, to follow up on the joint U.S.-Iraqi committee being 
established to address issues that I and the other members have 
raised regarding ISFs reaching levels that allow them to 
address sectarian violence and the insurgency. I asked as well 
whether there are any metrics or measurements that might exist 
to demonstrate the number of personnel and time required for 
Iraqis to secure and govern themselves.
    I guess my question first is, what are our measurable 
goals? Is it standing up their troops? Is it weeding out the 
militias that are in the police force, forces around the 
country? Does that include also weeding out the militias and 
the sectarian differences in the military? If that is the case, 
then standing up and standing down is one phase of it, but the 
other phase is how soon can we weed out these elements that are 
obstructionist to the goals that we have?
    Ambassador Satterfield. Senator, the critical elements of 
any set of goals and objectives and any timeline in Iraq today 
are on security, confronting sectarian violence, starting in 
Baghdad, confronting the growth of militias, starting in 
Baghdad, moving forward a political process that focuses on 
reconciliation and on consequences for gross abuses of human 
rights and financial crimes, growing Iraqi capacities on 
budgeting so they can use their resources to sustain 
themselves, and attracting foreign investment.
    Senator Ben Nelson. That is on the economic side----
    Ambassador Satterfield. Those are the key goals. No, those 
are on political and security as well, Senator. As General 
Abizaid and I have both said, the timeline is a diminishing 
one. What is critical here is whether there is a national 
agenda or a sectarian agenda being pursued on sectarian, on 
governance, on economics, whether the government can move in 
enough time to preserve and exploit the convergence that we 
believe still exists between Sunnis and Shiite before that 
convergence diminishes to the point it cannot be----
    Senator Ben Nelson. The coexistence, the policy of 
coexistence.
    Ambassador Satterfield. Absolutely, Senator.
    Senator Ben Nelson. On a scale of 1 to 10, how certain are 
you that we are going to be able to help them do that or are 
they going to be able to do that on their own?
    Ambassador Satterfield. I am very certain we can help them 
do that.
    Senator Ben Nelson. Ten, nine?
    Ambassador Satterfield. Very certain we can help, but the 
question is will they take the difficult decisions. We support 
Prime Minister Maliki. The President has made that very clear. 
We believe he is a national leader, but leaders have to do more 
than simply say the right things. They need to do the right 
things.
    Senator Ben Nelson. We are trying to move away from a cycle 
of dependence and that is why I understand what is being said.
    Ambassador Satterfield. Absolutely.
    Senator Ben Nelson. I agree with that. But also, I am 
concerned about what is required for independence in terms of 
standing up troops and getting the prime minister in a position 
where he can lead. On a scale of 1 to 10, what do you think the 
chances are that he is going to be able to lead?
    Ambassador Satterfield. Senator, significantly more 
progress on each of the areas I described needs to be made by 
the Iraqis.
    Senator Ben Nelson. Thank you.
    Chairman Warner. Thank you very much, Senator.
    Senator Ben Nelson. Thank you, Mr. Chairman.
    Chairman Warner. Thank you.
    Senator Chambliss.
    Senator Chambliss. Thank you very much, Mr. Chairman.
    General Abizaid, no officer in the United States Army has 
faced a greater challenge than what you have before you today 
and what you have had for the last several months. You have not 
only done it professionally, in a professional way, you have 
done it in a very admirable way. We continue to be very 
impressed with the men and women who serve with you and serve 
under you.
    Let me see if I have this straight in my mind, though, 
General, when we talk about additional troops. I hear you 
saying that we do need additional troops if we are going to be 
able to control the sectarian violence, but that the number of 
troops that we need to add to the current level of force 
structure that we have there should come from the Iraqis rather 
than coming from the United States, and I can appreciate that.
    But if that is correct, if I am hearing you right, we have 
been at this for 4 years now and we were training raw recruits 
and we were training men and I assume some women in the Iraqi 
army who had no military experience. I have been there several 
different times and have seen those troops being trained and I 
have heard General Petraeus and General Dempsey talk about the 
fact that these people had never held a gun, they did not know 
how to shoot a gun. So certainly there has to be a timeframe 
which they have to go through to where they reach the ability 
to be able to fight and defend their country.
    But we have been at it 4 years now. We take kids straight 
out of high school, we train them for 6 months, a year, I am 
not sure what the time period is now, and we send them to Iraq 
and ask them to fight. So what have we got to do to get the 
Iraqi army over that hump, General, to get them to the point to 
where they can take control? Because obviously it has taken us 
a lot longer than what we thought. What do we have to do to get 
them over that military hump for them to start being able to 
defend themselves without us?
    General Abizaid. First of all, Senator, I think that 
sometimes here in the United States we tend to believe that 
every Iraqi unit is not doing their duty. That is not true. 
Most Iraqi units are doing their duty. Most Iraqi units are 
going into the field and fighting for their country. No doubt 
that there are difficulties in some Iraqi units and in the 
national police there are more difficulties.
    But what really needs to be done at this stage in the 
campaign is bring confidence to the army and the police that 
they can count on their government to back them up. You ask 
what the difference is between the United States soldier and 
the Iraqi soldier. The United States soldier swears an oath to 
support and defend the Constitution of the United States 
against all enemies foreign and domestic, and when he or she 
goes into combat they know that they have your support, the 
support of the American people, the support of the President of 
the United States, and that there is not some sectarian militia 
somewhere that will challenge their actions.
    Iraqi soldiers have looked to the sectarian militias, 
especially the Jaysh al-Mahdi, and asked themselves, will they 
be backed up in the event of a showdown and do they have the 
capacity to deal with them with regard to force size, force 
capability, and combat actions? We need to make sure that the 
Iraqi army is the paramount force in the country to defend the 
country, so that people will not turn towards the militia for 
their support.
    But it is a difficult thing to do because, especially on 
the Shiite side, they have long looked to their militias to 
give them protection. We have to change a way of thinking and 
it takes time. It is long, it is hard, it is difficult. But I 
believe that we can do it and we can do it by increasing our 
capacities to make their forces more robust and more capable.
    Senator Chambliss. Your point is well made, that they have 
to have the support of the government. So, Mr. Satterfield, 
that leads me to my basically same question to you. We have 
been at this for over 4 years now. This government has been in 
place, the current government has been in place, almost 12 
months now. What do we as the United States Government have to 
do to get the Maliki Government over the hump to where those 
soldiers do have the confidence that they are going to have the 
force of that government stand behind them the same way that 
our troops have?
    Ambassador Satterfield. Senator, this government has been 
in position just about 6 months exactly. But that is enough 
time for the government to take the lead, and that is what they 
need to do. Our policies need to be focused, as they are now, 
on putting them into the lead, on making clear to them that 
without their decisions, difficult as they are--we fully 
understand the pressures that are brought to bear on this 
government from within and from outside--that without their 
decisions on critical areas to back their forces in a national 
nonsectarian sense, to confront militias in a comprehensive 
manner, Sunni and Shiite, all Shiite militias, and to move 
forward on governance, on reconciliation, without those 
decisions this government cannot succeed, our help cannot be 
enough to make it succeed. The international and regional 
community's assistance, were it to come, would not be enough. 
The government must lead. That is our message.
    Chairman Warner. Thank you very much, Senator.
    Senator Chambliss. Thank you, Mr. Chairman.
    Chairman Warner. Senator Clinton.
    Senator Clinton. Thank you very much.
    I have to say to both of you that I respect the difficult 
task you have coming before this committee and attempting to 
explain the situation in Iraq, which by any metric that I am 
aware of is not improving. In fact, the testimony to follow 
you, which will be in the next panel, particularly by 
Lieutenant General Maples from the Defense Intelligence Agency 
(DIA), very clearly sets out that the DIA assesses the 
conditions for further deterioration and in fact lists how the 
overall attacks have gone up. They are up in October, up on our 
soldiers, up on the ISFs, up on civilians. That the kind of 
benchmarks which Senator Nelson and Senator Chambliss and 
others of us have reported in the past just seem to recede 
further and further on the horizon.
    Hope is not a strategy. Hortatory talk about what the Iraqi 
Government must do is getting old. I have heard over and over 
again, the government must do this, the Iraqi army must do 
that. Nobody disagrees with that. The brutal fact is it is not 
happening.
    With respect to the kind of insurgency that we clearly are 
confronting, which in many ways is perhaps the most complicated 
that I am certainly aware of as you go back and look at other 
counterinsurgencies, we do not have a military force that is 
creating a secure environment and we do not have a government 
that is putting forth political programs and reforms that 
engender confidence in the population to support the government 
rather than seeking security behind militias and other 
nongovernmental forces.
    So from the perspective of those of us sitting on the other 
side of the table and on both sides of the aisle, what I have 
heard today is that from General Abizaid that all options are 
on the table, but the Maliki Government does not want more 
troops. What I have also heard is that withdrawal by our troops 
would create even more disruption and sectarian violence, but 
that a phased redeployment putting conditions that can be 
enforced by actions taken by the American Government, which 
apparently are the only actions we have any control over, would 
not be a good idea.
    So we are really left with very few strategic options than 
the continuation of hope on behalf of the Maliki Government to 
take control of a situation that is deteriorating.
    General Abizaid, one of the ideas that has been proposed by 
a number of different sources is some kind of partition. Now, I 
understand the complexity of that, the difficulty of that. But 
is there any strategic argument to be made in favor of a 
partition that would at least give us territory that along with 
the Kurds, for example, could be controlled? That is the first 
question.
    Ambassador Satterfield, the political decisions that have 
to be made keep getting kicked down the road by the Maliki 
Government. We have had testimony now for 4 years about what 
must be done and it does not get done. I see very little 
indication that there has been a resolution within the Iraqi 
Government that they want the sectarian violence to cease 
because people are still jockeying for positions.
    In such a conflict it is unlikely to get to any political 
resolution until one or all sides decide that the killing 
should stop, that they are not going to get a greater advantage 
from pursuing violence than by pursuing political progress.
    So with respect to partition, with respect to the political 
benchmarks, can you offer us more than the hope that the Iraqi 
Government and the Iraqi army will step up to the task that 
confronts them, and give us perhaps more strategic benchmarks 
or conditions that we can look to and set forth those 
conditions so that we can judge whether there is progress being 
made going forward?
    Ambassador Satterfield. Senator, with respect to partition, 
I would like to be very clear on this. Partition in Iraq could 
only be achieved at an expense of human suffering and bloodshed 
and force dislocation that would be both profound and wholly 
unacceptable, I believe, to the American people. It is wholly 
unacceptable to this administration. The mixed communities of 
Iraq are found throughout the country. There is no easy map 
that can be drawn, no easy political decision that can be 
taken, that would not involve death and suffering to achieve 
partition.
    But more important than my views is that very few in Iraq 
wish to see partition as an outcome. Even the Kurdish 
leadership, who enjoy a federal status within Iraq, do not want 
to see partition. They view that as a threat to their interests 
because of the instability that it would produce on their 
borders. This is simply not an option. It is not a practical 
option, it is not a moral option.
    With respect to your comments, which I respect, on the need 
for some greater degree of certainty, not hope--and I agree 
with you, hope is not a strategy--on moving the political 
process forward, we still believe Prime Minister Maliki is 
capable of effectively being a national leader. We still 
believe there is a sufficient degree of minimal convergence on 
the critical issues of ending sectarian fighting, confronting 
militias, dealing with al Qaeda, to make our continued best 
assistance, best help, warranted.
    If that changes, then of course our basic assessment 
changes with it. But it continues to be our fundamental 
assumption.
    Senator Clinton. General?
    General Abizaid. Senator Clinton, I believe that partition 
is not viable for Iraq. I cannot imagine in particular how a 
Sunni state could survive. I believe it would devolve into an 
area where al Qaeda would have a safe haven, where they would 
export their terror to the surrounding countries. I believe 
that the Shiite state would be decidedly subject to the 
domination of Iran, and that that would not be good for the 
region. It would start to move the region into Sunni-Shiite 
tensions that the region has not seen for a long time.
    With regard to hope not being a method, Senator, I agree 
with you, and I would also say that despair is not a method. 
When I come to Washington I feel despair. When I am in Iraq 
with my commanders, when I talk to our soldiers, when I talk to 
the Iraqi leadership, they are not despairing. They believe 
that they can move the country towards stability with our help, 
and I believe that.
    This has been a very hard and difficult process and over 
the length of time we have learned some hard lessons. We have 
not misled people. We have learned some hard lessons. I believe 
that we can take the Iraqi armed forces, increase our level of 
commitment to them, continue to deliver the type of security 
force that our current troop levels give us, and in the period 
of the next 6 months clearly have a better understanding about 
the possibilities for success.
    But all of us that are involved in this thing believe we 
can be successful. It is not a matter of professional pride. It 
is a matter of seeing that the enemy cannot win. There will be 
some hard things on the horizon. They will have to do something 
in Al Anbar Province. We will have to commit forces to deal 
with the Jaysh al-Mahdi. Each of those things will be battles 
in and of themselves that we can win if we set the right 
political and military conditions, and I sincerely believe we 
can do that.
    Senator Clinton. Thank you.
    Chairman Warner. Thank you very much, Senator.
    Senator Kennedy.
    Senator Kennedy. Thank you.
    Thank you very much, Ambassador, General Abizaid. Again, 
thank you for your service. As our chairman has pointed out, 
American troops have been battling there longer than they 
battled in World War II. They have shown extraordinary courage. 
They have done everything they have been asked to do. I think 
the real challenge is to try to honor their valor, is to get 
the policy correct. That is what you are all attempting here, 
recognizing the history and the current situation.
    General, I must say I was interested in your response about 
the progress that is being made immediately, because those who 
have talked about some phased redeployment immediately get 
accused of having either the words ``cut and run'' or a 
``bloodbath'' associated with their names or with their 
positions on it.
    We have seen the United Nations reports that more than 
6,500 Iraqis were killed in July and August, an increase of 
1,000 over the number killed in the previous 2 months. As 
Senator Clinton pointed out, General Maples this afternoon is 
going to talk about the overall attacks increase. The bottom on 
page 3 of his opening statement he talks about sectarian 
violence, a weak central government, problems in basic services 
are causing more Iraqis to turn to sectarian groups, militias, 
and insurgents for basic needs, imperiling Iraqi unity.
    The total number of Americans that are being killed or the 
casualties: August, 65; September, 71; and October, 106.
    The CENTCOM report on civil conflict on October 18 shows 
the colors here, right on the border of chaos in Iraq. These 
are all your figures or the Pentagon's figures or U.N. figures, 
the Pentagon's own report.
    [The information referred to follows:]
      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    Senator Kennedy. So when we hear talk about some kind of a 
phased redeployment that we are going to have a bloodbath, many 
think there is a bloodbath going on today.
    Let me ask you specifically: There were the series of 
benchmarks which the administration had supported and the 
Maliki Government had indicated that they support. As a matter 
of fact, the Maliki Government indicated in their joint press 
release the Iraqi Government--this is the joint statement of 
Maliki and the U.S. Ambassador--the Iraqi Government has made 
clear the issues that must be resolved, with timelines, to take 
the positive steps for the Iraqi people. That is, sharing the 
wealth, disbanding the militias, continuing on, which you have 
outlined here.
    Why is it all right for the administration to say, we will 
take a timeline with regards to what you have to do here, we 
will take a timeline on that, and then be so critical of others 
who say we also need to have a timeline in terms of the phased 
redeployment of American troops? Can you tell me that?
    Then maybe you could make a comment about what happened 
yesterday in a major city, where a series of automobiles go on 
down and into the education department, take out hundreds of 
different students, teachers, and then bring them back through 
the checkpoints. Now, how, when we are talking about the 
progress that is being made, let alone the difficulty of the 
American Forces of trying to stop violence against Sunnis and 
men being labeled sympathetic to the Shiites, or if they do not 
stop it to being labeled sympathetic to the Shiites, the Sunnis 
on the one hand or the Shiites on the other. What is really the 
basis of, in terms of all of these reports and the actions that 
have been taken, evidently timelines for the Maliki Government 
to take--why is it all right for them to take timelines for 
progress in this if you are not to say that these timelines are 
going to be enforced, or are they going to be enforced, and 
when they meet these timelines we are going to be able to have 
the kind of phased redeployment of American troops?
    General Abizaid. Do you want to take the timeline?
    Ambassador Satterfield. Senator, our comments here do not 
reflect a necessary advocacy for or rejection of increases, 
decreases, timelines, or transition times. That is part of an 
overall strategy towards Iraq. It is a strategy that we are 
reviewing now. What we are saying is to review military force 
levels, force dispositions in isolation from other aspects that 
affect that strategic goal of stability, self-sufficiency in 
Iraq, is mistaken.
    There needs to be a very careful look at how one addresses 
the military component, the political component inside and 
outside Iraq, to get more progress, because progress right now 
is not satisfactory, not at all, towards success. We do not 
want military levels or dispositions viewed in isolation, and 
to take a step in isolation would not I think have a positive 
impact on any of our goals or any of our interests in Iraq.
    General Abizaid. As far as the incident yesterday, we have 
certainly tried to understand what happened there. People 
arrived in the education ministry area dressed in ISF uniforms, 
police uniforms, I believe. They said that they were there for 
an official purpose. They started to arrest people. I believe 
they took 70 out. Of course, that is of great concern, that 
people would impersonate national security personnel and kidnap 
people. This has been a problem that we have had now for 
several months.
    On the other hand, I would tell you that the reaction of 
the ISFs under the direction of the prime minister, the 
interior minister, and the defense minister was decisive, that 
people were released, that other people that participated in 
the crime were arrested, and that some of the key police 
commanders were dismissed. So again, what happened is not a 
good thing. The fact that the government responded in an 
appropriate manner I think is encouraging.
    Senator Kennedy. Just before my time expires, General, is 
this the area that American troops had been withdrawn from as a 
result of the request of Sadr? Are these checkpoints that were 
in the general area of where the school was?
    General Abizaid. No, no, Senator.
    Ambassador Satterfield. Not at all.
    Senator Kennedy. Were there any American troops in that 
region, in that immediate area?
    General Abizaid. There are American troops in the Karada 
area, but it is a big city. I cannot say that American troops 
were in the vicinity when that happened. If they were in the 
vicinity and people came in and they appeared to be legitimate 
ISFs, we may have asked the question, but it is hard to say 
what we would have been able to do.
    Chairman Warner. Thank you very much, Senator.
    Senator Talent, and to be followed by Senator Akaka and 
then Senator Bayh and then the hearing will be concluded.
    Senator Talent. Thank you, Mr. Chairman. I will be brief.
    I wanted to go into the question of embeds with General 
Abizaid and I know it has come up in the hearings. Are we 
embedding at platoon and company levels? If not, do you have 
plans along those lines? It seems to me that this is where they 
may be the most effective. How soon can we get them into the 
Iraqi army at those levels?
    General Abizaid. The embedding teams that we have in the 
battalion level I think is about 10 to 15 personnel each, and 
the idea is to increase the size of those forces. Again, I 
cannot tell you exactly how it would be done because the staffs 
are working on that. But the idea is to get down as far as we 
can.
    I would not want to say what the size of units that might 
be that would go, or embeds might be, that go into the company 
and the platoon level. But clearly we need to have more ability 
to help with much more robust teams, and I think making the 
teams at the battalion level bigger will certainly be able to 
get down into the company level at least.
    Senator Talent. So there are plans definitely as you 
increase the size or the number of embeds at battalion level to 
reach down into the company levels?
    General Abizaid. In some areas, especially in the Marine 
Corps areas, they are working at the company level, through the 
battalion level, as I understand it.
    Senator Talent. I just think this is a battle of, in a 
sense, noncommissioned officers, and the lower we can get them 
into the Iraqi force structure the more effective they are 
quite likely to be. Do you agree with that in general?
    General Abizaid. I agree with that absolutely, as do our 
commanders in the field.
    Senator Talent. Thank you, Mr. Chairman.
    Chairman Warner. Thank you, Senator Talent.
    Senator Akaka.
    Senator Akaka. Thank you very much, Mr. Chairman.
    General and Ambassador, thank you for being here. General, 
I want to express my pride in our Armed Forces and what they 
are doing in Iraq and other places in the world as well. We 
have just completed last weekend ceremonies and memorials for 
our veterans as well as for those who are in active service in 
our country, and I am very proud of our leadership and what 
they are doing.
    There are some things that have been mentioned here by you, 
that we put the pressure on the Iraqi people to govern 
themselves. Let me ask, Mr. Ambassador, General Abizaid 
testified that we need to get Iraqi troops to do more and 
instead of putting in more of our U.S. troops, and by doing 
that we would encourage the Iraqi troops as well as their 
government to stand up to what they are facing there.
    We have been talking about the military. Ambassador, I am 
looking at the civilian side of this. Should we be cutting back 
on our aid and assistance programs there? As was mentioned, 
there are several tracks there. Besides security and political, 
there is also economic. My question also includes what are we 
doing there now in these other than military areas? Rather than 
U.S. officials, U.S. contractors, and U.S. money doing the work 
of the Iraqi Government, should we not stand down and have them 
stand up to it?
    How do we get the Iraqi Government to do their job? That is 
my question. Let me just say, for example, Senator Sessions 
described a catch-and-release justice system that has become a 
swinging door for death squads. So my question to you is how do 
we get the Iraqi Government to do their job?
    Ambassador Satterfield. Senator, your questions on the 
economic side are very well-taken, and the whole thrust of our 
policy in terms of how our money is spent, what we are doing 
with our projects over the past 17 months, has been precisely 
to put Iraqis in the lead and to shift away from U.S. 
contractors to Iraqi contractors, something we have done at a 
very dramatic pace.
    It is to build capacity, not buildings, in Iraq. It is to 
give the Iraqis the tools that they will need to lead 
themselves in terms of economic development and delivery of 
essential services. This is exactly the line on which we will 
continue.
    As we look at capacity development, we do assess what you 
raise and what the General has raised on the military side: Are 
you fostering a culture of dependency or are you building self-
sufficiency? We try to tailor our programs and constantly 
readjust what we are doing to avoid dependency and to build the 
capacity and self-sufficiency on the part of the Iraqis, 
because they must assume the lead in terms of caring for their 
own people and addressing their own national lead.
    On your general question, how do we get the government to 
lead, it is a combination of putting them in the lead, if you 
will, taking off the wheels, letting them make decisions. When 
Prime Minister Maliki asserts a desire to have greater lead, 
when he takes decisions, as he did with respect to the 
checkpoints around Sadr City, that is positive because he is 
taking decisions and the responsibility for those decisions. 
Will all of them be decisions we would have taken? No, that is 
not the case. We will disagree with some of them.
    But as long as they move broadly in the direction of 
national unity, of confronting violence, of prosecuting the war 
on terror, those are decisions which Iraqis should take and we 
should encourage them to continue to make. That is a positive 
development.
    It is how we work with Iraqi leaders to allow them to take 
the lead in a constructive sense that we are both about here 
and our own strategy has to be focused on in the time ahead.
    Senator Akaka. General Abizaid, I have been concerned about 
the people, about the Shiites and the Sunnis who believe that 
we are not providing adequate security. My question to you is 
what steps are we taking to ensure the Iraqi people feel that 
they are receiving fair and impartial treatment? How are we 
going to curb sectarian violence if the Sunnis and Shiites do 
not believe we are working adequately to address this matter?
    General Abizaid. Senator, I believe the key to success in 
Iraq is to make a nonsectarian armed forces that is loyal to 
the central government, that is effective on the battlefield, 
and that supplants the militias. That is the key to moving Iraq 
forward. A government of national unity plus an armed forces 
that respects the rights of its people and represents all of 
its people will stabilize Iraq.
    Chairman Warner. Thank you very much.
    General Abizaid. I believe they can do that with our help.
    Chairman Warner. Thank you very much, Senator.
    Senator Bayh.
    Senator Bayh. Gentlemen, thank you for your presence today 
and thank you for your service to our country. There are strong 
differences of opinion about what to do with Iraq, but no one 
questions your sincerity or your service to the country. I just 
want to say that up front.
    General, my first question is for you. You mentioned that 
you agree with something that the President has said from time 
to time, that Iraq is the central front in the war on terror. 
You referenced something that he also says from time to time, 
that our adversaries say that it is the central front in the 
war on terror, therefore it must be so.
    Is it not possible that our adversaries define it as the 
central front in the war on terror because that serves their 
interests, not ours? Is it not possible that al Qaeda defines 
it as the central front because they know our expenditure of 
resources there detracts from our ability to stabilize 
Afghanistan and that the Iranians know we cannot serve as a 
robust enough deterrent to them as long as we are in presence 
the way we are in Iraq?
    So my question, General, and I must say I am a little 
troubled by the fact that we let our adversaries define what is 
in the national security interest of the United States, is that 
not a dangerous place to be?
    General Abizaid. Senator, when you look at the broader 
fight, the fight against al Qaeda, which is not just a fight in 
the CENTCOM AORs, it is a fight that is global, but where you 
see where the most military activity takes place, where the 
most suicide bombers are fielded, where the most al Qaeda 
troops are fighting, it is clearly inside Iraq where the most 
foreign fighters flow to. It is inside Iraq. So in the fight 
against al Qaeda, our number one battlefield is inside Iraq.
    Senator Bayh. But my question is why are we letting them 
define the battlefield for us? Might it not be in their 
interest to have us there, but not in ours?
    General Abizaid. The enemy, al Qaeda will fight us wherever 
we are. If we are in Iraq they will fight us in Iraq. If we are 
in Afghanistan they will fight us in Afghanistan. If we are in 
the United States they will fight us in the United States. That 
is what they intend to do, and our intention is to keep them 
from fighting us in the United States.
    Senator Bayh. My second question, gentlemen, and it is for 
both of you, but General, I will start with you again. I think, 
General, you indicated you are optimistic about our ability to 
stabilize Iraq, and I think you had, Ambassador, some faith 
that we could accomplish that objective. Let me ask you both, 
and it was following some of your answers: What would it take--
what would shake your faith and optimism? What would make you 
pessimistic about our chances?
    General Abizaid. Certainly what would make me very 
pessimistic is if the Government of Iraq fails to disarm the 
illegal militias. That would be my number one concern.
    Senator Bayh. Let me follow up on that, General. The last 
time you were before the committee you indicated, and I think 
you indicated again today, that what is driving the insurgency 
are unresolved political disputes among Iraqis in large part. 
We have some outsiders to be sure, but that really it is for 
Iraqis to get a hold of this situation.
    We just had an election in our country in which the 
American people expressed less than total confidence in the 
effectiveness of our own Government. We look at the functioning 
of the Government in Iraq and I have to tell you that too often 
they appear to be operating as members of their tribe or their 
sect or their ethnic group first, rather than as Iraqis first.
    They say the right things, but when the going gets tough 
and they have to make the hard decisions, they retreat into 
their corner and they are just not able to find that common 
ground. I find that troubling. Why should we have confidence in 
their ability to reconcile those differences in the face of 
their behavior?
    Ambassador Satterfield. Senator, you pose a very good 
question, and there are key indicators on the negative. The 
abandonment of any efforts to construct a national dialogue, 
the pursuit of exclusively sectarian agenda by Shiite and by 
Sunnis, the rejection of our assistance and our presence as no 
longer relevant to those sectarian agendas or contradictory to 
those sectarian agendas, all of which would be marked by a 
continued rise in militia presence, a continued rise in 
sectarian violence and force displacement, that would indicate 
that indeed hope for success had largely vanished.
    But we do not see ourselves at that point. More 
importantly, we do not see Iraqi leaders at that point today. 
But the critical challenge we all face, the Iraqis who are 
committed to a moderate outcome and us, is that the space that 
still exists, the political space for convergence, for 
reconciliation, be acted upon before it vanishes.
    Senator Bayh. My final question, gentlemen, would be simply 
this. We all want them to succeed. We all want them to be able 
to stabilize their country, with the assistance that we have 
provided them. Too often they seem unable or unwilling to do 
that. So my question to both of you, and my time has expired, 
is: Is there anything else we can do to move them in the 
direction of making the hard decisions that only they can make?
    Ambassador Satterfield. Senator, the President has asked 
for a review by all national security agencies of exactly what 
the challenges are, how best using our resources and assets, 
current or potential, in Iraq, outside Iraq, how the region 
factors in, how we can best move forward toward success. It is 
exactly the question you pose, how best can we get the kind of 
progress in the areas where progress is needed now in Iraq, and 
on a timeline that is relevant and meaningful to what is 
happening in that country.
    Senator Bayh. My final observation, it is a question that 
is just hanging in the air. With all of our assistance, all of 
our blood and treasure and sacrifice there, at some point we 
have to ask ourselves the question: do they have it in them to 
forge one country in a common destiny or is that beyond their 
capabilities?
    General Abizaid. Let me answer that. I have been dealing 
with the Iraqis for a long time. Yes, they have it in them. 
They can forge one country. They are fighting and dying for 
their country. They can overcome these problems. But it is not 
an easy thing to do, just like it was not an easy thing for us 
to forge our own destiny after the revolution. We had a lot of 
fighting and a lot of difficult times ahead of us after that 
period.
    Iraq is a young country. It is a country that is different 
from any other country in the Middle East and it is a country 
that can make a difference in the Middle East. I believe that 
we must stick with them until such time that they show us that 
they cannot do it.
    As far as those of us that have been fighting--and I do not 
include myself; I include the commanders and troops in the 
field--those among us who fight bet on the Iraqis, and as long 
as they are confident, I am confident.
    Chairman Warner. Thank you very much, Senator.
    Senator Bayh. Thank you for service, gentlemen.
    Chairman Warner. Thank you, General Abizaid, for that 
concluding comment. I think that summarizes very well your own 
professional and personal feelings, and you have devoted much 
of your life to hoping that this conflict can be resolved along 
the lines that you so stated.
    Thank you again for excellent testimony. Ambassador 
Satterfield, this was your first appearance before this 
committee. I believe your reputation as a man who will testify 
straight and to the point and precise will be known by many 
committees and you will be inundated with invitations. You have 
done a wonderful job. Thank you very much.
    Ambassador Satterfield. Thank you.
    Senator Bayh. To his great misfortune, Mr. Chairman. 
[Laughter.]
    Chairman Warner. Yes.
    General Abizaid. Mr. Chairman, may I just say one word?
    Chairman Warner. Yes.
    General Abizaid. Thank you, sir. I know you are stepping 
down as the chairman. Those of us that have served with you, 
God bless you for your service to the Nation. Thank you, sir.
    Chairman Warner. I thank you very much, General. We are 
adjourned.
    [Questions for the record with answers supplied follow:]
               Questions Submitted by Senator John McCain
                          troop levels in iraq
    1. Senator McCain. General Abizaid and Ambassador Satterfield, in a 
November 15, 2006, New York Times article, General Anthony C. Zinni, 
USMC (Ret.), former head of U.S. Central Command, argued that any 
substantial reduction of American forces in Iraq over the next several 
months would be more likely to accelerate the slide to civil war than 
stop it. Speaking of Iraqi Prime Minister Maliki, General Zinni said, 
``You can't put pressure on a wounded guy. There is a premise that the 
Iraqis are not doing enough now, that there is a capability that they 
have not employed or used. I am not so sure they are capable of 
stopping sectarian violence.''
    Instead of taking troops out, General Zinni said it would make more 
sense to consider deploying additional American forces over the next 6 
months to ``regain momentum'' as part of a broader effort to stabilize 
Iraq that would create more jobs, foster political reconciliation, and 
develop more effective Iraqi security forces (ISFs).
    Do you agree that a substantial reduction of American forces over 
the next several months would be ineffective in pressuring the Iraqi 
Government to ``do more'' and may even be counterproductive? Please 
explain.
    General Abizaid. I agree that a substantial reduction of American 
forces would be ineffective in pressuring the Iraqi Government to do 
more and would be counterproductive. The current troop levels are 
needed for controlling the sectarian violence and applying the 
resources required to accelerate ISF capacity and capability for taking 
the lead in security operations. ISFs are continuing to make 
significant improvement, but more training, equipping, and reforming 
parts of those forces are still required. Iraqi leaders are actively 
seeking more control, and as conditions are met, we are transferring 
more security responsibilities to them. In time, the Iraqis loyal to 
the national government will demonstrate the ability to conduct 
independent operations. However, more security responsibility for ISFs 
will only work if there is commitment to use of these forces as 
instruments for national unity.
    Ambassador Satterfield. The Department of State (DOS) defers to the 
Department of Defense (DOD) on troop levels. At the same time, the 
President laid out a revised military approach when he addressed the 
Nation on January 10 and announced his new strategy, `The New War 
Forward,' in Iraq. U.S. force strength adjustments continue to be made 
in support of ISFs with the aim of assisting the Iraqi people in 
gaining control of the security situation. However, a change in 
military force strength will not reduce violence by itself. 
Stabilization of Iraq also requires political and economic solution 
that includes action by Iraq's political, religious, business, and 
civic leaders. We will continue to work closely with and support Prime 
Minister Maliki and the Iraqi Government particularly to foster 
political reconciliation.

    2. Senator McCain. General Abizaid and Ambassador Satterfield, do 
you agree that we should deploy additional forces as one component of a 
broader effort to stabilize Iraq? Please explain.
    General Abizaid. I have stated that all options are on the table 
subject to conditions and requirements that may develop. We will do 
whatever is required to stabilize the situation in Iraq, but 
temporarily surging American forces to decrease sectarian violence will 
not provide a sustainable effect by itself, and may have a longer range 
negative impact if conducted unilaterally rather than as part of an 
overall, integrated effort that includes economic and governance 
enhancements. Based on discussions with my commanders in Iraq, 
additional American forces, by themselves, would increase Iraqi 
dependence, shift the focus away from transitioning security 
responsibility, and fail to solve the broader issues of extremism which 
actually fuels the violence. A sustained increase in force levels is 
required for stabilization in Iraq; but these increases must ultimately 
come in the form of ISFs that can defeat the insurgency and deal with 
sectarian violence, and must also be matched with efforts from 
nonkinetic means of support as well. Additional troops, if sent, should 
reinforce success of the Iraqi army by providing operational training 
and mentorship through the employment of transition teams. A strong, 
nonsectarian Iraqi army will provide the foundation for success by 
ultimately defeating the insurgency and extremists, stabilizing the 
country, and allowing the Iraqi Government to embrace meaningful 
national reconciliation.
    Ambassador Satterfield. Military efforts, while a critical part of 
the solution, will not by themselves reduce violence. Stabilization of 
Iraq also requires a political and economic solutions that include 
Iraqi political, religious, business, and civic leaders. U.S. force 
strength adjustments and employment decisions continue to be made in 
support of ISFs to ultimately assist the Iraqi people in gaining 
control of the security situation. The President laid out a revised 
military approach when he addressed the Nation on January 10 and 
announced his new strategy, `The New War Forward,' in Iraq. The DOS 
defers to the DOD on troop levels.

    3. Senator McCain. General Abizaid and Ambassador Satterfield, 
there are many who believe that we face a number of tasks in Iraq: to 
clear insurgent sanctuaries and hold the territory with a combination 
of coalition and Iraqi forces; to provide sufficient security in Iraq 
so that economic reconstruction and political activity can take place; 
to arrest the momentum of sectarian death squads; to disarm militias; 
to train the Iraqi army and keep an American presence in Iraqi units; 
and to place U.S. personnel in Iraqi police units. Do you agree that we 
need to do these things? Please explain. Do you believe that we have, 
today, sufficient force levels in order to accomplish all these tasks? 
Please explain.
    General Abizaid. These tasks certainly need to be accomplished in 
Iraq, but not necessarily completed exclusively by the United States or 
our coalition partners. For example, a key task for the Iraqi 
leadership and their security forces is taking on the militias and 
death squads. In the last 3 or 4 months the Prime Minister, and his 
ministers, in particular the Minister of Defense and the new Minister 
of Interior, have shown a desire to move against the militias, death 
squads, and extremists that foment sectarian violence. They know 
dealing with illegal armed groups is largely their task, and that 
sectarian violence can be fatal to Iraq if it's not checked. 
Stabilizing Iraq will continue to require Iraqi sacrifice, courage, and 
responsibility, along with the support of the United States and our 
allies. As I have stated, this very well may require more troops, but 
they must ultimately be ISFs to have a lasting impact.
    We now have trained and equipped over 325,000 Iraqi soldiers and 
police; and at the Prime Minister's request we are adding an additional 
37,000 personnel so as to ultimately exceed 362,000 members in the 
ISFs. The increasing number of personnel is critical to the Government 
of Iraq's plan for self security. In addition, the quality of their 
forces is also constantly improving. Over recent weeks, we have 
witnessed substantial improvement in ISF responsiveness, command and 
control, and ability to address unlawful activity. Still, the 
government must get behind its army and give it confidence that it can 
operate independently of a sectarian agenda. Again, all options remain 
on the table. Sending more American troops into Iraq to help stabilize 
the situation and to embed transition teams in Iraqi units to help 
build organizational capacity is a possibility. In doing so, we would 
accept the risk of delaying full transition to Iraqi security control 
at a point in the campaign where Iraqis increasingly in the lead is 
both desired and necessary.
    Ambassador Satterfield. The DOS defers to the DOD on troop levels. 
However, all of the actions mentioned above constitute elements of U.S. 
strategy and tactics in Iraq. An oft overlooked issue with regards to 
troops in Iraq is how to calibrate all elements of national power and 
resources over time to enact the various political, economic, and 
security related tasks.
    Each track is inextricably linked to the other. While all move 
forward together, a failure or setback in any one area could hinder 
progress in the others. This is why the President announced an increase 
of not only troops, but also civilian Provincial Reconstruction Teams 
(PRTs) in his ``new way forward.''

                        troop withdrawal in iraq
    4. Senator McCain. General Abizaid and Ambassador Satterfield, some 
members of the Senate have proposed what they refer to not as a 
withdrawal of American forces from Iraq, but rather what they call a 
``redeployment'' or an ``over-the-horizon force'' that would, in their 
minds, continue to exert military influence on Iraq after withdrawal 
from much of the country. The idea seems to be that U.S. forces would 
remain on bases in Iraqi Kurdistan, Kuwait, or elsewhere in the region 
and support the Iraqis with ``rapid reaction forces.'' I'd like to ask 
several questions about the wisdom of such a proposal.
    How could we supply a huge forward operating base in the Kurdish 
region if we abandon all of Iraq to the south? Would the Turks be 
likely to allow us to supply it from their territory or would we be 
forced to fly in all required supplies?
    General Abizaid. [Deleted.]
    Ambassador Satterfield. DOS defers to the DOD.

    5. Senator McCain. General Abizaid and Ambassador Satterfield, if a 
quick reaction force is based in Kuwait, how would the forces get to 
Iraq when needed--after all, it is a several days drive by military 
convoy from Kuwait to Baghdad. Would progress not be arrested by 
improvised explosive devices (IED) and a lack of any ground-level 
intelligence from U.S. forces? Please explain.
    General Abizaid. [Deleted.]
    Ambassador Satterfield. DOS defers to the DOD.

    6. Senator McCain. General Abizaid and Ambassador Satterfield, if a 
force based in Kuwait or Kurdistan instead flies to engage in combat in 
Iraq, would it not need to secure an airstrip, establish an interim 
base, transport fuel and supplies, and so on? If that is the case, how 
quickly would such a force in fact be able to deploy? Would it ever be 
relevant for tactical emergencies? Even for higher level emergencies, 
would it be at all feasible to move in large quantities of heavy 
equipment by air?
    General Abizaid. Iraq does not play a role in the U.S. Integrated 
Global Defense Posture and there is no requirement for enduring bases 
in Iraq, to include the Kurdistan region, after the Operation Iraqi 
Freedom (OIF) mission is completed. Any post-OIF presence in Iraq would 
be the subject of bilateral/multilateral agreements between the U.S. 
Government, or any other nation's government, and the Government of 
Iraq.
    Reliance upon forces based in Kuwait or only a few locations in 
Iraq such as Kurdistan would occur when coalition forces have 
transitioned to strategic overwatch. At that point the Government of 
Iraq would be responsible for sustaining its defense forces, 
maintaining domestic order, and reacting to tactical emergencies. 
Coalition forces would be postured to support Iraq in response to 
threats of a strategic nature, where strategic warning would be 
provided. Prior to shifting to a posture of strategic overwatch, 
coalition forces would establish agreements with the Government of Iraq 
regarding the use of specific facilities in Iraq in order to facilitate 
rapid response to support operations. Should there be a requirement to 
deploy by air coalition forces would conceivably utilize secure 
facilities maintained by ISFs.
    Ambassador Satterfield. DOS defers to the DOD.
                                 ______
                                 
              Question Submitted by Senator Jeff Sessions
                           military supplies
    7. Senator Sessions. General Abizaid, I have recently been informed 
that soldiers serving in the 272 MP Company, currently stationed at 
Forward Operations Base Whasi Quwa, Afghanistan, are operating on 
minimal rations with some receiving only one meal per day. What is the 
current ration cycle for these troops? Is there a supply problem in 
Afghanistan or Iraq? Are we limiting rations, water, or other supplies 
to our soldiers in theater?
    General Abizaid. [Deleted.]
                                 ______
                                 
               Question Submitted by Senator John Ensign
                              counterdrug
    8. Senator Ensign. General Abizaid and Ambassador Satterfield, 
given the many problems in Afghanistan associated with the cultivation 
of poppies there, would it be worth instituting a program similar to 
what the United States did in Turkey in the 1980s whereby we purchased 
the poppies to keep them off the open market? Please elaborate on the 
pros and cons of undertaking such a program for Afghanistan.
    General Abizaid. The DOD role in counternarcotics is to support the 
DOS and lead Federal drug law enforcement agencies in the execution of 
the U.S. Government's international counterdrug program. The Office of 
the National Drug Control Policy determines U.S. policy on drug control 
programs based on the President's guidance. If U.S. policy for the 
counterdrugs/counternarcotics effort in Afghanistan changes to include 
licit uses for the Afghan poppy crop, the DOS and DOD will coordinate 
on the appropriate role of the DOD based on current legal authorities.
    Afghanistan today in no way resembles Turkey in the 1980s. For 
example, there are concerns with the Government of Afghanistan being 
able to extend its influence very far from Kabul. A strong central 
government is an absolute necessity to provide the type of security 
required to license and monitor licit opiate suppliers. Absent this 
level of security, opium will end up in the hands of traffickers. 
Additionally, legalizing some cultivation would undermine the use of 
moral and religious persuasion to deter growing. Legalizing any amount 
of the opium market in Afghanistan would send the message that there is 
something legitimate to growing poppy. This is absolutely contrary to 
the message that President Karzai is sending to the Afghan people. 
Finally, the world demand for licit opiates represents approximately 5 
percent of the poppy growth in Afghanistan. Distinguishing between the 
licit and the illicit crop would be very difficult, if not impossible. 
By example, both Peru and Bolivia have unsuccessfully dealt with the 
problem of licit versus illicit coca cultivation for years.
    Ambassador Satterfield. Proposals to legalize and license the 
cultivation and production of opium poppy in Afghanistan or to buyout 
the crop do not present any advantages. Such suggestions are infeasible 
and counterproductive.
    In 1981, the U.S. Government issued a final rule specifying the 
source of narcotic raw materials (it is commonly referred to as the 
``80/20 rule''). The rule states that Turkey and India must be the 
source of at least 80 percent of our narcotic raw materials (used for 
medical and scientific purposes), and that 20 percent could come from 
other suppliers. This rule was established based on traditional import 
amounts and on a U.N. resolution which called on member states to 
support traditional sources that have been reliable suppliers and have 
taken effective measures to curtail diversion. To participate in the 
licit opiate market, countries must meet strict requirements to ensure 
that their licit opium industries are tightly controlled and regulated 
to prevent slippage onto the black market (the International Narcotics 
Control Board (INCB) monitors these programs).
    Proponents of similar programs in Afghanistan argue that different 
schemes to legalize and license the cultivation and production of opium 
poppy would reduce the amount of opiates entering the illicit market 
and create a legal economy for impoverished Afghan farmers. A European 
nongovernmental organization (NGO), the Senlis Council, has also touted 
the legalization and licensing as a means to meet increased demand for 
opium-based pain medications in the third world. Similarly, some have 
suggested that the Government of Afghanistan and the international 
community should simply buyout the Afghan opium poppy crop. These 
suggestions are not viable and although they have been discussed by the 
U.S. Government, the Government of Afghanistan, and the international 
community, they have been rejected and would prove detrimental to our 
efforts to control poppy cultivation.
    Proposed programs to license the cultivation and production of 
opium poppy in Afghanistan for medicinal purposes are infeasible. As 
mentioned earlier, proponents argue that legalizing opium in 
Afghanistan could help meet increased demand for pain medications in 
the third world (which are needed to address the increased need of 
people suffering from HIV/AIDS and cancer). However, the INCB--whose 
job it is to maintain the balance between the supply and demand for 
narcotic raw materials--believes that world demand is currently 
satiated.
    If Afghanistan's huge supply of opium were to be introduced into 
the licit market, prices would crash making the already more profitable 
black market even more attractive to Afghan farmers. The only practical 
effect would be that opium ultimately destined for the black market 
would have the veneer of legality, making our efforts to control 
cultivation and production that much more difficult.
    Shortages in the third world and developing countries are 
unfortunate, but the issue is not supply. It is a lack of proper 
economies and systems of distribution. Increasing the supply of one 
drug without addressing the overarching distribution, licensing, and 
financial impediments to availability will not solve the larger 
problem, which is not created by a shortage of opiate raw materials. 
Furthermore, we believe current world stockpiles of raw materials could 
meet the increased need if it weren't for the aforementioned 
impediments.
    In addition, Afghanistan does not have the means to ensure that 
production under a licensing system would not be diverted onto the 
black market. Afghanistan would have to have the necessary structures 
in place to license opium farmers, plan crop size, monitor growth, 
prevent diversion, and control harvesting. They do not have the ability 
to do so because of financial, security, and other impediments such as 
a lack of infrastructure. Given that Afghanistan's inability to extend 
the rule of law in poppy growing regions has resulted in an explosion 
of the current crop, it is unlikely that a licit opiate industry which 
relies on legal controls could work. Even in India (the only major 
licit opium producer to manually harvest opium gum from poppy--the 
method Afghan farmers use), where the level of development is higher 
and opium cultivation is tightly controlled and monitored, it is 
estimated that between 20 to 30 percent of the crop is diverted to the 
illegal production of dangerous drugs.
    The latter suggestion to simply buyout the opium poppy crop is 
flawed for several reasons. First, if we ensure a market for opium 
poppy, more Afghans will grow in order to take advantage of a 
guaranteed source of income, creating a surge in planting. Only 12 
percent of Afghanistan's population is currently engaged in poppy 
cultivation and this suggestion would increase the number of Afghans 
growing poppy and participating in the drug trade. Second, such a 
program would prove prohibitively expensive. The crop is currently 
worth $755 million to Afghan farmers per year (more than $2.8 billion 
total). By way of comparison, Afghan trust fund commitments are only 
$80 million after 2 years. We do not see a commitment by the 
international community to expend the funds, or permit the more robust 
eradication measures needed to make a buyout program a realistic or 
sustainable option to limit opium production.
    There are no shortcuts to fighting opium production in Afghanistan. 
Both economics and the practicality of such systems in Afghanistan 
argue against proposals to license or buyout Afghanistan's opium poppy 
crop. Based on many years of experience in other nations and an 
appreciation for Afghanistan's historical and cultural context, the 
U.S. Government supports a mix of deterrence, prevention, and 
alternatives in order to bring this problem under control and allow 
rule of law to flourish. The Government of Afghanistan itself strongly 
opposes the legalization of opium poppy as does the INCB and U.S. 
Government.
                                 ______
                                 
              Question Submitted by Senator Lindsey Graham
                              troop levels
    9. Senator Graham. General Abizaid, in your testimony before the 
Senate Armed Services Committee you indicated that we could not 
increase troop levels in a meaningful way in Iraq and be able to 
sustain that force for any length of time given the size of our own 
forces. Please quantify with specifics the increase we would we need in 
the Army and Marine Corps in order to increase U.S. military forces in 
the Iraq theater and be able to sustain that force (assuming rotations 
continue on the current timetable).
    General Abizaid. If the commanders in the field believe that they 
need more troops, then they will recommend both the size and type of 
force necessary. If such an increase exceeds the existing force 
structure, then it is the Services' responsibility in their role as 
force providers to determine what, if any, force structure increases 
are required.
                                 ______
                                 
            Questions Submitted by Senator Edward M. Kennedy
                     nongovernmental organizations
    10. Senator Kennedy. Ambassador Satterfield, American NGOs are on 
the front lines in Iraq promoting and supporting democracy, and they 
deserve full support of this country. Despite their significant 
contribution and the enormous risks their employees take by working in 
Iraq, the administration has made no long-term commitment to provide 
funding for their work in Iraq. Is there a plan to fund these 
organizations in the long-term? Don't they deserve a commitment from 
our Government that is matched by adequate resources?
    Ambassador Satterfield. Building democracy in Iraq, the Middle 
East, and the world at large has been one of the main goals of this 
administration. The Department has funded a wide range of democracy 
programs, and we recognize the significant contributions and enormous 
risks these groups and their employees take by working in Iraq. In 
particular, however, program costs in Iraq, including program costs for 
democracy building, have changed overtime, especially as the need for 
security has changed. This has caused a number of companies and 
organizations, both for-profit and not-for-profit, to reallocate funds 
for security expenses, reducing the amount they have been able to spend 
on other parts of their programs. The Department will continue to work 
with the organizations involved in promoting democracy, and our other 
contractors and grantees, to ensure that essential U.S. Government 
policy objectives are met.

                             iraqi refugees
    11. Senator Kennedy. Ambassador Satterfield, the war in Iraq has 
created hundreds of thousands of refugees who, virtually unknown to the 
rest of the world, are seeking sanctuary in Syria, Iran, Lebanon, 
Jordan, and other neighboring countries. More than 3 million Iraqis are 
refugees in neighboring countries or are internally displaced. One 
thousand are being forcibly displaced each day and an estimated 40,000 
are leaving Iraq each month and hundreds of thousands of others are 
teetering on the edge of displacement. It is likely that neighboring 
governments such as Jordan and Syria will increasingly restrict Iraqi 
refugees' ability to enter, stay, and gain access to social services.
    Iraqis are being forced to leave their communities because of 
threats, assassinations, kidnappings, armed conflict, forced 
displacement, and generalized violence driven by sectarian agendas. 
Countless other Iraqis fear persecution because of their political 
views, ethnic affiliation, or affiliation with the United States.
    The President's report to Congress on proposed refugee admissions 
for fiscal year 2007 indicates that the U.S. program is once again open 
to receiving new referrals of vulnerable Iraqi cases from the United 
Nations Higher Commissioner for Refugees. The President's proposed 
regional ceiling for refugees from the Near East and South Asia 
(primarily vulnerable Iraqis, Afghans, and Iranian religious and ethnic 
minorities) is 5,500. In fiscal year 2006, the United States admitted 
only 202 Iraqi refugees for resettlement.
    I believe the United States has a duty to assist Iraqi refugees who 
can't return home, particularly the ones who are facing persecution 
because of their affiliation with the United States. What efforts has 
the administration made to convince Jordan, Syria, and other countries 
to keep their borders open to Iraqi refugees?
    Ambassador Satterfield. The United States is very concerned about 
the situation facing Iraqi refugees and we are working to ensure that 
their assistance and protection needs are addressed appropriately. We 
recognize how very important it is for neighboring countries to keep 
their borders open to Iraqi refugees, and we believe the best way to 
ensure this is by providing humanitarian assistance through our 
international partners to Iraqis both inside and outside Iraq. The 
United States is assisting Iraqis who, at present, are unable to 
voluntarily return to Iraq. We fund United Nations High Commissioner 
for Refugees (UNHCR) and NGO programs for the most vulnerable Iraqis in 
Jordan, Syria, and Lebanon and because needs are increasing, we hope to 
expand these programs in 2007 if we receive additional funding. We have 
accepted 466 vulnerable Iraqi refugees into the U.S. resettlement 
program since fiscal year 2004 and are expanding our capability. These 
protection and assistance programs are designed to serve all Iraqis 
facing a well-founded fear of persecution. Refugees who have worked 
with the United States will have equal access to protection and 
assistance in the region. We are working to obtain significantly 
greater access for those who face persecution because of their work for 
us to the U.S. resettlement program and to immigration into the United 
States.
    Both Jordan and Syria have been generous hosts of Iraqis. We are 
working with these governments and UNHCR to relieve some of the 
humanitarian burden and help these countries keep their borders open to 
asylum seekers.

    12. Senator Kennedy. Ambassador Satterfield, does the DOS plan to 
increase assistance to neighboring countries burdened with the high 
number of Iraqi refugees?
    Ambassador Satterfield. The United States is very concerned about 
the situation facing Iraq refugees and we are working with our 
international partners such as UNHCR and several NGOs, as well as host 
governments, to ensure that their assistance and protection needs are 
addressed appropriately.
    The DOS indeed hopes to increase assistance to host countries 
neighboring Iraq. We recognize the increasing demands vulnerable Iraqis 
are placing on host countries. We want to ensure that Iraqis do not 
overburden the public services of neighboring countries by increasing 
humanitarian assistance so that these countries can continue to offer 
refuge to Iraqi asylum seekers. We hope to generously respond to 
UNHCR's 2007 appeal to significantly expand their protection and 
assistance activities for Iraqi refugees in Jordan, Syria, Lebanon, 
Egypt, and Turkey. We also plan to expand existing NGO programs that 
identify and assist the most vulnerable refugees in Jordan and Syria as 
well as IDPs in Iraq if we receive additional funding.

    13. Senator Kennedy. Ambassador Satterfield, how can the United 
States better assist Iraqis displaced internally to obtain adequate 
food and shelter and other humanitarian needs?
    Ambassador Satterfield. We are assisting many internally displaced 
persons through U.S. Government funded programs that deliver 
humanitarian aid to the most vulnerable families and individuals. Many 
of the newly displaced inside Iraq have joined extended families, and 
we want to ensure that they can successfully integrate into their host 
communities until they can return to their homes. For this reason, we 
also consider it a priority to look beyond immediate relief commodities 
to ensure that water, sanitation, health, and education services in 
hosting communities are not overburdened. Our programs are designed in 
such a way that we can quickly respond to emerging needs as they arise.

    14. Senator Kennedy. Ambassador Satterfield, given the human 
suffering caused by this massive Iraqi refugee crisis, isn't it just 
and proper that the United States dramatically increase the number of 
Iraqis it takes in for resettlement drawing on all priority categories?
    Ambassador Satterfield. The United States Refugee Admissions 
Program (USRP) is committed to considering for resettlement all Iraqi 
refugees referred to us, either as individuals or in groups, by UNHCR. 
Our embassies may also refer an Iraqi case for consideration. In 
addition, Iraqis with close family members in the United States may be 
eligible for the USRP family reunification program. To address growing 
assistance and resettlement needs among Iraqi refugees, we fund UNHCR's 
general budget for the near east region, and provide extra targeted 
funds specifically to support resettlement activities in the region. 
These funds will help address humanitarian assistance needs of this 
growing population and will boost UNHCR's capacity to register and 
refer to us and other countries vulnerable Iraqi cases in need of third 
country resettlement.

    15. Senator Kennedy. Ambassador Satterfield, can't you draw on the 
20,000 unallocated reserve to increase the 5,100 target for the near 
east and south Asia?
    Ambassador Satterfield. Yes. There is no specific limit on how many 
Iraqis can be included in the program. The current Presidential 
Determination on Refugee Admissions in fiscal year 2007 permits the 
admission of 70,000 refugees allocated by regions with 5,500 for the 
near east and south Asia. The 5,500 was developed as a planning figure 
for the region. If necessary, and if sufficient funding is available, 
we can draw on the unallocated reserve numbers.
                                 ______
                                 
             Questions Submitted by Senator Daniel K. Akaka
                          troop levels in iraq
    16. Senator Akaka. General Abizaid and Ambassador Satterfield, 
Secretary Rumsfeld has indicated that more U.S. forces will be needed 
to provide security in Iraq. At this point in time, how can more troops 
best be utilized to contain the escalation of attacks by insurgents?
    General Abizaid. [Deleted.]
    Ambassador Satterfield. The DOS defers to the DOD on troop levels 
and on the military aspects of the President's new strategy, ``The New 
Way Forward'' in Iraq. However, together with the additional troops 
will be increased civilian efforts to support moderates and improve the 
performance of government at the national, provincial, and local 
levels, thereby weakening the extremists. Iraq. Specific questions this 
plan should be addressed to the DOD.

    17. Senator Akaka. General Abizaid and Ambassador Satterfield, is 
or will the Iraqi Government assist in this effort or are they 
preventing U.S. military forces from truly getting the violence under 
control? For example, the U.S. forces were told to remove check points 
in Sadr City by Prime Minister Maliki.
    General Abizaid. I believe the Iraqi Government and Prime Minister 
Maliki are committed to bringing down the level of violence. I believe 
Prime Minister Maliki has moved in a direction with national police 
reform, which has been a major problem, with dismissing officers that 
are showing sectarian values as opposed to national values, with 
committing the armed forces to independent operations that are 
necessary to quell the sectarian violence, in a way that leads me to 
believe he is going to continue to doing more.
    In the past 6 weeks we have had increasing success with joint 
Iraqi-U.S. forces moving into Sadr City, precisely targeting death 
cells and death squad leadership and taking them out. I believe this 
will also continue.
    Ambassador Satterfield. Solutions to the growing violence in Iraq 
must be the result of concerted decisions by the Iraqi political 
leadership and ISFs. Prime Minister Maliki has repeatedly stated his 
desire for increased control over ISFs. As the Iraqi Government assumes 
more security responsibility, operational decisions will be made by the 
sovereign leaders that may not be the best course of action from a U.S. 
perspective.
    Prime Minister Maliki's decision regarding Sadr City check points 
clearly indicates his desire to take action. The President laid out a 
revised military approach when he addressed the Nation on January 10 
and announced his new strategy, `The New War Forward,' in Iraq. The 
President has made it clear that America's commitment is not open-ended 
and will hold the Iraqis to clear security, political, and economic 
benchmarks and milestones.

                           emergency hotline
    18. Senator Akaka. General Abizaid and Ambassador Satterfield, it 
is my understanding that there are some Iraqis that believe we are to 
blame not only for the attacks but also for planting IEDs at night 
while we impose curfews. What efforts are underway to better our 
standing within various communities, especially since we have spent a 
pretty penny on a campaign encouraging Iraqis to call the hotline in 
cases of emergency?
    General Abizaid. First, the National 130 Tips Hotline has never 
been branded as an emergency number, but a tips line. The Iraqi 
public's confidence will not be won through advertising alone, but 
through effective and timely responses to their calls. We have 
developed two documentaries explaining the process of what happens when 
a call comes in. In addition, we have added the tag line at the end of 
commercials telling viewers if they can't get through to keep trying. I 
can assure you, people are still calling. When Iraqis are in a 
situation where they feel they are in immediate danger, they can call 
other emergency operations centers that have the mission of effecting 
coordination with local police stations and emergency response units, 
as the Tips Hotline is focused on terrorism related reporting. The 
types of reports received by Tips often require surveillance and 
operational planning prior to any police or military action taking 
place. Any time that you visit the Tips facility, the phones are always 
ringing off the hook. Based on our most recent polling data, the 
significant majority of Iraqis understand the purpose of the hotline 
(73 percent), and are motivated through the advertising campaign to 
utilize the hotline number (88 percent). A growing confidence in the 
program is apparent with a majority of the populace (83 percent) 
confident in the hotline's operation. At the same time, record numbers 
of tips received have been set. During a visit to the Tips Operations 
Facility, one New York Times reporter noted, and this was ultimately 
published in the newspaper, that he had calculated one telephone call 
every 2 seconds during his stay there. The message is getting out to 
the Iraqi public, which continues to call in ever increasing numbers.
    Ambassador Satterfield. While we do not maintain a public hotline 
for emergencies as part of our outreach efforts, the DOS, Embassy 
Baghdad and our PRTs have devoted a great amount of energy and 
resources to reaching Iraqis of all ages and backgrounds through our 
efforts to both assist Iraqis in the safeguarding and rebuilding of 
their country, as well as communicating and interacting directly with 
Iraqis through our various public diplomacy programs. PRTs, in 
particular, build relationships with local government officials and 
community leaders throughout Iraq and help them improve their self-
governance.
    Outreach, to the media and others, is a critical component of our 
public diplomacy efforts in Iraq. Whether in the form of the support 
for an Iraq Web site or Iraq-focused publications or the DOS and our 
embassies engagement with Arab and regional press, often in Arabic, we 
are all purposefully engaged in outreach to promote our objectives in 
Iraq. In addition to interviews and press briefings, our outreach to 
the media includes digital video conferences, chat rooms, and other 
important initiatives.
    The DOS has increased outreach to Arab and regional media with 
appearances by Secretary Rice and other senior department officials to 
communicate U.S. policy. During the fall quarter, NEA/PPD Director 
Alberto Fernandez conducted 118 interviews, 101 in Arabic, discussing 
Iraq and other regional issues.
    Embassy Baghdad has also stepped up media events and greatly 
facilitated engagement with international, pan-Arab, and Iraqi media. 
Ambassador Khalilzad now gives weekly interviews with Arab media 
outlets and the embassy spokesman often travels into the Red Zone to 
meet key media contacts. The embassy also holds regular roundtables for 
Iraqi press to provide background on economic and infrastructure topics 
in which the United States is playing a substantial role, e.g., 
transportation, energy, and government capacity development.
    Educational and cultural programs in Iraq, from Fulbright to 
international visitors programs to cultural preservation, have also 
played a significant role in strengthening positive perceptions of the 
U.S. role in Iraq with the Iraqi people. Iraq's International Visitors 
Leadership Program, for example, is the third largest in the world, 
after China and Russia. The Fulbright Student Scholarship Program in 
Iraq is now the largest in the Middle East/North Africa region. There 
are numerous other exchange opportunities currently administered by our 
embassy which cater to Iraqis of various backgrounds, ages, and 
expertise. These include, but are not limited to: various scholarship 
programs; youth exchange programs; educational institutes; language 
programs; and professional training opportunities.
    Our public diplomacy efforts also include a variety of other 
programs which engage Iraqis directly on the ground. In view of the 
problems that American officers have in moving around Baghdad and most 
of the rest of Iraq, the programs are limited in scope and size but we 
nevertheless continue to expand our outreach efforts to the maximum 
capacity security and other restrictions allow. These programs include, 
but are not limited to: American corners; DVC outreach in academic and 
other professional areas; book publishing; improvement of universities; 
and media communications projects.

    19. Senator Akaka. General Abizaid and Ambassador Satterfield, this 
hotline was suppose to help provide our forces with information 
regarding the insurgents--however, when many Iraqis did call, they were 
unable to get through. I understand that the program has gotten better 
with regards to operators answering the phone but what have we done to 
win back their confidence of this program?
    General Abizaid. First, the National 130 Tips Hotline has never 
been branded as an emergency service number; it has always been a tips 
hotline. The intent of the hotline is to provide a 24-hour, 7-day a 
week phone-in reporting service that empowers Iraqi citizens to provide 
information to the Government of Iraq and coalition forces on terrorist 
and criminal activity. Often hotline tips require surveillance and 
operational planning before any police or military action can occur.
    We gain confidence in the program when the Iraqi people see good 
results from their calls. We have developed two documentaries 
explaining the process of what happens when a call comes in. In 
addition, we have added the tag line at the end of commercials telling 
viewers if they can't get through to keep trying. I can assure you, 
people are still calling. Any time that you visit the tips facility, 
the phones are always ringing off the hook. Based on our most recent 
polling data, the significant majority of Iraqis understand the purpose 
of the hotline (73 percent), and are motivated through the advertising 
campaign to utilize the hotline number (88 percent). At the same time, 
a growing confidence in the program is apparent with a majority of the 
populace (83 percent) confident in the hotline's operation. This tells 
us that the message is getting out and we are on track.
    The Iraqi confidence level is also apparent in the recent and 
significant increase in tips/actionable tips received. This increase is 
based on several factors. First, management and leadership presence: 
The Iraqi Ministry of Interior designated a Brigadier General as on-
site manager. Since his arrival in September 2006, this officer has 
reinforced to his subordinates the importance of correctly responding 
to calls in a timely manner. The hotline workers/operators now have a 
better understanding of the importance of the calls they receive, 
process, and disseminate, as the lives of many Iraqis depend on their 
actions.
    Second, life support improvements. Coalition assets have been 
addressing some life support requirements such as water provision, 
communications hardware and infrastructure repairs, and maintenance, to 
mention the main ones.
    Third, institutionalizations of best practices, creation of 
standard operating procedures, and a formal training program have 
resulted in the optimization of Tips Hotline Program operations. The 
growing interest in Tips is a welcomed sign. If the facility had new 
state-of-the-art equipment and a professional dedicated staff of IT 
technicians, the response and data processing time would be 
significantly improved. Any assistance you can provide in this area 
would be welcomed.
    Fourth, appropriate work ethics and a sense of esprit-de-corps have 
been instilled within the workforce.
    Finally, the presence of coalition advisors reassures the Iraqi 
operators that theirs is an important operation. The combined 
implementation of these five variables has resulted in an upward trend 
of actionable reports that are sent to both coalition and ISF elements. 
Tips program is undergoing a transition process that will result in 
full Government of Iraq control of Tips operations by June 2007.
    Ambassador Satterfield. Iraqi citizens are becoming more 
comfortable making direct contact with the National ``Tips'' Hotline 
because of the anonymity it provides. National Hotline calls are at an 
all time high in part as a result of Iraqi citizens use of the call 
center for personal emergencies in the absence of a trustworthy 911 
type of emergency services alert center. The Multi-National Forces-Iraq 
command reports over 2,800 calls received in December, 300 more than 
the previous month. The hotline continues to provide tips that lead to 
significant captures and weapon seizures. Specific questions regarding 
this Multi-National Force-Iraq program should be addressed to the DOD.

                           iraqi death squads
    20. Senator Akaka. Ambassador Satterfield, it is my understanding 
that, even within the Iraqi Government, there are different approaches 
regarding how to curtail the violent attacks conducted by insurgents 
and/or death squads. Are we working with the Iraqi Government to try 
and alleviate these tensions?
    Ambassador Satterfield. Dealing with sectarian violence by death 
squads, insurgents, and illegally armed militias is the greatest 
challenge Iraq faces. A military solution alone will not reduce 
violence. A reduction in sectarian violence will require a 
comprehensive political solution that includes Iraqi political, civil, 
and religious leaders working together to implement reconciliation 
initiatives, economic policies, security-sector reform, and federalism. 
By implementing such policies, the government would move itself into a 
position to better influence groups that instigate violence, and 
persuade those who try to use violence for political gain that their 
objectives are better served through the political and national 
reconciliation processes. Prime Minister Maliki continues to oversee 
efforts by the Government of Iraq to deal with these issues. The United 
States will continue to closely advise and assist the Government of 
Iraq as it continues to establish and implement the political solutions 
necessary for success. Ultimately, these solutions are--and must 
continue to be--Iraqi solutions carried out by Iraqis.

    [Whereupon, at 2:08 p.m., the committee adjourned.]


  TO CONTINUE TO RECEIVE TESTIMONY ON THE CURRENT SITUATION AND U.S. 
              MILITARY OPERATIONS IN IRAQ AND AFGHANISTAN

                              ----------                              


                      WEDNESDAY, NOVEMBER 15, 2006

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:41 p.m. in room 
SH-216, Hart Senate Office Building, Senator John Warner 
(chairman) presiding.
    Committee members present: Senators Warner, McCain, Inhofe, 
Roberts, Sessions, Ensign, Talent, Chambliss, Graham, Cornyn, 
Levin, Kennedy, Lieberman, Reed, and Dayton.
    Committee staff members present: Charles S. Abell, staff 
director; Leah C. Brewer, nominations and hearings clerk; and 
John H. Quirk V, security clerk.
    Majority staff members present: William M. Caniano, 
professional staff member; Regina A. Dubey, professional staff 
member; Ambrose R. Hock, professional staff member; Sandra E. 
Luff, professional staff member; Derek J. Maurer, professional 
staff member; Elaine A. McCusker, professional staff member; 
David M. Morriss, counsel; Lucian L. Niemeyer, professional 
staff member; Lynn F. Rusten, professional staff member; Sean 
G. Stackley, professional staff member; Scott W. Stucky, 
general counsel; Kristine L. Svinicki, professional staff 
member; Diana G. Tabler, professional staff member; and Richard 
F. Walsh, counsel.
    Minority staff members present: Richard D. DeBobes, 
Democratic staff director; Jonathan D. Clark, minority counsel; 
Daniel J. Cox, Jr., professional staff member; Evelyn N. 
Farkas, professional staff member; Richard W. Fieldhouse, 
professional staff member; Gerald J. Leeling, minority counsel; 
Peter K. Levine, minority counsel; Michael J. McCord, 
professional staff member; William G.P. Monahan, minority 
counsel; and Michael J. Noblet, research assistant.
    Staff assistants present: David G. Collins, Micah H. 
Harris, and Jessica L. Kingston.
    Committee members' assistants present: Christopher J. Paul 
and Richard H. Fontaine, Jr., assistants to Senator McCain; 
John A. Bonsell, assistant to Senator Inhofe; Libby Burgess, 
assistant to Senator Roberts; Arch Galloway II, assistant to 
Senator Sessions; Mark Winter, assistant to Senator Collins; 
Clyde A. Taylor IV, assistant to Senator Chambliss; Adam G. 
Brake, assistant to Senator Graham; Arjun Mody, assistant to 
Senator Dole; Bob Taylor and Stuart C. Mallory, assistants to 
Senator Thune; Sharon L. Waxman and Mieke Y. Eoyang, assistants 
to Senator Kennedy; Frederick M. Downey, assisant to Senator 
Lieberman; Elizabeth King, assistant to Senator Reed; Richard 
Kessler and Darcie Tokioka, assistants to Senator Akaka; 
William K. Sutey and Alea Brown, assistants to Senator Bill 
Nelson; Eric Pierce, assistant to Senator Ben Nelson; Luke 
Ballman, assistant to Senator Dayton; Todd Rosenblum, assistant 
to Senator Bayh; and Andrew Shapiro, assistant to Senator 
Clinton.

       OPENING STATEMENT OF SENATOR JOHN WARNER, CHAIRMAN

    Chairman Warner. Good afternoon. The Senate Armed Services 
Committee resumes its sequence of hearings on the current 
situation in Iraq and Afghanistan. Part one of the hearing was 
excellent this morning. The committee received, as it expected, 
the very frank and candid assessments from General Abizaid and 
Ambassador Satterfield.
    In part two of the hearing the committee will receive 
testimony from General Michael Hayden, Director of the Central 
Intelligence Agency (CIA), and Lieutenant General Michael 
Maples, Director of the Defense Intelligence Agency (DIA). Both 
of them have appeared before Congress, but this is General 
Hayden's first appearance in his capacity as Director of the 
CIA.
    The panel's appearance here today is very important. The 
relationship between intelligence and policymakers has been the 
subject of discussion over the past few years. In the session 
this morning I described five events that will converge in the 
next few weeks and months to help formulate the views of 
Congress, most particularly the Senate, on such changes as we 
may deem as necessary, the five being: this series of hearings; 
followed by, presumably in the first week of December, the 
hearing with Bob Gates, nominated to be the new Secretary of 
Defense; followed by a hearing with the Chairman of the Joint 
Chiefs and his report; then hopefully we will have the Jim 
Baker of the Iraq Study Group, with Lee Hamilton, testify; and 
lastly, I think very valuable work is now underway to extend 
the U.N. resolution under which our forces are operating in 
Iraq today that expires on December 31, 2006.
    Senator Levin.

                STATEMENT OF SENATOR CARL LEVIN

    Senator Levin. Thank you, Mr. Chairman, for the 
continuation of this very important hearing. It is critical 
that we have the independent and objective testimony of our 
Directors of the CIA and DIA to help us understand the 
situation in Iraq and in Afghanistan. We look forward to that 
testimony and in the interest of time I will not present a full 
statement.
    Chairman Warner. Thank you very much, Senator Levin.
    General Hayden.

 STATEMENT OF GEN. MICHAEL V. HAYDEN, USAF, DIRECTOR, CENTRAL 
                      INTELLIGENCE AGENCY

    General Hayden. Thank you, Senator. Mr. Chairman, Senator 
Levin, members of the committee:
    The overthrow of the Taliban regime in Afghanistan and of 
Saddam Hussein's regime in Iraq, when combined with our 
determined pursuit of al Qaeda worldwide, essentially 
inaugurated a new era of both risk and opportunity for our 
country in its engagement with much of the Muslim world. We are 
now face-to-face with whole societies that are in profound and, 
frankly, volatile transitions and whose fate will directly 
affect our fate, whose fate will directly affect the security 
of the United States.
    With American forces in Afghanistan and Iraq, and with the 
United States leading the global war on terrorism, we are now 
actors to an unprecedented degree in supporting states, 
including Iraq and Afghanistan, which are attempting to create 
and sustain a stable new order. Arrayed against this endeavor 
are significant new forces. They are political and 
ethnosectarian forces that, frankly, were previously hidden or 
subordinated, and are now competing to shape the identity of 
these states.
    Now, some of this competition is taking place within a 
legitimate political and democratic process. But in other cases 
we have radical groups like al Qaeda and its affiliates 
sponsoring terrorists, insurgents in Iraq, Afghanistan, and 
elsewhere, that seem to be able to preempt governments and 
eclipse the moderate actors in the region. Then at the regional 
level you have opponents of the United States like Iran seeking 
to capitalize on the instability of this transitional period to 
expand their own influence and, frankly, to contest the vision 
we have for this region.
    With these trends in mind, let me begin by focusing on 
Afghanistan, where we have made some important progress in the 
face of some substantial challenges. Afghanistan's future 
depends heavily on the international community's willingness to 
continue to deliver concrete resources to the Afghan 
Government. It depends equally on international willingness to 
help protect that government from the Taliban and other 
extremists who are waging a bloody insurgency, especially in 
the south and east of that country.
    Now, neither of these tasks are simple. Neither of them are 
going to be completed soon. But the past few years have been a 
story of success for the Afghan Government and people, as well 
as the international community. That country has made 
remarkable political progress. The international community and 
the Afghan Government under the leadership of President Karzai 
have built some national level political institutions--a new 
constitution, an elected president, a democratically elected 
parliament. These are remarkable achievements when you hold 
them up against the backdrop of the ruinous decades of war that 
Afghanistan experienced before 2001.
    But the successes of the last few years have not lessened 
the need for international involvement in this country. It has 
only provided the foundation upon which we can now build. Now 
we need to bolster the Afghan Government's ability to provide 
sound governance at all levels of government.
    Ambassador Neumann recently said that this effort will take 
a long time, and if you ask my view it will take at least a 
decade and it will cost billions of dollars. I will add one 
more time that the Afghan Government will not be able to do it 
alone. The capacity of the government needs to be strengthened 
to deliver basic services to the population, and of course that 
begins with security.
    These problems span Afghanistan, but they are especially 
prevalent in rural areas. Quality-of-life for millions of 
Afghan citizens, spread across a desolate land in isolated 
villages, has not advanced very much, and in many areas the 
Afghan Government is simply nowhere to be found.
    This situation will get worse if it is not addressed. Right 
now more than half of the Afghan population is under the age of 
19. That means millions of young Afghans will enter the labor 
force over the next decade, adding to an unemployment rate that 
is already hovering around 40 percent. I think we all know that 
the illicit drug trade is a significant hurdle to the expansion 
of the central government's authority and it undercuts the 
international community's and the government's efforts to 
rebuild the economy. It fuels provincial and local corruption. 
According to the International Monetary Fund, the Afghan opiate 
gross domestic product (GDP) in 2005 was $2.5 billion, roughly 
a third of what the country's licit GDP was.
    The key to making progress is security. There are simply 
not enough properly trained, equipped, well-paid security 
forces and, even though the Afghan National Army continues to 
become larger, stronger, and more experienced, progress has 
been slow and there has been a lot less progress made in 
constructing an effective Afghan national police.
    The Taliban has clearly built momentum over this past year. 
The level of violence that they have inflicted has increased 
significantly. The group has clearly become more aggressive. 
The Taliban almost certainly refocused its attacks in an 
attempt to stymie the North Atlantic Treaty Organization's 
(NATO) efforts in southern Afghanistan.
    Kabul's ability to provide sound governance to these kinds 
of areas will be key to preventing the Taliban and other 
extremists from intimidating the population into acquiescing 
with its activities. Kabul needs help because it lacks 
capacity, not because it lacks will, and not because it lacks 
popular support. I have spoken with President Karzai. He 
understands this and he recognizes his government's 
responsibilities.
    Now Iraq. It provides another example of how the forces of 
change are reshaping the Muslim world. The deep fissures that I 
know you have talked about earlier today with General Abizaid 
and Ambassador Satterfield, they are among the groups fighting 
in Iraq and were not created by the coalition's overthrow of 
Saddam's dictatorship. Throughout Iraq's modern history there 
has been a Sunni minority ruling with the support of the 
military, and Saddam made this worse. His cult of personality 
tragically reinforced this pattern by using extreme violence to 
suppress the vast majority of Iraq's inhabitants. He killed 
tens of thousands of Kurds and Shiite in a short period from 
1988 to 1991, brutally suppressing Shiite and Kurdish revolts. 
He ruled during his last years with violent repression and by 
favoring a small elite within the Sunni community centered on 
his hometown of Tikrit. He deliberately diverted resources to 
his power base, deprived much of the rest of the country of 
economic and educational opportunities, and in the case of the 
Shiite majority, basic religious liberty.
    Operation Iraqi Freedom (OIF) completely upended the 
Saddamist state and his version, its version of Iraqi society 
in every respect--political, social, and economic. OIF 
instituted a sea of change in the way Iraq is governed. The 
dissolution of the Iraqi military, the Baath Party, swept away 
the tools that a small group in power had used to terrorize 
Iraq, and the subsequent vacuum of authority gave vent to deep-
seated hatreds that had simmered for years beneath the surface 
in a totally brutalized society.
    The Shiites today now focus on assuring that Iraq's new 
government reflects the will of the majority Shiite population, 
making sure that the Baathists never regain power. I know many 
of you have visited Iraq. I have too recently. This fear of a 
return to Baathism is almost palpable among Shiite elites.
    Sunnis, on the other hand, view the Shiite as Iranian-
controlled and the current government as predatory, or at least 
many Sunnis do. The Kurds for their part want to keep and 
strengthen the substantial autonomy they have exercised for 
more than a decade.
    We need to note, though, that the Shiite and the Kurds and 
some Sunnis have crafted a democratic constitution that can 
provide the structure to allow Iraqis to settle their 
differences peacefully. For this to happen, Iraqi leaders of 
all stripes--Shiite, Sunni, Kurd--are going to have to flesh 
out that document with some of the activities that Ambassador 
Satterfield talked to you about this morning and do it in a way 
that all parties accept as legitimate.
    We are all acutely aware that Iraq today is far from 
peaceful. Let me say that no single narrative is sufficient to 
explain all the violence we see in Iraq today. There remains in 
Iraq today an active insurgency. There remains in Iraq today a 
broad and vicious al Qaeda offensive targeting us and innocent 
Iraqis. In Iraq today there is criminality and lawlessness on a 
broad scale. In Iraq today there are rival militias competing 
for power.
    Since the bombing of the al-Askari Mosque in Samarra last 
February, violence between Arab Shiite and Sunnis has grown and 
grown to such an extent that sectarian violence now presents 
the greatest immediate threat to Iraq's stability and future. 
Any Iraqi leader, no matter how skillful, is going to be hard-
pressed to reconcile the divergent perspectives that I have 
mentioned, divergent perspectives that Shiites, Sunnis, and 
Kurds bring to the table and also, unfortunately, very often 
bring to the streets, and to deal with that against a backdrop 
of an intentional al Qaeda campaign of almost satanic terror. 
To strengthen the common ground that all Iraqis can share, the 
government of Prime Minister Maliki will have to overcome 
formidable obstacles. Internal divisions, power struggles among 
the Shiite, make it difficult for Shiite leaders to take the 
actions that actually might ease Sunni fears. Radical Shiite 
militias and splinter groups stoke the violence, while brutal 
Sunni and al Qaeda attacks make even moderate Shiite question 
whether it is possible to reconcile.
    The Iranian hand is stoking violence and supporting even 
competing Shiite factions. Even if the central government gains 
broader support from Iraq's various communities, implementing 
the reforms needed to improve life for all Iraqis will be 
difficult. Current violence is eating away at the state's 
ability to govern. The security forces are plagued by 
sectarianism. They have maintenance and logistics problems. 
Ministerial capacity, limited ministerial capacity, is limiting 
progress on key issues. The civilian bureaucracy is buffeted by 
inefficiency and partisan control.
    Only if the Iraqi state asserts its authority across the 
board can the government in Baghdad begin to turn its goals 
into concrete realities. As I mentioned earlier, complicating 
these historic forces, difficult enough in their own right, is 
the pernicious effect of al Qaeda's presence in Iraq. Despite 
Zarqawi's death, al Qaeda continues to foment sectarian 
violence, seeks to expel coalition forces. An al Qaeda victory 
in Iraq would mean a fundamentalist state that shelters 
jihadists and serves as a launching pad for terror throughout 
the region and against our own Homeland.
    Let me talk just for a minute, Mr. Chairman, more broadly 
about al Qaeda. It sees its war against us as a continuation 
from their perspective of decades, perhaps century-old, 
struggle to defend Islam from political and cultural domination 
by a Judaeo-Christian alliance that they now perceive as being 
led by the United States and Israel. Since bin Laden declared 
war on us in 1998, al Qaeda has focused primarily on attacks 
aimed at weakening and punishing the United States and its 
immediate allies. They see us as the main obstacle to realizing 
their vision of an extreme fundamentalist social and political 
order throughout the Muslim world.
    Although the group has suffered significant losses since 
their attacks on our Homeland, it has shown resilience and it 
remains thoroughly dedicated to mounting new attacks on our 
Homeland and on our interests abroad. Understanding al Qaeda is 
essential to defeating it. With regard to the central 
organization headed by Osama bin Laden, in the face of our 
substantial success against it the group's cadre of seasoned, 
committed leaders has allowed it to remain fairly cohesive, it 
has allowed it to remain focused on its strategic objectives, 
again despite having lost a number of veterans over the years.
    Osama bin Laden and Zawahiri continue to play a crucial 
role. They inspire jihadists and their very presence promotes 
unity. Their demise would not end the threat, but it probably 
would contribute to the unraveling of the central organization. 
The loss of a series of al Qaeda leaders since September 11 has 
been substantial, but it has also been mitigated by what is, 
frankly, a pretty deep bench of low-ranking personnel capable 
of stepping up to assume leadership positions.
    Though a number of these people are new to the senior 
management, they are not new to jihad. My point here, Senator, 
is this threat has taken a long time to build; it will take 
some time to unravel it. These new leaders average over 40 
years of age and 2 decades of involvement in global jihadism.
    The second critical factor is their physical safe haven 
along the Afghan-Pakistan border. That safe haven gives them 
the physical and even psychological space they need to meet, 
train, plan, and prepare new attacks. Many locals in that 
region have ties to al Qaeda dating back to the 1980s wars 
against the Soviets and rooting them out from that region is 
complicated by rugged terrain and a local culture that is 
intensely suspicious of and at times hostile to outsiders, 
including their own government's forces.
    A third important factor is Osama bin Laden's extremist 
ideology and strategic vision, which continues to attract 
recruits, inspire like-minded groups, help our enemies weather 
setbacks. In addition to planning attacks of its own, al Qaeda 
supports terrorist activities by other groups and seeks to 
encourage Muslims worldwide to take up the cause. It spreads 
its propaganda through taped statements, some of them with very 
high sophisticated production values.
    As a western nation, we have limited tools to counteract 
that kind of propaganda. We need to make sure our own message 
is clear, but we also need to work with our Muslim allies.
    Finally, I need to emphasize that the asymmetric nature of 
al Qaeda's style of warfare gives it certain advantages. Our 
open societies present an almost endless source of targets and 
the enemy has demonstrated its ruthlessness through a 
willingness to attack the innocent.
    Mr. Chairman, in all aspects of today's global struggle, 
and the three pieces I have mentioned--Iraq, Afghanistan, and 
al Qaeda--are all intricately and intimately interrelated--we 
are dealing with deep historical forces and it will require 
patience and wisdom as well as just power to deal with them. 
This will unfortunately be a long struggle.
    Thank you.
    [The prepared statement of General Hayden follows:]
           Prepared Statement by Gen. Michael V. Hayden, USAF
    Mr. Chairman, members of the committee: The overthrow of the 
Taliban regime in Afghanistan and of Saddam Husayn in Iraq as well as 
our determined pursuit of al Qaeda worldwide have inaugurated a new era 
of risk and opportunity for the United States in its engagement with 
much of the Muslim world. We are now face-to-face with whole societies 
which are in profound and volatile transitions and whose fate will 
directly affect the security of the United States. With U.S. forces 
deployed in Iraq and Afghanistan and with the United States leading the 
global response to the threat of terrorism, we are now actors to an 
unprecedented degree in supporting states--especially Iraq and 
Afghanistan--which are attempting to create and sustain a stable new 
order.

        <bullet> Against this endeavor significant new forces are 
        arrayed. Political and ethno-sectarian forces previously 
        subordinated are now competing to shape the identity of states. 
        Although some of this competition is taking place within the 
        legitimate democratic process, in other cases radical Islamic 
        groups--including terrorists and insurgents in Iraq and 
        Afghanistan--are able to preempt governments and eclipse more 
        moderate actors.
        <bullet> At the regional level, opponents of the United 
        States--like Iran--are seeking to capitalize on the instability 
        of this transitional period to expand their own influence and 
        contest the vision sustained by the United States and its 
        allies.
                              afghanistan
    With these trends in mind, let me begin by focusing on Afghanistan 
where we have made important progress in the face of substantial 
challenges.
    Afghanistan's future depends heavily on the international 
community's willingness to continue delivering concrete resources to 
the Afghan Government. It depends equally on international willingness 
to help protect the Afghan Government against the Taliban and other 
extremists who are waging a bloody insurgency in the south and east of 
the country.
    Neither of these tasks will be simple, and neither will be 
completed soon, but the past few years have been a story of success for 
the Afghan Government and people, as well as the international 
community. The country made remarkable political progress through the 
completion of the 2001 Bonn Accord--the political roadmap for 
rebuilding the country. The international community and the Afghan 
Government, under the leadership of President Karzai, have built 
national-level political institutions--including a new constitution, 
legitimate presidential elections, and a democratically elected 
parliament.

        <bullet> These are all remarkable achievements given the 
        ruinous decades of war Afghanistan experienced prior to 2001.

    The success of the past few years hasn't lessened the need for 
international involvement in the country--it has only provided a 
foundation upon which to build. Now, we need to bolster the Afghan 
Government's ability to provide sound governance at all levels of 
government. Ambassador Neuman recently said the effort would take a 
long time--in my view, at least a decade--and cost many billions of 
dollars. I would add that the Afghan Government won't be able to do it 
alone.
    The capacity of the government needs to be strengthened to deliver 
basic services to the population--especially security. The problems 
span Afghanistan, but they are especially prevalent in rural areas. The 
quality-of-life for millions of Afghans--spread across desolate land 
and isolated villages--has not advanced and in many areas the Afghan 
Government is nowhere to be found.

        <bullet> The social situation will get worse if it is not 
        addressed. Right now, about 55 percent of the Afghan population 
        is under the age of 19; millions of young Afghans will enter 
        the labor force over the next 5-10 years, adding to an 
        unemployment burden that is already hovering around 40 percent.

    The illicit drug trade is a significant hurdle to the expansion of 
central government authority and it undercuts efforts to rebuild the 
economy. The drug trade also fuels provincial and local corruption. 
According to the International Monetary Fund, the Afghan opiate gross 
domestic product (GDP) in 2005 was $2.6 billion--roughly a third of the 
country's $7.3 billion licit GDP.
    Key to making progress is bolstering security. Even in areas of the 
country where the insurgency is not active, security is falling short.

        <bullet> There are not enough properly trained, equipped, or 
        well-paid security forces. Even though the Afghan National Army 
        continues to become larger, stronger, and more experienced, 
        progress has been slow and little progress has been made in 
        constructing an effective Afghan National Police force.

    The Taliban has built momentum this year. The level of violence 
associated with the insurgency has increased significantly and the 
group has become more aggressive than in years past. The Taliban almost 
certainly refocused its attacks in an attempt to stymie the North 
Atlantic Treaty Organization's (NATO) efforts in southern Afghanistan.

        <bullet> Kabul's ability to provide sound governance and badly 
        needed aid to these areas will be key to preventing the Taliban 
        and other extremists from intimidating the population into 
        acquiescing in its activities.
        <bullet> Kabul needs help because it lacks capacity--not 
        because it lacks political will or lacks support. President 
        Karzai understands this and recognizes his government's 
        responsibility.
                                  iraq
    Iraq provides another example of how the forces of change are 
reshaping the Muslim world. The deep fissures among the groups fighting 
in Iraq were not created by the coalition's overthrow of Saddam's 
dictatorship. Throughout Iraq's modern history, a Sunni minority ruled 
with the support of the military; Saddam's cult of personality 
tragically reinforced this pattern by using extreme violence to 
suppress the vast majority of Iraq's inhabitants. Saddam killed tens of 
thousands of Kurds and Shiite in the short period from 1988, when he 
launched the Anfal campaign against the Kurds, to 1991, when he 
brutally suppressed Shiite and Kurdish revolts:

        <bullet> Saddam ruled during his last years through violent 
        repression and by favoring a small elite within the Sunni 
        community from his home region of Tikrit--to the dismay of 
        other Sunnis.
        <bullet> Saddam deliberately diverted resources to his 
        powerbase, depriving much of the rest of the country of 
        economic and educational opportunities, and in the case of the 
        Shiite majority, basic religious liberty.

    Operation Iraqi Freedom (OIF) completely upended the Saddamist 
state and Iraqi society. In every respect--political, social, and 
economic--OIF instituted a sea change in the way Iraq is governed. The 
dissolution of the Iraqi military and the Baath party swept away the 
tools that a small group in power had used to terrorize Iraq, and the 
subsequent vacuum of authority gave vent to deep seated hatreds that 
had simmered for years in a brutalized society:

        <bullet> The Shiite now focus on assuring that Iraq's new 
        government reflects the will of the majority Shiite population 
        and making sure the Baathists never regain power. This fear of 
        a return to Baathism is almost palpable among Shiite elites. 
        Sunnis view the Shiite as Iranian controlled and the current 
        government as predatory. The Kurds, for their part, want to 
        keep and strengthen the substantial autonomy they have 
        exercised since 1991.
        <bullet> It is also noteworthy, however, that the Shiite and 
        the Kurds, with some Sunni participation, crafted a democratic 
        constitution that could provide a structure to allow Iraqis to 
        settle their differences peacefully. For this to happen, Iraqi 
        leaders--Shiite, Sunnis, and Kurds alike--will need to flesh 
        out the document through extensive legislation in such a way 
        that all parties, and particularly the Sunni public, accept as 
        legitimate.

    We are all acutely aware that Iraq today is very far from peaceful. 
No single narrative is sufficient to explain all the violence in Iraq 
today. There remains in Iraq today an active insurgency; a broad al 
Qaeda offensive targeting use and Iraqis; criminality and lawlessness 
on a broad scale; rival militias competing for power. Since the bombing 
of the al-Askari Mosque in Samarra last February, however, violence 
between Arab Shiite and Sunnis has grown to such an extent that 
sectarian violence now presents the greatest immediate threat to Iraq's 
stability and future.

        <bullet> Last year violence was mostly limited to Sunni 
        insurgent attacks on coalition and Iraqi targets, but now 
        Shiite militia attacks against Sunnis and coalition forces are 
        an integral part of the pattern of violence.
        <bullet> The Kurds live in a fairly homogeneous region under 
        self-government. Yet in the seamline where Kurds, Arabs, and 
        others meet, we see worrying signs--such as a recent surge in 
        violence in the city of Kirkuk--that the legacy of Iraq's 
        repressive past continues to shape both the Arab/Kurd and the 
        Sunni/Shiite fault lines in Iraqi society.

    Any Iraqi leader, no matter how skillful, would be hard pressed to 
reconcile the divergent perspectives that Shiite, Sunnis, and Kurds 
bring to the table--and also to the streets. To strengthen the common 
ground that all Iraqis can share, the government of Prime Minister 
Maliki will have to overcome several formidable obstacles:

        <bullet> Internal divisions and power struggles among the 
        Shiite make it difficult for Shiite leaders to take the actions 
        that might ease Sunni fears of domination. Radical Shiite 
        militias and splinter groups stoke the violence, while brutal 
        Sunni attacks make even moderate Shiite question whether it is 
        possible to reconcile the Sunnis to the new Shiite-dominated 
        power structures. The Iranian hand is stoking violence and 
        supporting even competing Shiite factions.
        <bullet> The Sunnis are even more divided. Many see violent 
        opposition as the only way to overcome the democratic rules 
        that, due to demographic realities, place a ceiling on Sunni 
        political influence.

    Even if the central government gains broader support from Iraq's 
communities, implementing the reforms needed to improve life for all 
Iraqis will be extremely difficult. Iraq's endemic violence is eating 
away at the state's ability to govern. The security forces are plagued 
by sectarianism and severe maintenance and logistics problems; 
inadequate ministerial capacity is limiting progress on key issues; and 
the civilian bureaucracy, buffeted by corruption, inefficiency and 
partisan control, is not currently up to the challenge of providing 
better services to the Iraqi people. Only if the Iraqi state asserts 
its authority across the board can the government in Baghdad begin to 
turn its goals into concrete realities.
    Complicating these historic forces is the pernicious effect of al 
Qaeda's presence in Iraq. Despite Zarqawi's death, al Qaeda continues 
to foment sectarian violence and seeks to expel coalition forces. An al 
Qaeda victory in Iraq would mean a fundamentalist state that shelters 
jihadists and serves as a launching pad for terrorist operations 
throughout the region--and in the United States.
    Turning next to al Qaeda . . .
    Al Qaeda sees its war against the West as the continuation of a 
decades, perhaps centuries-old, struggle to defend Islam from political 
and cultural domination by a Judeo-Christian alliance now led by the 
United States and Israel. Since Osama bin Laden declared war on the 
United States in 1998, al Qaeda has focused primarily on attacks aimed 
at weakening and punishing the United States and its immediate allies.

        <bullet> The group sees the United States as the main obstacle 
        to realizing its vision of an extreme fundamentalist social and 
        political order throughout the Muslim world.
        <bullet> Although the group has suffered significant losses 
        since September 11, it is resilient and thoroughly dedicated to 
        mounting new attacks on the U.S. Homeland and our interests 
        abroad.

    Understanding the source of al Qaeda's resilience is key to 
defeating it. With regard to the central organization headed by bin 
Laden, that resilience stems from several factors:
    First, the group's cadre of seasoned, committed leaders has allowed 
it to remain fairly cohesive and stay focused on its strategic 
objectives--despite having lost a number of important veterans over the 
years.

        <bullet> Osama bin Laden and Ayman al-Zawahiri continue to play 
        a crucial role in inspiring jihadists and promoting unity. 
        Their demise would not spell the end of the threat, but 
        probably would contribute to the unraveling of the central al 
        Qaeda organization.
        <bullet> The loss of a series of veteran al Qaeda leaders since 
        September 11 has been mitigated by the group's ``deep bench'' 
        of lower-ranking personnel capable of stepping up to assume 
        leadership responsibilities. Although a number of individuals 
        are new to senior management in al Qaeda, they are not new to 
        jihad: they average over 40 years of age and nearly 2 decades 
        of involvement in jihad.

    A second critical factor is the group's physical safehaven in the 
Afghanistan-Pakistan border area. This safehaven gives al Qaeda the 
physical--and psychological--space needed to meet, train, expand its 
networks, and prepare new attacks.

        <bullet> Many locals have ties to al Qaeda dating back to the 
        1980s war against the Soviets in Afghanistan.
        <bullet> Rooting out al Qaeda elements there is complicated by 
        the rugged terrain and a local culture that is intensely 
        suspicious of--and, at times, overtly hostile to--outsiders, 
        including government security forces.
        <bullet> The safehaven not only gives al Qaeda and the Taliban 
        a venue for terrorist plotting, but also serves as a jump-off 
        point for its guerrilla forays into Afghanistan.

    A third important factor is Osama bin Laden's extremist ideology 
and strategic vision, which continue to attract recruits, inspire like-
minded groups, and help our enemies weather setbacks and reconcile 
themselves to a long struggle.

        <bullet> In addition to planning attacks of its own, al Qaeda 
        supports terrorist activities by other groups and seeks to 
        encourage Muslims worldwide to take up the cause of violent 
        jihad.
        <bullet> Al Qaeda spreads its propaganda through taped 
        statements--sometimes featuring relatively sophisticated 
        production values--as well as books and websites.
        <bullet> As a western nation, we have limited tools to 
        counteract this propaganda. We need to make sure our own 
        message is clear and we need to work with our Muslim allies.

    Finally, it's important to note that the asymmetric nature of al 
Qaeda's style of warfare gives it certain advantages.

        <bullet> Our open society presents an almost endless source of 
        targets, and the enemy has demonstrated its ruthlessness 
        through a willingness to attack civilians--including other 
        Muslims--a preference for spectacular, high-casualty 
        operations, and its own adherents' desire for martyrdom.
        <bullet> As September 11 showed, even a handful of committed 
        attackers, with relatively modest resources, can inflict 
        terrible damage.

    Mr. Chairman, in all aspects of today's global struggle, we are 
dealing with deep historical forces and it will require patience and 
wisdom as well as power for us to deal with them. This will be a long 
struggle.
    Thank you.

    Chairman Warner. Thank you very much, General.
    General Maples.

  STATEMENT OF LTG MICHAEL D. MAPLES, USA, DIRECTOR, DEFENSE 
                      INTELLIGENCE AGENCY

    General Maples. Thank you, Mr. Chairman, Senator Levin, 
members of the committee. I thank you for the opportunity to 
testify before you today. I have submitted a statement for the 
record and I have shortened that statement for my opening 
statement, but would be more than pleased to address the 
contents of my statement that I have submitted.
    Chairman Warner. Both statements will be submitted into the 
record.
    General Maples. Thank you, sir.
    The testimony that I am about to present represents what we 
know and judge to be the state of the conflicts in Iraq and 
Afghanistan and is the product of the dedicated men and women 
of the DIA. Many of them today are executing their missions in 
remote and dangerous areas in Iraq and Afghanistan. I thank 
them for their service and the exceptional work that they are 
doing for our Nation.
    I would also like to thank you for your continued support 
of them and for your continued support of the DIA.
    In Iraq, the conflict is unquestionably complex and 
difficult. The fight to define post-Saddam Iraq has been 
primarily an intra-Arab struggle to determine how power and 
authority will be distributed. Iraqi nationalists, Baathists, 
former military, angry Sunni, jihadists, foreign fighters, and 
al Qaeda provide an overlapping, complex, and multipolar Sunni 
insurgent and terrorist environment. Shiite militias, Shiite 
militants, and extensive criminal activity further contribute 
to violence, instability, and insecurity.
    We have seen some recent developments that give us hope for 
progress. They include the verdict against Saddam Hussein, 
efforts to address problems associated with the 
deBaathification, increased cooperation between Sunni Arab 
tribes and the government in al Anbar Province, arrest warrants 
for Ministry of Interior personnel accused of abuses, and the 
expulsion of rogue elements from al-Sadr's movement.
    We note the continued development and increased capability 
of Iraqi security forces (ISFs) and the police. The ISFs will 
meet manning, training, and equipment milestones and improved 
unit capabilities. Nevertheless, the ISFs will remain dependent 
on coalition support. It will also be essential that ISF 
leaders reject militia influence and instill discipline in 
their formations to gain legitimacy with the population.
    The conflict has changed in character, in scope, and the 
dynamics and is increasingly a sectarian struggle for power and 
the right to define Iraq's future identity. The perception of 
unchecked violence is creating an atmosphere of fear and 
hardening sectarianism which is empowering militias and 
vigilante groups and reducing confidence in government and 
security forces.
    Despite ongoing Iraqi government and coalition operations 
against terrorists, Sunni Arab insurgent groups, and Shiite 
militias, violence in Iraq continues to increase in scope, 
complexity, and lethality. The Sunni Arab-based insurgency has 
gained strength and capacity despite political progress and 
security force developments.
    Attacks by terrorist groups like al Qaeda in Iraq account 
for only a fraction of the insurgent violence. Yet the high-
profile nature of these operations have a disproportionate 
impact on the population and on perceptions of stability. Al 
Qaeda in Iraq has capitalized on the current cycle of sectarian 
violence. Its strategy has fueled by appealing to perceptions 
that its operations are defending Sunni interests. Al Qaeda in 
Iraq also poses a threat outside Iraq as it is the only 
terrorist group in the country with known aspirations for 
external attacks.
    Baghdad remains the center of the conflict as Shiite and 
Sunni Arabs fight for territorial control and political 
influence. Sectarian attacks constitute most of the violence in 
the mixed ethnicity areas in and around the capital, while the 
coalition remains the primary target in the Shiite south and 
the Sunni west. Recent coalition and ISF operations in Baghdad 
have achieved limited success. In August levels of violence 
temporarily decreased, primarily in Sunni Arab neighborhoods. 
However, as armed groups adapted to the coalition presence and 
the ISFs were unable to exert authority once coalition forces 
moved on, attacks returned to and even surpassed pre-
operational levels.
    The Iraqi government is making progress, but is likely to 
remain fragile owing to different challenges, lack of 
experience and capacity, mistrust, and constitutional 
constraints. Iraqi government officials continue attempts to 
achieve national reconciliation, but attacks against civilians, 
a key driver of ethnosectarian conflict, continue to increase.
    Sectarian differences limit the effectiveness of government 
as groups maintain a hard-line stance on contentious issues. 
Shiite militias are a growing impediment to stability. The 
Ministry of Interior and the police are heavily infiltrated and 
militias often operate under the protection or approval of 
Iraqi police to attack suspected Sunni insurgents and Sunni 
civilians.
    DIA judges a coalition presence is the primary counter to a 
breakdown in central authority, which would have grave 
consequences for the people of Iraq, stability in the region, 
and U.S. strategic interests. No major political figure in Iraq 
has endorsed the notion of civil war or partition and most 
political and religious leaders continue to restrain their 
communities. Moreover, DIA judges that Iraqi Arabs retain a 
strong sense of national identity and most Iraqis recall a past 
in which sectarian identity did not have the significance that 
it has today.
    Although leaders across the political spectrum who are 
participating in the government continue to talk and search for 
a positive way forward, the challenges to bringing stability 
and security with a cohesive, unified, and effective government 
remain significant.
    Turning to Afghanistan, in Afghanistan the Taliban-led 
insurgency, aided by al Qaeda, is incapable of directly 
threatening the central government and expanding its support 
networks and areas of influence beyond strongholds in the 
Pashtun south and east. Despite having absorbed heavy combat 
losses in 2006, the insurgency has strengthened its 
capabilities and influence with its core base of Pashtun 
communities. If a sustained international military and Afghan 
security presence throughout the volatile Pashtun south and 
east is not established alongside credible civilian 
administrations, central government control over these areas 
will be restricted.
    In 2007, insurgents are likely to sustain their use of 
visible, aggressive, and lethal tactics. Al Qaeda remains 
committed to reestablishing a fundamentalist Islamic government 
in Afghanistan. In 2006 al Qaeda appears to be attempting to 
reinvigorate its operations from safe havens in the Afghan-
Pakistan border region.
    Since 2001 the Afghan Government has successfully 
established national level political institutions by drafting a 
new constitution, holding a legitimate presidential election, 
and creating a democratically elected national assembly. 
However, local government institutions receive limited 
resources from Kabul and struggle to provide effective 
governance. Unrealized expectations at local levels are likely 
contributing to an erosion of support for the government. 
Nevertheless, President Karzai remains the most powerful 
political figure in Afghanistan and retains the widest support.
    Mr. Chairman, Senator Levin, members of the committee, 
thank you again for this opportunity to discuss with you our 
assessment of the current security situations in Iraq and 
Afghanistan. Our Nation is engaged in a long war against 
terrorism and violent extremism. Providing support to our 
soldiers, sailors, airmen, marines and civilians engaged in 
fighting insurgencies in Iraq and Afghanistan and the global 
war on terrorism is our first priority. Thank you for your 
continuing support.
    [The prepared statement of General Maples follows:]
            Prepared Statement by LTG Michael D. Maples, USA
                              introduction
    Good afternoon Mr. Chairman, Senator Levin, and members of the 
committee. Thank you for the opportunity to testify before you today. 
The testimony I am about to present represents what we know and judge 
to be the state of the conflicts in Iraq and Afghanistan and is the 
product of the dedicated men and women of the Defense Intelligence 
Agency (DIA). These outstanding military and civilian intelligence 
professionals provide our warfighters, defense planners, and national 
security policymakers with information and knowledge essential to our 
efforts around the world, but especially to operations in Iraq and 
Afghanistan. Many of them are executing their missions in remote and 
dangerous areas of Iraq and Afghanistan. I thank them for their service 
and the exceptional work they are doing for our Nation. I would also 
like to thank you for your continued support of the DIA.
                                  iraq
    We have seen some recent developments that give hope for progress. 
These include the verdict against Saddam Hussein, efforts to address 
problems associated with de-Baathification, increased cooperation 
between Sunni Arab tribes and the government in al Anbar Province, 
arrest warrants for Ministry of Interior personnel accused of abuses, 
and the expulsion of radicals from Muqtada al-Sadr's movement.
    We note the continued development and increased capability of the 
Iraqi security forces (ISF) and police. The ISF will meet manning, 
training, and equipment milestones, improving unit capabilities. 
Nevertheless, the ISF will remain dependent on coalition support. It 
will also be essential that ISF leaders reject militia influence and 
instill discipline in their formations to gain legitimacy with the 
population.
    The economy has seen moderate growth despite the security 
situation, with continued improvement in basic services, economic 
reforms, and institution-building.
    The conflict is unquestionably complex and difficult. The fight to 
define post-Saddam Iraq has been primarily an intra-Arab struggle to 
determine how power and authority will be distributed. Iraqi 
nationalists, ex-Baathists, former military, angry Sunni, Jihadists, 
foreign fighters, and al Qaeda provide an overlapping, complex and 
multi-polar Sunni insurgent and terrorist environment. Shiite militias 
and Shiite militants, some Kurdish Peshmerga, and extensive criminal 
activity further contribute to violence, instability, and insecurity.
    The U.S. presence obscured the true nature of this fight between 
and among competing groups for power as observers focused on insurgent 
attacks and rhetoric directed at the United States. Today, DIA assesses 
the conditions for the further deterioration of security and 
instability exists within this ongoing, violent struggle for power. 
Although a significant breakdown of central authority has not occurred, 
Iraq has moved closer to this possibility primarily because of weak 
governance, increasing security challenges, and no agreement on a 
national compact.
    The conflict has changed in character, scope, and dynamics and is 
increasingly a sectarian struggle for power and the right to define 
Iraq's future identity. Overall attacks averaged approximately 180 per 
day in October 2006, up from approximately 170 the previous month, and 
70 in January 2006. Daily average of attacks against ISF in October 
more than doubled the number reported in January, approximately 30 
compared to 13. Daily average of attacks on civilians in October was 
four times higher than reported in January, approximately 40 compared 
to 10. The perception of unchecked violence is creating an atmosphere 
of fear and hardening sectarianism which is empowering militias and 
vigilante groups, hastening middle-class exodus, and shaking confidence 
in government and security forces. Sectarian violence, a weak central 
government, problems in basic services, and high unemployment are 
causing more Iraqis to turn to sectarian groups, militias, and 
insurgents for basic needs, imperiling Iraqi unity.
    Despite ongoing Iraqi government and coalition operations against 
terrorists, Sunni Arab insurgent groups, and Shiite militias, violence 
in Iraq continues to increase in scope, complexity, and lethality. The 
Sunni Arab-based insurgency has gained strength and capacity despite 
political progress and security force developments. Nationwide, 
insurgents still conduct most attacks against the coalition and ISF and 
retain the resources, capabilities, and support to sustain high levels 
of violence.
    Attacks by terrorist groups account for only a fraction of 
insurgent violence throughout Iraq, yet the high-profile nature of 
these operations and the tactics they use have a disproportionate 
impact on the population and on perceptions of stability. Al Qaeda in 
Iraq (AQI), formerly led by Abu Musab al-Zarqawi and currently headed 
by Abu Ayyub al-Masri, is the largest and most active of the Iraqi-
based terrorist groups. AQI's targeting strategies have not changed 
significantly in the wake of al-Zarqawi's death on June 7, and attacks 
against Iraqi government targets and coalition forces continue apace. 
In addition, AQI is one of the most visible perpetrators of anti-Shiite 
attacks in Iraq--a hallmark of its strategy since 2003--and has 
capitalized on the current cycle of sectarian violence by increasing 
perceptions that its operations are defending Sunni interests. AQI also 
poses a threat outside Iraq, as it is the only terrorist group in the 
country with known aspirations for external attacks, including possibly 
against targets in Europe and the U.S. Homeland. Because of his 
involvement with al Qaeda-linked terrorists since the early 1980s, Abu 
Ayyub may have increased ties to al Qaeda senior leaders; these could 
enhance AQI's external attack capabilities. AQI operates with relative 
freedom in Iraq's Sunni-dominated territories, and as long as this 
remains true, the group will pose a threat to Iraq's internal stability 
and to Western interests abroad. Ansar al-Sunna, the second-most 
prominent terrorist group in Iraq, also poses a threat to Iraqi 
stability and has longstanding ties to AQI and external al Qaeda 
elements.
    Baghdad remains the center of the conflict as Shiite and Sunni 
Arabs fight for territorial control and political influence. Sectarian 
attacks constitute most of the violence in the mixed-ethnicity areas in 
and around the capital, while the coalition remains the primary target 
in the Shiite south and Sunni west.
    Recent coalition and ISF operations in Baghdad have achieved 
limited success. In August, levels of violence temporarily decreased, 
primarily in Sunni Arab neighborhoods. However, as armed groups adapted 
to the coalition presence, and the ISF was unable to exert authority 
once coalition forces moved on, attacks returned to and even surpassed 
preoperational levels. Among a range of factors, the government's 
reluctance to conduct operations in Shiite militia strongholds also 
decreased the effectiveness and potential for success of the Baghdad 
efforts.
    The Iraqi government of Prime Minister Maliki is making progress 
but is likely to remain fragile owing to very difficult challenges, 
lack of experience and capacity, mistrust, and constitutional 
constraints. Iraqi government officials continue attempts to achieve 
national reconciliation, but attacks against civilians, a key driver of 
ethno-sectarian conflict, continue to increase. Political leaders' 
inability to resolve key issues such as federalism, de-Baathfication, 
amnesty for insurgents, and militia integration also contribute to 
continued Sunni Arab discontent, fueling support for terrorist and 
insurgent groups. Sectarian difference limit the effectiveness of 
government as groups maintain a hardline stance on contentious issues.
    Shiite militias are a growing impediment to stability. The Ministry 
of Interior and the police are heavily infiltrated by members of the 
Supreme Council for Islamic Revolution in Iraq (SCIRIs), Badr Corps and 
Muqtada al-Sadr's Jaysh al-Mahdi. The Jaysh al-Mahdi often operates 
under the protection or approval of Iraqi police to detain, torture, 
and kill suspected Sunni insurgents and innocent Sunni civilians. Sadr 
continues to refuse any discussion of disbanding his militia. Some 
clandestine Jaysh al-Mahdi cells likely operate outside Sadr's direct 
guidance and conduct operations against the coalition.
    The Iraqi economy has experienced moderate growth despite the 
security situation, which continues to impede and increase overall 
costs of reconstruction. However, the inability to realize significant 
improvements in the oil and fuels sector and in electricity production 
and distribution creates drag on the economy while undermining the 
average Iraqi citizens' support for the central government and the 
coalition.
    DIA judges the continued coalition presence as the primary counter 
to a breakdown in central authority, which would have grave 
consequences for the people of Iraq, stability in the region, and U.S. 
strategic interests. No major political figure in Iraq has endorsed the 
notion of civil war or partition, and most political and religious 
leaders continue to restrain their communities. Moreover, DIA judges 
that Iraqi Arabs retain a strong sense of national identity and that 
most Iraqis recall a past in which sectarian identity did not have the 
significance it does today. Although leaders across the political 
spectrum who are participating in the government continue to talk and 
search for a positive way forward, the challenges to bringing stability 
and security with a cohesive, unified, and effective government remain 
significant.
                              afghanistan
    In Afghanistan the Taliban-led insurgency, aided by al Qaeda, is 
incapable of directly threatening the central government and expanding 
its resilient support networks and areas of influence beyond 
strongholds in the Pashtun south and east as long as international 
force levels are sustained at current levels. Nonetheless, DIA judges 
that, despite having absorbed heavy combat losses in 2006, the 
insurgency has strengthened its capabilities and influence with its 
core base of Pashtun communities. Violence this year is likely to be 
twice as high as the violence level seen in 2005. Insurgents have 
significantly increased their use of suicide operations. If a sustained 
international military and Afghan security presence throughout the 
volatile Pashtun south and east is not established alongside credible 
civil administrations, central government control over these areas will 
be substantially restricted. In 2007, insurgents are likely to sustain 
their use of more visible, aggressive, and lethal tactics in their 
continued effort to undermine the willingness of the international 
community to support military and reconstruction operations in 
Afghanistan and to highlight the weakness of the central government.
    Al Qaeda remains committed to reestablishing a fundamentalist 
Islamic government in Afghanistan and has become increasingly 
successful in defining Afghanistan as a critical battleground against 
the west and its regional allies. In 2006, although the Taliban 
continues to drive the insurgency, al Qaeda once again appears to be 
attempting to reinvigorate its operations in the country from safe-
havens in the Afghan-Pakistan border region. These efforts are 
characterized by an evolution in al Qaeda's increasingly cooperative 
relationship with insurgent networks. Without a fundamental, 
comprehensive change in the permissiveness of the border region, al 
Qaeda will remain a dangerous threat to security in Afghanistan and to 
U.S. interests around the globe.
    Since 2001, the Afghan Government has successfully established 
national-level political institutions by drafting a new constitution, 
holding a legitimate presidential election, and creating a 
democratically elected national assembly. However, local government 
institutions receive limited resources from Kabul and struggle to 
provide effective governance. The Afghan National Army and Afghan 
National Police are also struggling to promote security, particularly 
in the volatile south and east. They remain hindered by a shortage of 
skilled personnel, tribal and ethnic rivalries, and corruption. Nearly 
5 years after the Taliban's fall, many Afghans expected the situation 
to be better by now and are beginning to blame President Karzai. These 
unrealized expectations are likely contributing to an erosion of 
support for his administration. Nevertheless, President Karzai remains 
the most powerful political figure in Afghanistan and retains the 
widest body of support. He will need concrete successes in the months 
ahead to convince Afghans his administration still has momentum and to 
provide an effective counter to Taliban advances.
                               conclusion
    Mr. Chairman, Senator Levin, members of the committee, thank you 
again for the opportunity to discuss with you our assessment of the 
current security situations in Iraq and Afghanistan. Our Nation is 
engaged in a long war against terrorism and violent extremism. 
Providing support to our soldiers, sailors, airmen, and marines engaged 
in insurgencies in Iraq and Afghanistan and the global war on terrorism 
is our first priority. Thank you for your continuing support for the 
men and women of the DIA.

    Chairman Warner. Thank you very much, gentlemen, for 
excellent opening statements.
    I would start with a question and I will direct it to both 
of you. There are discussions today, and I think it is 
important that discussions be held and they are being held at 
all levels of our executive branch here today, on the very 
subjects that each of you have covered. Part of those 
discussions relates to looking at the possibility of having 
some form of negotiations with both Syria and Iran. My question 
to you is what can you advise us with respect to the viability 
of persons or an entity of government in each of those 
countries that can, in a responsible way, engage in such 
discussions should they be undertaken?
    General Hayden?
    General Hayden. Senator, that is a difficult question and 
one on which a lot of things will hinge. If I can just perhaps 
characterize what we view to be the issues in Iraq to the west 
and to the east--Syria and Iran. As I said in my opening 
statement, an awful lot of the issues in Iraq are inherent to 
the structures of Iraqi society and their history. That said, 
the problems there are made worse by activities done by Iraq's 
neighbors, particularly Iran. I mentioned specifically in my 
comment that the Iranian hand appears to be powerful and I 
would offer the view it appears to be growing. Iranian 
ambitions in Iraq seem to be expanding.
    With regard to Syria, it is sometimes hard to judge the 
distinction between incompetence and malevolence with regard to 
what goes on in Syria that may affect the situation in Iraq. 
Clearly both governments could do more. That I think is clear. 
If our dialogue with them could convince them to do more and 
convince them that their interests are not served by a 
fracturing of Iraq, then I would say that might be useful.
    Again, it is a complex question. It is fraught with other 
policy considerations. Talking to Iran about Iraq cannot be 
isolated, I believe, from the broader nuclear question. Talking 
to Syria about Iraq cannot be isolated from Lebanon, Hezbollah, 
and the Palestinian territories. So there are a lot of things 
to balance there.
    Right now, the positions of both governments are not 
useful, particularly the Iranians. But an awful lot of what is 
going on in Iraq is endemic to the circumstances in Iraq, 
Senator.
    Chairman Warner. Thank you.
    General Maples?
    General Maples. Sir, I believe that we do have a regional 
issue that needs to be addressed, and I believe that there are 
activities that are currently undertaken by both of those 
countries, Iran and Syria, that have an adverse impact on what 
we are trying to achieve in Iraq. The activities range and have 
been discussed in the past in terms of support for militias 
within Iraq and also the transiting of foreign fighters and 
members of al Qaeda. So that territory and activities that are 
conducted in those two nations are having a significant impact 
on the conflict.
    Your question was the viability of discussions with persons 
in those two countries and I believe that in both cases the 
governments of those two countries are very centralized and 
that the control of the central governments in each of those 
cases would have an ability to impact the activities going on 
within their countries and to influence the outcomes in Iraq as 
well.
    Chairman Warner. A question to both of you. I detect, and I 
am just going to speak for myself, there is a strong resolve 
both in the executive branch and Congress as we work our way 
through a matrix of options here with regard to possible 
change, substantial change in strategy. There is a resolve to 
try very hard to continue to seek the goal of enabling the 
government in Iraq to fully grow in strength and size and 
influence such that it can exercise the full range of 
sovereignty, and that includes of course their own personal 
security, of their nation.
    But should that fail despite the best attempts by ourselves 
and other nations, what would you project as being the 
consequences, General Hayden, as it relates to the region and 
indeed that part of the world?
    General Hayden. Yes, Senator. I would judge it 
catastrophic, first of all for the people of Iraq, because I 
think it would plunge them even deeper into chaos and the road 
out of it would be longer and more steep. With regard to the 
region, it would be almost as bad as it would be for the people 
of Iraq, because I think you would see a fracturing of Iraqi 
society along some of those seam lines that I suggested 
earlier. The temptation of neighbors to intervene may become 
irresistible, and, of course that could prompt other sorts of 
activity.
    With regard to us, failure in Iraq, failure to create a 
viable Iraqi state, I think would embolden the worst of our 
enemies, certainly al Qaeda. It would provide them with a safe 
haven rivaling the one they had in Afghanistan prior to October 
2001. I think it would also embolden other adversaries in the 
region, particularly Iran, whom I would suggest to you right 
now, not totally warranted, seems to be conducting a foreign 
policy with a feeling of almost dangerous triumphalism. I think 
that would make it even worse. So I do not see any happy 
outcomes that would come from our not being successful.
    Chairman Warner. You certainly did not suggest there would 
be any happy outcome. I think you very carefully summarized 
your own professional opinion.
    Now, General Maples?
    General Maples. Sir, I would make four points. The first is 
that we would embolden the jihadist movement throughout the 
world. They would see this as a victory and would move on to 
other areas that would threaten our national interest.
    The second is, it would establish Iran, I believe, as a 
regional power. That would not be in the best interest of the 
United States.
    The third is, I think there would be a great economic 
consequence potentially to this as well, most specifically from 
the threat to the production of oil and the impact that would 
have on economies.
    The fourth point I would make is that I think it would also 
bring about instability in other countries in the region.
    Chairman Warner. My last question, again to both of you. 
The most difficult challenge in many respects in the Afghan 
situation--and you indicated a decade, General, if I understood 
you, to bring about a stabilized country in terms of internal 
security such that their economy can begin to prosper and care 
for their people. But therein requires a resolution of this 
drug situation, which by any reasonable estimate is better than 
half of their gross national product, which is permeating 
throughout not only that region, the ill effects of it, but 
much of Europe, who apparently receive a lot of the drugs.
    Who is doing what, and what must be done if it is not being 
done to begin in a reasonable period of time eliminate that 
aspect of the restoration of the nation of Afghanistan?
    General Hayden. Sir, I think you characterize the problem 
quite correctly. It is a massive portion currently of the real 
GDP of Afghanistan, and unfortunately that may not be by 
explicit choice, but many people in Afghanistan are pushed into 
that as the only viable economic opportunity they might have. 
So I would suggest to a first order rebuilding the 
infrastructure and providing the people of Afghanistan with 
alternative means of livelihood, be it farming, extraction 
industries, and the like. That will require some investment on 
our part.
    I have talked to the Afghan leadership in a recent visit. 
They understand this. But it is almost the devil's own problem, 
Senator. Right now the issue is stability and a powerful anti-
drug program going into, say, Helmand Province, which is 
probably the worst province there is right now in terms of 
opium production. Going in there and attacking the drug trade 
actually feeds the instability that you want to overcome. That 
is not a reason for not doing it. It just makes it even more 
challenging.
    Senator, there are a few other notes I would add, but 
perhaps in closed session I could add some of the other 
activities.
    Chairman Warner. General Maples?
    General Maples. Sir, I would agree with General Hayden. The 
real issue is the conflict that you have in terms of the 
economics at the local level and what alternative crops, what 
alternative means of subsistence you could provide to the local 
populace. Attacking the problem directly in terms of the drug 
trade at the same time would undermine the attempt to gain 
popular support in the same regions--a real conflict, I think.
    In terms of your question, there is a program that is going 
on in terms of ground eradication and there are several 
institutions that have been put together by the government of 
Afghanistan in order to try to begin to address the drug 
problem. There are related issues, of course, associated with 
drugs. It goes into corruption, it goes into support to the 
Taliban. So there are a number of issues that are associated 
there.
    Chairman Warner. Thank you.
    Senator Levin.
    Senator Levin. Thank you.
    Chairman Warner. Senator Levin, I wonder if we might 
recognize Senator Reed to recognize a distinguished group of 
visitors we have here.
    Senator Reed. Mr. Chairman, I notice that we have some West 
Point cadets here, who are probably here----
    Senator McCain. I object. [Laughter.]
    Senator Reed.--who are probably here to observe my 
classmate, General Maples, who is a much more positive role 
model. I am pleased that you are here, and just listen to what 
General Maples says and you will learn a great deal.
    Chairman Warner. Thank you, Senator Reed.
    Senator Levin.
    Senator Levin. I wonder if you are willing to give us a 
hint as to your age, as to when you were in West Point?
    Senator Reed. When I was in West Point?
    Senator Levin. Yes, what years?
    Senator Reed. 1967 to 1971. I know General Maples looks 
much younger, but this job ages you a lot. [Laughter.]
    Senator Levin. Congratulations to you. It is great to have 
you all here, cadets.
    General Maples, you have said in your statement that 
violence in Iraq continues to increase in scope, complexity, 
and lethality, and that the Sunni Arab-based insurgency has 
gained strength and capacity. Has that been true over the last 
few months?
    General Maples. Sir, it has been true over the last few 
months. We saw in the summer the violence levels starting to 
increase substantially. We certainly saw that, and in my 
statement for the record I provided some statistics that showed 
the levels of violence that we saw, particularly in the August, 
September, and October timeframes. Post-Ramadan we have seen a 
slight decrease in the levels of violence, but we are only 
about halfway through the month right now. We are seeing a 
bigger difference this month than we did see in the last 2 
months.
    Senator Levin. What is your current assessment of the 
course that we are on? Are we on a course of success currently 
in Iraq?
    General Maples. A very difficult question because it is a 
very complex issue. There are many variables that will 
determine our success or failure in Iraq. I would say that I 
think we are making progress in terms of ISFs, which I think 
are key. But we need to empower them to a greater degree. We do 
have to disarm the militias. I think there are many areas of 
the country that we still need to gain control of, and I think 
that there are a number of problems that are associated with 
reconciliation between the parties that need to be addressed 
directly.
    So it is a very tough course ahead of us.
    Senator Levin. Can you give us an assessment as to the 
current course, as to whether or not on balance, it is leading 
upwards, sideways, or downwards?
    General Maples. Sir, I think we are making progress, but 
the progress is slow right now. I think we still have the 
opportunity for success, but it will be a very difficult 
process to get us to where we want to be, both from a security 
standpoint and from a political standpoint, in Iraq.
    Senator Levin. Is a political settlement by the Iraqis 
essential in your judgment, if failure is to be avoided in 
Iraq?
    General Maples. Absolutely. I believe that in fact the 
parties have to be brought together and it has to be a 
political approach and the government of Iraq has to be in the 
lead in doing that.
    Senator Levin. What are the pressure points on that 
government to do that? Why have they so far not reached 
settlement over resources, over power, over the militias? We 
have now had 3\1/2\ years of losses there. What can be brought 
to bear? What pressure can be brought to bear on the political 
leaders to make them carry out compromises that you just 
described they need to make?
    General Maples. Sir, I think continuing with the prime 
minister is certainly essential to this process. I think his 
recent move to realign his cabinet to bring in leaders who he 
has greater faith in, who can make a difference, is a 
substantial move forward. I believe that there are a number of 
matters related, as I mentioned, to reconciliation, in 
particular with respect to the Sunni Arab population, that need 
to be addressed.
    Senator Levin. They need to be, but what is going to press, 
what is going to produce the change in the political leadership 
to accommodate each other? They have not done it so far. They 
came up with an October 3rd agreement which was supposed to end 
the sectarian violence. They have not carried out their 
commitment to make constitutional changes, or at least consider 
them, that they were supposed to have considered long ago. What 
will change this dynamic so that their political leaders can 
make a settlement which you acknowledge is essential if we are 
going to have success in Iraq?
    General Maples. Sir, I think that is a policy decision that 
is under review right now. But very clearly I think we have to 
use probably a combination of approaches towards the leadership 
in Iraq. I think that enabling is very important. I think that 
being forceful in where we are trying to go and what we are 
trying to achieve is also very important. In that line, I 
believe that we have to make it known to the leadership in Iraq 
that there are expectations that need to be followed through 
on.
    Senator Levin. If they are not?
    General Maples. Sir, that would be a decision that would be 
reached elsewhere.
    Senator Levin. General Hayden, in your testimony you have 
indicated that since the bombing of the mosque in Samarra last 
February, violence has grown to such an extent that you assess 
sectarian violence is now the greatest threat to Iraq's 
stability in the future.
    General Hayden. Yes, sir.
    Senator Levin. Is that the current situation?
    General Hayden. Yes, sir, it is. To be clear, it is the 
greatest immediate threat and it is the one that has to be 
overcome in order for us to begin to deal with all the others I 
mentioned. I suggested one single narrative does not explain 
it. It is a really tough and complex problem.
    Senator Levin. Do you agree that a political settlement by 
the Iraqis is essential if there is going to be a chance of 
success in Iraq?
    General Hayden. Absolutely, Senator.
    Senator Levin. Do you have any assessment as to the 
direction, the current direction, as to whether it does not 
change, as to whether it leads to success or not?
    General Hayden. Clearly, as General Abizaid suggested this 
morning, the Iraqi government has to step up to some 
responsibility. I believe specifically he mentioned the army is 
gaining in capability. It needs the political leadership from 
the central government in order to carry out its tasks.
    Senator, if I could just offer one additional thought, I 
know it is commonplace to say how complex, and so on, it is. We 
are asking these individuals, these new leaders in Iraq, to 
overcome their own personal histories. You have Sunnis who have 
never been in this circumstance, Shiites who have never been in 
this circumstance, and each of them thinking the other presents 
an existential threat to them. It is going to require, as 
General Maples suggested, all the tools we have to motivate 
them to make decisions that are clearly in their best interests 
for the long-term.
    Senator Levin. My time is up. Thank you, Mr. Chairman.
    Chairman Warner. Thank you very much.
    Senator McCain.
    Senator McCain. Thank you very much.
    Thank you, Generals, for being here, and thanks for your 
outstanding service. Let me give you a couple of proposals, 
General Hayden and General Maples. One is that we announce that 
in 4 to 6 months we are going to start removing troops from 
Iraq. What do you think of that idea, General?
    General Hayden. Senator, it is difficult for me to predict 
what that means with the situation being so volatile. I would 
attach it to a strategy. As I said this morning, things are 
changing. There may be places when we should be pushing where 
we have been pulling, running when we should be walking. But I 
would not want to just say, if we change this then what else 
would happen. I would rather work it from the other way around: 
what is the effect we are trying to create?
    Senator McCain. General Maples?
    General Maples. Sir, I believe that the coalition forces 
right now are the element that is keeping Iraq together and 
that their presence is important for that factor alone. Four to 
6 months from now, I do not know. There are so many things that 
need to happen, so many things that will happen, in the next 4 
to 6 months. But the impact of removal of the forces I think 
will lead us to a greater level of violence perhaps in Iraq 
than what we are seeing now.
    General Maples. How about we partition Iraq into three 
different nation states? What do you think of that idea?
    General Maples. Sir, I think that is particularly 
problematic. In particular, I would see a problem in the 
western part of Iraq. As you partition that, the lead in the 
western part of Iraq would fall to jihadist groups. That would 
give them the base to conduct the kinds of external operations 
that they have said that they want to conduct.
    General Hayden. Senator, I do not even know how you would 
do it, given that a third of the population is in mixed urban 
areas. I just do not know how a partition could work.
    Senator McCain. You mentioned, General Hayden, as did 
General Abizaid this morning, it is time for the government to 
step up. What do we think when an American soldier is 
kidnapped, our military sets up checkpoints and barricades Sadr 
City, and then the prime minister orders us to stop that? Is 
that not a bit dispiriting?
    General Hayden. Senator, I am looking at it from a 
distance, so I do not know the tactical situation. On the face 
of it, I understand the question and I understand the response. 
We are dealing with a sovereign Iraqi government. We want them 
to step up. We want them to be independent, but independent in 
a way that expresses an Iraqi government rather than a 
government that is anchored in one of the factions.
    Senator McCain. The suspicion is that this is the case, and 
that is obviously very disturbing.
    General Maples, is Anbar Province under control?
    General Maples. No, sir, I do not believe it is.
    Senator McCain. What about Ramadi and Fallujah 
specifically?
    General Maples. I think we have greater control in those 
two cities.
    Senator McCain. But in the province in general?
    General Maples. In the province in general, I would say 
not.
    Senator McCain. How would we fix that problem, since it has 
been in and out of control four or five times in the last 3\1/
2\ years that I know of?
    General Maples. Sir, I think it is going to take a 
combination of additional security forces. I think it is going 
to take leadership out of the tribal sheiks who are in that 
province. I think we need to interdict those elements that are 
influencing activities in Anbar Province from external sources 
to Iraq.
    General Hayden. Senator, I would reinforce one point----
    Senator McCain. I am sorry, go ahead.
    General Hayden.--that General Maples brought up, and that 
is convincing the local sheiks, the local tribes, that their 
interests are not coincident with the interests of al Qaeda.
    Senator McCain. We are not doing that now, right, General 
Maples? We are not doing that now?
    General Maples. Sir, there are some efforts that are 
underway with the tribal sheiks. In fact, there have been some 
recent successes along that line.
    Senator McCain. So do you expect us to gain control of 
Anbar Province any time soon?
    General Maples. No, not over just the two successes. It is 
going to take a combination of things for us to gain the 
control.
    General Hayden. Senator, if you look at that tactic, which 
I agree with, it shows the complexity of the problem. To the 
degree you empower the tribal sheiks to do that in al Anbar, 
what have you done to the authority and the sovereignty of the 
government in Baghdad?
    Senator McCain. This of course brings me full circle, a 
sufficient number of troops. I will not belabor you with that 
any more.
    How would you describe, General Hayden and General Maples, 
today, in light of this really striking event of the kidnapping 
of 150 people in broad daylight in Baghdad today? When 
something like that happens it really is an attention-getter, 
obviously. Go ahead, General.
    General Hayden. Sir, I think one of the words I thought you 
were going to come up with was ``inexplicable.'' Our station in 
Baghdad has a strong view on this. Their view of the 
battlefield is that it is descending into smaller and smaller 
groups fighting over smaller and smaller issues, over smaller 
and smaller pieces of territory. That event could probably best 
be explained by circumstances that are well beyond our view at 
the national level. That is the product of the lack of 
governance and somewhat of the chaos that we are seeing there 
now.
    Senator McCain. Of course, the thing that is so disturbing 
is they were dressed in police uniforms apparently. Did you 
ever think about maybe just disbanding the police and using the 
military instead, instead of police? That is the case in some 
countries, where the army does all that kind of work.
    General Hayden. Sir, I do know if you just look at the 
tactical situation, we are using the Iraqi army for functions 
that are police functions in other areas.
    Senator McCain. Is it most disturbing that--I understand 
the al Qaeda effect and I appreciate both of your comments. But 
is it not most disturbing that what seems to be a rising level 
of violence, of sectarian violence?
    General Hayden. Absolutely frightening. There are 
historical forces that have been unleashed by what I referred 
to earlier, Senator, as the satanic level of violence al Qaeda 
has inflicted on particularly the Shiite population.
    Senator McCain. Another probably uninformed comment. In 
Turkey many years ago we bought up the opium crop, the poppies. 
Have we thought of that?
    General Hayden. I have not been privy to any of those 
discussions.
    General Maples. I am not aware.
    Senator McCain. Because it certainly is pervasive today and 
it could turn it into a narco-state. But a lot of us are in it 
together, that is the good news, right?
    Thank you.
    Thank you, Mr. Chairman.
    Chairman Warner. Senator Kennedy.
    Senator Kennedy. Thank you very much.
    Thank you, gentlemen, for coming. Could I ask, of those 
that are being killed out here in this violence, what percent 
of those are foreigners? General Maples or General Hayden?
    General Maples. In terms of foreign fighters?
    Senator Kennedy. Yes, the fraction.
    General Hayden. It is a small fraction, Senator.
    Senator Kennedy. I had heard figures of 2 or 3 percent. Is 
that about the figure?
    General Hayden. That is probably about--maybe slightly 
higher, but not much.
    Senator Kennedy. So the foreign fighters represent 2 or 3 
percent and the rest of those that are involved in the fighting 
are the sectarian fighters? I am just trying to get some sense 
about who is involved in these.
    General Hayden. I would agree that the rest of the fighters 
are from Iraq. Sectarian as opposed to al Qaeda may be a 
distinction that would be important to make.
    Senator Kennedy. What do you say are the 2 to 3 percent? 
Are they the leaders of the 97 percent of the rest, or are they 
foot soldiers?
    General Hayden. Two categories, Senator. A significant 
portion of the leadership of al Qaeda in Iraq is foreign and an 
overwhelming percentage of the suicide bombers are foreign, so 
they have an impact well beyond their numbers.
    Senator Kennedy. So the ones, the 2 to 3 percent, that 
includes the suicide bombers?
    General Hayden. Yes, sir.
    Senator Kennedy. So we have the suicide bombers that are 
part of it. But the rest of it therefore is the sectarian 
killings or conflict?
    General Hayden. Again, it is fighters----
    Senator Kennedy. Indigenous effectively to Iran?
    General Hayden. The fighters are from Iraq.
    Senator Kennedy. Iraq, rather, indigenous effectively to 
Iraq.
    General Hayden. Yes, sir.
    Senator Kennedy. Iraqis against Iraqis?
    General Hayden. Yes, sir.
    Senator Kennedy. Sunnis against the Shiite and the other 
groups.
    Now I am going to direct your attention to the National 
Intelligence Estimates (NIE). The last one was done on Iraq and 
was completed in July 2004, 2 years ago. August 3, the Senate 
approved an amendment that I offered with Senator Reed to the 
Department of Defense (DOD) appropriations mandating an 
updating of the NIE. This is to include the overall 
intelligence assessment. This includes the prospects for 
controlling sectarian violence, the civil war prospects, the 
ethnic, religious, and tribal divisions, the prospects to 
disarm and demobilize the militias, likelihood of the 
government success in response to the Sunnis, a wide range of 
different kinds of requirements that you are all too familiar 
with.
    On August 4, the Director of National Intelligence (DNI) 
agreed to task the Intelligence Community (IC) to prepare it. 
They had said there had been numerous developments in Iraq 
since the last NIE in mid-2004, to include three political 
transitions. DNI believes it is timely to prepare an updated 
estimate giving the options and questions concerning Iraq.
    Two days ago we received a letter from the DNI informing us 
the National Intelligence Council, working with the IC, has 
been finalizing the terms of reference for the NIE and is 
beginning, it uses the word ``beginning,'' to work on the 
report, beginning to work on it.
    Is there any way that you can explain why the IC is 
dragging its feet on a new assessment of Iraq? We have the 
President now announcing that he is going to have his own 
assessment. You have the Hamilton-Baker Commission doing its 
assessment. We have a new Secretary of Defense coming in that 
will want the best in terms of intelligence. Why is there such 
dragging of the feet effectively in developing the NIE, which 
was so important really in terms of the community and the 
policymakers' decisions about Iraq policy?
    General Hayden. Senator, I am going to go first and then I 
am sure General Maples will have a comment, because we both sit 
on the board that approves the NIEs.
    I would not, in all fairness, characterize it as dragging 
our feet. In fact, in terms of how NIEs are crafted, this one 
is more or less on a pretty fast track. I recognize the need 
for your committee, the rest of Congress, the Baker-Hamilton 
Commission, and others to have the benefit of the IC's 
thinking. That is happening in parallel. I can tell you, for 
example, that much of my remarks have been crafted on our 
participation in the working groups that are already under way 
to craft the final NIE. So although the final product, I am not 
sure when Ambassador Negroponte projected it, but if the final 
product is in January it does not mean that the thinking that 
has gone into that product will not be available, portions of 
it, a lot of it, prior to that date.
    Senator Kennedy. General Maples, anything?
    General Maples. Sir, no.
    Senator Kennedy. Just to add, these are the critical times, 
as we have been pointed out--major discussions in the Nation, 
the elections, new Secretary of Defense, the Baker-Hamilton 
Commission making recommendations, the President doing his own 
kind of assessment on this. It is against the background, as 
has been talked about in the hearing, of these seizing of the 
Department of Education.
    I returned after our hearing just at about 2 o'clock and 
turned on CNN. CNN said 50 more bodies were found, bullet-
ridden bodies, today. The Minister of Education has just 
resigned because of this, what is happening. There is a sense 
of urgency that is out there. This does provide the best in 
terms of the IC for the policymakers. To the extent that you 
can give a greater sense of urgency in the preparation of it, I 
think the country would be well-served.
    General Maples. Understand, Senator, and we certainly will. 
Our analysts are already engaged in helping to prepare that. I 
have reviewed the terms of reference as well and made suggested 
changes to that, to the terms of reference. We certainly 
understand how significant this is to the Nation.
    Senator Kennedy. Thank you very much for your service.
    Thank you, Mr. Chairman.
    Senator Inhofe [presiding]. Thank you, Senator.
    This morning I did not attend. I could not attend because I 
was chairing a hearing at the same time, and so I have more of 
my thoughts really that would be more appropriate for the first 
panel. Let me just try this on you. I think when it is 
suggested, as we have heard it suggested many times, that we 
change our strategy in Iraq and bring a lot of our troops down 
to Kuwait, have them deployed then to go back up there to put 
out fires. General Abizaid felt this would not work.
    You both agree with him on this, his answers?
    General Hayden. Yes, Senator.
    Senator Inhofe. The other thing that came up this morning--
and I was not here, but they told me about it--was the idea of 
increasing our embedding. Now, a minute ago we were talking 
about Fallujah. I had occasion to be there three or four times, 
during all the elections, I might add. When General Madhi was 
in charge there, a guy, a general who really did not like 
Americans to start with, until we started, they started their 
embedded training with the Marines--and you can remember the 
story, that he said when they rotated them out they all got 
together and cried. They became very close.
    They thought that was a very successful program. Now, that 
is kind of a model in my mind of embedded training. When you 
say you might want to increase embedded training, are you 
talking about increasing the ratio of our troops or coalition 
troops or increasing the whole numbers to get more embedded 
training?
    General Maples. Sir, I believe the proposal is to increase 
the size and the capability of our military transition teams 
that are embedded with ISFs. I do believe that that is 
important to build greater capability for the ISFs in the near-
term.
    Senator Inhofe. I agree with that. I just returned from my 
12th trip to that region and I was in, mostly in Afghanistan 
during this time, with a rather larger group. As you will 
recall, General Jones had a group of the private sector over 
there, and we went to the Provincial Reconstruction Teams to 
see what the successes are.
    General Jones has a way of showing what has happened in 
Afghanistan. I think that is very good. He uses this chart that 
hopefully some of our members up here have seen and of course 
you are very familiar with.
    [The information referred to follows:]
      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    Senator Inhofe. His observation is, and I agree, when you 
look at the tasks--he had counternarcotics--the U.K. was 
supposed to be doing that--judicial reform, that was Italy with 
the lead; disarmament, demobilization, reintegration, that was 
Japan; training police forces was Germany. But our function was 
to train the Afghan National Army (ANA).
    I would have to only give us a good grade on that. I do not 
think any of the other four pillars are being done and being 
done right. I was over there when we first turned over the 
training of the ANA to the Afghans and I saw a great deal of 
pride and I thought they were really doing the right thing.
    Do you agree on those five functions that we have done a 
pretty good job, that we are the only ones by comparison who 
have done a good job, compared to what the other nations have 
or have not done?
    General Hayden. I know our formal assessment is that the 
ANA is the best national institution in the Afghan Government.
    Senator Inhofe. I certainly think that General Jones agrees 
with that. He even made comments that really the military 
function is more over than some of the other functions.
    General Hayden, I wrote down that you said you understand 
that understanding al Qaeda is the key to defeating it. What do 
we least understand right now about al Qaeda?
    General Hayden. Actually, Senator, I think we know a lot, 
and obviously this is a work in progress and every day we 
understand it better. I think we understand the hierarchical 
structure that attacked us in 2001, and because of that we have 
attacked it and been very successful. We are building our 
understanding of what the President last October called those 
groups affiliated with al Qaeda and how they are connected. We 
now have underway--and this may be the long-term project and 
the one that is ultimately the war-winner--how do you 
understand the ``inspired by al Qaeda.'' Those are the groups 
that do not have a formal connection. You do not see the 
movement of people or money or supplies. You see the movement 
of ideas. How do you identify that and how do you counteract 
it?
    Senator Inhofe. Yes.
    General Maples, you said that Prime Minister Maliki must 
dismember the militia. I look at someone like al-Sadr and I 
would assume that is one of the major militias that he would be 
talking about. You said in your statement that they are 
confused between them and the police. How are you going to 
correct that? Maybe what was suggested by Senator McCain might 
not be a bad idea, just get rid of the police and then at least 
everybody knows. Is that something you----
    General Maples. Sir, I think there are major reforms that 
are needed in the Ministry of Interior and with the Iraqi 
police, and I think many of those actions are underway right 
now. But I think we have a significant problem with the Iraqi 
police, and as a result of that we have a problem with 
security, and local residents then turn to local groups, 
whether they be a watch or a militia, to provide that security 
and basic services for them. That is what we have to overcome.
    If the ISFs, and I think they probably are, are our best 
means to achieve that, by continuing to build their capability 
and their capacity to establish security, it will enable us to 
start having less of a reliance on watches and militias.
    Senator Inhofe. I agree with that, and that reminds me that 
on several trips over there in talking to our military as well 
as their military and some of their leaders they have stated 
that if we get to the point where we have what would be 
comparable to 10 divisions of trained and equipped ISFs, which 
would be about 325,000, that we would then be in a position to 
start looking at the possibility that they would be able to 
take care of their own security.
    I know you cannot--it is a trap to walk into something to 
say so many, it has to be a specific number and that would 
equate to 10 divisions. But we are getting close, and every 
time I go over there and I see the quality of the training is 
so much better than you hear it is on the media--do you think 
we are getting closer now to the point where in terms of shear 
numbers, if we had them trained properly that that might be 
getting close to the numbers that we need for providing their 
own security?
    General Hayden. Senator, I will defer to General Abizaid 
and General Casey for the fine print, but yes. All the metrics 
in terms of training are all headed in the right direction.
    Senator Inhofe. If we had even thought that we would be 
this close--I understand right now the number is some 312,000.
    General Hayden. Beyond the raw military capacity, these 
armed men have to think of themselves as Iraqi rather than some 
other identity, and they have to be responsive to a government 
that identifies itself as being a unity government for Iraq.
    Senator Inhofe. A couple weeks ago when I was in 
Afghanistan--Mr. Chairman, this will be my last question--there 
is this perception, this reality I guess, that al Qaeda is, 
getting back to Afghanistan, having a much larger presence 
there and they do that in terms of using their three favorite 
techniques: the improvised explosive device (IED), the rocket-
propelled grenades, and suicide bombs. They have escalated just 
rather abruptly, which leads me to believe that there is a 
greater presence.
    Some believe that a lot of those are coming actually from 
Iraq. Any military group is finally going to wear down over a 
period of time and there are several who are speculating that 
might be happening and that is why many of them are coming home 
and you are seeing a larger presence of al Qaeda in Afghanistan 
than we used to. Do you have any thoughts on that?
    General Maples. Sir, I have not seen any direct linkage to 
Iraq. We have seen from an al Qaeda standpoint increased al 
Qaeda activity, particularly in the eastern provinces, in 
Afghanistan.
    Senator Inhofe. Yes, yes, I know that is true.
    Thank you very much.
    General Hayden. Sir, I would just add that the connective 
tissue between the fight in Iraq and the fight in Afghanistan 
is al Qaeda. Although we may not see arms or individuals 
transitting from west to east, certainly the tactics and the 
lessons learned in Iraq are being applied in Afghanistan.
    Chairman Warner. Thank you.
    Senator Reed.
    Senator Reed. Thank you very much, Mr. Chairman.
    Thank you, gentlemen, for your testimony. When I was last 
in Iraq in October, I got the impression from some of our 
American commanders that the ISFs were not sharing all the 
intelligence they had with respect to the situation on the 
ground, the militias, insurgents. Is that an accurate 
assessment, General Hayden, General Maples?
    General Maples. I think we are receiving intelligence from 
the ISFs. I do not know that their intelligence systems are 
mature enough at this point that we are receiving all the 
intelligence that they could provide to us. I know that at the 
national level with my counterpart that we need to develop some 
capacity and procedures with him. In fact, I have invited him 
to come back and to work those issues with us, to see if we 
cannot develop increased intelligence-sharing.
    I think that they have a lot of information that would be 
very valuable to us. We need to establish the means of our 
forces receiving that intelligence.
    General Hayden. Senator, my relationship with my 
counterpart could serve as a model for what we want to do 
inside the Iraqi Ministry of Defense with our DOD forces. The 
sharing is direct, intimate, and immediate.
    Senator Reed. Do you have evidence of systematic ethnic 
cleansing in parts of Iraq? General Maples, General Hayden?
    General Maples. I have not seen necessarily systematic 
ethnic cleansing in that term. But I do think there have been 
directed attacks in multi-ethnic neighborhoods with an intent 
to probably drive families out of those neighborhoods. So 
whether I would categorize it as ethnic cleansing, I am not 
sure. But clearly there are attempts to gain advantage from a 
territorial standpoint as a result of the sectarian violence 
that is going on.
    Senator Reed. General Hayden, is that your impression?
    General Hayden. Yes, sir. I would not characterize it in 
such broad terms as ethnic cleansing. Clearly, at the local 
level there are attempts to move populations out of 
neighborhoods. We see that. To say that is a part of a broader 
plan of orchestrated and synchronized activity, I think that 
would be too far.
    Senator Reed. Recently in October the assembly passed 
legislation that Ambassador Satterfield pointed out would take 
18 months to go in effect, that would allow essentially super-
regionalization of the country. Do you think that is a positive 
development?
    General Hayden. All the devils are in the details with 
regard to that, Senator. I know the Shiites, many Shiites, have 
that as an idea, but even they argue among themselves. Is it 
three provinces? Is it nine provinces? And so on. We have a 
wondrous federal experiment and we still have a centralized 
government with a national identity. We cannot rule out that 
possibility in Iraq. But that is not the same as partition.
    Senator Reed. Does it not complicate things a bit when you 
see that the most successful part of Iraq is the Kurdish area, 
which is virtually autonomous, which has its own militia, the 
Peshmerga, which has been operating to provide security, which 
is economically thriving? Is it not difficult then to argue 
that you really have to have a national non-militia force, that 
you cannot rely upon this regionalization?
    General Hayden. I understand the argument quite well. 
Again, I know you are not arguing for partition, which is 
something quite different.
    Senator Reed. No, I am not.
    General Hayden. But there can be formulas that create 
different sharings of power between the national government and 
regional governments.
    Senator, I add one other thing that the Kurds had, though. 
They had more than a decade of running up to this in relative 
peace to get themselves organized for what is going on. That is 
not the Shiite or Sunni experience.
    Senator Reed. I agree with you, General. I think, though, 
that one of the conclusions that everyone reaches here, that 
ultimately this is about politics--it has been described as a 
sectarian struggle for power by General Maples. You have 
described it as an existential struggle, where Sunnis feel that 
they are going to be displaced, Shiite have been displaced. Now 
they are first, I would suggest that in these existential 
struggles it is hard to compromise, particularly within a 
generation.
    What are the objectives of the Shiites? You must make 
estimates if you want to break it down to Maliki and his 
government and Hakim and Sadr. Is it to retain power at all 
cost and suppress the Sunni? Is it to work out a better modus 
vivendi with the Sunni? What is your estimate?
    General Hayden. Senator, I am going to answer your 
question, but I want to preface it. I have asked this question. 
I have asked our station officers, and they have come back with 
a statement first of all that I will share with you: Do not 
assume a detailed rational planning process here on the part of 
any of these groups.
    Senator Reed. Been there, done that. I agree with you.
    General Hayden. The first rule, and it appears to motivate 
all Shiites no matter what the torque inside the Shiite 
movement, is to preserve Shiite unity. With Shiite unity, they 
are an absolute majority in the country. So that is one.
    The second, maybe less rational, more intuitive, is what I 
suggested to you earlier, this almost palpable fear that the 
Baathists will return. Right now it colors almost all of their 
political decisions.
    Senator Reed. General?
    General Maples. I would agree with what General Hayden 
said. It is a struggle for power, even within groups, within 
the Shiite community right now, and the struggle that we see 
going on between Sadr and the Supreme Council for Islamic 
Revolution in Iraq and who is really going to prevail on the 
Shiite side.
    I think it is on the Sunni side a lack of acceptance of 
their position in the new Iraq and a desire to return to power 
and to share in both influence and resources of Iraq.
    Senator Reed. I think both of you gentlemen have provided 
very good insights. Listening to your final points, which I 
tend to agree with, it is no wonder to me that our requests, 
our blandishments, our suggestions, that Maliki accommodate the 
Sunnis and the Sunnis who cooperate more tend to be falling on 
deaf ears, and that discussions of new arrangements for oil 
distribution and sharing fully in power, et cetera, all the 
things, and going after the militias, which seem to be their 
last sort of sense of protection in a very terrible place, 
those reports and those aspirations seem to be a bit somewhat--
well, not based on anything that you have suggested to me in 
terms of the dynamic at work in Iraq today as being realistic.
    General Hayden. Senator, I will speak for myself personally 
and let Mike add. I have met with the leadership. Like all of 
us, they are products of their personal histories. But like 
most of us, these are pretty noble individuals trying to do the 
right thing. So that is where we are.
    Chairman Warner. Thank you very much, Senator.
    Senator Sessions.
    Senator Sessions. Thank you very much, Mr. Chairman, and 
thank both of you for your service to your country and the 
countless hours you have given to this important issue for 
United States policy, world policy, and world peace.
    I will go straight to a concern I have, and I think we have 
to confront it. I think we can make real progress in this area, 
but I do not believe for some reason we are making sufficient 
progress. That deals with the arrest and release of people who 
we have evidence are connected to terrorist activities. We 
heard it in our last trip Senators Warner, Levin, Pryor, and I 
attended and we got a real passionate concern about it.
    I guess you would both agree that one of the things our 
soldiers are doing is identifying and apprehending dangerous 
people. Nothing could be more discouraging than to be 
successful in capturing someone of significance and then have 
them released prematurely. If someone in the United States were 
involved, for the bombing of that building here, that 
individual would be executed. This is a serious thing, for 
somebody to be involved in an activity in a nation that kills 
innocent men, women, and children. There is no more horrible 
crime, if the nation has a system of law.
    So when I ask about this lawfulness and the ability to 
apprehend and deal with this in this state of extremity that 
Iraq is in. Frequently people tell me we are trying to 
establish a rule of law. First, I would suggest that it is an 
unlawful society when people can be captured and bomb and kill 
and then be released prematurely. That is unlawful in itself.
    First, do you think that is a problem? If so, how can we 
improve it? What do we need to do now to get this thing moving? 
Because I have been talking about it for over 3 years. General 
Maples?
    General Maples. Sir, I will start. I believe it is a 
problem, and it is a problem that we hear from our soldiers who 
go to great efforts to apprehend individuals who are involved 
in activities, only to see them back on the streets again. We 
hear that.
    Senator Sessions. Now, is this a result of American 
procedures or Iraqi failures?
    General Maples. Largely due to, as you mentioned, the rule 
of law and having a functioning judiciary within Iraq.
    Senator Sessions. Well now, how critical is this to the 
overall success? Because I believe it was General Abizaid in 
his opening statement, or maybe the Ambassador, that indicated 
that one of the reasons for the rise in the militia is the fact 
that people do not feel safe, that somebody blows up their 
family, their neighborhood, their sect, and nobody gets 
apprehended, so now some militia are coming along and just 
killing a bunch of people in retaliation.
    Is that not kind of what we mean by sectarian violence, 
General Hayden?
    General Hayden. Yes, sir, that is it. It begets the 
circumstances you describe. For that individual, that is an 
incredibly logical decision to protect his family. 
Unfortunately, it leads to very horrible things for the society 
when most of the nation does that.
    Senator Sessions. I do not think it is that difficult to 
fix this thing. I think they need to have in Iraq some clear 
laws, if you are caught with possession of IED paraphernalia, 
that ought to be a minimum of 20 or 30 years without parole or 
death penalty if you can tie them to the event, and some clear 
laws like that. We need to treat those cases somewhat 
differently than we do an Internal Revenue Service case in the 
Southern District of New York. This is a life and death 
situation in Iraq. Making a mistake can have deadly 
consequences.
    For example, the Marine Times publication said that one 
individual known as ``The Beheader'' had been released, a known 
beheader. Another one was a bomber who had been captured, been 
active in bombing, and as a result of some period of time he 
was released. They had already found his signature back in 
another city where he was undertaking bombing again.
    How can we get this--if this is a problem, as you suggest 
it is, how can we raise this up and do something about it?
    General Hayden. Senator, I will just add to what General 
Maples said earlier. This is fundamentally an issue of 
capacity-building inside the Iraqi government--a functioning 
court system, a functioning national police and orderly 
processes.
    Senator Sessions. Let me ask you, do you think the people 
that are trying to help the Iraqis set up a functioning court 
system are focused on a model of a court system in the United 
States and are not focused on the kind of model that is 
necessary to protect innocent men, women, and children in Iraq? 
Because it is quite a different thing.
    General Maples. Sir, I am not sure the answer to that one. 
We would have to take that question and get back to you.
    [The information referred to follows:]

    The Defense Intelligence Agency has not assessed the model of a 
court system being developed in Iraq nor what model might be most 
appropriate for the Iraqi judicial system and the Iraqi people. The 
Department of Justice may be better able to address this question.

    Senator Sessions. I hope you will because it is 
discouraging to me and I think we are at a point where some 
action needs to be taken, and we need to recognize that the 
same degree of judicial protections that we provide in a non-
violent case in the United States may not be what is necessary. 
Some sort of military commission or something in which the 
central government can come in and try these people promptly, 
give them a fair trial, and if they are guilty take substantial 
severe action against them.
    General Maples. Senator, I think you are right. You also 
mentioned a very strong set of counterterrorism laws to take 
into consideration where we are in Iraq today, and that is very 
important to the Iraqi government.
    Senator Sessions. We have in the United States, if you are 
caught with an explosive device or an illegal firearm, you are 
guilty of a serious offense whether you ever used it or not. 
They could craft some laws that would make some of these 
seizures and arrests of people very easy to prosecute, I would 
think.
    Thank you, Mr. Chairman, for your time.
    Chairman Warner. Thank you, Senator Sessions.
    Senator Dayton.
    Senator Dayton. Thank you, Mr. Chairman.
    I thank both of you gentlemen for what appears to be very 
candid testimony today. Both of you, as did our previous panel, 
rejected some of the alternatives in strategy that have been 
posited. But it also seems that the conditions you described 
reflect a current strategy that needs to be rejected just as 
emphatically for the results it has produced.
    General Maples, you talk about overall attacks averaging 
180 a day in October of this year, up from 170 the previous 
month, up from 70 in January; average daily attacks on 
civilians, October four times higher than were reported in 
January; a perception--I think it is also a reality--of 
unchecked violence, creating an atmosphere of fear and 
hardening sectarianism; the Ministry of Interior and the police 
heavily infiltrated by members of al-Sadr's organization, the 
inability to realize significant improvements in the oil and 
fuel sector and electricity production, undermining the average 
Iraqi citizen's support for the central government and the 
coalition, which I concur after being in southern Iraq 2 weeks 
ago visiting with Minnesota National Guard troops. The mayor of 
al-Batha came and, while he was appreciative of what the 
Minnesota guardsmen and women had been doing to help rebuild 
his city, he said that the electricity there was less than it 
had been under Saddam Hussein's rule.
    So given the rejection of the other alternative strategies 
and given I think not only the failure but the continued 
deterioration of conditions under the existing strategy, is it 
fair to say we have no good option presently available to us or 
in the foreseeable future in Iraq? Would each of you comment on 
that, please?
    General Hayden. Senator, clearly that is what all the 
discussions are about in the multiple fora that the chairman 
mentioned. I would say, and I think it was mentioned earlier 
today and I will repeat, there are some things that have been 
going on that have been very positive. We do have a 
democratically elected government in Iraq. We have a 
functioning constitution. We have functioning organs of 
government at the national level--the prime ministership, the 
presidency, and a council of representatives. We have armed 
forces that are building both in numbers and capacity. Some of 
the things we have been doing to create the circumstances, the 
conditions for success, are correct.
    I do not think any of us are pleased with where we are now. 
I think all of us are concerned by many of the metrics by which 
we would measure ultimate success and hence the time now for 
this serious look, this serious reassessment, what is working, 
what is not, how we must adjust. The burden on General Maples' 
organization and my organization is to bring to each of these 
discussions the clearest possible view of the situation. I 
tried to emphasize in my comments today: not just the current 
situation. This reality has a history and we need to understand 
that as well if we are going to be successful.
    I think someone suggested earlier we have to find the right 
leverage points.
    Senator Dayton. Thank you.
    General?
    General Maples. Sir, I do believe that we still have 
opportunities to stabilize the situation in Iraq and to move 
forward. As General Hayden says, our responsibility is to try 
to present as clear a picture as we can of what our assessment 
is of the conditions in Iraq, the dynamics that are in Iraq, 
and also most importantly to identify opportunities. I think 
that that is particularly important for us to do as we go 
through strategy reviews that we are going through right now.
    Senator Dayton. General Hayden, a week ago in the 
Washington Post, David Ignatius wrote what was actually a very 
complimentary article overall about your leadership, and I 
thank you for that. He does say, however, that, referring to 
Baghdad, the CIA station there, he says: ``Younger CIA officers 
are said to be frustrated with the cautious approach as they 
watch U.S. soldiers fighting and dying and see Iraq slipping 
away.''
    Is that an accurate statement about the perceptions of 
younger CIA officers in Iraq, whether you agree with it or not? 
Do they see Iraq slipping away?
    General Hayden. I can give you a more detailed answer in 
closed session.
    Senator Dayton. All right, I will take that.
    General Hayden. I have visited with our folks. I have 
talked to our analysts. I have reflected their views in my 
comments here. But I can go into greater detail, Senator, in 
closed session.
    Senator Dayton. All right, let us leave it at that. That is 
fine. Thank you.
    On to Afghanistan. There again, both of you have described 
a mixed situation, but one where the insurgency, General 
Maples, you say has strengthened its capabilities and 
influence, the violence is likely to be twice as high this year 
as in 2005. You reflect the strength of the illicit economy 
there and the lack of sufficient options in the licit economy. 
I remember meeting with President Karzai shortly after he took 
office in January 2002 and he pleaded with us, a group, a 
bipartisan group of Senators, for sufficient international 
financial support to enable him to make the progress necessary. 
He described the lack of funding for local government leaders 
to be able to show progress.
    In your assessment, has the international community, while 
it has been forthcoming, provided sufficient resources? Are 
more international financial resources necessary to enable him 
to be successful? Either of you?
    General Hayden. Clearly the NATO troop contribution, 
particularly the major troop contributing nations, have taken 
on something, frankly, out of the historical norm for NATO. If 
you have talked to General Jones you understand all the work 
that went into getting national capitals to agree to that. 
There are NATO soldiers now dying and being wounded in areas of 
Afghanistan that we have not been for a long time, and that is 
one of the causes for the increased fighting and the increased 
casualties. They are establishing a presence in districts where 
neither the government nor the coalition have been for years. 
So that clearly deserves credit where credit is due.
    You are right about what President Karzai says. I think he 
has the right objectives. I think he has the right concept and 
he desperately needs assistance in order to build that capacity 
outside of Kabul, outside of the national government, at the 
province and district level, so that his government has a 
presence everywhere it needs to have a presence.
    He has the will. He has the support. He needs assistance to 
do it, though.
    Senator Dayton. Mr. Chairman, my time has expired. Thank 
you.
    Chairman Warner. Senator Graham.
    Senator Graham. Thank you.
    I would like to pick up on what Senator Sessions was 
talking about. I could not agree more. Until there is some 
downside to getting involved in killing Americans and 
disrupting this emerging democracy, people are going to 
continue to do so, and we have to create downsides that are 
well known and severe.
    But let us start with Afghanistan. General Hayden, have you 
talked to the attorney general in Afghanistan personally?
    General Hayden. With the attorney general of Afghanistan?
    Senator Graham. Yes.
    General Hayden. No, Senator, I have not.
    Senator Graham. Would you do me a favor and try to have 
yourself or some senior member of your organization visit him, 
because once you visit him, you are overwhelmed with the level 
of alleged corruption, that the institutions of government over 
there are corrupt to the core because of the drug money and 
this man is swimming upstream. The average prosecutor in 
Afghanistan makes $90 a month.
    General Hayden. I have not met the attorney general. I have 
met with President Karzai and other senior members on the 
security side. The president is quite clear he recognizes that 
problem as well. We have a senior leader of the agency who will 
be there next week and we will make sure he talks to him.
    Senator Graham. The attorney general will tell you that 
part of the problem is President Karzai. So I do appreciate 
your talking with him. But he suggested that $250 a month could 
really transform things. I do appreciate your visiting and 
getting back with me.
    About Iraq, what is the total number, give or take 5,000, 
of the insurgency foreign fighters?
    General Maples. Sir, the number I have is about 1,300 
foreign fighters in Iraq right now.
    Senator Graham. Okay. How many people in Iraq?
    General Hayden. More or less, 25 million or so.
    Senator Graham. So you have 25 million people, you have 
1,300 foreign fighters, give or take a few hundred. How many 
native insurgents are there that take up arms and kill people?
    General Hayden. Insurgents, that is a term of art for us. 
That would largely mean----
    Senator Graham. People who are trying to defeat democracy, 
yes.
    General Hayden. Now you are widening the circle. If you use 
insurgents, those who are opposed to the coalition presence--
what do you think, Mike?
    General Maples. It depends on how we count the militias as 
a part of all this.
    Senator Graham. People who are using violence to disrupt 
progress in Iraq.
    General Hayden. If that is your definition, Senator, it is 
tens of thousands.
    Senator Graham. How many?
    General Hayden. Tens of thousands.
    Senator Graham. Tens of thousands? 100,000?
    General Hayden. Again, Senator, I am sorry. I do not mean 
to dodge the question. But what portion of Jaysh al-Mahdi, the 
militia under Sadr, is under his control and therefore on a 
particular given day not attacking us; what are not and are out 
of control and are in essence lawless--that is why I think 
General Maples and I are a little reluctant to give a firm 
number.
    If you are talking about the insurgents in Anbar, those who 
are opposed to the allied presence, largely the Sunni, low five 
figures is the number I would give you. I am not trying to 
dodge you. I just do not----
    Senator Graham. What number did you pick?
    General Hayden. 10,000 or so.
    Senator Graham. 10,000.
    General Hayden. That is a pretty wide circle, people who 
are mad at us. That is not full-time fighters.
    Senator Graham. So less than 20,000 between them and the 
foreign fighters. Now, on the Shiite side, how many people are 
the problem in terms of using violence? We do not know, have no 
idea?
    General Maples. It is difficult to say. I would say that in 
terms of active within the militias you have probably a range 
of 20,000 to 30,000 if you combine all of that. But you have 
many more who are involved in the support mechanisms and 
providing support to both militia and to the insurgents as 
well, on the Sunni side as well.
    Senator Graham. Okay. What percentage of the Iraqi people 
buy into our view of Iraq being a democratic functioning 
government?
    General Hayden. That is hard to estimate, Senator. I am 
sorry.
    Senator Graham. Is it a majority?
    General Hayden. I think a majority of the people of Iraq, 
an overwhelming majority of the people of Iraq, want to live in 
a pluralistic society, want to live in a unified Iraq, want to 
live in a peaceful Iraq.
    Senator Graham. So a majority, overwhelming majority of 
people, share the goal of a unified Iraq, not a partitioned 
Iraq.
    General Hayden. Unified, pluralistic, and peaceful.
    Senator Graham. Why are they not doing better?
    General Hayden. That is a wonderful question, Senator. Tom 
Friedman asked that question in an article in the New York 
Times 2 or 3 weeks back. He talked about the absence of the 
center. The longer this goes on, the less controlled the 
violence is. The more the violence devolves down to the 
neighborhood level, the center disappears and normal people 
acting not irrationally end up acting like extremists.
    Senator Graham. Finally, would you agree that there are 
three groups in Iraq. There is a small minority who have taken 
up arms for religious or ethnic purposes to destabilize the 
government. Some of them are foreign in nature. The second 
group are very brave people who are volunteering to be the 
judges and the lawyers and they are getting assassinated. The 
third group is the overwhelming majority who are keeping their 
powder dry because they are afraid to come forward. Is that 
fair?
    General Maples. Sir, I think that is probably a pretty fair 
statement. I think there are a relatively small number who are 
actively engaged in the conflict. I think you are exactly 
right, there is a small number that is trying to provide the 
leadership and bring the country together.
    Senator Graham. Why do we not as a nation throw everything 
in the world that we have at this small group so that the 
majority will come forward? Why are we treating this in such a 
police action fashion if it is indeed the central battlefront 
on the war on terror that will dictate the region for years to 
come and humanity as we know it? Why are we having this stupid 
debate about number of troops if we do believe that it is the 
central battlefront in the war on terror and bring aid to the 
people who are trying to fight and change Iraq? Why are we 
stuck on a troop level that is not working?
    General Hayden. Sir, obviously--and I think General Maples 
has said the same thing--that is a policy question, not exactly 
in either of our job descriptions.
    Senator Graham. What is your advice?
    General Hayden. I would offer the view that, again as I 
tried to state in my opening comments, a lot of the issues here 
are driven by deep historical forces that have been unleashed 
by the toppling of the Saddam regime. At the end of the day, 
Senator, this has to be won by the Iraqis.
    Senator Graham. Is it your advice as CIA Director that this 
is the central battlefront in the war on terror?
    General Hayden. Our enemy believes it to be so and has said 
so.
    Senator Graham. Do you believe it to be so?
    General Hayden. It is an absolutely critical battlefront in 
the war on terror.
    Senator Graham. Would it be your advice to this committee 
to throw everything this Nation has into winning this battle?
    General Hayden. I would advise the committee to do 
everything within our power to use our power wisely to win this 
battle. Again, Senator, what I was trying to articulate before: 
At the end of the day, an American face will not be present on 
victory here. It must be an Iraqi face.
    Senator Graham. Thank you.
    Chairman Warner. Senator Lieberman, would you indulge me?
    Senator Lieberman. Of course.
    Chairman Warner. I think we should also explore--that is a 
very important line of questions. Time and time again we are 
told by well-informed witnesses that the presence of U.S. 
troops engenders a lot of the fighting, and if we are to 
increase the numbers the perception is we are there to stay, we 
are there to be permanent conquerors or however they want to do 
it, and this could begin to increase the numbers of the persons 
antagonistic against us.
    Is that not part of the equation of thinking that has to be 
looked at in the context of raising our troop level?
    General Hayden. Senator, earlier I said not one narrative 
explains the war, and it depends on which narrative you want to 
lay out as to how much our troop presence generates opposition. 
For that one narrative about opposition to foreign occupation, 
which has been a powerful narrative, an American face on 
security carries with it its own costs and its own 
countervailing pressures.
    I would also say that the American presence there gives 
life to al Qaeda propaganda that they misuse and misrepresent 
to the larger Arab world. The more they can put an American 
face on the activity in Iraq, the more they are served by it.
    General Maples. Sir, I think it is a valid point in some 
factions that the U.S. presence is the issue that they are 
trying to deal with, and removing the coalition is exactly what 
they would like to achieve, but not for the same purposes that 
we want to achieve it. Their purpose in removing the coalition 
is to enable their own objectives, and here I largely refer to 
al Qaeda in Iraq. I think in some cases the Shiite, that is the 
case also, so they can further their own goals.
    General Hayden. What has happened, Senator, in the last 6 
to 10 months--and I heard this alluded to this morning--is that 
you had that violence there that was generated by al Qaeda. You 
had that violence there that was generated by just opposition 
to our presence. That has remained. That has not gone away. 
What has been added to it is the Iraqi on Iraqi violence that 
the sectarian divisions have created, and hence my comment 
earlier, not one plot line describes this.
    Chairman Warner. Thank you, Senator.
    Senator Lieberman. Thanks.
    Senator Levin. Would my good friend yield for one 
additional question? You have been very generous.
    Senator Lieberman. In the spirit of bipartisanship that I 
espouse, how could I say no? [Laughter.]
    Senator Levin. Just a comment also on Senator Graham. You 
have both testified, have you not, that a political settlement 
is the only way to achieve success, a political settlement 
between the Iraqi factions is the only way to achieve success 
in Iraq? Have you not testified to that?
    General Hayden. Senator, that is absolutely correct. I will 
add one caveat. Without sanding off the edges----
    Senator Levin. Add all the caveats you want.
    General Hayden.--you put on there, there is a certain level 
of security required to create the conditions for a political 
settlement.
    Senator Levin. I understand that.
    General Hayden. Yes, sir.
    Senator Levin. With that one condition, that a political 
settlement is essential, it is the key to a success in Iraq?
    General Maples. I agree.
    General Hayden. I agree.
    Senator Levin. I thank our friend, who always espouses what 
we all aspire to, which is bipartisanship.
    Chairman Warner. The chair will very generously give you an 
added minute.
    Senator Lieberman.
    Senator Lieberman. Thank you, sir. You have a big heart.
    Thank you. This series of discussions, Senator Graham, 
Senator Warner, Senator Levin, has been most interesting. I 
appreciate your answer because obviously this will not be 
solved without an Iraqi political settlement, but if there is 
no security there will never be a political settlement, nor 
will the economy have an opportunity to rebound. So it has to 
be all of that together.
    These are tough questions--I was thinking about it--because 
in one sense we do hear, as you said, that the presence of 
American forces makes some Iraqis angry. But on the other hand, 
General Hayden, how are we going to get that center to come 
together and stand up against the extremists if there is no 
security? Right now I think we are critical to that security, 
because the Iraqis cannot handle it on their own.
    I did want to ask in that regard--incidentally, I thought 
you were both very compelling in response to Chairman Warner's 
initial questioning, I believe, about the consequences of a 
failure in Iraq for us. We have a lot on the line here. So we 
tried to talk a little bit about how do we succeed. I believe 
you both indicated that you felt that the military transition 
teams, that is the Americans embedded with the ISFs, were one 
of the most successful things happening there now in terms of 
our involvement. Am I right about that?
    General Hayden. Yes, sir.
    Senator Lieberman. General Abizaid said that today, too. 
Therefore would it be fair to assume that--and we talked about 
this today, too--that the more that we can do, the more likely 
we are sooner to get the Iraqis to a point where they can take 
over from us on the security front and we can begin to lessen 
the number of American troops we have there?
    From an intelligence point of view--I am not trying to get 
you into policy here--I do not see how we can increase the 
number of American troops embedded with the ISFs, which seems 
to be working now, without increasing the total number of 
American forces in Iraq, because if we are taking them from 
elsewhere is that not going to leave that elsewhere, like Anbar 
Province, subject to catastrophe or at least chaos?
    In other words, based on intelligence, on that question, 
the narrow question of increasing the number of American troops 
embedded, would you say we need more American troops there?
    General Maples. Sir, it really depends on the analysis by 
the command of the troop-to-task ratio that they have to have. 
They have to lay out the tasks they have to accomplish and how 
many troops will be required to successfully accomplish those 
tasks.
    Senator Lieberman. I understand, you are not prepared to 
answer.
    General Maples. Senator, I am reluctant, but I will give 
you perhaps a factor that will be used, that is very important. 
As you do that, you actually increase the combat power of the 
Iraqi unit that you have stiffened, so to speak, with the U.S. 
presence.
    Senator Lieberman. Exactly.
    General Maples. So you may actually be able to buy a great 
deal more of combat power and buy down the political cost of 
our presence.
    Senator Lieberman. Exactly, because our troops are in those 
cases within the Iraqi forces and they become a force 
multiplier for the Iraqis. We will come back to that.
    I want to ask you about Iran, because you both talked about 
Iranian activities in Iraq being significant and growing. Can 
you talk a little bit more about that? What are they doing? How 
many Iranians would you say are in Iraq now and what are they 
up to?
    General Hayden. Sir, I can give you more details in closed 
session. There is a significant Iranian presence in Iraq. I do 
not want in any way to say that all of that is in any way 
illegitimate. Much of that would be the presence that any 
neighboring state with interests in Iraq would have. But as 
time has gone on, the amount of Iranian involvement with the 
Shiite militias of all stripes, which has been quite a new 
development, the provision to them--let me just say this in a 
general way--the provision to them of capabilities that have 
been used against the coalition has been quite striking.
    I will admit personally, Senator, that I have come late to 
this conclusion, but I now have all the zeal of a convert as to 
the ill effect that the Iranians are having on the situation in 
Iraq.
    Senator Lieberman. Yes, absolutely. I appreciate your 
saying that. I would like to go into it further in closed 
session.
    Let me give you a statement and then ask you both to 
respond to it, which is that in Iraq, Iran has absolutely the 
opposite goals that we have. Our goal is to help the Iraqis 
form a free, unified, stable, multi-ethnic government. The 
Iranians want just the opposite. They benefit from the chaos 
now and in fact if the whole thing fell apart they would 
probably come in, either directly or through the Shiite 
militias, and control a big part of Iraq.
    True or false?
    General Hayden. Tough, tough question for an Iranian 
policymaker. The chaos there aids and abets them in their 
broader ``relationship,'' that word in quotes, with the United 
States. Their perception is it punishes us, it ties us down, it 
makes us less capable of doing other things. That is their 
perception, I believe.
    On the other hand, I can see this happening in the Iranian 
equivalent of our National Security Council, Senator. On the 
other hand, I do not think they want Iraq to fracture. I think 
they want it to be unified. A democratic Iraq will be an Iraq 
in which the Shiite have a reasonably strong voice.
    Senator Lieberman. This is a really interesting question, 
because I guess the question is, because we know that Iraqi 
Shiites are different from the Iranian Shiites. Obviously the 
Iranians are Persians, the Iraqis are Arabs, but they have a 
theological difference, too. So would they really want a 
unified democratic, presumably pro-American, Iraq? I ask all 
these questions and I am going to ask you to respond, General 
Maples, because I am concerned as we begin to raise the 
possibility of talking directly with Iran about Iraq, because I 
think I worry that we have very different ambitions there, very 
different goals.
    It is one thing to talk to the other Sunni Arab countries 
to play a larger role--the Saudis, the Egyptians, the 
Jordanians, the Gulf countries--because they have similar and 
in fact anti-Iranian views, General, but I never would hesitate 
to talk to anybody because, thank God, we are a strong enough 
country to talk. But I would be real skeptical about anything 
good coming out of the talks with the Iranians, particularly 
now after the Europeans have spent 3 years negotiating with 
them on their nuclear program and they have not done anything.
    You had a great phrase. It was a ``triumphal''--what did 
you call it?
    General Hayden. ``Dangerous triumphalism.''
    Senator Lieberman. The Iranians are beginning to show a 
dangerous triumphalism about their role in the Middle East. 
They are beginning to think of themselves as dislodging us, and 
that is bad news for the region and for the world, and of 
course for us.
    General Maples, did you want to respond, and then my time 
is up.
    General Maples. Sir, our assessment is that Iran would like 
to have a stable government in Iraq, but they clearly want it 
to be Shiite-led.
    Senator Lieberman. Thank you.
    Thanks, Mr. Chairman.
    Chairman Warner. Do you have a question, Senator Levin? I 
thought I would ask just one.
    I was particularly struck with your observation that the 
de-Baathification, or exactly how you phrased it, is still a 
very formidable deep concern among the Iraqi people, which 
contributes to their insecurity and their fear to step forward 
as individual citizens and try and take more responsibility in 
their neighborhood and other foras. Am I correct in that?
    General Hayden. Sir, I think what you are saying is that I 
would say the course of de-Baathification is a current, vibrant 
issue for the present government.
    Chairman Warner. Do you concur in that? General?
    General Maples. I do, sir. I think the fear is a return of 
the Baathists to power. On the other side, the fact that the 
former Baathists are disenfranchised and have no ability to 
contribute is an issue on the Sunni side.
    Chairman Warner. Let me ask this question. Assuming that--
and in no way do I infer by the question that any measure of 
due process should be denied Saddam Hussein. But we have 
followed this rather extraordinary exercise of their concept of 
due process. A sentence of death has been pronounced. 
Presumably the appellate process and other things will take 
place.
    If after the flow of due process in an orderly way he is 
hung or otherwise put to death, would that help alleviate this 
serious problem of fear that the Baathists might return?
    General Hayden. I cannot rule out that it could, Senator. I 
will say that the capture of Saddam--at that time, if you 
recall, the issue there was Sunni violence. It was far less of 
Shiite violence. It was all the provocations from al Qaeda and 
so on. The capture of Saddam did not in and of itself reduce 
Sunni violence at that time. So I would say perhaps it is a 
possibility, but not a sure thing certainly.
    Chairman Warner. Do you have any views, General?
    General Maples. Sir, I would expect that, particularly from 
a Shiite viewpoint, right now that carrying out a sentence 
would probably not eliminate the fear of a return of Baathists 
to control of Iraq.
    Chairman Warner. Thank you very much.
    Gentlemen, we have had an excellent hearing. We will now go 
into closed session in SH-219. We are adjourned.
    [Questions for the record with answers supplied follow:]
               Question Submitted by Senator John Ensign
                              counterdrug
    1. Senator Ensign. Lieutenant General Maples and General Hayden, 
given the many problems in Afghanistan associated with the cultivation 
of poppies there, would it be worth instituting a program similar to 
what the U.S. did in Turkey in the 1980s whereby we purchased the 
poppies to keep them off the open market? Please elaborate on the pros 
and cons of undertaking such a program for Afghanistan.
    General Maples. Widespread poppy cultivation in Afghanistan remains 
a difficult problem for the Afghan Government and the international 
community. DIA judges a program of purchasing opium to keep it off the 
open market ultimately would likely increase rather than reduce the 
amount of illicit opium available for the drug trade.
    Supporters of a program to buy opium from farmers at farm-gate 
prices (the price paid to farmers at the time of harvest) argue all of 
the opium could be purchased for the amount spent to eradicate less 
than a tenth of the 2006 poppy crop. These supporters also believe 
Afghanistan would be competitive with other countries in producing 
licit opium for the pharmaceutical industry. In addition, supporters 
argue the poppy crop could be more easily reduced if it were regulated; 
noting those farmers with cultivation permits would not defend illicit 
producers.
    DIA assesses a farmer compensation program would be very costly for 
donors and the licit opium market. The program would be difficult to 
enforce owing to geography, instability, and corruption and it would 
encourage farmers to expand cultivation.

         Buying all of Afghanistan's illicit opium would require a 
        major financial investment. The United Nations estimates the 
        farm-gate value of Afghanistan's 2006 opium production to be 
        $760 million. Unless international donors are willing to 
        subsidize an expensive annual program to purchase and destroy 
        the entire crop, a compensation program of this magnitude could 
        be financed only through licit sales of pharmaceutical opiates. 
        The influx of additional opium most likely would flood the 
        medical market, which probably is not flexible enough to 
        accommodate Afghanistan's production while competing with 
        prices drug traffickers offer.
         Afghanistan's geographically dispersed poppy cultivation and 
        labor-intensive harvesting process would complicate efforts to 
        prevent diversion of licit opium to higher paying drug markets. 
        A lack of government security forces and insurgent influence in 
        areas of elevated opium production would impede access to 
        farmers. Widespread official corruption would also hinder 
        efforts to regulate the industry.
         Creation of a compensation program would provide a strong 
        incentive for many new farmers to begin planting poppies and 
        for many existing poppy farmers to increase their cultivation 
        because poppies still would be much more profitable than other 
        licit crops. Afghan farmers could substantially expand poppy 
        cultivation beyond the 3 percent of arable land currently used, 
        thereby increasing the cost of compensation.

    General Hayden. [Deleted.]
                                 ______
                                 
             Questions Submitted by Senator Daniel K. Akaka
                              afghanistan
    2. Senator Akaka. Lieutenant General Maples, I understand that we 
are losing ground in Afghanistan. Moreover, the Taliban is gaining more 
influence and authority while Karzai's government is losing the hearts 
and minds of the people. What efforts are being done to address this 
matter?
    General Maples. The Afghan Government and the international 
community have made efforts to address the threat posed by declining 
popular support for President Karzai's administration. DIA judges root 
causes of decreasing support for the central government include fear of 
a resurgent Taliban, doubts that the Afghan Government can defend 
against this threat, concerns about endemic government corruption, the 
slow pace of reconstruction, and the lack of economic opportunities. 
The international community and the Afghan Government are addressing 
each of these factors.

        <bullet>Efforts to Improve Security. With the support of other 
        members of the international community, the United States is 
        training and equipping the Afghan National Army as well as 
        other elements of the Afghan national security forces. However, 
        these forces remain challenged by resource shortages, high 
        attrition rates, corruption, and tense relations among security 
        forces. NATO's International Security Assistance Force also 
        conducted a series of counterinsurgency operations this year 
        aimed at denying insurgents safe-haven and freedom of movement 
        in southern and eastern Afghanistan. Gains made this summer and 
        fall, however, have largely been offset by robust insurgent 
        recruitment and propaganda efforts.
        <bullet>Efforts to Improve Governance. The Attorney General of 
        Afghanistan is in the process of conducting a campaign aimed at 
        addressing corruption within the government. DIA believes this 
        campaign will help restore some confidence in the legitimacy of 
        the administration. In addition, President Karzai has taken 
        steps to replace corrupt or ineffective governors, including 
        reassigning the former Governor of Herat, Ismail Khan, whom 
        many saw as a divisive figure. However, this effort remains 
        limited by the lack of educated, capable, and trustworthy 
        political leaders.
        <bullet>Development and Reconstruction Efforts. The United States, 
        with support from the international community and 
        nongovernmental organizations, has worked to extend 
        reconstruction and development assistance to garner popular 
        support. This includes establishing provincial reconstruction 
        teams that engage with the local people to provide development 
        projects: paving of the Ring Road around Afghanistan and 
        numerous community aid projects. Unfortunately, the unstable 
        security situation, particularly in the south and southeast, 
        has slowed some of these efforts. Finally, the U.S. Agency for 
        International Development's Alternative Livelihoods Program, 
        designed to accelerate economic growth in Afghanistan's 
        principal poppy-producing provinces and at-risk areas, has 
        shown progress in irrigation development, road construction, 
        cash-for-work, and agricultural assistance. Despite these 
        efforts, the continued dearth of alternative economic 
        opportunities may have contributed to record poppy cultivation 
        in 2006.

                           iraqi death squads
    3. Senator Akaka. Lieutenant General Maples, did our efforts to 
train Iraqi personnel as law enforcement and military create recruits 
for the death squads that have been tormenting many Iraqi communities?
    General Maples. [Deleted.]

    [Whereupon, at 4:35 p.m., the committee adjourned.]

                                 <all>

</pre></body></html>
